<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                         WEDNESDAY, MAY 5, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens and Inouye.

                       NONDEPARTMENTAL WITNESSES

STATEMENT OF SUE SCHWARTZ, R.N., CHAIRPERSON, HEALTH 
            CARE COMMITTEE, THE MILITARY COALITION

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Good morning. We do welcome all of you to 
our public witness hearing. There are 24 witnesses today who 
have indicated each of them wishes to testify or submit a 
statement for the record. To keep us on schedule, 
unfortunately, I must ask that you limit your testimony to not 
more than 4 minutes. We are in session. We are going into 
session now, and we will have votes today.
    We appreciate your interest and want you to know that we do 
carefully review each item that you do present to us. Your 
prepared statements are included in the record already. We ask 
that you summarize those statements.
    As soon as my good friend, Senator Inouye, arrives, we will 
see if he has an opening statement. I do not think he does. But 
why do we not proceed with our first witness and allow my 
friend to make such statements he wants to make.
    The first witness is Sue Schwartz, a registered nurse, and 
Chairperson of the Coalition's Health Care Committee of the 
Military Coalition. Welcome, Ms. Schwartz.
    Ms. Schwartz. Good morning, Mr. Chairman.
    Mr. Chairman and distinguished members of the subcommittee, 
thank you for the opportunity to address you today concerning 
the Military Coalition's views on funding for the defense 
personnel programs. I want to reiterate our deep appreciation 
to the entire subcommittee for the role you played in the 
development of a wide range of landmark health care initiatives 
over the past few years, particularly for Medicare eligibles 
and active duty families. On behalf of our grateful members, we 
say thank you for the leadership your subcommittee gave last 
year directing the Department of Defense (DOD) to take specific 
action to address chronic access problems for TRICARE Standard 
and to begin to address health care needs for the selected 
Reserve.
    We ask the subcommittee's continued emphasis to ensure that 
these enhancements are not only successfully implemented, but 
adequately funded as well.
    DOD officials speak of funding shortfalls in the out-years, 
but there are current problems as well. Bases are turning 
retirees away from their pharmacies, saying this is due to 
budget cuts. In many instances, a retiree or any beneficiary 
may only get a 30-day supply of medication from the military 
pharmacy instead of the usual 90-day supply.
    To control costs, some military pharmacies cut back on 
expensive drugs not on the basic core formulary. Beneficiaries 
then turn to the retail pharmacy to get those medications where 
funds come out of a different pot of money. When funds get 
tighter, it becomes harder to get an appointment. Pharmacy and 
clinic hours get cut. Prime access standards are not met. 
Sometimes beneficiaries are told the schedule is not ready, 
call back in a week, and the queue starts to build.
    Last year the Office of Management and Budget (OMB) 
considered increasing retiree pharmacy cost share 
significantly, even going so far as to propose charging 
retirees for medications obtained in military pharmacies. In a 
memo dated March 26, the United States (U.S.) Army Command 
states there is a significant funding shortfall in their annual 
funding of $250 million to support the war. Many command 
activities have budget execution rates that cannot be sustained 
within current funded levels.
    We ask the subcommittee's continued support in 
appropriating sufficient amounts for the direct and purchased 
care systems so that the defense health program (DHP) budget 
does not have to be balanced on the back of beneficiaries.
    In the last session of Congress, you took the first steps 
to extend to the Guard and Reserve additional TRICARE coverage 
before and after mobilization and to provide TRICARE on a cost-
share basis for members without access to employer-sponsored 
health care.
    Mr. Chairman, some disturbing news is 6 months have passed 
and DOD has not implemented all these provisions. The Defense 
Department cannot tell us if or when it will be able to 
implement access to TRICARE on a cost-share basis for those 
reservists without health insurance. These programs are 
temporary and the clock is ticking. The authority and funding 
for this legislation expires at the end of the year, but the 
call-ups will not. How can we expect to have a valid test when 
time is running out?
    The coalition urges you to send a strong message that 
health care for the Guard and Reserve and their family members 
is a priority. We ask you to take steps to fully fund the 
permanent expansion of these TRICARE benefits for the Guard and 
Reserve components pre-and post-mobilization. The coalition 
believes we need to enhance health care for the Guard and 
Reserve families because it is a readiness issue. It is a 
quality of life issue to provide affordable health care to 
Reserve families. It will stimulate recruiting and retention 
efforts, and it gives employers of mobilized members financial 
incentives. Dependence on Guard and Reserve personnel will not 
decrease and most likely will grow. Making these health care 
enhancements permanent and fully funded demonstrates that we 
appreciate the service and sacrifice of our citizen soldiers 
and their families.
    We deeply appreciate the subcommittee's ongoing leadership 
and commitment to those who are in uniform today and those who 
have served our Nation in the past.
    I look forward to answering your questions. Thank you. 
Senator Stevens: Is it your position they have not yet covered 
those who have actually been mobilized or those who are being 
demobilized?
    Ms. Schwartz. Sir, the section 702, 703, and 704 of last 
year's National Defense Authorization Act--only section 704 has 
been fully implemented which is the extension of the 
transitional assistance medical program (TAMP), which is the 
temporary extension of benefits post-mobilization. The other 
two sections have not been implemented.
    Senator Stevens. As I understand, it is a very difficult 
thing to do. We will look into it, though, but I did look into 
it a little bit, and it is extremely difficult to do without 
providing a disincentive to employers to maintain health 
insurance for their people who are also members of the Guard 
and Reserve. I thank you for your statement. We are continuing 
to look at that.
    Ms. Schwartz. Thank you, Mr. Chairman. There are no simple 
answers. I appreciate your support.
    Senator Stevens. Thank you.
    [The statement follows:]
                   Prepared Statement of Sue Schwartz
                           executive summary
Active Force Issues
    Personnel Strengths and Operations Tempo.--The Military Coalition 
strongly recommends restoration of Service end strengths to sustain the 
long-term global war on terrorism and fulfill national military 
strategy. The Coalition supports increases in recruiting resources as 
necessary to meet this requirement. The Coalition urges the 
Subcommittee to consider all possible manpower options to ease 
operational stresses on active, Guard and Reserve personnel.
    Commissaries.--The Military Coalition opposes all privatization and 
variable-pricing initiatives and strongly supports full or even 
enhanced funding of the commissary subsidy to sustain the current level 
of service for all patrons, including Guard and Reserve personnel and 
their families.
    Family Readiness and Support.--The Military Coalition urges funding 
for improved family readiness through education and outreach programs 
and increased childcare availability for servicemembers and their 
families and associated support structure to assist families left 
behind during deployments of active duty, Guard and Reserve members.
Retirement Issues
    Combat Related Special Compensation Claims Processing.--The 
Military Coalition urges Subcommittee leaders and members to ensure 
that DOD has sufficient funding to provide adequate resources for the 
timely processing of combat related special compensation claims.
Guard And Reserve Issues
    Selected Reserve Montgomery GI Bill Improvements.--The Military 
Coalition recommends funding to raise SR-MGIB benefit levels to 47 
percent of the active duty MGIB rate and support to allow reservists 
who serve non-consecutive tours of 24 months or more active duty within 
a five-year period to enroll in the active duty MGIB.
Health Care Issues
    Full Funding For The Defense Health Budget.--The Military Coalition 
strongly recommends the Subcommittee continue its watchfulness to 
ensure full funding of the Defense Health Program, including military 
medical readiness, needed TRICARE Standard improvements, and the DOD 
peacetime health care mission. It is critical that the Defense Health 
Budget be sufficient to secure increased numbers of providers needed to 
ensure access for TRICARE beneficiaries in all parts of the country.
    Pharmacy Cost Shares for Retirees.--The Military Coalition urges 
the Subcommittee to continue to reject imposition of cost shares in 
military pharmacies, oppose increasing other pharmacy cost shares that 
were only recently established, and to provide full funding for the 
Defense Health Pharmacy Program. We urge the Subcommittee to ensure 
that Beneficiary Advisory Groups' inputs are included in any studies of 
pharmacy services or copay adjustments.
    Healthcare for Members of the National Guard and Reserve.--The 
Military Coalition urges the Subcommittee to take action to appropriate 
sufficient funds and support permanent authorization of the Temporary 
Reserve Health Care Program (Sec. 702, 703, and 704 Public Law 108-136) 
to support readiness, family morale, and deployment health preparedness 
for Guard and Reserve servicemembers.
    The Military Coalition urges the Subcommittee to appropriate 
sufficient funds to provide for federal payment of civilian health care 
premiums (up to the TRICARE limit) as an option for mobilized service 
members.
    The Military Coalition recommends the Subcommittee provide 
sufficient funding to permit expansion of the TRICARE Dental Plan 
benefits for Guard and Reserve servicemembers. This would allow all 
National Guard and Reserve members to maintain dental readiness and 
alleviate the need for dental care during training or mobilization.
                            personnel issues
    Mr. Chairman, The Military Coalition (TMC) is most grateful to the 
leadership and members of this Subcommittee for their strong support 
leading to last year's significant improvements in military pay, 
housing allowances and other personnel programs for active, Guard and 
Reserve personnel and their families. But as much as Congress 
accomplished last year, very significant inequities and readiness 
challenges remain to be addressed.
    In testimony today, The Military Coalition offers its collective 
recommendations on what needs to be done to address these important 
issues and sustain long-term personnel readiness.
                          active force issues
    Personnel Strengths and Operations Tempo.--The Coalition is 
dismayed at the Department of Defense's reluctance to accept Congress' 
repeated offers to increase Service end strength to relieve the stress 
on today's armed forces, who are clearly now sustaining an increased 
operations tempo to meet today's global war on terror. While we are 
encouraged by the Army's announcement to temporarily increase their end 
strength by 30,000, we are deeply concerned that Administration-
proposed plans for selected temporary manpower increases rely too 
heavily on continuation of stop-loss policies, unrealistic retention 
assumptions, overuse of the Guard and Reserves, optimistic scenarios in 
Southwest Asia, and the absence of any new contingency needs.
    Administration and military leaders warn of a long-term mission 
against terrorism that requires sustained, large deployments to Central 
Asia and other foreign countries. The Services simply do not have 
sufficient numbers to sustain the global war on terrorism, deployments, 
training exercises and other commitments, so we have had to recall 
significant numbers of Guard and Reserve personnel. For too many years, 
there has always been another major contingency coming, on top of all 
the existing ones. If the Administration does not recognize when extra 
missions exceed the capacity to perform them, the Congress must assume 
that obligation.
    The Coalition strongly believes that earlier force reductions went 
too far and that the size of the force should have been increased 
several years ago to sustain today's pace of operations. Deferral of 
meaningful action to address this problem cannot continue without 
risking serious consequences. Real relief is needed now. There is no 
certainty that missions will decline, which means that the only prudent 
way to assure we relieve the pressure on servicemembers and families is 
to increase the size of the force.
    Some argue that it will do little good to increase end strengths, 
questioning whether the Services will be able to meet higher recruiting 
goals. The Coalition believes strongly that this severe problem can and 
must be addressed as an urgent national priority, with increases in 
recruiting budgets if that proves necessary.
    Others point to high reenlistment rates in deployed units as 
evidence that high operations tempo actually improves morale. But much 
of the reenlistment rate anomaly is attributable to tax incentives that 
encourage members to accelerate or defer reenlistment to ensure this 
occurs in a combat zone, so that any reenlistment bonus will be tax-
free. Retention statistics are also skewed by stop-loss policies. Over 
the long run, past experience has shown that time and again smaller but 
more heavily deployed forces will experience family-driven retention 
declines.
    Action is needed now. Failing to do so will only deepen the burden 
of already over-stressed troops and make future challenges to retention 
and recruiting worse.
    The Military Coalition strongly recommends restoration of Service 
end strengths to sustain the long-term global war on terrorism and 
fulfill national military strategy. The Coalition supports increases in 
recruiting resources as necessary to meet this requirement. The 
Coalition urges the Subcommittee to consider all possible manpower 
options to ease operational stresses on active, Guard and Reserve 
personnel.
    Commissaries.--The Coalition continues to be very concerned about 
preserving the value of the commissary benefit--which is widely 
recognized as the cornerstone of quality of life benefits and a valued 
part of the servicemembers' total compensation package.
    During the past year, the Department of Defense announced plans to 
close a number of commissaries, replace the traditional three-star 
officer serving as chairman of the Commissary Operating Board (COB) 
with a political appointee, and require a study on instituting variable 
pricing for commissary products. These proposals are apparently 
intended to save money by reducing the annual appropriation supporting 
the Defense Commissary Agency (DeCA), which operates 275 commissaries 
worldwide. The COB recommendation is also viewed as another indicator 
of DOD's ongoing interest in eventually privatizing the benefit.
    The Coalition supports cost savings and effective oversight and 
management. However, we are concerned about the unrelenting pressure on 
DeCA to cut spending and squeeze additional efficiencies from its 
operations--despite years of effective reform initiatives and 
recognition of the agency for instituting improved business practices.
    The Coalition is particularly opposed to the concept of variable 
pricing, which the Administration acknowledges is aimed at reducing 
appropriated funding. This can only come at the expense of reducing 
benefits for patrons.
    The commissary is a highly valued quality of life benefit not 
quantifiable solely on a dollars appropriated basis. As it has in the 
past, The Military Coalition opposes any efforts to privatize 
commissaries or reduce benefits to members, and strongly supports full 
funding of the benefit in fiscal year 2005 and beyond.
    The Military Coalition opposes all privatization and variable-
pricing initiatives and strongly supports full or even enhanced funding 
of the commissary benefit to sustain the current level of service for 
all patrons, including Guard and Reserve personnel and their families.
    Family Readiness and Support.--Family readiness is a key concern 
for the approximately 60 percent of servicemembers with families. 
Allocating adequate resources for the establishment and maintenance of 
family readiness and support programs is part of the cost of 
effectively fulfilling the military mission.
    Servicemembers and their families must understand and be aware of 
benefits and programs available to them and who to contact with 
questions and concerns--both at the command level and through the 
respective Service or Department of Defense--in order to effectively 
cope with the challenges of deployment. It is also important to meet 
childcare needs of the military community including Guard and Reserve 
members who are being called to active duty in ever-increasing numbers.
    The Military Coalition urges funding for improved family readiness 
through education and outreach programs and increased childcare 
availability for servicemembers and their families and associated 
support structure to assist families left behind during deployments of 
active duty, Guard and Reserve members.
                           retirement issues
    Combat Related Special Compensation Claims Processing.--The 
Military Coalition applauds Congress for the landmark provisions in the 
fiscal year 2004 National Defense Authorization Act that expand combat 
related special compensation to all retirees with combat-related 
disabilities and authorizes--for the first time ever--the unconditional 
concurrent receipt of retired pay and veterans' disability compensation 
for retirees with disabilities of at least 50 percent. Disabled 
retirees everywhere are extremely grateful for this Subcommittee's 
action to reverse an unfair practice that has disadvantaged disabled 
retirees for over a century.
    However, we are becoming increasingly aware of growing problems 
with combat related special compensation claims processing. Large 
numbers of applicants are waiting six months or more for decisions. The 
Services have acknowledged that the expanded authority will increase 
backlogs even more. The Coalition believes DOD must have sufficient 
funding to meet staffing and other support requirements to ensure 
claims are processed in a reasonable period of time.
    The Military Coalition urges Subcommittee leaders and members to 
ensure DOD has sufficient funding to provide adequate resources for the 
timely processing of combat related special compensation claims.
                        guard and reserve issues
    Selected Reserve Montgomery GI Bill Improvements.--Individuals who 
first become members of the National Guard or Reserve are eligible for 
the Selected Reserve Montgomery GI Bill (SR-MGIB) under Chapter 1606 of 
Title 10 U.S. Code. But SR-MGIB benefits have declined sharply compared 
to active duty benefits and need to be restored.
    During the first fifteen years of the SR-MGIB program (1985-1999), 
benefits maintained 47 percent comparability with the active duty MGIB 
authorized under Title 38. But in the last few years, the SR-MGIB has 
slipped to a 29 percent ratio with the basic program due to benefit 
increases that were enacted only for the active duty program. The drop 
in reserve benefits happened at a time when the Guard and Reserve have 
been mobilized and deployed unlike any other time since World War II. 
In addition, many reservists have been mobilized for more than one 
extended tour of active duty. If the tours add up to 24 months of 
active duty but are served non-consecutively, the reservists are not 
eligible for the active duty MGIB.
    The Military Coalition recommends funding to raise SR-MGIB benefit 
levels to 47 percent of the active duty MGIB rate and support to allow 
reservists who serve non-consecutive tours of 24 months or more active 
duty within a five-year period to enroll in the active duty MGIB.
    Guard/Reserve Family Readiness and Support.--All military families 
experience high stress levels when their military spouses are deployed 
in harms way. National Guard and Reserve families are no exception. In 
their case, however, military base support networks are rarely 
available to them due to their geographic dispersion across the nation. 
The Services and the Defense Department have initiated new programs to 
support the growing needs of reserve component families but more needs 
to be done.
    The Guard and Reserve have increased the number of paid family 
readiness coordinators and established more Family Assistance Centers 
to help volunteers and provide basic information. The challenge is 
providing consistent and reliable information on benefits and services 
across all of the reserve components. For example, the Air National 
Guard employs professional family coordinators but the Army National 
Guard does not. Another concern is the lack of childcare services for 
mobilized Guard and Reserve families.
    The Military Coalition urges adequate funding for family readiness 
services through education and outreach programs, increased childcare 
availability for servicemembers and their families, and associated 
support services to assist families left behind during deployments of 
active duty, Guard and Reserve members.
                           health care issues
    The Military Coalition is most appreciative of the Subcommittee's 
exceptional efforts over several years to honor the government's health 
care commitments to all uniformed services beneficiaries. These 
Subcommittee-sponsored enhancements represent great advancements that 
should significantly improve health care access while saving all 
uniformed services beneficiaries thousands of dollars a year. The 
Coalition particularly thanks the Subcommittee for last year's 
outstanding measures to address the needs of TRICARE Standard 
beneficiaries as well as to provide increased access for members of the 
Guard and Reserves.
    While much has been accomplished, we are equally concerned about 
making sure that subcommittee-directed changes are implemented and the 
desired positive effects actually achieved. We also believe some 
additional initiatives will be essential to providing an equitable and 
consistent health benefit for all categories of TRICARE beneficiaries, 
regardless of age or geography. The Coalition looks forward to 
continuing our cooperative efforts with the Subcommittee's members and 
staff in pursuit of this common objective.
    Full Funding For The Defense Health Budget.--Once again, a top 
Coalition priority is to work with Congress and DOD to ensure full 
funding of the Defense Health Budget to meet readiness needs--including 
graduate medical education and continuing education, full funding of 
both direct care and purchased care sectors, providing access to the 
military health care system for all uniformed services beneficiaries, 
regardless of age, status or location. A fully funded health care 
benefit is critical to readiness and the retention of qualified 
uniformed service personnel.
    The Subcommittee's oversight of the defense health budget is 
essential to avoid a return to the chronic underfunding of recent years 
that led to execution shortfalls, shortchanging of the direct care 
system, inadequate equipment capitalization, failure to invest in 
infrastructure and reliance on annual emergency supplemental funding 
requests as a substitute for candid and conscientious budget planning.
    We are grateful that last year, Congress provided supplemental 
appropriations to meet growing requirements in support of the 
deployment of forces to Southwest Asia and Afghanistan in the global 
war against terrorism.
    But we are concerned by reports from the Services that the current 
funding level falls short of that required to meet current obligations 
and that additional supplemental funding will once again be required. 
For example, we have encountered several instances in which local 
hospital commanders have terminated service for retired beneficiaries 
at military pharmacies, citing budget shortfalls as the reason. Health 
care requirements for members returning from Iraq are also expected to 
strain the military delivery system in ways that we do not believe were 
anticipated in the budgeting process.
    Similarly, implementation of the TRICARE Standard requirements in 
last year's Authorization Act--particularly those requiring actions to 
attract more TRICARE providers--will almost certainly require 
additional resources that we do not believe are included in the budget. 
Addrerssing these increased readiness requirements, TRICARE provider 
shortfalls and other needs will most likely require additional funding.
    The Military Coalition strongly recommends the Subcommittee 
continue its watchfulness to ensure full funding of the Defense Health 
Program, including military medical readiness, needed TRICARE Standard 
improvements, and the DOD peacetime health care mission. It is critical 
that the Defense Health Budget be sufficient to secure the increased 
numbers of providers needed to ensure access for TRICARE beneficiaries 
in all parts of the country.
    Pharmacy Cost Shares for Retirees.--Late last year, the Office of 
Management and Budget (OMB) and the Defense Department considered a 
budget proposal that envisioned significantly increasing retiree cost 
shares for the TRICARE pharmacy benefit, and initiating retiree copays 
for drugs obtained in the direct care system. While the proposal was 
put on hold for this year, the Coalition is very concerned that DOD is 
undertaking a review that almost certainly will recommend retiree copay 
increases in fiscal year 2006.
    It was less than three years ago that Congress authorized and 
appropriated adequate funding for the TRICARE Senior Pharmacy Program 
(TSRx) and DOD established $3 and $9 copays for all beneficiaries. 
Defense leaders highlighted this at the time as ``delivering the health 
benefits military beneficiaries earned and deserve.'' But the Pentagon 
already has changed the rules, with plans to remove many drugs from the 
uniform formulary and raise the copay on such drugs to $22.
    Now, there are new proposals to double and triple the copays for 
drugs remaining in the formulary--to $10 and $20, respectively. One can 
only surmise that this would generate another substantial increase in 
the non-formulary copay--perhaps even before the $22 increase can be 
implemented.
    Budget documents supporting the change rationalized that raising 
copays to $10/$20 would align DOD cost shares with those of the VA 
system. This indicates a serious misunderstanding of the VA cost 
structure, unless the Administration also plans to triple VA cost 
shares. At the present time, the VA system requires no copayments at 
all for medications covering service-connected conditions, and the cost 
share for others is $7.
    The Coalition believes this Subcommittee will appropriate the funds 
needed to meet uniformed services retiree health care commitments if 
only the Administration will budget for it. The Coalition is concerned 
that DOD does not seem to recognize that it has a unique responsibility 
as an employer to those who served careers covering decades of arduous 
service and sacrifice in uniform. Multiple administrations have tried 
to impose copays in military medical facilities, and Congress has 
rejected that every time. We hope and trust that will continue.
    The Coalition vigorously opposes increasing retiree cost shares 
that were only recently established. Congress' recent restoration of 
retiree pharmacy benefits helped restore active duty and retired 
members' faith that their government's health care promises would be 
kept. If implemented, this proposal would undermine that trust, which 
in the long term can only hurt retention and readiness.
    The Military Coalition urges the Subcommittee to continue to reject 
imposition of cost shares in military pharmacies, oppose increasing 
other pharmacy cost shares that were only recently established and to 
provide full funding for the Defense Health Pharmacy Program. We urge 
the Subcommittee to ensure that Beneficiary Advisory Groups' inputs are 
included in any studies of pharmacy services or copay adjustments.
    Healthcare for Members of the National Guard and Reserve.--The 
Military Coalition is most appreciative to Congress for ensuring that 
the Temporary Reserve Health Care Program was included in the fiscal 
year 2004 National Defense Authorization Act. This program will provide 
temporary coverage, until December 2004, for National Guard and Reserve 
members who are uninsured or do not have employer-sponsored health care 
coverage. TRICARE officials plan to build on existing TRICARE 
mechanisms to expedite implementation; however, no one is certain how 
long this will take. Immediate implementation and full funding is 
required.
    The Coalition is grateful to the Congress for their efforts to 
enact Sec. 703 and 704 of the fiscal year 2004 NDAA. Sec. 703--Earlier 
Eligibility Date for TRICARE Benefits for Members of Reserve Components 
provides TRICARE health care coverage for reservists and their family 
members starting on the date a ``delayed-effective-date order for 
activation'' is issued. Sec. 704--Temporary Extension of Transitional 
Health Care Benefits changes the period for receipt of transitional 
health care benefits from 60 or 120 days to 180 days for eligible 
beneficiaries.
    Congress recognized the extraordinary sacrifices of our citizen-
soldiers, by enacting extending this pre- and post-mobilization 
coverage. Now it's time to recognize the changed nature of 21st century 
service in our nation's reserve forces by making these pilot programs 
permanent and provide full funding.
    The Military Coalition urges the Subcommittee to take action to 
appropriate sufficient funding and support permanent authorization of 
the Temporary Reserve Health Care Program (Sec. 702, 703, and 704 
Public Law 108-136) to support readiness, family morale, and deployment 
health preparedness for Guard and Reserve servicemembers.
    Health insurance coverage varies widely for members of the Guard 
and Reserve: some have coverage through private employers, others 
through the Federal government, and still others have no coverage. 
Reserve families with employer-based health insurance must, in some 
cases, pick up the full cost of premiums during an extended activation. 
Guard and Reserve family members are eligible for TRICARE if the 
member's orders to active duty are for more than thirty days; but, many 
of these families would prefer to preserve the continuity of their 
health insurance. Being dropped from private sector coverage as a 
consequence of extended activation adversely affects family morale and 
military readiness and discourages some from reenlisting. Many Guard 
and Reserve families live in locations where it is difficult or 
impossible to find providers who will accept new TRICARE patients. 
Recognizing these challenges for its own reservist-employees, the 
Department of Defense routinely pays the premiums for the Federal 
Employee Health Benefit Program (FEHBP) when activation occurs. This 
benefit, however, only affects about ten percent of the Selected 
Reserve.
    The Military Coalition urges the Subcommittee to appropriate 
sufficient funds to provide for federal payment of civilian health care 
premiums (up to the TRICARE limit) as an option for mobilized service 
members.
    Dental readiness is another key aspect of readiness for Guard and 
Reserve personnel. Currently, DOD offers a dental program to Selected 
Reserve members and their families. The program provides diagnostic and 
preventive care for a monthly premium, and other services including 
restorative, endodontic, periodontic and oral surgery services on a 
cost-share basis, with an annual maximum payment of $1,200 per enrollee 
per year. However, only five percent of eligible members are enrolled.
    During this mobilization, soldiers with repairable dental problems 
were having teeth pulled at mobilization stations in the interests of 
time and money instead of having the proper dental care administered. 
Congress responded by passing legislation that allows DOD to provide 
medical and dental screening for Selected Reserve members who are 
assigned to a unit that has been alerted for mobilization in support of 
an operational mission, contingency operation, national emergency, or 
war. Unfortunately, waiting for an alert to begin screening is too 
late. During the initial mobilization for Operation Iraqi Freedom, the 
average time from alert to mobilization was less than 14 days, 
insufficient to address deployment dental standards. In some cases, 
units were mobilized before receiving their alert orders. This lack of 
notice for mobilization continues, with many reservists receiving only 
days of notice before mobilizing.
    The Military Coalition recommends the Subcommittee provide 
sufficient funding to permit expansion of the TRICARE Dental Plan 
benefits for Guard and Reserve servicemembers. This would allow all 
National Guard and Reserve members to maintain dental readiness and 
alleviate the need for dental care during training or mobilization.
                               conclusion
    The Military Coalition reiterates its profound gratitude for the 
extraordinary progress this Subcommittee has made in advancing a wide 
range of personnel and health care initiatives for all uniformed 
services personnel and their families and survivors. The Coalition is 
eager to work with the Subcommittee in pursuit of the goals outlined in 
our testimony. Thank you very much for the opportunity to present the 
Coalition's views on these critically important topics.
STATEMENT OF JANET RUBIN, M.D., ON BEHALF OF THE 
            NATIONAL COALITION FOR OSTEOPOROSIS AND 
            RELATED BONE DISEASES
    Senator Stevens. Dr. Janet Rubin. Good morning, Doctor.
    Dr. Rubin. Mr. Chairman, I am Janet Rubin. I am a professor 
in the Department of Medicine at Emory University and a staff 
physician at the Atlanta Veterans Medical Center. I am 
representing the National Coalition for Osteoporosis and 
Related Bone Diseases and I seek your continued support for 
Department of Defense funding of the bone health and military 
medical readiness research program.
    Bone health is an essential element of military readiness. 
Our troops must be ready and able to endure vigorous activity 
during combat training and force operations. Musculoskeletal 
injury is, however, an unfortunate result of training. In 
particular stress fracture accounts for more loss duty days in 
the active duty population than any other injury. Stress 
fractures compromise our military's operational readiness, 
drive up health care costs, and increase personnel attrition. 
The stress fracture takes a soldier out of combat as quickly as 
an entry wound and requires weeks for healing.
    Consider those young people entering basic training. As 
many as 5 percent of male recruits sustain stress fractures. In 
the case of females, the number may rise to as much as 20 
percent, and even trained soldiers who switch from light to 
heavy physical duty are at risk for stress fracture.
    The current bone health and military medical research 
program was developed and funded with the goal of eliminating 
stress fractures in all recruits. The program's successes to 
date are many. I am going to give you a sampling of what we 
have learned and what DOD-funded scientists are pursuing and 
have published in more than 100 publications.
    Recruits are frequently deficient in vitamin D and calcium. 
The optimal level of supplementation of these and other 
vitamins and minerals for active young people is under 
investigation.
    Recruits with family histories of osteoporosis are at 
higher risk for stress fracture. DOD-supported scientists have 
modeled osteoporosis genes in mice, revealing genes that can 
predict bone quality and bone structure. Indeed, bone structure 
plays a critical role in stress fracture. We are only just 
starting to understand how skeletal structure of women differs 
from men. DOD-funded research suggests that the smaller bones 
of women may be underpowered for the weight they bear during 
training, increasing the risk of stress fracture. The training 
of female recruits may, thus, require added bone protective 
strategies.
    Scientists in this program are also trying to understand 
how biomechanical signals cause bone formation and improved 
bone strength during exercise. One DOD-funded study suggests 
that bone fluid flow stimulates bone cells to make stronger 
bones.
    Of course, improving diagnosis of stress fracture is a 
topic of this program, including improvement and 
standardization of noninvasive measurements of bone. We would 
like to be able to better predict incipient fractures. An 
increase in the porosity of bone appears to precede the 
fracture. We hope that detection of this porosity with new 
instrumentation will improve prevention.
    Last, we need to design better treatment algorithms to get 
our soldiers back on their feet and prevent chronic disability 
such as pain and degenerative joint disease. DOD-funded 
scientists are studying both pulsed ultrasound and dynamic 
electrical fields as novel adjuncts to standard rest therapy.
    Mr. Chairman, we are all aware that stress fractures and 
other bone-related injuries erode the physical capability and 
effectiveness of our combat training units. Military readiness 
suffers. A small investment in bone health research can make a 
large contribution to our combat readiness. Therefore, it is 
imperative that the Department of Defense build on these recent 
findings and maintain an aggressive and sustained bone health 
research program at a level of $6 million in fiscal year 2005.
    Thank you.
    Senator Stevens. I understand there are some new techniques 
for inquiring about the osteoporosis and other such bone 
defects. Do you advocate that women recruits be given those 
tests before they enter the service?
    Dr. Rubin. I think it would help to know if their bone 
density was very low. One of the problems that we have in the 
osteoporosis field that, although, for instance, dual x-ray 
absorptiometry (DXA) is the gold standard for measuring bone 
density, it really does not predict bone structure. So it is a 
poor measure of young women in terms of what they can bear. So 
I think it would probably be worthwhile to measure bone density 
in young women, yes.
    Senator Stevens. Thank you very much, Doctor. We appreciate 
your coming.
    [The statement follows:]
                Prepared Statement of Janet Rubin, M.D.
    Mr. Chairman and Members of the Committee, I am Janet Rubin, M.D., 
Professor, Department of Medicine, Emory University and Staff Physician 
at the Atlanta Veterans Affairs Medical Center. I am here today on 
behalf of the National Coalition for Osteoporosis and Related Bone 
Diseases to urge your support in maintaining the Bone Health and 
Military Medical Readiness research program within the Department of 
Defense and providing necessary funding to preserve the program. The 
members of the Bone Coalition are the American Society for Bone and 
Mineral Research, the National Osteoporosis Foundation, the Paget 
Foundation for Paget's Disease of Bone and Related Disorders, and the 
Osteogenesis Imperfecta Foundation.
    Bone health is an essential element of military readiness. The goal 
of the Department of Defense (DOD) is to guarantee military readiness 
by keeping our forces trained, equipped and ready to adapt to emerging 
threats. Our troops must be ready and able to endure vigorous activity 
during combat training as well as during force operations. Soldiers are 
always at risk of injury, incapacitation, and degraded performance 
resulting from injuries such as stress fractures--all of which 
compromise the mission, readiness, and budget of the Armed Forces.
    Although the benefits of strenuous physical activity are well 
documented, these activities are also known to incur certain risks. 
Musculoskeletal injury, for example, is the most common morbidity in 
civilian and military populations who participate in physical activity. 
In fact, fractures account for the highest number of lost duty days in 
the active duty population of any injury. These injuries incur a high 
cost to the DOD not only in lost duty days, but in health care, lost 
training time, and attrition of personnel. Ultimately, the operational 
readiness of U.S. military forces is severely compromised.
    Stress fractures are one of the most common and potentially 
debilitating overuse injuries experienced in the military recruit 
population. Stress fractures occur in 0.8 to 5.2 percent of male 
recruits, and from 3 to 21 percent of female recruits. Recent research 
suggests that several factors may contribute to the increased risk for 
stress fracture suffered by women, including the density, shape, and 
size of their bones (which affect bone quality), and their nutritional, 
hormonal and physical conditioning status.
    Lack of physical conditioning affects the United States as a whole, 
along with the military population in particular. An Institute of 
Medicine report published in 1998 by the Subcommittee on Body 
Composition, Nutrition and Health of Military Women concluded that the 
low initial fitness of recruits, both cardiorespiratory and 
musculoskeletal, appeared to be the principal factor in the development 
of stress fractures during basic training. The Committee also concluded 
that muscle mass, strength, and endurance played a critical role in the 
development of stress fracture. Now we know from DOD-funded research 
that bone structure adds to the risk of fracture, along with a history 
of poor diet, lack of exercise, hormonal imbalances and genetic 
factors. Ethnicity also plays a part.
    Isn't basic training good for recruits' health, you may wonder. The 
answer is yes and no. Exercise is important to building bone health, 
but the type of exercise and the transition to new exercise regiments 
play a role in bone strength. Many new recruits, upon arrival for basic 
training, are unaccustomed to intense exercise, particularly strenuous 
running and marching activities. Under normal circumstances, the 
increased demand placed on bone tissue causes the bone to remodel to 
adapt to the new loads, and become stronger in the areas of higher 
stress. However, if the remodeling response of the bone cannot keep 
pace with the repetitive demands placed on a service member during the 
8 to 12 week training period, a stress fracture may result. Without 
proper rest and time to heal, the stress fracture may lead to chronic 
pain and disability.
    Different types of stress fractures require different treatment. 
For example, femoral neck or hip stress fractures can sometimes 
progress to full fractures and interrupt the blood supply to the thigh 
bone portion of the hip joint. This in turn can cause early 
degenerative changes in the hip joint. Physicians consider the femoral 
neck stress fracture to be a medical emergency requiring immediate 
treatment. Researchers have raised concerns regarding the possible 
relationship between increased risk for stress fracture and long-term 
risk of osteoporosis, osteoarthritis, and other bone diseases.
    Like hip stress fractures, stress fractures of the navicular (foot 
bone), anterior cortex of the tibia (front portion of the mid-
shinbone), and proximal fifth metatarsal (a bone in the foot) are also 
slow to heal. Many of these diagnoses require an affected service 
member cease training for a lengthy period of medical care and 
rehabilitation until the fracture has healed. At one basic training 
location, over 70 percent of the injured soldiers pulled from training 
were diagnosed with overuse bone injuries.
    While stress fracture injury is seen primarily in new recruits, 
anyone who suddenly increases his or her frequency, intensity, or 
duration of physical activity, such as a recently called-up reservist 
is potentially at risk for developing lower body stress fractures.
    The study of bone health is not a simple task, as bone health 
requires a complex interaction between exercise and other factors that 
affect bone remodeling, such as nutrition, hormonal status, genetics, 
and biomechanics. Currently, there is a distinct gap in understanding 
the effects of exercise and other factors on normal bone remodeling in 
a young adult population; more research is needed to determine the best 
types of exercise regimens to build and maintain healthy bone. 
Moreover, an understanding of all factors affecting bone health, 
particularly in young, healthy men and women, is necessary to fully 
describe the physiological response of bone and muscle to the physical 
demands placed on our service members, and to maintain the health and 
military readiness of our service members.
    At this point, Mr. Chairman I would like to identify some of the 
promising studies currently being funded by the DOD:
Current Studies
    Identifying key mineral and other nutritional levels needed in 
military rations to ensure optimal bone health of recruits:
  --Vitamin D, for example, is known to be deficient in the population 
        at large, particularly in sunlight-deprived individuals, and 
        yet it, like calcium, is key to bone health. Researchers are 
        working to determine the proper level of vitamin D required in 
        the military population. A related question is: What levels of 
        vitamin D supplementation are necessary to maintain bone 
        health?
  --The effect of calcium and calorie intake on the incidence of stress 
        fractures in the short term, and osteoporosis in the long term, 
        is another subject of investigation.
  --How do caloric restriction and disordered eating patterns--and/or 
        related amenorrhea or menstrual period cessation--affect 
        hormonal balance and the accrual and maintenance of peak bone 
        mineral content is a question also under investigation.
    Researching the association between stress fractures and physical 
training methods, including an examination of past injuries and the 
effects of poor nutrition, lack of exercise, smoking, use of anti-
inflammatory medications, alcohol and oral contraceptives, all of which 
may negatively affect bone.
    Examining the mechanisms of bone cell stimulation from the flow of 
surrounding fluids during compression (loading) of the bone. As the 
bone is repeatedly compressed due to physical activity, fluid flows in 
a network of spaces; this oscillating fluid flow is a potent stimulator 
of bone cells.
    Comparing recovery times from tibial stress fracture in subjects 
treated with active or placebo-controlled electric field stimulation, 
including evaluation of male and female responses.
    Assessing the fracture healing impact of pulsed ultrasound.
    Attempting to accelerate stress fracture healing time using 
conservative but generally favored treatments of rest from weight 
bearing activity (this averages three months).
    With DOD's critical investment support, the findings are already 
impressive:
  --Poor physical fitness when recruit training is initiated has been 
        identified as a strong predictor of injury. This has led to the 
        development of a scientifically based intervention to reduce 
        injuries at the Marine Corp Recruit Depot. An evaluation of 
        this intervention demonstrated an overall reduction in overuse 
        injuries and a 50 percent reduction in stress fractures, with 
        no decrement in physical fitness at graduation.
  --Muscle elasticity--as measured by ultrasound--has been shown to 
        undergo physiological alterations with an abrupt transition to 
        a running training program similar to that employed for 
        military recruit training. MRI allows for imaging of soft 
        tissue and can detect these alterations in muscle structure 
        during running. Combining ultrasound characterization with MRI 
        scanning of the muscle recruitment during running will 
        ultimately enable physicians to pinpoint the relationship of 
        muscle elasticity to the level of tibial stress, and, 
        ultimately, fracture risk.
  --Being able to assess metabolism and bone growth in humans will 
        advance our understanding of bone remodeling: key to building 
        and maintaining strong bone. DOD-funded scientists have 
        developed a prototype of the highest resolution positron 
        emission tomography (PET) devise existing to focus on meeting 
        this need for improved assessment.
  --Data suggests that increased bone remodeling precedes the 
        occurrence of bone microdamage and stress fractures. 
        Researchers found that increases in cortical bone porosity 
        precede the accumulation of bone microdamage, suggesting an 
        important role of increased intracortical remodeling in the 
        development of stress fractures. If we can detect this porosity 
        before microdamage occurs, we could prevent stress fractures.
Areas of Need
    Improved and more sensitive methods are needed for the noninvasive 
assessment of bone metabolism along with standard measurements of bone 
density and other parameters of bone strength to assess normal bone 
remodeling, impending risk of bone injury, and bone responses to 
treatment interventions.
    Structural and biomechanical factors that contribute to tibial 
stress fracture risk need to be explored using recent advances in 
technology to detect microscopic damage to tibial bone structure non-
invasively, before occurrence of stress fracture injuries.
    We need to determine the relationship between whole bone geometry 
and tissue fragility in the human tibia, testing the linkage between 
geometry, gender, and the occurrence of low-impact bone fractures 
(those that occur with minimum force).
    DOD scientists' research in genetic determinants of bone quality 
may ultimately help protect women and men against musculoskeletal 
injuries. Bone mineral density, while a major determinant of bone 
strength, is just one parameter of bone quality. Both geometric 
characteristics and density of bone are related to bone strength, and 
muscle strength and endurance have been linked to the ability of bone 
to withstand repetitive loading. Thus, susceptibility to stress 
fracture clearly has both bone and muscle components. Research on the 
effects of genetics, diet and nutrition, mechanical load, and other 
factors that might affect bone quality can now be studied using new 
technologies, such as magnetic resonance imaging, peripheral 
quantitative computed tomography, regional DXA, and tibial ultrasound, 
and has the potential to provide great insight into the bone remodeling 
and adaptation process. In addition, new techniques such as virtual 
bone biopsies are under development to provide more critical data.
    Mr. Chairman, stress fractures and other bone related injuries 
erode the physical capabilities and reduce the effectiveness of our 
combat training units, compromising military readiness. A small 
investment in bone health research can make a large contribution to 
combat readiness. Therefore, it is imperative that the Department of 
Defense build on recent findings and maintain an aggressive and 
sustained bone health research program at a level of $6 million in 
fiscal year 2005.

    Senator Stevens. My good friend, the co-chairman, is here. 
Do you have any opening statement, Senator?
    Senator Inouye. No, thank you.
    Senator Stevens. Very well.
    Vice President Howard R. Hall of the Joslin Diabetes Center 
please. Good morning.
STATEMENT OF HOWARD R. HALL, VICE PRESIDENT, JOSLIN 
            DIABETES CENTER
    Mr. Hall. Good morning. Mr. Chairman and Senator Inouye, 
thank you for this opportunity to report on the progress of the 
Joslin Diabetes Center cooperative telemedicine project with 
the DOD and the Veterans Administration (VA) for the diagnosis, 
management, and treatment of diabetes and diabetic retinopathy, 
Army Research, Development, Test and Evaluation (RDT&E) medical 
advanced technology PE0603002A.
    I am Howard Hall of the Joslin Diabetes Center. I am also 
here to request continued level funding at $5 million for this 
collaborative project in fiscal year 2005.
    As both of you know I believe, the Joslin Vision Network 
(JVN) Eye Care and Comprehensive Diabetes Management Program is 
a telemedicine initiative designed to access all people with 
diabetes into cost effective, quality diabetes and eye programs 
across cultural and geographic boundaries with reduced costs.
    I am pleased to report that these innovative JVN eye care 
and diabetes management programs are being deployed not only in 
the DOD but also throughout the Indian Health Service (IHS) and 
VA health care systems. Already we have 52 sites in 18 States 
and the District of Columbia.
    Currently the JVN telemedicine eye care system is the only 
non-mydriatic system available that has been rigorously 
validated, equivalent to the current gold standard for 
retinopathy diagnosis.
    Version 3 of the Joslin eye care is ready for deployment 
this summer and will be simpler and less expensive to operate. 
A new prototype JVN retinal imaging system that is portable and 
50 percent less costly has been developed and is being to 
undergo initial clinical validation.
    Joslin has completed the first phase in the use of 
automated detection of diabetic retinopathy which can increase 
the cost efficiency of the JVN system by 42 percent. 
Recognizing the need to manage total care of diabetic patients 
and to empower better self-management so as to realize a 
prevention of vision loss, the DOD/VA/Joslin collaborative has 
developed the JVN comprehensive diabetes management program 
(CDMP) using web-based interactive technologies.
    By the end of this May 2004, CDMP will be integrated into 
the DOD Healtheforces website for daily use. In addition, CDMP 
is expected to be fully operational for both the VA VISN system 
and in the Indian Health Services in July 2004.
    The CDMP, the comprehensive diabetes management program, 
can result in a three- to seven-fold reduction in health care 
expenses.
    The requested continuation of the current level of funding 
for 2005, $5 million, will provide support for the existing JVN 
eye care system for deployment of the JVN comprehensive 
diabetes management program to participating sites, for 
continued JVN refinements, and quite important, to perform 
critical prospective clinical studies.
    Mr. Chairman, Joslin is pleased to be a part of this 
project for the Department of Defense and we are most 
appreciative of the support that you and your colleagues have 
provided to us. Please know that we would be grateful for 
continued support again this year.
    At this time, I would be pleased to answer any questions 
that you or Senator Inouye may have. Thank you.
    Senator Stevens. Thank you very much, Mr. Hall. I think I 
commented to you before my father was blind because of juvenile 
diabetes. We are pleased to try to work with you.
    Mr. Hall. Try to prevent it so others do not have to have 
that. Thank you.
    [The statement follows:]
                  Prepared Statement of Howard R. Hall
Introduction
    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear before you. I am Howard Hall of the Joslin 
Diabetes Center. I am pleased to present an update on the collaborative 
Joslin Diabetes Project with the Departments of Defense and Veteran's 
Affairs on the health concerns related to diabetes.
    Joslin is extremely appreciative of the funds provided for this 
valuable project in the fiscal year 2004 Defense Appropriations Act. 
Our proposal for fiscal year 2005 funding will allow for the DOD/VA/
Joslin collaborative to continue to enhance research refinements and 
extend clinical developments of Joslin Vision Network (JVN) Eye Care 
and the Comprehensive Diabetes Management Program (CDMP).
    The Joslin Vision Network (JVN) Eye Care and Comprehensive Diabetes 
Management Program (CDMP) is a telemedicine initiative designed to 
access all diabetes patients into cost-effective, quality diabetes and 
eye care programs across geographic and cultural boundaries at reduced 
costs.
    This DOD/VA/Joslin collaborative is the core foundation for these 
innovative eye care and diabetes management programs that are being 
deployed not only in the DOD but also throughout the IHS and VA health 
care systems.
    Collectively, the JVN is deployed at 52 sites in the District of 
Columbia and the following 18 states: Alaska, Arizona, Florida, Hawaii, 
Idaho, Kansas, Maine, Maryland, Massachusetts, Minnesota, Montana, New 
Mexico, Oklahoma, Pennsylvania, South Dakota, Texas, Virginia, and 
Washington.
Summary
    This request of $5,000,000 represents the collective costs of 
Joslin and associated expenses of the Department of the Army, RDT&E.
Fiscal Year 2004 Status Report
            JVN Deployment
    As of January 2004 we have deployed in:
  --The Department of Defense infrastructure: 11 independent remote JVN 
        imaging sites, 5 centralized JVN reading center sites. and 2 
        coordinating independent JVN servers.
  --The VA system: 8 independent remote JVN imaging sites, 4 
        centralized JVN reading center sites, and 2 coordinating 
        independent JVN servers.
  --The Joslin Diabetes Center system: 7 JVN imaging sites, and 4 JVN 
        reading center sites.
            JVN Validation
    Currently the JVN telemedicine's eye care system is the only non-
mydriatic (no pupil dilation needed) system available that has been 
rigorously validated and shown to be equivalent to the current gold 
standard for retinopathy diagnosis. The JVN validation study results 
were published in the March 2001 issue of Ophthalmology.
            JVN Application Enhancement
    The JVN application has been refined to use totally non-proprietary 
hardware and software and is fully DICOM and HL7 compliant as well as 
being compliant with HIPAA security standards. Workstations are now 
standard PCs with Microsoft 2000 operating systems interfaced with Agfa 
PACS environment which facilitates direct interfaces to DOD CHS and VA 
VISTA medical record systems.
    Preparing for evolving PC functions, JVN Eye Care Version 3 is 
ready for release this summer. With applications written in 
Microsoft.Net operating system-platform, JVN software becomes modular. 
This software enhancement will facilitate addition of new modules to 
expand JVN value and will make JVN simpler and significantly less 
expensive to operate.
            New JVN Retinal Imaging System
    During the initial Cooperative Agreement Joslin undertook the 
development of a retinal imaging system that overcame the limitations 
identified in current commercially available non-mydriatic retrieval 
funders camera imaging systems. A prototype imaging system that is 
portable and 50 percent less costly has been developed and is being 
readied to undergo initial clinical validation.
            JVN Computer-based Detection of Micro-aneurysms for 
                    Screening Digital Retinal Images
    This development effort represents the first phase in the use of 
image analysis to automate identification of retinal lesions in 
diabetic retinopathy. This ability will dramatically improve the 
efficiency of the reading center and based on results from the 
retrospective cost efficiency study will have a significant impact on 
cost savings for the use of the JVN system. This effort has been 
completed and results indicate that automated detection can be achieved 
with a sensitivity and specificity of 70 percent. At this level we can 
expect to increase the cost efficiency of the JVN system by 42 percent.
            JVN Comprehensive Diabetes Management Program (CDMP)
    A focus during the first 5 years of the DOD/VA/Joslin collaborative 
was the recognition of the need to develop the JVN Comprehensive 
Diabetes Management Program (CDMP). This development process was 
focused on care management for the diabetic patient using web-based 
interactive technologies. The driver for this application was the need 
to manage the total care of diabetic patients and to empower better 
self-management so as to realize a prevention of vision loss. The 
development of the CDMP was started in year 3 of the funding cycle. The 
JVN eye care component now becomes a module of the larger CDMP 
application. The CDMP application is now ready to be deployed to 
participating sites.
    By the end of May 2004 CDMP will be integrated into DOD 
HealtheForces website for daily use. In addition CDMP is expected to be 
fully operational in both the VA VISN system and in the Indian Health 
Services in July 2004.
            CDMP Phase Two--Prospective Clinical Studies
    Following upon comprehensive Broad Area Announcement (BAA) DOD 
review process the second major phase of the Cooperative Agreement was 
initiated in October 2003: performing the appropriate prospective 
studies aimed at demonstrating the cost effectiveness and clinical 
efficacy of the combined JVN eye care and diabetes management system. 
This is the critical component of the work as the application will not 
be adopted widely without data demonstrating value in terms of cost 
reduction, increased efficiency in usage and increased clinical 
effectiveness.
    Equally important, this program provides a platform for propagating 
the concept of a shared private medical intranet that assembles a 
``virtual'' medical record that draws on sources of heterogeneous 
information. The ultimate vision with development of the CDMP within 
the DOD, the VA and Joslin is the ability to facilitate implementation 
of a unified medical record that addresses the security and 
confidentiality implications of web-connecting the nation's clinical 
data.
    The major goals of this continuing project are the establishment of 
a telemedicine system for comprehensive diabetes management and the 
assessment of diabetic retinopathy that provides increased access for 
diabetic patients to appropriate care, that centralizes the patients in 
the care process, that empowers the patient to better manage his 
disease, that can be performed in a cost-effective manner, and that 
maintains the high standard of care required for the appropriate 
management of diabetic patients.
    The DOD/VA/Joslin collaborators have designed prospective clinical 
studies to cover a five year period to enable the appropriate 
collection of data and to allow the expected changes to be measured as 
significant clinical outcomes. The collaborators have written manuals 
of operation for these studies, and submitted protocols for review at 
organization IRBs.
    This next phase of the DOD/VA/Joslin research program will assess 
the usability of the JVN CDMP applications, assess diabetic patients' 
current behaviors, undertake a multi-center CDMP clinical outcomes 
efficacy and cost efficiency study, pursue a prospective study of JVN 
Eye Care cost efficiency and conduct a Multi-center JVN Risk Benefit 
Study.
    First studies are slated to begin in June 2004 with the last study 
to start in December 2004. The 3 year-long studies will be completed by 
January 2008. Data analysis will be done from January 2008 to July 
2008.
    The expectation is that these studies will demonstrate that use of 
JVN eye care and CDMP will result in improvements in care of diabetes 
patients, improvements in patient control of diabetes, reduction of 
risks such as blindness, increased productivity of people with diabetes 
in the workplace and a reduction in utilization of expensive hospital 
care resources such as ER visits and length of stay in hospital.
    It is anticipated the studies will also show that CDMP can result 
in a 3 to 7 fold reduction in health care expenses.
            Fiscal Year 2005 Objectives
    The current level of funding for 2005 ($5,000,000) will provide 
support for existing JVN Eye Care systems; for deployment of the JVN 
Comprehensive Diabetes Management Program (CDMP) to participating 
sites; for continued refinements to the JVN platform; to bring on line 
a new, refined JVN Imaging System; and to perform appropriate and 
critical prospective clinical studies that will allow the DOD/VA to 
further refine and increase their clinical effectiveness and cost 
effectiveness of the combined JVN Eye Care and Comprehensive Diabetes 
Management Program (CDMP).
Joslin Diabetes Project Requested Fiscal Year 2005 Budget
            Administrative and Management Fees
    Administrative and management fees were addressed on page 231 of 
your Conference Report on H.R. 2658 Department of Defense 
Appropriations Act, 2004. Administrative and management fees assessed 
by DOD at 20 percent take $1,000,000 off the top of project 
appropriations thereby reducing the project's reach and delaying full 
implementation of the endeavor.

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
DOD Costs:
    DOD Administrative and Management Costs (@20              $1,000,000
     percent)...........................................
    DOD/VA Participating Sites..........................       1,757,000
                                                         ---------------
      TOTAL DOD/VA Costs................................       2,757,000
                                                         ===============
Joslin Costs:
    Joslin Vision Network (JVN).........................       1,228,000
    Comprehensive Diabetes Management Program (CDMP)....       1,015,000
                                                         ---------------
      TOTAL Joslin Costs................................       2,243,000
                                                         ===============
      TOTAL Requested Budget............................       5,000,000
------------------------------------------------------------------------

    Mr. Chairman, Joslin is please to be a part of this project with 
the Department of Defense and we are most appreciative of the support 
that you and your colleagues have provided to us. Please know that we 
would be grateful for your continued support again this year. At this 
time, I would be pleased to answer any questions from you or any other 
Member of the Committee.

    Senator Stevens. Senator Inouye.
    Senator Inouye. Do you have any estimate as to the number 
of men and women in the military who might be afflicted?
    Mr. Hall. Yes. I think the main thrust for the military--
there is a chance of people becoming diabetic but most of the 
concern with this was military dependents for the DOD. At the 
same time, the telemedicine comprehensive diabetes management 
program is also being evolved with the Telemedicine and 
Advanced Technology Research Center (TATRIC) into a disease 
management. We are at the stage where this can actually go to 
the front lines.
    That is why we are interested in basically--eye care other 
than diabetes is handled by the portable JVN system, and I am 
just reporting on the diabetes component to you today. I do not 
want to carry it on because with the limited budget we have, as 
indicated in the written testimony, we cannot move out in other 
fields, but we are working on that and I am also looking for 
private funding in that regard.
    Senator Inouye. Thank you, sir.
    Mr. Hall. Thank you.
    Senator Stevens. Thank you very much, Mr. Hall.
    Our next witness is Dr. Christopher Sager, American 
Psychological Association. Good morning, Doctor.
STATEMENT OF CHRISTOPHER SAGER, Ph.D., ON BEHALF OF THE 
            AMERICAN PSYCHOLOGICAL ASSOCIATION
    Dr. Sager. Good morning. Mr. Chairman and Senator Inouye, I 
am Dr. Christopher Sager, Principal Staff Scientist at the 
Human Resources Research Organization. I am submitting 
testimony on behalf of the American Psychological Association, 
APA, a scientific and professional organization of more than 
150,000 psychologists.
    Although I am sure you are aware that a large number of 
psychologists are providing clinical services to our military 
members here and abroad, you may be less familiar with the wide 
range of research conducted by psychological scientists in the 
Department of Defense. Our behavioral researchers work on 
issues critical to national defense with support of the Army 
Research Institute, the Army Research Laboratory, and the 
Office of Naval Research, and the Air Force Research 
Laboratory.
    I would like to address the proposed cuts to the fiscal 
year 2005 human-centered research budgets for these military 
laboratories within the context of the larger Department of 
Defense science and technology (S&T) budget.
    The President's budget request for basic and applied 
research for S&T at DOD in fiscal year 2005 is $10.55 billion, 
a 12.7 percent decrease from the enacted fiscal year 2004 
level. APA joins the Coalition for National Security Research, 
a group of over 40 scientific associations and universities, in 
urging the subcommittee to provide DOD with $12.05 billion for 
S&T in fiscal year 2005. This figure is in line with the 
recommendations of the independent Science Board and the 
Quadrennial Defense Review.
    A portion of this overall defense S&T budget funds critical 
human-related research in the broad categories of personnel, 
training, and leader development; warfighter protection, 
sustainment and physical performance; and system interfaces and 
cognitive processing. Some of my current work, for example, 
focuses on developing measures of characteristics required of 
first-term soldiers and non-commissioned officers in the future 
Army. These efforts will be used to help Army selection and 
promotion systems meet the demands of the 21st century.
    In a congressionally mandated report to this committee, DOD 
reported on the continuing erosion of its own support for 
research on individual and group performance, leadership, 
communication, human-machine interfaces, and decision-making. 
The Department found that the requirements for maintaining 
strong DOD support for behavioral, cognitive, and social 
science research capability are compelling and that this area 
of military research has historically been extremely productive 
with particularly high return on investment and operational 
impact.
    Despite the critical need for strong research in this area, 
the administration has proposed an fiscal year 2005 defense 
budget that would slash funding for human-centered research by 
12 percent. Army, Navy, and Air Force basic behavioral research 
would remain essentially flat for fiscal year 2005 and both the 
Air Force and the Army would sustain deep, detrimental cuts to 
applied behavioral research programs, cuts in the range of 35 
percent. APA urges the committee to, at a minimum, restore 
funding for human-centered research at the fiscal year 2004 
level of $477.89 million.
    In closing, I would like to quote again from the DOD's own 
report to the Senate Appropriations Committee. ``Military 
knowledge needs are not sufficiently like the needs of the 
private sector that retooling behavioral, cognitive and social 
science research carried out for other purposes can be expected 
to substitute for service-supported research, development, 
testing, and evaluation. Our choice, therefore, is between 
paying for it ourselves and not having it.''
    Mr. Chairman, our servicemembers deserve the very best that 
we can give them, and I hope that this subcommittee will 
restore cuts to defense S&T funding and, in particular, the 
human-centered research budget. Thank you. I would be happy to 
answer any questions.
    [The statement follows:]
             Prepared Statement of Christopher Sager, Ph.D.
    Conflict is, and will remain, essentially a human activity in which 
man's virtues of judgment, discipline and courage--the moral component 
of fighting power--will endure . . . It is difficult to imagine 
military operations that will not ultimately be determined through 
physical control of people, resources and terrain--by people . . . 
Implicit, is the enduring need for well-trained, well-equipped and 
adequately rewarded soldiers. New technologies will, however, pose 
significant challenges to the art of soldiering: they will increase the 
soldier's influence in the battlespace over far greater ranges, and 
herald radical changes in the conduct, structures, capability and ways 
of command. Information and communication technologies will increase 
his tempo and velocity of operation by enhancing support to his 
decision-making cycle. Systems should be designed to enable the soldier 
to cope with the considerable stress of continuous, 24-hour, high-tempo 
operations, facilitated by multi-spectral, all-weather sensors. 
However, technology will not substitute human intent or the decision of 
the commander. There will be a need to harness information-age 
technologies, such that data does not overcome wisdom in the 
battlespace, and that real leadership--that which makes men fight--will 
be amplified by new technology. Essential will be the need to adapt the 
selection, development and training of leaders and soldiers to ensure 
that they possess new skills and aptitudes to face these challenges.    
NATO RTO-TR-8, Land Operations in the Year 2020

    Mr. Chairman and Members of the Subcommittee, I'm Dr. Christopher 
Sager from the Human Resources Research Organization. I am submitting 
testimony on behalf of the American Psychological Association (APA), a 
scientific and professional organization of more than 150,000 
psychologists and affiliates. Although I am sure you are aware of the 
large number of psychologists providing clinical services to our 
military members here and abroad, you may be less familiar with the 
extraordinary range of research conducted by psychological scientists 
within the Department of Defense. Our behavioral researchers work on 
issues critical to national defense, particularly with support from the 
Army Research Institute (ARI) and Army Research Laboratory (ARL); the 
Office of Naval Research (ONR); and the Air Force Research Laboratory 
(AFRL). I would like to address the proposed cuts to the fiscal year 
2005 human-centered research budgets for these military laboratories 
within the context of the larger Department of Defense Science and 
Technology budget.
Department of Defense (DOD) Science and Technology Budget
    The President's budget request for basic and applied research at 
DOD in fiscal year 2005 is $10.55 billion, a 12.7 percent decrease from 
the enacted fiscal year 2004 level. APA joins the Coalition for 
National Security Research (CNSR), a group of over 40 scientific 
associations and universities, in urging the Subcommittee to provide 
DOD with $12.05 billion for 6.1, 6.2 and 6.3 level research in fiscal 
year 2005. This figure also is in line with recommendations of the 
independent Defense Science Board and the Quadrennial Defense Review, 
the latter calling for ``a significant increase in funding for S&T 
programs to a level of three percent of DOD spending per year.''
    As our nation rises to meet the challenges of a new century, 
including current engagements in Iraq and Afghanistan as well as other 
asymmetric threats and increased demand for homeland defense and 
infrastructure protection, enhanced battlespace awareness and 
warfighter protection are absolutely critical. Our ability to both 
foresee and immediately adapt to changing security environments will 
only become more vital over the next several decades. Accordingly, DOD 
must support basic Science and Technology (S&T) research on both the 
near-term readiness and modernization needs of the department and on 
the long-term future needs of the warfighter.
    Despite substantial appreciation for the importance of DOD S&T 
programs on Capitol Hill, and within independent defense science 
organizations such as the Defense Science Board (DSB), total research 
within DOD has remained essentially flat in constant dollars over the 
last few decades. This poses a very real threat to America's ability to 
maintain its competitive edge at a time when we can least afford it. 
APA, CNSR and our colleagues within the science and defense communities 
recommend funding the DOD Science and Technology Program at a level of 
at least $12.05 billion in fiscal year 2005 in order to maintain global 
superiority in an ever-changing national security environment.
Behavioral Research within the Military Service Labs
    In August, 2000 the Department of Defense met a congressional 
mandate to develop a Report to the Senate Appropriations Committee on 
Behavioral, Cognitive and Social Science Research in the Military. The 
Senate requested this evaluation due to concern over the continuing 
erosion of DOD's support for research on individual and group 
performance, leadership, communication, human-machine interfaces, and 
decision-making. In responding to the Committee's request, the 
Department found that ``the requirements for maintaining strong DOD 
support for behavioral, cognitive and social science research 
capability are compelling'' and that ``this area of military research 
has historically been extremely productive'' with ``particularly high'' 
return on investment and ``high operational impact.''
    Despite the critical need for strong research in this area, the 
Administration has proposed an fiscal year 2005 defense budget that 
would slash funding for human-centered research by 12 percent. Army, 
Navy and Air Force basic behavioral research would remain essentially 
flat in fiscal year 2005, and both the Air Force and Army would sustain 
deep, detrimental cuts to their applied behavioral research programs. 
APA urges the Committee to, at a minimum, restore funding for human-
centered research at the fiscal year 2004 level of $477.89 million.
    Within DOD, the majority of behavioral, cognitive and social 
science is funded through the Army Research Institute (ARI) and Army 
Research Laboratory (ARL); the Office of Naval Research (ONR); and the 
Air Force Research Laboratory (AFRL). These military service 
laboratories provide a stable, mission-oriented focus for science, 
conducting and sponsoring basic (6.1), applied/exploratory development 
(6.2) and advanced development (6.3) research. These three levels of 
research are roughly parallel to the military's need to win a current 
war (through products in advanced development) while concurrently 
preparing for the next war (with technology ``in the works'') and the 
war after next (by taking advantage of ideas emerging from basic 
research).
    All of the services fund human-related research in the broad 
categories of personnel, training and leader development; warfighter 
protection, sustainment and physical performance; and system interfaces 
and cognitive processing. In addition, there are additional, smaller 
human systems research programs funded through the Office of the 
Secretary of Defense, the Defense Advanced Research Projects Agency 
(DARPA), the Marine Corps, and the Special Operations Command.
    Despite substantial appreciation for the critical role played by 
behavioral, cognitive and social science in national security, however, 
total spending on this research would decrease from $477.89 million 
appropriated in fiscal year 2004 to $421.29 million in the 
Administration's fiscal year 2005 budget, a 12 percent cut. 6.2 level 
applied behavioral research in particular would suffer dramatically 
under the Administration plan. The Air Force's 6.2 program would be cut 
by 19.7 percent, the Army's would be cut by 35 percent, and the Office 
of the Secretary Defense (OSD) program would be cut by 31.3 percent 
(the Navy's program would see a small decrease). In terms of 6.3 level 
research, the Air Force would suffer a 23.4 percent cut and OSD would 
see a 20 percent cut in fiscal year 2005. Basic, 6.1 level human-
centered research would remain essentially flat as it has for several 
years now.
    Behavioral and cognitive research programs eliminated from the 
mission labs due to cuts or flat funding are extremely unlikely to be 
picked up by industry, which focuses on short-term, profit-driven 
product development. Once the expertise is gone, there is absolutely no 
way to ``catch up'' when defense mission needs for critical human-
oriented research develop. As DOD noted in its own Report to the Senate 
Appropriations Committee:

    ``Military knowledge needs are not sufficiently like the needs of 
the private sector that retooling behavioral, cognitive and social 
science research carried out for other purposes can be expected to 
substitute for service-supported research, development, testing, and 
evaluation--our choice, therefore, is between paying for it ourselves 
and not having it.''

    The following are brief descriptions of critical behavioral 
research funded by the military research laboratories:
    Army Research Institute for the Behavioral and Social Sciences 
(ARI) and Army Research Laboratory (ARL).--ARI works to build the 
ultimate smart weapon: the American soldier. ARI was established to 
conduct personnel and behavioral research on such topics as minority 
and general recruitment; personnel testing and evaluation; training and 
retraining; and attrition. ARI is the focal point and principal source 
of expertise for all the military services in leadership research, an 
area especially critical to the success of the military as future war-
fighting and peace-keeping missions demand more rapid adaptation to 
changing conditions, more skill diversity in units, increased 
information-processing from multiple sources, and increased interaction 
with semi-autonomous systems. Behavioral scientists within ARI are 
working to help the armed forces better identify, nurture and train 
leaders. One effort underway is designed to help the Army identify 
those soldiers who will be most successful meeting 21st century 
noncommissioned officer job demands, thus strengthening the backbone of 
the service--the NCO corps.
    Another line of research at ARI focuses on optimizing cognitive 
readiness under combat conditions, by developing methods to predict and 
mitigate the effects of stressors (such as information load and 
uncertainty, workload, social isolation, fatigue, and danger) on 
performance. As the Army moves towards its goal of becoming the 
Objective Force (or the Army of the future: lighter, faster and more 
mobile), psychological researchers will play a vital role in helping 
maximize soldier performance through an understanding of cognitive, 
perceptual and social factors.
    ARL's Human Research & Engineering Directorate sponsors basic and 
applied research in the area of human factors, with the goal of 
optimizing soldiers' interactions with Army systems. Specific 
behavioral research projects focus on the development of intelligent 
decision aids, control/display/workstation design, simulation and human 
modeling, and human control of automated systems.
    Office of Naval Research (ONR).--The Cognitive and Neural Sciences 
Division (CNS) of ONR supports research to increase the understanding 
of complex cognitive skills in humans; aid in the development and 
improvement of machine vision; improve human factors engineering in new 
technologies; and advance the design of robotics systems. An example of 
CNS-supported research is the division's long-term investment in 
artificial intelligence research. This research has led to many useful 
products, including software that enables the use of ``embedded 
training.'' Many of the Navy's operational tasks, such as recognizing 
and responding to threats, require complex interactions with 
sophisticated, computer-based systems. Embedded training allows 
shipboard personnel to develop and refine critical skills by practicing 
simulated exercises on their own workstations. Once developed, embedded 
training software can be loaded onto specified computer systems and 
delivered wherever and however it is needed.
    Air Force Research Laboratory (AFRL).--Within AFRL, Air Force 
Office of Scientific Research (AFOSR) behavioral scientists are 
responsible for basic research on manpower, personnel, training and 
crew technology. The AFRL Human Effectiveness Directorate is 
responsible for more applied research relevant to an enormous number of 
acknowledged Air Force mission needs ranging from weapons design, to 
improvements in simulator technology, to improving crew survivability 
in combat, to faster, more powerful and less expensive training 
regimens.
    As a result of previous cuts to the Air Force behavioral research 
budget, the world's premier organization devoted to personnel selection 
and classification (formerly housed at Brooks Air Force Base) no longer 
exists. This has a direct, negative impact on the Air Force's and other 
services' ability to efficiently identify and assign personnel 
(especially pilots). Similarly, reductions in support for applied 
research in human factors have resulted in an inability to fully 
enhance human factors modeling capabilities, which are essential for 
determining human-system requirements early in system concept 
development, when the most impact can be made in terms of manpower and 
cost savings. For example, although engineers know how to build cockpit 
display systems and night goggles so that they are structurally sound, 
psychologists know how to design them so that people can use them 
safely and effectively.
Summary
    On behalf of APA, I would like to express my appreciation for this 
opportunity to present testimony before the Subcommittee. Clearly, 
psychological scientists address a broad range of important issues and 
problems vital to our national security, with expertise in 
understanding and optimizing cognitive functioning, perceptual 
awareness, complex decision-making, stress resilience, and human-
systems interactions. We urge you to support the men and women on the 
front lines by reversing another round of dramatic, detrimental cuts to 
the human-oriented research within the military laboratories.
    Below is suggested appropriations report language which would 
encourage the Department of Defense to fully fund its behavioral 
research programs within the military laboratories:
                         department of defense
    Behavioral Research in the Military Service Laboratories.--The 
Committee recognizes that psychological scientists address a broad 
range of important issues and problems vital to our national security 
through the military research laboratories: the Air Force Office of 
Scientific Research, the Army Research Institute and Army Research 
Laboratory, and the Office of Naval Research. Given the increasingly 
complex demands on our military personnel, psychological research on 
leadership, decision-making under stress, cognitive readiness, 
training, and human-technology interactions have become even more 
mission-critical, and the Committee strongly encourages the service 
laboratories to reverse cuts made to their behavioral research 
programs. A continued decline in support for human-centered research is 
not acceptable at a time when there will be more, rather than fewer, 
demands on military personnel, including more rapid adaptation to 
changing conditions, more skill diversity in units, increased 
information-processing from multiple sources, and increased interaction 
with semi-autonomous systems.

    Senator Stevens. Well, we will look into that cut. It is 
sort of a different type of reduction. We do not have any 
support for it yet, but we will inquire into it.
    Senator Inouye.
    Senator Inouye. Mr. Chairman, recently our attention has 
been focused on prisoner abuse. Would your studies have been 
able to detect flaws in one's character?
    Dr. Sager. Senator Inouye, that is an excellent question. A 
lot of the research I am personally involved with has to do 
with the personal characteristics required of enlisted soldiers 
in the Army. Among those are measures of conscientiousness and 
other psychological constructs that are very important to that. 
Yes, I think they would contribute to predicting problems and 
preventing problems in that area. However, research in that 
domain is very difficult and the Army is setting the standards 
in a lot of ways in that domain.
    Senator Inouye. Thank you. Thank you, Mr. Chairman.
    Senator Stevens. Thank you very much. We appreciate your 
testimony.
    Our next witness is Kenneth Galloway, the Dean of 
Vanderbilt University, appearing for the Association of 
American Universities (AAU). Good morning, Dean.
STATEMENT OF KENNETH F. GALLOWAY, DEAN, SCHOOL OF 
            ENGINEERING, AND PROFESSOR OF ELECTRICAL 
            ENGINEERING, VANDERBILT UNIVERSITY ON 
            BEHALF OF THE ASSOCIATION OF AMERICAN 
            UNIVERSITIES
    Dr. Galloway. Good morning. Mr. Chairman, Senator Inouye, I 
am Kenneth F. Galloway, Dean of the School of Engineering and 
Professor of Electrical Engineering at Vanderbilt University. I 
appear before you today on behalf of the Association of 
American Universities which represents 60 of America's most 
prominent public and private research universities. I have 
submitted a statement for the record and will briefly summarize 
the key points.
    I greatly appreciate this opportunity to testify in support 
of basic research and applied research funded in the research, 
development, testing, and evaluation section of the defense 
appropriations bill. I would like to thank Chairman Stevens, 
Ranking Member Inouye, and the members of the subcommittee for 
your past support of defense science and technology programs 
and specifically for basic and applied research sponsored by 
DOD and conducted at our Nation's universities. Your ongoing 
support of these programs is greatly appreciated.
    As the subcommittee begins work on the 2005 defense 
appropriations bill, the AAU offers the subcommittee two major 
recommendations.
    The first recommendation is that the committee support 
defense S&T at a level equal to 3 percent of the total defense 
budget. This has been recommended by both the Defense Science 
Board and the Quadrennial Defense Review. The core S&T programs 
include basic, applied, and advanced technology development, 
the 6.1 and 6.2 and 6.3 items. These investments are important 
to ensuring the technological superiority of America's military 
forces.
    The second recommendation addresses strengthening support 
of basic research. Today that support has declined to less than 
12 percent of DOD S&T funding. This has occurred as DOD has 
shifted some of its focus from support of fundamental, long-
range research to meeting more immediate, short-term defense 
objectives.
    In the early 1980's the basic research portion was nearly 
20 percent of total defense S&T. The AAU supports increasing 
the competitively awarded defense research sciences and 
university research initiative program elements in 2005 by $95 
million. The association also endorses continued growth and 
applied research at the 4.6 percent rate approved by Congress 
last year.
    Now, why do we think these recommendations are important? 
DOD-funded research at universities is concentrated in fields 
where advances are most likely to contribute to national 
defense. DOD accounts for 68 percent of Federal funding for 
university research in electrical engineering, 32 percent for 
computer sciences, 50 percent for material science and 
engineering, more than 50 percent for mechanical engineering, 
and 29 percent for ocean sciences. Additionally, DOD provides a 
significant amount of support for graduate students in critical 
defense fields.
    Examples of technologies in use today that have benefitted 
from university-based research include the global positioning 
system, GPS; the thermobaric bomb, or bunker buster; laser 
targeting systems that give us precision weapons; lightweight 
body armor; radar-evading materials, the internet; night vision 
and thermal imaging; unmanned aerial vehicle control; bio and 
chemical sensors. DOD investments in basic and applied research 
made these technologies available to the warfighter today.
    Many research efforts underway at universities and national 
laboratories around the country will lead to development of new 
technologies that will ensure our Nation's military superiority 
tomorrow.
    To conclude, the Nation must not sell short tomorrow's 
warfighters by undercutting research today. The AAU urges the 
subcommittee to strongly support the basic and applied science 
behind the best fighting force in the world.
    Again, I would like to thank the subcommittee for continued 
support of the Department of Defense research and urge members 
to sustain and grow the S&T programs that make such an 
important contribution to our national security. Thank you very 
much.
    [The statement follows:]
               Prepared Statement of Kenneth F. Galloway
    Mr. Chairman and members of the subcommittee: I am Kenneth F. 
Galloway, Dean of the School of Engineering and Professor of Electrical 
Engineering at Vanderbilt University. I appear before you today on 
behalf of the Association of American Universities, which represents 60 
of America's most prominent public and private research universities in 
the United States.
    I greatly appreciate this opportunity to testify today in support 
of basic research (6.1) and applied research (6.2) funded in the 
Research, Development, Testing and Evaluation (RDT&E) section of the 
Department of Defense (DOD) appropriations bill. I would also like to 
thank Chairman Stevens, Ranking Member Inouye, and the members of the 
subcommittee for past support of Defense Science and Technology (S&T) 
programs and specifically for basic and applied research sponsored by 
DOD and conducted at our nation's universities. Your ongoing support of 
these programs is recognized and greatly appreciated.
    As the subcommittee begins its work on the fiscal year 2005 defense 
appropriations bill, the AAU offers the subcommittee two major 
recommendations.
    Support Defense S&T at 3 percent of the total defense budget.--AAU 
supports recommendations by the Defense Science Board (1998) and the 
Quadrennial Defense Review (2001) to devote 3 percent of the DOD budget 
to core S&T programs. The core S&T programs include basic (6.1) and 
applied (6.2) research and advanced technology development (6.3) in the 
Army, Navy, Air Force, and Defense-Wide accounts. These investments are 
key to ensuring the future safety and technological superiority of 
America's military forces.
    Strengthen support of basic research.--In the early 1980's, basic 
research accounted for nearly 20 percent of total defense S&T funding. 
Today, that support has declined to less than 12 percent, as DOD has 
shifted some of its focus from support of fundamental, long-term 
research to meeting more immediate and short-term defense objectives.
    To begin to restore basic research funding to its effective 
historic levels, AAU supports increasing the competitively awarded 
Defense Research Sciences and University Research Initiative program 
elements in fiscal year 2005 by $95 million. The association also 
endorses continued growth in applied research at the 4.6 percent rate 
approved by Congress last year, which would be an increase of 
approximately $205 million.
Why defense research is important to universities (and universities are 
        important to defense research)
    DOD is the third largest federal sponsor of university-based 
research after the National Institutes of Health and the National 
Science Foundation. More than 300 universities and colleges conduct 
DOD-funded research and development. Universities receive more than 54 
percent of defense basic research funding and a substantial portion of 
defense applied research support.
    DOD funded research to universities is concentrated in fields where 
advances are most likely to contribute to national defense. DOD 
accounts for 68 percent of federal funding for university electrical 
engineering, 32 percent for computer sciences, 50 percent for 
metallurgy and materials engineering, and 29 percent for ocean 
sciences. DOD also sponsors fellowships and provides a significant 
amount of support for graduate students in critical defense fields such 
as computer science and aerospace and electrical engineering.
Why investing in DOD research is important to the nation
    If we do not invest adequately in DOD research, we will delay or 
even prevent the development of technologies that would provide 
critical protection to our future warfighters and make them more 
effective in the field. We need only look at how past knowledge and 
discoveries generated at U.S. universities have made major 
contributions to the nation's defense efforts. Examples of technologies 
used by troops today include the following.
  --The Global Positioning System (GPS) is one of the greatest assets 
        to the modern warfighter. GPS provides a precision of location 
        that was unimaginable decades ago, enabling military leaders to 
        pinpoint targets in a way that increases lethality and 
        minimizes collateral damage. The system also enables commanders 
        to know the precise location in the field of their human and 
        material assets. This crucial battlefield resource was 
        developed from fundamental physics research in atomic clocks.
  --The Thermobaric Bomb, or the ``bunker buster,'' has been used in 
        recent military campaigns in Afghanistan and Iraq. The new 
        technology was transformed from a laboratory concept to an 
        operational battlefield technology in less than three months. 
        As Rear Admiral Jay Cohen of the Office of Naval Research noted 
        in his statement for a hearing of the Senate Emerging Threats 
        and Capabilities Subcommittee in April, 2002: ``Such speed was 
        possible because the science was done before the need became 
        urgent.''
  --The ability of today's soldiers to fight in urban environments has 
        been profoundly increased by the use of lightweight and easily 
        deployed laser targeting systems. Troops today can discreetly 
        and precisely target a location, providing a critical 
        capability for increasingly frequent urban conflicts. Decades 
        ago, military research offices supported the fundamental 
        research that led to the development of the laser.
  --Lightweight Body Armor, a new technology developed for the 
        Department of Defense, can stop 30-caliber armor piercing 
        bullets yet has an aerial density of only 3.5 pounds per square 
        foot. To make the new self-adjusting reinforced helmets and 
        body armor, which can be tailored to fit the mission, 
        researchers used a new boron-carbide ceramic plate that weighs 
        10 to 30 percent less than conventional armor and delivers 
        equal or greater protection.
    There are many other examples of discoveries and technologies made 
possible through university-based defense basic research:
  --THE INTERNET started as ARPANET, which connected major universities 
        through the world's first packet-switched network. This 
        technology translated into a robust communications network 
        designed to protect the nation in the event of full attack.
  --NIGHT VISION and thermal imaging technology make it possible for 
        the U.S. Army to use forward-looking infrared detectors to spot 
        enemy forces and roll into combat in pitch-blackness.
  --UNMANNED AERIAL VEHICLES enable the warfighter to effectively and 
        affordably suppress enemy air defenses and conduct surveillance 
        missions without placing pilots at risk. University researchers 
        recently executed the most complex maneuver ever performed by 
        an unpiloted helicopter. This breakthrough could provide a new 
        tool for military reconnaissance and weapons delivery in 
        challenging terrains such as mountainous and urban areas.
  --BIO-SENSORS detect the presence of a biological or chemical agent. 
        University researchers helped design a sensor that can 
        determine the presence of anthrax spores, enabling officials to 
        differentiate quickly between hoaxes and real threats.
    Many research projects underway at universities and national labs 
around the country will lead to development of new technologies to 
ensure the nation's military superiority in the future. For example, at 
Vanderbilt University, our AFOSR-supported research on Survivable 
Electronics for Space and Defense Systems is leading to more resilient 
microelectronic devices to be used in defense systems. These devices 
are susceptible to damage and mission failure from radiation emanating 
from a variety of sources. Vanderbilt research will enable electronics 
designers to develop more reliable systems for defense applications and 
to deploy more advanced technologies in challenging radiation 
environments.
    Another example of Vanderbilt research, sponsored by DARPA funding, 
is the Monopropellant-Powered Actuation for a Powered Exoskeleton 
Project. Vanderbilt researchers are developing a lightweight system to 
power and control a wearable structure that will enable warfighters to 
carry up to 300 pounds for 12 hours. This power system uses high-
intensity hydrogen peroxide to deliver many times more power than 
batteries, at manageable temperatures, with completely benign emissions 
of water and oxygen.
    Other examples of DOD sponsored research occurring at other 
universities around the county include:
  --Semiconductors--The United States has been able to capitalize on 
        increased computing capacity to provide an economic and 
        military edge over other countries. But the U.S. computer-chip 
        industry is quickly approaching the physical limits of the 
        chip-making process. Without major research advances, the 
        semiconductor industry's ability to sustain the pace of 
        innovation could come to a halt in 10-15 years.
  --Nanotechnology research promises both miniaturization of existing 
        equipment and the potential for new materials, properties, and 
        devices. Much of the current research is focused on improving 
        the survival and comfort of soldiers. The 140-pound pack and 
        cotton fatigues worn by infantry today could be transformed 
        into a lightweight battlesuit able to protect the warfighter 
        from enemy and environmental threats. At the same time, these 
        suits could monitor health, help treat injuries, enable 
        communications, and enhance performance.
  --Explosives Detection Devices are an example of basic research 
        efforts where additional investments are still needed. Nuclear 
        quadropole resonance (NQR) technology detects and identifies 
        specific molecules, such as nitrogen, in explosives. The 
        technology has been adapted to detect landmines, roadside 
        explosives, and terrorist bombs in such places as Bosnia and 
        Iraq. But more research is needed to further transform and 
        refine the military's traditional explosive detection systems.
  --Self-Healing Technology research addresses medical limitations on 
        the battlefield, including a lack of supplies, diagnostic and 
        life-support equipment, and time for treatment. Research 
        efforts underway will accelerate healing time and reduce 
        casualties.
                               conclusion
    The nation must not sell short tomorrow's warfighters by 
undercutting research today. AAU urges the subcommittee to strongly 
support the basic and applied science behind the best fighting force in 
the world.
    Again, I would like to thank the subcommittee for its continued 
support of Department of Defense research and urge members to sustain 
and grow the S&T programs that make such an important contribution to 
our national security.

    Senator Stevens. Well, Dean, you raise an interesting 
conundrum because very clearly we have some systems coming on 
that we will have to postpone if we do not cut other places. We 
have the F-22, the V-22, Stryker, the Joint Strike Fighter. I 
think you make a good point, but on the other hand, none of the 
research you are talking about will be available by the time we 
either win or lose completely the war on terrorism in the 
Middle East. So I think you have requested a very difficult 
thing from us. The decision to defer basic research and instead 
apply the funding to moving new equipment like the armored high 
mobility multi-purpose wheeled vehicle (HMMWV), et cetera is a 
very clear decision Congress has already made. But we will look 
at your request.
    Dr. Galloway. I understand it is a very difficult time.
    Senator Stevens. It is difficult.
    Senator Inouye.
    Senator Inouye. The military has done well in developing 
body armor technology, and as a result, comparatively there are 
very few thoracic injuries. But we have an overabundance of 
amputations of all limbs, plus head injuries. Are you 
researching anything that would cover arms, legs, heads?
    Dr. Galloway. Senator, I am not aware of that work, but I 
will look into that and find you a reply.
    Senator Inouye. Thank you, sir.
    Senator Stevens. The Senator is correct. We noticed just an 
overwhelming change in the type of injuries that our people are 
coming home with. They are coming home, but they are coming 
home minus a lot of limbs and real serious head injuries, eye 
injuries. We have got to develop a better protection overall 
for our people. That type of basic research certainly would 
support.
    Thank you very much, Dean.
    Dr. Galloway. Thank you.
    Senator Stevens. We will now turn to Master Chief Joseph 
Barnes, United States Navy. He appears as the National 
Executive Secretary for the Fleet Reserve Association. Good 
morning, Chief.
STATEMENT OF MASTER CHIEF JOSEPH L. BARNES, USN (RET.), 
            NATIONAL EXECUTIVE SECRETARY, FLEET RESERVE 
            ASSOCIATION
    Mr. Barnes. Good morning, Mr. Chairman. Mr. Chairman, 
Senator Inouye, and other distinguished members of the 
subcommittee, the Fleet Reserve Association (FRA) appreciates 
the opportunity to present its views on the 2005 defense 
budget. My name is Joe Barnes. I am the National Executive 
Secretary for the Fleet Reserve Association and also co-chair 
of the Military Coalition's Personnel Committee.
    Before I address several priority issues, I want to thank 
this distinguished subcommittee for its leadership, support, 
and strong commitment to important quality of life programs 
benefitting servicemembers, reservists, military retirees and 
their families.
    FRA strongly recommends full funding for the defense health 
program and adequate appropriations to continue revitalizing 
the TRICARE Standard program. The association also believes 
TRICARE should be available for all reservists and their 
families on a cost-sharing basis. When finally implemented, the 
temporary Reserve health care program will provide coverage 
only through December 2004 for reservists who are unemployed or 
do not have employer-sponsored health care. FRA urges 
appropriations to make this program permanent and that it 
become the basis for a broader program for all reservists.
    FRA also supports appropriations necessary to implement the 
3.5 percent across-the-board increase on January 1, 2005.
    The association also strongly supports continued progress 
toward closing the military pay gap. Unfortunately, DOD's 
proposal for targeted pay increases for senior enlisted 
personnel and certain officer grades were not included in the 
administration's budget request. At a minimum, FRA supports 
funding pay increases at least comparable to the annual 
employment cost index.
    Adequate service end strengths are important to maintaining 
readiness. If force size is inadequate and OPTEMPO too heavy, 
the performance of individual servicemembers is affected. FRA 
believes that there are inadequate numbers of uniformed 
personnel to sustain the war effort and other operational 
commitments. This situation also creates considerable stress on 
the families of service personnel. It appears that DOD is very 
concerned with the cost of personnel, to the extent that it is 
reluctant to increase service end strengths.
    The military survivor benefit plan provides an annuity to 
surviving spouses equal to 55 percent of covered retired pay. 
This amount is reduced to 35 percent when the beneficiary 
begins receiving Social Security. FRA was instrumental in the 
enactment of this program in the early 1970's and strongly 
supports reform legislation to increase the annuity and funding 
the program at the intended 40 percent level rather than the 
current level of approximately 19 percent.
    When authorized, FRA supports funding for full concurrent 
receipt of military retired pay and VA disability compensation, 
increased Reserve Montgomery G.I. Bill (MGIB) education 
benefits which are currently funded well below the authorized 
level, funding for family awareness and support and spouse 
employment opportunities, which are integral to the well-being 
and retention of the active and Reserve servicemembers, and 
supplemental Impact Aid funding for school districts with large 
numbers of military-sponsored students.
    FRA strongly supports funding to maintain the commissary 
benefit at the current level and restates its continuing 
opposition to privatization.
    Finally, FRA advocates retention of the full, final months 
retired pay by the retiree's surviving spouse and the extension 
of the dislocation allowance to retiring servicemembers.
    If authorized, the association asks for your support for 
these proposals which have also been endorsed by the Military 
Coalition. Thank you again, Mr. Chairman, for the opportunity 
to present the association's recommendations for fiscal year 
2005.
    Senator Stevens. Thank you very much, Chief. That is a long 
list. Some of us who have been around for a while understand 
continuing to pay into a retirement fund, but that has been 
tried before. It has really not been accepted by Congress so 
far.
    Senator Inouye.
    Senator Inouye. Well, Mr. Chairman, we all recognize the 
heavy reliance upon Reserves and Guards in this war, so I can 
assure you that we are looking at this very carefully.
    Mr. Barnes. Thank you, Senator.
    Senator Stevens. Thank you very much, Chief.
    [The statement follows:]
          Prepared Statement of Master Chief Joseph L. Barnes
                              introduction
    Mr. Chairman and other distinguished Members of the Subcommittee: 
The Fleet Reserve Association (FRA) is grateful for the opportunity to 
present its military personnel goals for fiscal year 2005. Before 
continuing, I want to express deep appreciation on behalf of the 
Association's membership for the quality of life improvements 
implemented over the past few years for our Nation's men and women in 
the Uniformed Services. What this august group has done for our active 
duty, reserve, and retired service members is not only superlative but 
unusually generous for Congress in comparison with the previous two to 
three decades.
    In the active force, the plea is for increased funding to 
compensate for the arduous operational and personal tempos thrust upon 
the members of the uniformed services. Others prefer better housing, 
perhaps increased child-care programs, or any of the many programs and 
benefits available to them and their families. Reservists support 
enhanced retirement benefits, special pays, and increased MGIB 
proceeds. The retired community seeks funding for the Uniformed 
Services Survivor Benefit Plan (USSBP), full concurrent receipt of 
military retirement pay and VA service connected payments, and a 
reasonable access to health care services.
                         active duty component
    Pay.--Always number one in most surveys completed by FRA and the 
active forces is pay. This distinguished Subcommittee, alerted to this 
fact for the past six years, has improved compensation that, in turn, 
enhanced the recruitment and retention of uniformed personnel in an 
all-volunteer environment. Adequate and targeted pay increases for 
middle grade and senior petty and noncommissioned officers have 
contributed to improved morale and readiness. With a uniformed 
community that is more than 50 percent married, satisfactory 
compensation relieves much, if not all the tension brought on by 
operational and personal tempos.
    For fiscal year 2005, the Administration has recommended a 3.5 
percent across the board basic pay increase for members of the Armed 
Forces. This is commensurate with the 1999 formula to provide increases 
of 0.5 percentage points greater than that of the previous year for the 
private sector. With the addition of targeted raises, the formula has 
reduced the pay gap with the private sector from 13.5 percent to 5.2 
percent following the pay increase programmed for January 1, 2005.
    FRA, however, is disappointed that the Office of Management and 
Budget (OMB) is opposed to targeted pay increases for certain enlisted 
and officer pay grades. This in the face of the Defense Department's 
projected recommendation to affect targeted pays along the line of 
those authorized for fiscal year 2004. Targeting pay hikes for fiscal 
year 2005 and fiscal year 2006 will aide the Department's quest to 
increase basic pay for career personnel to equal those in the private 
sector earned by workers having similar education and experience 
levels.
    FRA urges the Subcommittee to fund the authorized pay increase for 
fiscal year 2005, and ensure that uniformed members of the Public 
Health Service (USPHS) are included in the pay increase.
                           retired component
    Survivor Benefit Plan.--FRA has experienced a greater concern for 
improving the Uniformed Services Survivor Benefit Program (USSBP) than 
any issue on its website (www.fra.org). With an average age of 68 on 
the Association's membership roll, the concern is justified. Most 
convincing is the need to revise the language in the current Plan to 
reduce the ``social security offset'' that penalizes annuitants at a 
time when the need is the greatest. Then there are the many members, 
age 70 and older, who have been paying into the Plan for more than 30 
years with the only relief more than four years into the future.
    Although Congress has adopted a time for USSBP participants to halt 
payments of premiums (when payments of premiums equal 30 years and the 
military retiree is 70 years of age) the date is more than four years 
away. Military retirees enrolling on the initial enrollment date (1972) 
will this September be paying premiums for 32 years, by 2008, thirty-
six years.
    FRA recommends and urges the Subcommittee to provide funding for 
the restoration of the value of service members participating in the 
Uniformed Services Survivor Benefit Plan (USSBP) by increasing the 
survivor annuity over a ten-year period to 55 percent, and the date 
2008 to October 31, 2004 when certain participants attaining the age of 
70 and having made payment to the Plan for at least 30 years are no 
longer required to make such payments.
    Basic Allowance for Housing (BAH).--In concert with The Military 
Coalition, FRA supports revised housing standards that are more 
realistic and appropriate for each pay grade. Many enlisted personnel 
are unaware of the standards for their respective pay grade and assume 
they are entitled to a higher standard than authorized.
    FRA extends appreciation to the Subcommittee for acting a few years 
ago to reduce out-of-pocket housing expenses for service members. 
Responding to the Subcommittee's leadership on this issue, the 
Department of Defense proposed a similar phased plan to reduce median 
out-of-pocket expenses to zero by fiscal year 2005. This aggressive 
action to better realign BAH rates with actual housing costs is having 
a real impact and providing immediate relief to many service members 
and families who are strapped in meeting rising housing and utility 
costs.
    The Association applauds the Subcommittee's action, and is in hope 
that this plan is funded for fiscal year 2005. Unfortunately, housing 
and utility costs will become more expensive, and the pay comparability 
gap, while diminished over recent years--thanks to the Subcommittee's 
leadership--continues to widen. Members residing off base face higher 
housing costs, along with significant transportation costs, and relief 
is especially important for junior enlisted personnel who do not 
qualify for other supplemental assistance.
    FRA urges the Subcommittee to provide the necessary appropriations 
to eliminate out-of-pocket housing expenses in fiscal year 2005.
    Basic Allowance for Subsistence (BAS).--FRA is grateful for the 
establishment of a food-cost-based standard for BAS and repealing the 
one percent cap on BAS increases. There is more to be done to permit 
single career enlisted members greater individual responsibility in 
their personal living arrangements. In this regard, the Association 
believes it is inconsistent to demand significant supervisory, 
leadership and management responsibilities of noncommissioned and petty 
officers, but still dictate to them where and when they must eat their 
meals while at their home duty station.
    FRA urges the Subcommittee to fund the necessary appropriations to 
repeal the statutory provision limiting BAS eligibility to 12 percent 
of single members residing in government quarters.
    Force Size/Readiness/OPTEMPO/PERSTEMPO.--Force size, readiness, 
OPTEMPO, and PERSTEMPO should be addressed simultaneously. Readiness 
cannot be achieved at the high level demanded if force size is 
inadequate in numbers, OPTEMPO is too heavy and PERSTEMPO is affecting 
the performance of individual service members. FRA believes that all 
are suffering due to a shortage of uniformed members. Once again, DOD 
apparently is so concerned with the cost of personnel that it is 
reluctant to increase manpower strengths when it's obvious to FRA and 
others there is a need for more troops. If DOD says there is no 
requirement for more troops than authorized, then why did three of the 
military services recently issued stop-loss orders to many of their 
uniformed personnel? ``It reflects the fact that the military is too 
small,'' says Charles Moskos, a leading military sociologist, ``which 
nobody wants to admit.''
    The Department played an integral role in having Congress give 
birth to the All-Volunteer Force. As such, it must stay the course 
realizing that people who volunteer to lay down their lives and limbs 
will not do so at the same level of compensation offered their 
predecessors of the WWII-Vietnam era. Today 50 percent or more of our 
military personnel are married and have families. It costs money to 
enfold these families under the military's social umbrella. If the 
United States desires an all-volunteer armed force, it will have to pay 
the price. Paying the price will allow the Department to increase the 
size of its uniformed force in order to relieve the pressure of lengthy 
deployments, long hours on duty, and family concerns, each having its 
own negative effect on readiness. One service chief stated that he 
would spend every dollar available to ``modernize'' his service (how 
many years now?), but not one cent more for people. Such a statement 
seems incredible when one knows historically that final victory is in 
the hands of the people.
    FRA recommends that the military services be afforded the 
opportunity to determine the size of its forces and the number of 
personnel necessary to perform the mission. However, when it appears 
that an increase is captive to the choice of more weapons systems over 
manpower, Congress should appropriate adequate funds to add more 
uniformed numbers to the strength of the armed forces.
    Impact Aid.--FRA is most appreciative for the Impact Aid authorized 
in previous Defense measures but must urge this Subcommittee and its 
full Committee to support a substantial increase in the funding for 
schools bearing the responsibility of educating the children of 
military personnel and federal employees. Current funds are not 
adequate to ably support the education of federally sponsored children 
attending civilian community elementary schools. Over the years, 
beginning with the Nixon Administration, funding for Impact Aid has 
decreased dramatically. For example, in the current fiscal year the 
Military Impacted Schools Association (MISA) estimates Impact Aid is 
funded at only 60 percent of need according to law. Our children should 
not be denied the best in educational opportunities. Impact Aid 
provides a quality education to the children of our Sailors, Marines, 
Coast Guardsmen, Soldiers, and Airmen.
    FRA implores Congress to accept the responsibility of fully funding 
the military Impact Aid program. It is more important now to ensure our 
service members, many serving in harm's way, they have little to 
concern with their children's future but more to do with the job at 
hand.
    Dislocation Allowance (DLA).--Moving households on government 
orders can be costly. Throughout a military career, service members 
endure a number of permanent changes of station (PCS). Too often each 
move requires additional expenses for relocating to a new area far 
removed from the service members' current location.
    Odd as it may appear, service members preparing to retire from the 
Armed Forces are not eligible for dislocation allowances, yet many are 
subject to the same additional expenses they experienced when effecting 
a permanent change of station during the 20 or more years of active 
duty spent earning the honor to retire. In either case, moving on 
orders to another duty station or to retire are both reflective of a 
management decision. Retiring military personnel after completing 20 
years of service is advantageous to the Armed Forces. It opens the 
ranks to much younger and healthier accessions.
    FRA recommends appropriating funds for the payment of dislocation 
allowances to members of the Armed Forces retiring or transferring to 
an inactive duty status such as the Fleet Reserve or Fleet Marine 
Reserve, who perform a ``final change of station'' move of 50 or more 
miles.
    MGIB-SR.--The Selected Reserve MGIB has failed to maintain a 
creditable rate of benefits with those authorized in Title 38, Chapter 
30. Other than cost-of-living increases, only two improvements in 
benefits have been legislated since 1985. In that year MGIB rates were 
established at 47 percent of active duty benefits. This past October 1, 
the rate fell to 27 percent of the Chapter 30 benefits. While the 
allowance has inched up by only 7 percent since its inception, the cost 
of education has climbed significantly.
    FRA stands four square in support of the Nation's Reservists. To 
provide an incentive for young citizens to enlist and remain in the 
Reserves, FRA recommends to Congress the pressing need to enhance the 
MGIB-SR rates for those who choose to participate in the program.
    Concurrent Receipt.--The fiscal year 2003 National Defense 
Authorization Act (NDAA) authorizes a special compensation that 
establishes a beachhead to authorizing full concurrent receipt, a term 
for the payment of both military non-disability retired pay and any VA 
compensation for service-connected disabilities without a reduction in 
one or the other payment. The fiscal year 2004 NDAA expanded the 
beneficiary list to include those retired service members with at least 
a 50 percent compensatory service-connected disability. Although FRA is 
appreciative of the effort of Congress to address the issue, it fails 
to meet the resolution adopted by the Association's membership to seek 
full compensation for both length-in-service military retirement and VA 
compensation. Currently, the receipt of VA compensation causes a like 
reduction to a retired service member's military retired pay. This 
leads to the belief, and well-deserved, that retired service members, 
earning retired pay as a result of 20 years or more of service, are 
forced to pay for their own disablement.
    Most disabilities are recognized after the service member retires. 
Some are discovered while the member is still performing active duty or 
as the result of a retirement physical. However, it is to the benefit 
of the Department of Defense to retire the member without compensation 
for any disability. Instead, the member is directed to the Department 
of Veterans' Affairs for compensatory relief for the damages incurred 
by the member while serving the Nation in uniform.
    FRA encourages Congress to take the helm and fully fund concurrent 
receipt of military non-disabled retirement pay and veterans' 
compensation program as currently offered in S. 392 introduced by 
Senator Harry Reid (Nev.). Congress should remember that U.S. service 
members, more so than any collective group, not only had a major hand 
in the creation of this Nation, but have contributed for more than 227 
years to the military and economic power of the United States.
    Cost of Living Adjustments (COLA).--Recent threats to curtail or 
halt cost of living adjustments (COLAs) have been lobbed in the 
direction of military retired pay and related payments such as survivor 
benefit annuities. Once again, Congress is urged to keep its promise 
that military retired pay will maintain its purchasing power based on 
increases in the Consumer Price Index (CPI).
    One must recall that the wisdom of Congress initiated the COLA 
program in lieu of the ``re-computation'' system. Re-computation was a 
term used to describe adjustments to military retired pay prior to the 
1970s. Military retirees received retirement pay adjustments each time 
active duty pay was increased. This system guaranteed the service 
member if he/she retired at a certain percentage of active duty pay, 
that pay would maintain the same percentage factor to active duty pay 
throughout retirement. In 1963, Congress--concerned with a heightened 
number of retired WWII members on the retired roll--decided to switch 
to the CPI method.
    Conversely, COLA protection is the paramount reason military 
retirees make an irrevocable decision to elect significant reductions 
in retired pay to provide surviving spouses and children with an 
annuity following the retiree's death. The most compelling reason for 
the decision is that the guaranteed inflation protection made the 
Uniformed Services Survivor Benefit Plan (USSBP) a superior alternative 
to life insurance policies. The sequestration of COLA funds violate 
that guarantee and greatly diminishes the value of the USSBP.
    FRA recommends that Congress--if it reduces the fiscal year 2005 
budget--not target military and federal retirees' retirement pay. Such 
action is discriminating and contrary to the promise made by Congress 
to maintain the purchasing power of military retirement pay. Full 
funding for the Defense Health Budget: Once again, a top FRA priority 
is to work with Congress and DOD to ensure full funding of the Defense 
Health Budget to meet readiness needs--including Graduate Medical 
Education (GME) and continuing education, full funding of both direct 
care and purchased care sectors, providing access to the military 
health care system for all uniformed services beneficiaries, regardless 
of age, status or location. A fully funded health care benefit is 
critical to readiness and the retention of qualified uniformed service 
personnel.
    FRA is concerned with reports from the Services that the current 
funding level falls short of what is required to meet current 
obligations and that additional supplemental funding will once again be 
required. For example, the association has encountered several 
instances in which local hospital commanders at Malcom Grove Medical 
Center, Andrew Air Force Base, Md. Dewitt Army Medical Center, 
Arlington, Va., Bethesda Naval Medical Center, Bethesda, Md., have 
terminated service for retired beneficiaries, citing budget shortfalls 
as the reason. Health care requirements for members returning from Iraq 
are also expected to strain the military delivery system in ways that 
are not anticipated in the budgeting process.
    Similarly, implementation of the TRICARE Standard requirements in 
fiscal year 2003 Defense Authorization Act--particularly those 
requiring actions to attract more TRICARE providers will certainly 
require additional resources that appear not to be in the current 
budget request.
    The FRA strongly recommends the Subcommittee continue to ensure 
full funding of the Defense Health Program, to include military medical 
readiness, needed TRICARE Standard improvements, and the DOD peacetime 
health care mission. It is critical that the Defense Health Budget be 
sufficient to secure increased numbers of providers needed to ensure 
access for TRICARE beneficiaries in all parts of the country.
    Pharmacy Cost Shares for Retirees.--In 2003, the Office of 
Management and Budget (OMB) and the Defense Department considered a 
budget proposal that envisioned significant increases in retiree cost 
shares for the TRICARE pharmacy benefit, and initiating retiree copays 
for drugs obtained in the direct care system. While the proposal was 
put on hold for this fiscal year, FRA is concerned that DOD is 
undertaking a review that almost certainly will recommend retiree copay 
increases in fiscal year 2006.
    Thanks to the efforts of this Subcommittee, it was less than three 
years ago that Congress authorized the TRICARE Senior Pharmacy Program 
(TSRx). DOD established $3 and $9 copays for all beneficiaries. Defense 
leaders highlighted this at the time as ``delivering the health 
benefits military beneficiaries earned and deserve.'' But the Pentagon 
already has changed the rules and will remove many drugs from the 
uniform formulary and raise the copay on such drugs to $22.
    The FRA vigorously opposes increasing retiree cost shares that were 
only recently established. Congress' recent restoration of retiree 
pharmacy benefits helped restore active duty and retired members' faith 
that their government's health care promises would be kept. If 
implemented, this proposal would undermine that trust, which in the 
long term, can only have adverse affects on retention and readiness.
    The FRA urges the Subcommittee to continue to reject imposition of 
cost shares in military pharmacies and oppose increasing other pharmacy 
cost shares that were recently established.
    Healthcare for Members of the National Guard and Reserve.--The FRA 
is grateful to this Subcommittee for ensuring that the Temporary 
Reserve Health Care Program was included in the fiscal year 2004 
National Defense Authorization Act. This program will provide coverage, 
through December 2004, for National Guard and Reserve members who are 
unemployed or do not have employer-sponsored health care coverage. 
TRICARE officials plan to build on existing TRICARE mechanisms to 
expedite implementation; however, no one is certain how long this will 
take. Immediate implementation is required, and a permanent program 
must be established.
    Health insurance coverage varies widely for members of the Guard 
and Reserve: some have coverage through private employers, others 
through the Federal government, and still others have no coverage. 
Reserve families with employer-based health insurance must, in some 
cases, pick up the full cost of premiums during an extended activation. 
Although TRICARE ``kicks in'' at 30 days activation, many Guard and 
Reserve families would prefer continuity of care through doctors and 
their own health insurance. Being dropped from private sector coverage 
as a consequence of extended activation adversely affects family morale 
and military readiness and discourages some from reenlisting. Many 
Guard and Reserve families live in locations where it is difficult or 
impossible to find providers who will accept new TRICARE patients. The 
FRA urges the authority for federal payment of civilian health care 
premiums (up to the TRICARE limit) for dependents of mobilized service 
members.
    Dental readiness is another important aspect of readiness for Guard 
and Reserve personnel. Currently, DOD offers a dental program to 
Selected Reserve members and their families. During the recent 
mobilization, soldiers with repairable dental problems were having 
teeth extracted at mobilization stations in the interests of time and 
money instead of having the proper dental care administered earlier. 
Congress responded by passing legislation that allows DOD to provide 
medical and dental screening for Selected Reserve members who are 
assigned to a unit that has been alerted for mobilization in support of 
an operational mission, contingency operation, national emergency, or 
war. During the initial mobilization for Operation Iraqi Freedom, the 
average time from alert to mobilization was less than 14 days, not 
sufficient time to improve dental readiness. In some cases, units were 
mobilized before receiving their alert orders. This lack of notice for 
mobilization continues, with many reservists receiving only days of 
notice before mobilizing.
    The TRICARE Dental Plan benefits should be expanded for Guard and 
Reserve service member. This would allow all National Guard and Reserve 
members to maintain dental readiness and alleviate the need for dental 
care during training or mobilization.
    The FRA urges: making the Temporary Reserve Health Care Program 
permanent and expanding coverage to all members of the National Guard 
and Reserve Component and their families on a cost-sharing basis; 
allowing federal payment of civilian health care premiums for the 
families of deployed reservists who choose to keep their civilian 
healthcare; and expansion of the TRICARE Dental Plan for National Guard 
and Reserve service members in order to ensure medical readiness and 
provide continuity of coverage to members of the Selected Reserve.
                               conclusion
    FRA is grateful for the opportunity to present its goals for fiscal 
year 2005. If there are questions or a need for further information, 
please call Bob Washington, FRA Director of Legislative Programs, at 
703-683-1400.
STATEMENT OF ARTHUR B. BAGGEROER, MASSACHUSETTS 
            INSTITUTE OF TECHNOLOGY ON BEHALF OF THE 
            CONSORTIUM FOR OCEANOGRAPHIC RESEARCH AND 
            EDUCATION
    Senator Stevens. Our next witness is Arthur Baggeroer. Is 
that right? Is that close enough? He is from the Massachusetts 
Institute of Technology (MIT) and the Consortium for 
Oceanographic Research and Education. Good morning, sir.
    Dr. Baggeroer. Thank you, Senator. Chairman Stevens, 
Senator Inouye, I want to thank you for the opportunity to 
appear before you this morning and for the strong support you 
and your committee have shown for basic research within the 
Navy. My name is Arthur Baggeroer, and I appear on behalf of 
the 76 members of the Consortium on Oceanographic Research, 
which does include the University of Alaska and Hawaii and is 
commonly called CORE.
    I am Ford Professor of Engineering at MIT and one of the 
Secretary of the Navy (SECNAV) Chief of Naval Operations (CNO) 
Chairs for Ocean Science in the Departments of Ocean and 
Electrical Engineering at MIT.
    Since its founding in 1946, the Office of Naval Research 
has been one of the Nation's leading supporters of high-risk, 
cutting-edge basic research. America's oceanographers were and 
continue to be active partners with the Office of Naval 
Research in providing today and tomorrow's sailors and marines 
with the tools necessary to continue to be the finest 
warfighters in the world. However, when we look to the coming 
decades, we are deeply concerned that the Navy's robust support 
for high-risk basic research is deteriorating.
    Bold, high-risk, cutting-edge basic research has been a 
crucial component of the Navy's battlespace superiority for 
many decades. It is easy to enumerate a very long list. Much of 
the research conducted decades ago deployed in the fleet today 
was once high-risk and cutting-edge. None of the researchers 
could have imagined its application in Iraq or Afghanistan. It 
was not focused on specific applications. But without it and 
without the support that made it possible, our soldiers, 
sailors, airmen, and marines would not have had the 
technological edge they enjoy on the battlefield.
    I am sure that you are aware of the global war on terrorism 
is presenting the Navy with new and challenging threats. The 
threats must be addressed by robust support for science and 
technology.
    There are a number of scientific challenges I outlined in 
my written testimony, but I want to take a few moments to 
discuss the threats posed by a couple, the proliferation of 
quiet diesel and electric air independent propulsion submarines 
in littoral operations.
    These vessels or submarines are being purchased by many 
states, the most prevalent being the Russian Kilo 4 class of 
acquired by China and Iran and the German 200 series. These 
boats are as quiet as a modern nuclear class submarine. While 
limited in endurance and speed, they are clearly useful near 
the coastal waters of a country for anti-surface warfare and 
ASW and present a significant threat and challenge. The input 
of basic oceanography, unmanned undersea vehicles and novel 
communications are part of the paradigm for detecting, 
tracking, and localizing these boats. While some of these 
components may emerge as incremental improvements to existing 
ones, the Navy now needs bold technologies to survey in near 
real time the ocean environment, as well as fixed acoustic 
systems to maintain persistent monitoring of important 
operational regions. Enabling these innovations for use by 
future officers are now part of the Office of Naval Research 
(ONR) charter. Reduced commitments to this basic research now 
just mortgages the future for combatting this threat.
    I would also like to note that it is crucial for the Navy 
to maintain a vigorous scientific research program to enhance 
its mine countermeasures in littoral operations.
    Finally, as operations increase in the littorals and the 
adjacent shelves, it is vital that the Navy support the science 
necessary to effectively characterize this region so the fleet 
can effectively operate.
    While basic research has served the warfighter, its 
prominence in the defense S&T portfolio has declined 
dramatically. It is no longer enjoying the robust support it 
did in decades past. In the early 1980's, basic research stood 
at over 17 percent of S&T funding. As we discussed earlier, 
significant payoffs were seen. Unfortunately, now basic 
research stands below 12 percent of the S&T funding. It is 
crucial that we ensure robust support of DOD S&T so that we 
have the capabilities to confront the challenges and threats of 
the future battlefield. It is toward this goal that the basic 
research should be and is directed but also with this goal in 
mind that all funding decisions should be made.
    Specifically, CORE recommends returning the basic research, 
or 6.1, to the end of cold war levels, 16 percent of S&T, by 
fiscal year 2009.
    The new resources associated with these increases should be 
directed to two basic research accounts where the majority of 
the competitively awarded funds are accessible: the university 
research initiative, URI, and the defense research science, 
DRS.
    Since the end of the cold war, basic research has paid its 
part of the peace dividend. As we enter another era of 
prolonged conflict, we strongly urge you to reenergize the 
Department's support for basic research.
    Thank you again for the opportunity to bring these 
important issues to your attention. I welcome the opportunity 
for any questions.
    [The statement follows:]
               Prepared Statement of Arthur B. Baggeroer
    Chairman Stevens, Ranking Member Inouye, and Members of the Defense 
Subcommittee of the Senate Appropriations Committee, I want to thank 
you for the opportunity to appear before you this morning and for the 
strong support you and your committee have shown for basic research 
within the Navy.
    My name is Arthur B. Baggeroer and I appear of behalf of the 76 
member institutions of the Consortium for Oceanographic Research and 
Education, commonly referred to as CORE. I am the Ford Professor of 
Engineering and Secretary of the Navy/Chief of Naval Operations Chair 
for Ocean Science in the Departments of Ocean and Electrical 
Engineering at the Massachusetts Institute of Technology. Some of 
CORE's other members include Woods Hole Oceanographic Institution, Penn 
State, Texas A&M, Scripps Institution of Oceanography and the 
Universities of Alaska, Hawaii, Southern Mississippi, New Hampshire, 
Texas, South Carolina, and California at San Diego. Our membership 
represents the nucleus of American academic oceanographic research.
    Since its founding in 1946, the Office of Naval Research has been 
one of the nation's leading supporters of high-risk cutting edge basic 
research. The Office has supported the research of fifty Nobel 
laureates. It has participated in breakthrough discoveries in areas 
such as lasers, precision timekeeping, and molecular biology. Without 
question the past five decades have seen the ONR fulfill its mission: 
``To plan, foster and encourage scientific research in recognition of 
its paramount importance as related to the maintenance of future naval 
power, forced entry capability, and the preservation of national 
security.''
    America's oceanographers were and continue to be active partners 
with the Office of Naval Research in providing today and tomorrow's 
sailors and marines with the tools necessary to continue to be the 
finest warfighters in the world. When we look back at the past fifty 
years, we see a history of courageous investment and bold discoveries 
that paved the path to the end of the Cold War and have provided the 
technology base for today's fleet. However, when we look to the coming 
decades, we are deeply concerned that the Navy's robust support is 
deteriorating.
    Bold, high-risk cutting edge basic research has been a crucial 
component of the Navy's battlespace superiority for decades. For 
example, basic research into packet switching laid the foundation for 
what we know as the Internet and is the fundamental science behind the 
technology underlying net-centric warfare, an increasingly important 
asset to the Navy and Marine Corps.
    As you may know, basic research supported by the Navy led to the 
development of the laser. These discoveries led directly to the advent 
of small, easily handled lasers that allow soldiers, sailors, airmen 
and marines to precisely locate targets and provide coordinates for 
sailors and airmen to deliver munitions to targets.
    All of the underlying research for these systems was high-risk and 
cutting edge when it was conducted decades ago and none of the 
researchers could have imagined its application in Iraq or Afghanistan. 
It was not focused on specific applications. But without it and without 
the support that made it possible, our soldiers, sailors, airmen and 
marines would not have had the technological edge they enjoy on the 
battlefield.
    While the Cold War is thankfully an artifact of history, and many 
of the threats it posed to the Navy have receded, the Global War on 
Terrorism presents the Navy with a new and equally challenging suite of 
threats: threats that must be addressed by robust support for science 
and technology.
    Of particular concern to the Navy are the challenges of littoral 
warfare, the threats posed by submerged mines, and the proliferation of 
quiet diesel submarines. Academic oceanographers are working to help 
the Navy meet all these challenges.
    As you may be aware, sonar system performance in the littoral is 
extremely complex. Presently we cannot reliably predict transmission 
losses, a key component of the sonar equation, in these regions. The 
seabed dominates this problem leading to a ``range curtain'' 
attenuating acoustic energy of threat submarines and limiting the 
Navy's detection and tracking capability.
    Better understanding of the geology and geoacoustics of the seabed 
are critical to the successful deployment of ships and sensors. Also 
complicating operations in the littoral is wave phenomena, more 
pronounced in the littoral, which limit sonar performance. Finally, 
ambient noise produced by high density fishing fleets and commerce lead 
to very cluttered displays of the local acoustic environment--
complicating everything from ASW to the safe surfacing of a submarine. 
Clearly this is a complicated environment for the Navy to operate in. 
Addressing the uncertainties and challenges in this crucial environment 
will require a reinvigorated regime of academic oceanographic research.
    In addition to the challenges posed by littoral combat are the 
threats posed to the fleet by submerged mines. Mine countermeasures and 
clearance is a similarly complicated problem. Currently the Navy faces 
a situation where cheap mines, costing less than $1,000, can impede the 
operation of a battle group or access to a port. Currently, countries 
make mines that appear to be an ``acoustic rock,'' i.e. they have 
virtually all the physical attributes of a natural rock. Nevertheless, 
dolphins can identify the threats but no current technology can. The 
basic science of what are the distinguishing acoustical features of an 
actual rock and ``acoustic one'' are vital for routine mine 
countermeasures and clearance and prompt execution of Naval operations.
    Finally, the availability of modern diesel electric submarines is 
one of the greatest threats to Naval operations. These vessels are 
being purchased by many states, the most prevalent being the Russian 
Kilo 4 class acquired by China and Iran and the German 2xx classes. 
These boats are as quiet as a modern nuclear class submarine. While 
limited in endurance and speed, they are clearly useful near the 
coastal waters of a country. The ASW threat is a significant challenge 
and the input of basic oceanography, unmanned undersea vehicles (UUV's) 
and novel communications, are part of paradigm for detecting, tracking 
and localizing these boats. While some of these components may emerge 
as incremental improvements to existing ones, the Navy needs bold new 
technologies to survey in near real time in the ocean environment as 
well as fixed acoustic systems to maintain persistent monitoring of 
important operational regions. Enabling these innovations for use by 
future officers are part of ONR's charter. Reduced commitments to the 
basic research now needed just mortgages the future for combating this 
threat.
    These are all hard basic research issues, issues that will take 
time to solve, but issues that are essential to the safe and effective 
operation of the fleet.
    While basic research played a critical role in winning the Cold 
War, faithfully served the warfighter in Iraq and Afghanistan and 
unquestionably will play a critical role in the global war on 
terrorism, its prominence in the Defense S&T portfolio has declined 
dramatically with the end of the Cold War. It no longer enjoys the 
robust support it did in decades past.
    In the early 1980's basic research stood at over seventeen percent 
of S&T funding. As we discussed earlier, significant payoffs were seen. 
This era of robust support for basic research paid off in technologies 
such as UAVs (sea, air, land), thermobaric bombs, communications 
systems, materials used in protection vests and battlefield medicine 
advances.
    Unfortunately, basic research now stands at below 12 percent of S&T 
funding. Equally important funding levels have slipped below levels 
required to maintain the stability and the readiness of the future 
defense technical workforce and innovative military discoveries. It is 
crucial that we ensure robust support for DOD S&T so that we have the 
capabilities to confront the challenges and threats of the future 
battlefield. It is toward this goal that basic research should be, and 
is, directed. It is also with this goal in mind that all funding 
decisions should be made.
    Specifically, CORE recommends returning 6.1 (basic) research to end 
of Cold War levels (16 percent of S&T) by fiscal year 2009 and 
recommends establishment of measurements to link the research 
enterprise with the acquisition and requirements communities to ensure 
that additional resources are directed toward identified capability 
gaps.
    The new resources associated with these increases should be 
directed to two basic research accounts where the majority of the 
competitively-awarded funds are accessible: the University Research 
Initiative (URI) and Defense Research Sciences (DRS). Sixteen percent 
is not the high water mark for basic research in the S&T total, but a 
practical place to start in putting these programs on the path to 
recovery.
    Since the end of the Cold War, basic research has paid its part of 
the peace dividend. As we enter another era of prolonged conflict, we 
strongly urge you to reenergize the department's support for basic 
research.
    In addition to our concerns about the funding levels for basic 
research and S&T generally is the focus of research at the Office of 
Naval Research. We are concerned that pressures outside of ONR may be 
leading the office in a direction that departs from its traditional 
aggressive support for high-risk basic research. We are distressed that 
the 6.1 account, which is supposed to be discovery oriented basic 
research, is increasingly becoming short-term product-driven applied 
research. Let me be clear, we firmly believe that applied research and 
advanced technology development are crucial parts of RDT&E, but it is 
imperative that there be robust basic research discoveries, if we 
expect to have the scientific underpinnings for the pioneering 
innovations in the 6.2 and beyond programs.
    The essential contribution of basic science to the capabilities of 
the Navy After Next, is jeopardized by statements that the Navy's basic 
research program will be ``integrated with more applied S&T to promote 
transitions of discoveries.'' ``Integrat[ion] with more applied S&T'' 
is could send the message that program managers and scientist should 
not focus on long term high-risk projects.
    RADM Jay Cohen, Chief of Naval Research, recently clearly outlined 
the importance of basic science to the warfighter. When asked how 
science serves the Navy he responded:

    In the 1970s, a researcher proposed an effort to measure time more 
accurately . . . by a couple of orders of magnitude. At the time, the 
Navy was skeptical about investing in measuring time; after all, the 
Navy has been the timekeeper of the nation with the atomic clock at the 
Naval Observatory in Washington, D.C. Well, when you can measure time 
more accurately, you know position more accurately. That is the basis 
for precision navigation. The debate went on for weeks, and the Navy 
anguished over whether it should make the investment. Well, from having 
made the decision to invest, today we enjoy the Global Positioning 
System (GPS). Think about how that one idea has changed warfare. Think 
about the other uses of that technology, war-winning capability for the 
military and enhancements for commercial navigation. Think about the 
difference in capability from the 1970s, when the idea was first 
proposed, to Operation Iraqi Freedom.

    Our fear is that because of the direction ONR has been given to 
focus on shorter term projects, a proposal like the one RADM Cohen 
mentioned most likely would be rejected today.
    The focus on integration of discovery-oriented basic research with 
more application driven research is having a negative impact on the 
quality of naval basic research by creating a risk-averse atmosphere in 
both the universities and with program management and officers within 
the Navy. The avowed focus on integration with development, is 
discouraging researchers from pursuing bold and innovative ideas, lines 
of research that often take years to complete and whose practical 
application, while profound, is often decades out; and is forcing them 
instead to focus on pursuing research that they know will result in 
products. While it will surely be high quality research, it will not be 
type research that will result in breakthroughs in understanding.
    High-risk research that shows the promise of transformational 
discoveries is prone to failure before it yields a pioneering 
discovery. It is only by pushing the boundaries, constantly taking 
risks, and looking for the bold idea, not the slight innovation, that 
scientists will make the discoveries that will lead to the next laser, 
tomorrow's global positioning system, or the net-centric warfare of 
2030.
    Additionally, the research community and Congress need to impress 
upon Navy and Marine Corps leadership that while the basic research ONR 
supports today will not deliver combat commanders a product they can 
deploy in the next few years, it will afford the Lieutenants and 
Captains under their command profoundly more robust weapons systems 
when they are Admirals and Generals. It is because of an aggressive 
regime of basic research thirty years ago, when today's military 
leaders were junior officers, that they have such an effective and 
diverse suite of combat systems available to them to prosecute their 
mission. Working together, Congress and the research community must 
communicate to the Secretary, the CNO and the Commandant, that basic 
research is essential to the fleet and is a Congressional priority, and 
that if they do not give ONR the ability and direction to pursue an 
aggressive regime of high-risk cutting edge basic research now, the 
nation will be shortchanging our sons and daughters, the sailors and 
marines of tomorrow.
    Again, thank you for the opportunity to bring these important 
issues to your attention. I welcome the opportunity to answer any 
questions.

    Senator Stevens. We appreciate your testimony, but you are 
referring to the 1980's and the strategic defense initiative 
(SDI) period, and after the Soviet downfall, what the public 
demanded was a peace dividend. That dividend was in the form of 
a reduction of a lot of the expenditures that were associated 
in being prepared to counter the activities of the Soviet 
Union. So I think you are requesting something we just cannot 
do.
    Senator.
    Senator Inouye. At this moment, our ground forces are 
benefitting from unmanned air vehicles and unmanned ground 
vehicles. Do we have anything close to being operational 
underwater?
    Dr. Baggeroer. Senator, we do have unmanned underwater 
vehicles and they are currently part of the research agenda as 
to how to use them effectively in regions where you would not 
want to put a very valuable asset.
    In response to Senator Stevens, we certainly do understand 
the peace dividend. Our goal is to maintain the technological 
edge for the next generation, and we certainly well understand 
the constraints on the country while it is now fighting a war 
both in Iraq and on terrorism.
    Senator Inouye. Thank you, sir.
    Senator Stevens. Thank you very much. I appreciate your 
comments, but the Joint Strike Fighter came out of the research 
of the 1980's, and it will not be fielded until about 2017 if 
we keep it on schedule. We cannot keep it on schedule and go 
back to your research budgets.
    Dr. Baggeroer. The cycle time on an acquisition is a 
frustration to us too.
    Senator Stevens. Thank you very much.
    Next, Major General Robert McIntosh, Executive Director, 
Reserve Officers Association of the United States. Good 
morning, sir.
STATEMENT OF MAJOR GENERAL ROBERT A. McINTOSH, UNITED 
            STATES AIR FORCE RESERVE (RET.), EXECUTIVE 
            DIRECTOR, RESERVE OFFICERS ASSOCIATION OF 
            THE UNITED STATES
    Mr. McIntosh. Good morning, Senator. Mr. Chairman, Senator 
Inouye, the 75,000 members of the Reserve Officers Association 
(ROA) from all five branches of the armed forces thank you for 
this opportunity to speak today.
    Many of America's citizen warriors are continually being 
asked to repair their disrupted civilian lives after 
mobilization and then return to military duty on a repetitive 
basis.
    We believe that legislative changes should be targeted 
toward retaining and recruiting the best citizen soldiers, 
sailors, airmen, marines, and coast guardsmen.
    Despite the work to date by the Congress and the Department 
of Defense, much remains to be done to ensure Reserve and 
National Guard recruiting and retention remain healthy in the 
future. We must preserve one of America's greatest resources: 
its skilled and dedicated citizen military.
    Several important initiatives would enable our Nation's 
Reserve components to optimize their support of national 
defense and of national security. For your consideration, ROA's 
formal written testimony includes a detailed description of 
several needed changes and improvements. The following is a 
partial list of these initiatives.
    Full health care options for the selected Reserve and their 
families.
    Tax credit for employers.
    A formal National Guard and Reserve equipment appropriation 
process.
    Reducing the antiquated age 60 Reserve retirement 
eligibility criteria.
    Improving Montgomery GI Bill provisions.
    Repairing the one-thirtieth rule for special incentive and 
skill pay by making the compensation qualification-based.
    Increasing reenlistment bonuses.
    And repairing the unfair degradation of survivor benefits 
at age 62.
    Many of these initiatives not only affect Reserve readiness 
and the individual reservists but also impact employers, 
spouses, and families. For example, offering TRICARE for 
Reserve component members acts as an incentive for employers to 
continue to hire reservists. Family and civilian employment 
considerations are having a remarkable influence on whether 
citizen soldiers choose to remain in the military.
    Some in the Pentagon have been quoted in the media as 
stating that the Reserve components are becoming unaffordable. 
Even after factoring into the budget the cost of TRICARE 
eligibility for all selected reservists and their families, the 
cost of better incentive and retirement programs, citizen 
soldiers remain a highly cost effective national asset. The 
question should not be whether we can afford to bring pay and 
benefits for the Reserve and Guard to a more equitable 
standard, to a standard that reflects how we use our Reserve 
components. Rather, the proper question is can we afford not to 
take the necessary actions that will ensure the preservation of 
our citizen military, a force composed of some of the most 
skilled and talented men and women in America.
    Time permitting, I look forward to taking your questions, 
and thank you again for the opportunity to testify.
    [The statement follows:]
         Prepared Statement of Major General Robert A. McIntosh
    ROA believes that Congress, the Department of Defense and most 
military support associations have common interests and commitments 
when it comes to supporting the troops who are engaged in this war, and 
we are certainly showing proper solidarity and avoiding partisan 
politics that might question certain decisions relative to the war. 
ROA, like our sister associations, will stay firm in our commitment to 
back the civilian and military leaders as they operationally execute 
the war on terrorism and actions in Iraq. ROA will continue to support 
the troops in the field in any way we can.
    In recent years there have been several improvements in health 
care, pay system, family support, mobilization and demobilization 
problems. Even with recent improvements there remains a great deal yet 
to be done. ROA's mantra is and will continue to be as follows: the 
application of TRICARE for the selected Reserve, reduce retirement age 
eligibility; the elimination of the 1/30th rule; the updating of 
Montgomery GI Bill provisions, tax credit for employers; increased 
bonuses for reenlistments, the repair of the age 62 survivor benefit 
degradation, and an official acknowledgement of the National Guard and 
Reserve equipment account (NGREA).
    Recently a debate has begun. The debate is about whether the 
Reserve Components are becoming too expensive and pricing themselves 
``out-of-the-market.'' From a historical perspective it is interesting 
to note that the argument about cost of Reserve and National Guard 
incentives, benefits, and readiness postures also became quite intense 
at the end of WW II. To quote from a 1948 ROA Headquarters Bulletin, 
the subject of non-disability retirement for civilian officers: ``The 
National Guard Association and the Reserve Officers Association are 
working very closely together in connection with this legislation as it 
is essential that the proper type bill be presented for consideration 
by Congress.'' Another quote from a late 1940s ROA news letter, ``We 
civilian soldiers, have a real task ahead of us. There are battles to 
be won on the home front, not only now but for many years to come. This 
can only be done by means of organization.'' That ``retirement bill,'' 
as it became to be called, was the genesis of the current age 60 
retirement benefit for all members of the National Guard and Reserve. 
At that time, just as now, there were those who said that Reserve 
Component retirement benefit additions would be unaffordable and would 
necessitate long-term costs. Also similar to today's discussion, the 
leadership on Capitol Hill, immediately after WW II, was keenly aware 
of the importance of a viable Reserve Component. Congress clearly 
understood the important value of the bond between America's citizen 
and its military that results from using citizen soldiers in most 
phases of military actions. More recently the Abrams' Doctrine was a 
force build philosophy after Vietnam--a philosophy that matured into a 
policy and became a fundamental planning factor in creating today's 
Total Force.
    In 2004, we find ourselves again confronted with protecting one of 
America's greatest assets--the Reserve Components. It should be no 
surprise that recruiting and retaining an all-volunteer force require a 
different approach than was required for yesteryear's drafted force. 
Maintaining medical readiness, family medical considerations, and 
updating retired pay eligibility criteria are now important to our 
citizen warriors. Reservists fully understand their duty and are proud 
to be serving. However, many in the National Guard and Reserve are 
weighing the factors that affect remaining in the military. They want 
change and they deserve change. And, yes, some of these needed changes 
do cost money. If we wait until recruiting and retention numbers drop, 
then we will immediately be faced with a crisis beyond just scrambling 
to bring in the right numbers of people. It takes a minimum of two 
years to train and equip a person to the point that they can do their 
job without direct supervision. Experience has and should remain a core 
strength of the Reserve Components.
    Regarding the transformation and force structure rebalancing 
initiatives by the Services and DOD, the Reserve Officers Association 
acknowledges that continuous force structure change is appropriate, and 
we support these efforts in concept, but at the same time, we have 
significant concerns. We urge careful consideration and understanding 
of the attributes of a properly balanced Total Force. ROA is concerned 
that the rush to control personnel costs and to reduce the demand for 
Reservists to be in early deployment units could lead to flawed force 
structure planning. ROA acknowledges that some changes in structure and 
mission assignment are appropriate, however, the overall cost 
effectiveness of having a robust and experienced Reserve Component 
force to compliment a more expensive regular force must be considered 
carefully before eliminating or shifting significant numbers of Reserve 
Component billets.
    ROA fully understands that when citizen soldiers are used for an 
extended period there is a substantial personnel cost--a cost of war. 
The statement that ``while mobilized a Reservist or Guardsmen costs as 
much as an active component member'' is not in dispute. On the other 
hand, the citizen soldier cost over a life cycle (mobilized when needed 
and placed into a trained and ready to go posture when not recalled) is 
far less than the cost of an active component soldier. Additional cost 
savings are found when prior service training, developed skills, and 
experience are retained by having adequate numbers of Reserve billets 
across the spectrum of military missions.
    Even after factoring into the budget the cost of TRICARE 
eligibility for all selected Reservists and their families and the cost 
of better incentive and retirement programs, citizen soldiers remain a 
highly cost effective national asset.
    The starting point of any discussion about affordability should be 
that the Reserve Components provide large portions of our total 
military capability in many mission areas for a small fraction of the 
Service and DOD total budget. When the nation needs surge capability 
incrementally, the National Guard and Reserve cost single digit 
percentages and return double-digit mission accomplishment. Also, 
civilian skills that are needed by today's military and are resident in 
citizen warriors are often not adequately considered in force structure 
planning. If the wrong force transformation decisions are made in a 
rush to reduce personnel costs, and if the balance between Reserve 
Component forces and the more expensive active force is inefficient, 
the results will be a less capable and a smaller Total Force. The high 
costs of personnel turnover and of retraining should also be fully 
considered when judging the affordability of solving compensation 
issues for both the Active and the Reserve Components.
    There will be a residual impact on retention of stop loss personnel 
and the continued robust use of National Guard and Reserve personnel in 
the war on terrorism. We are months, if not years, away from knowing 
the true consequences to Reserve Component recruiting and retention. 
ROA believes that absent the improvements we have outlined, there will 
be substantial difficulty in sustaining the high caliber citizen 
warrior force we enjoy today--a force comprised of some of our nation's 
``brightest and best.''
    TRICARE for Reserve Components.--The fiscal year 2004 NDAA 
authorized TRICARE for Reservists to provide health coverage for 
unemployed Reservist or those unable to get insurance. This legislation 
will address previously identified mobilization and retention issues 
within the services.
    ROA urges Congress to permanently establish the current TRICARE 
program for Selected Reserve and certain Individual Ready Reserve 
categories that are unemployed or not eligible for healthcare.
    Reduce Retirement Age Eligibility for Reservists.--Currently the 
Reserve Components are the only Federal entity that does not receive 
their earned retirement annuity at the time they have completed their 
service. Reducing the retirement eligibility age would close the gap 
between completion of service and collection of annuity.
    ROA urges Congress to reduce the age when a Reserve Component 
member is eligible for retirement pay to age 55 and make retirement 
below age 60 optional.
    Authorize Tax Credits for Employers of Reservist.--Reservist 
employers often shoulder the burden of extra costs to support National 
Defense through the participation of their employees in the military. 
Support by employers of members in the Reserve Component enables the 
Total Force. Today's increased OPTEMPO makes employer support more 
important than ever. Employer pressure is listed as one of the top 
reasons for Reservists to quit.
    ROA urges Congress to support employer tax credits as a way to help 
offset costs associated with employees' Reserve activities and 
reinforce employer support.
    Pay Differential.--While there was once a clear and distinct line 
between Active and Reserve forces, as the two components merge into a 
continuum of forces, the argument for greater parity of benefits 
becomes increasingly compelling. The following areas of pay still are 
governed without parity between Active Duty and Reserve Components: 
Aviation Career Incentive Pay, Hazardous Duty Incentive Pay, Career 
Enlisted Flyers Incentive Pay, Special Duty Assignment Pay, Foreign 
Language Proficiency Pay, and Diving Special Duty Pay.
    ROA urges Congress to delete the 1/30th rule for those areas of pay 
that require Reserve Component personnel to maintain the same 
qualification levels as active duty.
    Raise the Survivor Benefit Plan (SBP) age 62 Benefit.--Public Law 
99-145 replaced the Social Security offset system with a ``two-tier'' 
system for those who first become retirement-eligible after September 
30, 1985, but under which survivors' benefits will automatically be 
reduced from 55 percent to 35 percent upon survivors' attaining age 62.
    ROA urges Congress to restore the SBP age 62 benefit from 35 
percent back to 55 percent.
    Just as there is a need to ensure the Reserve Component force is 
properly funded so is there a need to equip them to the Joint Force 
Command specifications. Currently Reserve equipment requirements are 
prioritized with active duty requirements. In most instances the 
Reserve priorities do not make it within the realm of being funded.
    Before 1997, the National Guard and Reserve Equipment Appropriation 
(NGREA) was a critical resource to ensure adequate funding for new 
equipment for the Reserve Components. The much-needed items not funded 
by the respective service budget were frequently purchased through this 
appropriation. In some cases, it was used to bring unit equipment 
readiness to a needed state of state for mobilization. Frequently, the 
funds were used to purchase commercial off-the-shelf items that units 
were unable to obtain through traditional sources. However, in 1997 an 
agreement between the administration and Congress eliminated the 
account with the objective of the Active Component providing the needed 
funds through their individual appropriations.
    The Reserve and Guard are faced with mounting challenges on how to 
replace worn out equipment, equipment lost due to combat operations, 
legacy equipment that is becoming irrelevant or obsolete, and, in 
general, replacing that which is gone or aging through normal wear and 
tear. Today, the ability to use NGREA funds for cost effective 
acquisition is non-existent. An analysis has shown that with the 
implementation of the post-1997 policy, procurement for the Reserve 
Components has decreased. In fiscal year 2004, procurement for the 
Reserve Components' percentage of the DOD procurement budget is at its 
second lowest in recorded history at 3.19 percent. This comes even 
after Congress added $400 million for NGREA. Meanwhile, procurement for 
the Active Component continued to realize consistent real growth from 
fiscal year 1998 through fiscal year 2009 at 108.6 percent.
    In the past, ``cascading'' equipment from the Active Component to 
the Reserve Component has been a reliable source of serviceable 
equipment. However, the changes in roles and missions that have placed 
a preponderance of combat support and combat service support in the 
Reserve Components has not left much to cascade. Also, funding levels, 
rising costs, lack of replacement parts for older equipment, etc. has 
made it difficult for the Reserve Components to maintain their aging 
equipment, not to mention modernizing and recapitalizing to support a 
viable legacy force.
    The Reserve Components would benefit greatly from a National 
Military Resource Strategy that includes a National Guard and Reserve 
Equipment Appropriation.
Army
    The Army Reserve's list of unresourced equipment requirements 
closely mirrors the fiscal year 2004 list. However, it is important, in 
the light of on-going operations with equipment losses due to combat, 
fair wear and tear, and needed modernized equipment to meet mission 
requirements, that a number of these unresourced requirements are 
enumerated.

------------------------------------------------------------------------
                                                             Fiscal Year
                                                 Shortfall     2005 Buy
------------------------------------------------------------------------
Light Medium Tactical.........................        1,845          600
Medium Tactical Vehicles......................        7,161          800
Movement Tracking Systems.....................        9,463        2,075
All Terrain Lift System (Atlas)...............          173          100
HMMWV (Plain).................................        3,833          600
HMMWV (Up Armored)............................          898          100
Night Vision Image System.....................       22,797        7,000
Tactical Fire Fighting Truck..................           62           10
------------------------------------------------------------------------

    These items are just part of a long list of equipment needed by our 
Army Reserve units to perform their wartime mission for the Total 
Force. Although the sum total of these requirements is considerable, 
the rebalancing of the forces between Active and Reserve Components 
will likely produce effects on the Total Force. And, as mentioned 
earlier, the lack of resources in the NGREA will make it difficult to 
make up and critical shortfalls that occur in the short term.
Navy
    Total Naval Reserve equipment procurement has steadily declined 
from $260 million in fiscal year 1997 to about $35 million in fiscal 
year 2002, with NGREA and congressional add-ons virtually disappearing 
and equipment shrinking precipitously. Congress recognized the problem 
and increased NGREA funding to $400,000 in fiscal year 2004. As a 
result of the Global War on Terrorism, and the ongoing support by Naval 
Reservists to Active Duty Commands, ROA feels that this upward trend 
must continue.

                          [Dollars in millions]
------------------------------------------------------------------------
              Unfunded Equipment                    Cost       Quantity
------------------------------------------------------------------------
C-40A Transport Aircraft......................       $130.0            2
NWC and NCF Tactical Trucks...................         36.0  ...........
NAVELSF Communications Equipment..............         13.0  ...........
MH-60 Helicopter..............................         66.0            2
F/A-18 AT-FLIR targeting pods.................         16.0            6
C-130T Avionics Modernization Program.........         40.0  ...........
F/A-18 A+block 2 Mod, Radar upgrades..........         53.0           10
F/A-18 A+CATM/Captive Carry Assets............          3.0  ...........
Littoral Surveillance Sys/Joint Fires Network.         30.0            1
F/A-18 Armament Equipment.....................          8.0  ...........
F-5 Block Upgrade.............................         10.0  ...........
E2C Navigation Upgrade........................         16.0            6
------------------------------------------------------------------------

Marine Corps

                        [In millions of dollars]
------------------------------------------------------------------------
                                                                 Cost
------------------------------------------------------------------------
F/A-18A ECP-583 (12 USMCR aircraft)........................         70.0
CH-53E Helicopter FLIR.....................................         45.0
NBC and Initial Equipment Issue (Reserves).................          7.3
KC-130 Upgrades............................................         10.5
CH-53E Upgrades $3.3 million...............................         38.0
CH-53E Aircrew Procedure Trainer (APT) Flight Simulator....         12.8
AH-1W Aircrew Procedures Trainer (APT) Flight Simulator....         10.0
Supplemental Aviation Spares Package.......................          7.0
------------------------------------------------------------------------

Air Force
    C-5: Fund Part A and Part B installation of C-5A Airlift Defensive 
Systems of $83 million for 32 aircraft to provide a greater degree of 
survivability to both aircraft and aircrew and promote common 
operational utility between active duty and reserve forces. Restore 
procurement of C-5 Avionics Modernization Program (AMP) kits cut in 
fiscal year 2004 and those needed in fiscal year 2005 for 60 kits.
    C-9A: Designate C-9 aircraft with the primary mission of aero-
medical support and allow those aircraft to support VIP/SAM, OSA, Team 
Travel and other mission support areas during low demand times and to 
support increasing the C-9 fleet at Scott AFB with three C-9Cs from 
Andrews Air Force Base, Maryland when they retire their aircraft in 
fiscal year 2005.
    C-17: Increase procurement of C-17 Globemaster III aircraft by at 
least 42 additional aircraft at a rate of 15 to 18 aircraft per year, 
which will ensure an adequate airlift force in the future; and program 
new production C-17 aircraft into the AFR.
    C-40C: Increase procurement of C-40 aircraft by at least six 
additional aircraft to ensure an adequate special mission airlift force 
for the AFR by at least two C-40s per year for three years.
    C-130J: Authorize and appropriate funds for the C-130J Multiyear 
Procurement in fiscal year 2005 and accelerate acquisition for Reserve 
units in Pennsylvania, Minnesota, and Mississippi.
    LITENING PODS: Support $7.8 million to procure 5 LITENING Pods 
toward the multiyear procurement of 30 pods for $43.8 million.
    APN-241 Radar: Support $7 million to procure 8 APN-241 Radar 
upgrades.
    AFR F-16 Helmet Mounted Cuing System: Support $9 million to procure 
approximately 40 night vision goggles toward the multiyear procurement 
of 80 for $20.6 million.
    Fund F-16 Block 25/30/32 to stay viable for employment in modern 
combat using precision guided munitions, and operating against modern 
threat aircraft equipped with helmet cued weapons.
    Information Technology: Support $2.5 million toward a total 
requirement of $54.7 million.
    Pararescue Jumper Equipment: Support $0.7 million toward a total 
requirement of $9.1 million.
    Vehicle Requirements: Support $2 million toward a total requirement 
of $10.6 million.
    Pathfinder Force Protection: Support $9 million toward a total 
requirement of $55.5 million.
    Motor Vehicles for Medical: Support $2.8 million to procure 44 
vehicles.
    Hydrant Fueling Trucks: Support $1.4 million to procure 9 vehicles.
Other Army Requirements
    The Army Reserve faces critical funding shortfalls in several key 
areas. The shortfalls come in the pay and allowances accounts totaling 
$348.4 million and the operations and maintenance accounts totaling 
$180 million.
  --Of these requirement shortfalls, the most critical is $281 million 
        in Inactive Duty Training (IDT), which will prohibit the Army 
        Reserve from meeting its peacetime statutory requirement for 48 
        drills. Even though there is some cost avoidance due to 
        mobilizations, it will not reach the level required to 
        successfully conduct the critical training that soldiers need 
        for individual and unit readiness. Based on current estimates, 
        the Army Reserve would be forced to cease training by late 
        spring or early summer 2005.
  --In the area of professional development, the Army Reserve is funded 
        at only slightly more than 50 percent of its $148.6 million 
        requirement. These funds are needed to meet the Chief of Staff 
        of the Army's established goal of 85 percent in military 
        specialty training and professional development. The Chief, 
        Army Reserve, briefed the Senate Armed Services Committee that 
        the goal would be achieved by the end of fiscal year 2005. This 
        shortfall will cause the Army Reserve not to meet the 85 
        percent goal.
  --Insufficient resources are available to fund the Army Reserve's 
        portion of the DOD integrated worldwide common-user network for 
        exchanging secure and non-secure data. The funding shortfall of 
        just over $33 million is crucial to meet the challenges of 
        expanding key command and control applications and service 
        demands, increase security requirements and increase network 
        capability to insure needed connectivity.
  --Army Reserve Base Operations (BASOPS) required funding is $73.5 
        million short of its $355.4 million requirement or 74 percent. 
        To provide a viable program which includes such critical items 
        as civilian pay, leases, utilities, and custodial contracts, it 
        is imperative that BASOPS be funded at least at the 95 percent 
        level to insure that those BASOPS items which require 100 
        percent funding can be met.
  --Antiterrorism, Force Protections, and Installation Preparedness for 
        the Army Reserve minimum essential funding level of $67.6 
        million is under funded by 46 percent. This funding is critical 
        to the Army Reserve meeting mandated DOD requirements and 
        maintaining minimum Force Protection standards for Army Reserve 
        facilities worldwide. As Active Component bases are prepared to 
        meet increased threats, Reserve Component facilities, which are 
        located in thousands of local communities, become a lucrative 
        target for those that consider military capability as a 
        criminal or terrorist target.
  --Army Reserve environmental programs that are a ``must fund'' are 
        unfunded by $33.4 million or 44 percent. As a result, legally 
        mandated requirements and the requirements of executive orders 
        will not be met. Legal consequences could possibly restrict use 
        on training lands at Army Reserve installations such as Forts.
  --The Army Reserve Defense Health Program Accrual is funded at 98 
        percent of the $680 million requirement. However, the $7.1 
        million shortfall is the result of DOD actuarial studies that 
        establish accrual rates based on ``full-time'' and ``part 
        time'' personnel. The accrual rates for fiscal year 2005 
        increased considerably in both categories. Analysis indicates 
        that the rate change will leave the Army Reserve with this 
        critical shortfall. This is an item of considerable 
        congressional interest, and the rate change creates a 
        significant effect on all three military services.
  --Family Programs are a critical to Reserve Component soldiers and 
        their families. Active Component soldiers and families, for the 
        most part, live in close communities on military installations 
        where it is possible to maintain a bond between the soldiers, 
        their families, and their units. Many Reserve soldiers do not 
        even live in the same communities as their units. Keeping 
        families informed and supported can be difficult, particularly 
        in more rural areas. In fiscal year 2004, the Army Reserve's 
        family programs suffered a $3.9 million shortfall from a 
        requirement of $7.5 million. In fiscal year 2005 this shortfall 
        is $5.6 million. The Reserve Officers Association recommends 
        full funding of the $15.4 million requirement for Army Reserve 
        Family Programs to provide essential services to soldiers and 
        their families and to facilitate the Army Reserve's ability to 
        adequately prepare soldiers for deployments and help families 
        to become self-reliant.
Other Requirements
    Reserve Personnel Appropriation: Last year the Reserve Components 
took cuts in their RPA requirement based on the previous year's usage. 
These unfunded requirements came at a time when many personnel were 
either demobilized or released from stop-loss hence enabling them to 
complete their RPA requirements. Additionally, the services are now 
faced with implementing the Secretary of Defense's transformation 
decisions resulting in conversion and upgrade requirements for school 
and special tours. ROA members have been contacting us to report 
anecdotally that their training location has run out of money for 
funding their requirements (discretionary (non-mission/support) 
activity, and especially OJT and upgrade training, is now at a 
standstill at most units for this fiscal year).
    The unknown in determining the level of challenge to be overcome in 
the rest of fiscal year 2004 is the continually changing variant of 
demobilization. The initial planning, based on active duty MAJCOM-
planned demobilizations, assumed large-scale numbers of returnees in 
February and March. At this point, there seems to be some slippage in 
that projection, which will affect Reserve participation activities 
between now and the end of the fiscal year.
    Reconstitution: The services will also need to perform a 
reconstitution assessment to determine the results of the mobilization. 
In terms of training consideration will need to consider: Skills that 
must be refreshed for specialty, training needed for upgrade but 
delayed, ancillary training missed, Professional continuing education 
requirements for single-managed career fields and other certified or 
licensed specialties required annually, and professional military 
education needed to stay competitive.
    To summarize, the question should not be whether we can afford to 
bring pay and benefits for the Reserve and Guard to a more equitable 
standard--to a standard that reflects how we use our Reserve 
Components. Rather, the proper question is can we afford not to take 
the necessary actions that will ensure the preservation of our citizen 
military--a force composed of the some of the most skilled and talented 
men and women in America.

    Senator Stevens. I note that you recommend that certain 
individual ready Reserve categories that are unemployed or not 
eligible for health care have TRICARE permanently. Now, how do 
you determine who are the certain individuals and those who are 
not eligible for health care?
    Mr. McIntosh. Actually what we are proposing and what we 
advocate is TRICARE for the entire selected Reserve as an 
option for anyone who is a drilling combat-ready reservist.
    Senator Stevens. Most of those people are employed by small 
businesses, many of whom do provide health care. The minute we 
did that, that would be an advantage that other portions of the 
economy do not have. I do not really understand why that should 
be the case. Why should a person that is retired and in the 
ready Reserve enjoy the benefits of being on active duty?
    Mr. McIntosh. Senator, since we are mobilizing reservists 
repetitively, we want to retain and recruit the best Americans 
to be in our Reserve force. We believe the opportunity to sign 
up for TRICARE versus the cost of medical care in their 
civilian lives is an opportunity we ought to take and will pay 
great dividends in the future. When a reservist, for example, 
returns from numerous deployments and is thinking about leaving 
the Guard and Reserve, if they are invested in TRICARE have 
children that are using that or a spouse that is using that, 
they will be much less likely to leave. So we are really 
recruiting and retaining the family as a whole picture here 
relative to medical care.
    Senator Stevens. Is that not a disincentive to staying on 
active duty? More people will go into the ready Reserve and not 
stay on active duty.
    Mr. McIntosh. Actually we have not studied that completely. 
I believe it would not be an incentive for people to leave the 
active force and join the Reserve. I think people leave the 
active force for many, many reasons, and I would not see them 
leaving because they know they could retain TRICARE even after 
they left. But it is a fair question, Senator.
    Senator Stevens. Thank you.
    Senator Inouye.
    Senator Inouye. Thank you very much. I just wanted to note 
that many of your suggestions should be made to the authorizing 
committee. I am certain you have done that.
    Mr. McIntosh. And it is, Senator, and we are aware of that. 
Thank you, though.
    Senator Stevens. Thank you very much, General. Appreciate 
your coming.
    Our next witness is Tom McKibban, President of the American 
Association of Nurse Anesthetists. Good morning, sir.
STATEMENT OF TOM L. MCKIBBAN, CERTIFIED REGISTERED 
            NURSE ANESTHETIST, MS, PRESIDENT, AMERICAN 
            ASSOCIATION OF NURSE ANESTHETISTS
    Mr. McKibban. Good morning. Chairman Stevens and Senator 
Inouye, good morning and thank you for the opportunity to 
testify today. My name is Tom McKibban. I am a certified 
registered nurse anesthetist, better known as a CRNA, and 
President of the American Association of Nurse Anesthetists, 
known as the AANA. The AANA represents more than 30,000 CRNA's, 
including 497 active duty CRNA's, and 742 reservists in the 
military. As of May 2003, more than 360 CRNA's were deployed in 
the Middle East providing anesthesia care on ships, on the 
ground, and for U.S. special forces operations.
    Today maintaining adequate numbers of active duty CRNA's is 
of utmost concern for the Department of Defense to meet its 
military medical readiness mission. For several years, the 
number of CRNA's serving in active duty has fallen somewhat 
short of the number authorized by the DOD. This is complicated 
by strong demand for CRNA's in both the public and private 
sectors. The AANA appreciates this committee's continued 
support for the funding, the incentive special pay (ISP) for 
CRNA's to address this issue.
    The considerable gap between civilian and military pay was 
addressed in the fiscal year 2003 Defense Authorization Act 
with an ISP increase from $15,000 to $50,000. At this time we 
would request full funding to increase ISP to $50,000 for all 
services to recruit and retain CRNA's.
    To ensure military medical readiness, we must have 
anesthesia providers that can work independently and be 
deployed at a moment's notice. For this reason, the AANA is 
concerned about a 2003 proposed rule to include 
anesthesiologist assistants, known as AA's, as authorized 
providers under the TRICARE program. The rule is under review 
by the OMB. The TRICARE proposal demands two providers, an 
anesthesiologist and an AA, provide military personnel and 
dependents the same care that either an anesthesiologist or 
nurse anesthetist can provide alone. There is insufficient 
evidence of the safety and cost effectiveness of AA's to 
authorize these providers into the TRICARE program.
    Last, the AANA is proud to announce the establishment of a 
joint VA/Defense Department program in nurse anesthesia 
education. This program cost effectively makes use of the 
existing U.S. Army School of Nurse Anesthesia, Fort Sam 
Houston, to educate CRNA's for both the VA and the U.S. armed 
services. This joint nurse anesthesia graduate program begins 
this June in San Antonio, Texas.
    In conclusion, the AANA believes that the recruitment and 
retention of CRNA's in the services is critical to our men and 
women in uniform. Funding an increase in the ISP will help meet 
this challenge.
    Also, we believe that recognizing AA's under TRICARE will 
not improve medical readiness of the DOD.
    Last, we commend and thank this committee for your 
continued support for CRNA's in the military.
    I will be happy to answer any questions you may have. Thank 
you.
    [The statement follows:]
                 Prepared Statement of Tom L. McKibban
    The American Association of Nurse Anesthetists (AANA) is the 
professional association representing over 30,000 certified registered 
nurse anesthetists (CRNAs) in the United States, including 497 active 
duty CRNAs and 742 reservists in the military. The AANA appreciates the 
opportunity to provide testimony regarding CRNAs in the military. We 
would also like to thank this committee for the help it has given us in 
assisting the Department of Defense (DOD) and each of the services to 
recruit and retain CRNAs.
              background information on nurse anesthetists
    Let us begin by describing the profession of nurse anesthesia, and 
its history and role with the military medical system.
    In the administration of anesthesia, CRNAs perform the same 
functions as anesthesiologists and work in every setting in which 
anesthesia is delivered including hospital surgical suites and 
obstetrical delivery rooms, ambulatory surgical centers, health 
maintenance organizations, and the offices of dentists, podiatrists, 
ophthalmologists, and plastic surgeons. Today CRNAs participate in 
approximately 65 percent of the anesthetics given to patients each year 
in the United States. Nurse anesthetists are also the sole anesthesia 
providers in more than 65 percent of rural hospitals, assuring access 
to surgical, obstetrical and other healthcare services for millions of 
rural Americans.
    CRNAs have a personal and professional commitment to patient 
safety, made evident through research into our practice. In our 
professional association, we state emphatically ``our members' only 
business is patient safety.'' Safety is assured through education, high 
standards of professional practice, and commitment to continuing 
education. Having first practiced as registered nurses, CRNAs are 
educated to the master's degree level and meet the most stringent 
continuing education and recertification standards in the field. Thanks 
to this tradition of advanced education, the clinical practice 
excellence of anesthesia professionals, and the advancement in 
technology, we are humbled and honored to note that anesthesia is 50 
times safer now than 20 years ago (National Academy of Sciences, 2000). 
Research further demonstrates that the care delivered by CRNAs, 
physician anesthesiologists, or by both working together yields similar 
patient safety outcomes. In addition to studies performed by the 
National Academy of Sciences in 1977, Forrest in 1980, Bechtholdt in 
1981, the Minnesota Department of Health in 1994, and others, Dr. 
Michael Pine MD MBA recently concluded once again that among CRNAs and 
physician anesthesiologists, ``the type of anesthesia provider does not 
affect inpatient surgical mortality'' (Pine, 2003). Thus, the practice 
of anesthesia is a recognized specialty in nursing and medicine. Both 
CRNAs and anesthesiologists administer anesthesia for all types of 
surgical procedures from the simplest to the most complex, either as 
single providers or together.
                   nurse anesthetists in the military
    Since the mid-19th Century, our profession of nurse anesthesia has 
been proud to provide anesthesia care for our past and present military 
personnel and their families. From the Civil War to the present day, 
nurse anesthetists have been the principal anesthesia providers in 
combat areas of every war in which the United States has been engaged.
    Military nurse anesthetists have been honored and decorated by the 
United States and foreign governments for outstanding achievements, 
resulting from their dedication and commitment to duty and competence 
in managing seriously wounded casualties. In World War II, there were 
17 nurse anesthetists to every one anesthesiologist. In Vietnam, the 
ratio of CRNAs to physician anesthesiologists was approximately 3:1. 
Two nurse anesthetists were killed in Vietnam and their names have been 
engraved on the Vietnam Memorial Wall. During the Panama strike, only 
CRNAs were sent with the fighting forces. Nurse anesthetists served 
with honor during Desert Shield and Desert Storm. Military have CRNAs 
provided critical anesthesia support to humanitarian missions around 
the globe in such places as Bosnia and Somalia. In May 2003, 
approximately 364 nurse anesthetists had been deployed to the Middle 
East for the military mission for ``Operation Iraqi Freedom'' and 
``Operation Enduring Freedom.''
    Data gathered from the U.S. Armed Forces anesthesia communities' 
reveal that CRNAs have often been the sole anesthesia providers at 
certain facilities, both at home and while forward deployed. For 
decades CRNAs have staffed ships, isolated U.S. bases, and forward 
surgical teams without physician anesthesia support. The U.S. Army 
Joint Special Operations Command Medical Team and all Army Forward 
Surgical Teams are staffed solely by CRNAs. Military CRNAs have a long 
proud history of providing independent support and quality anesthesia 
care to military men and women, their families and to people from many 
nations who have found themselves in harms way.
    When President George W. Bush initiated ``Operation Iraqi Freedom'' 
CRNAs were immediately deployed. With the new special operations 
environment, new training was needed to prepare our CRNAs to ensure 
military medical mobilization and readiness. Major General Barbara C. 
Brannon, Assistant Surgeon General, Air Force Nursing Services, 
testified before this Senate Committee on April 28, 2004, to provide an 
account of CRNAs on the job overseas. She stated, ``Major Kathyrn 
Weiss, a CRNA from Hurlbert Field, deployed with the Army's 10th 
Special Forces Group to Northern Iraq to provide frontline emergency 
medical capabilities in an imminent danger area within the range of 
enemy artillery. The team was recognized by the award of the Bronze 
Star for their meritorious achievements. Major Weiss is just one 
example of the tremendous capability of our CRNAs.''
    In the current mission ``Operation Iraqi Freedom'' CRNAs will 
continue to be deployed both on ships and ground, as well as U.S. 
special operations forces. This committee must ensure that we retain 
and recruit CRNAs now and in the future to serve in these military 
overseas deployments.
crna retention and recruiting--how this committee can help the defense 
                               department
    In all of the Services, maintaining adequate numbers of active duty 
CRNAs is of utmost concern. For several years, the number of CRNAs 
serving in active duty has fallen somewhat short of the number 
authorized by the Department of Defense. This is further complicated by 
strong demand for CRNAs in both the public and private sectors.
    However, it is essential to understand that while there is strong 
demand for CRNA services in the public and private healthcare sectors, 
the profession of nurse anesthesia is working effectively to meet this 
workforce challenge. The AANA anticipates growing demand for CRNAs. Our 
evidence suggests that while vacancies exist, there is not a crisis in 
the number of anesthesia providers. The profession of nurse anesthesia 
has increased its number of accredited CRNA schools, from 85 to 88 the 
past two years. The number of qualified registered nurses applying for 
CRNA school continues to climb, with each CRNA school turning away an 
average of 23 qualified applicants in 2002. The growth in the number of 
schools, the number of applicants, and in production capacity, has 
yielded significant growth in the number of nurse anesthetists 
graduating and being certified into the profession. The Council on 
Certification of Nurse Anesthetists reports that in 1998, our schools 
produced 942 new graduates. By 2003, that number had increased to 
1,474, a 56 percent increase in just five years. The growth is expected 
to continue. The Council on Accreditation of Nurse Anesthesia 
Educational Programs (COA) projects that CRNA schools will produce an 
estimated 1,900 graduates in 2005.
    This Committee can greatly assist in the effort to attract and 
maintain essential numbers of nurse anesthetists in the military by 
their support of increasing special pays.
The Incentive Special Pay for Nurses
    According to a March 1994 study requested by the Health Policy 
Directorate of Health Affairs and conducted by the Department of 
Defense, a large pay gap existed between annual civilian and military 
pay in 1992. This study concluded, ``this earnings gap is a major 
reason why the military has difficulty retaining CRNAs.'' In order to 
address this pay gap, in the fiscal year 1995 Defense Authorization 
bill Congress authorized the implementation of an increase in the 
annual Incentive Special Pay (ISP) for nurse anesthetists from $6,000 
to $15,000 for those CRNAs no longer under service obligation to pay 
back their anesthesia education. Those CRNAs who remain obligated 
receive the $6,000 ISP.
    Both the House and Senate passed the fiscal year 2003 Defense 
Authorization Act conference report, H. Rept. 107-772, which included 
an ISP increase to $50,000. The report included an increase in ISP for 
nurse anesthetists from $15,000 to $50,000. There had been no change in 
funding level for the ISP since the increase was instituted in fiscal 
year 1995, while it is certain that civilian pay has continued to rise 
during this time. The AANA is requesting that this committee fund the 
new increase for the ISP at $50,000 for all the branches of the armed 
services to retain and recruit CRNAs now and into the future.
    There still continues to be high demand for CRNAs in the healthcare 
community leading to higher incomes, widening the gap in pay for CRNAs 
in the civilian sector compared to the military. The fiscal year 2003 
AANA Membership survey measured income in the civilian sector by 
practice setting. The median income in a hospital setting is $120,000, 
anesthesiologist group $108,000, and self-employed CRNA $140,000 
(includes Owner/Partner of a CRNA Group). These median salaries include 
call pay, overtime pay, and bonus pay. These salaries are still higher 
than the median CRNA's salary of $84,000 across all military service 
branches.
    In civilian practice, all additional skills, experience, duties and 
responsibilities, and hours of work are compensated for monetarily. 
Additionally, training (tuition and continuing education), healthcare, 
retirement, recruitment and retention bonuses, and other benefits often 
equal or exceed those offered in the military.
    Rear Admiral Nancy Lescavage, Director of the Navy Nurse Corps, and 
Commander of the Naval Medical Education and Training Command testified 
before this Senate Committee at an April 30, 2003 hearing:

    ``The increase of the maximum allowable compensation amount for 
Certified Registered Nurse Anesthetist Incentive Special Pay (CRNA ISP) 
and the Nurse Accession Bonus (NAB) in the fiscal year 2003 National 
Defense Authorization Act will further enhance our competitive edge in 
the nursing market.''

    Salaries in the civilian sector will continue to create incentives 
for CRNAs to separate from the military, especially at the lower grades 
without a competitive incentive from the military to retain CRNAs. 
Therefore, it is vitally important that the Incentive Special Pay (ISP) 
be increased to $50,000 to ensure the retention of CRNAs in the 
military.
    AANA thanks this Committee for its support of the annual ISP for 
nurse anesthetists. AANA strongly recommends the continuation and an 
increase in the annual funding for ISP from $15,000 to $50,000 for 
fiscal year 2005. The ISP recognizes the special skills and advanced 
education that CRNAs bring to the Department of Defense healthcare 
system.
Board Certification Pay for Nurses
    Included in the fiscal year 1996 Defense Authorization bill was 
language authorizing the implementation of a board certification pay 
for certain healthcare professionals, including advanced practice 
nurses. AANA is highly supportive of board certification pay for all 
advanced practice nurses. The establishment of this type of pay for 
nurses recognizes that there are levels of excellence in the profession 
of nursing that should be recognized, just as in the medical 
profession. In addition, this pay may assist in closing the earnings 
gap, which may help with retention of CRNAs.
    While many CRNAs have received board certification pay, there are 
many that remain ineligible. Since certification to practice as a CRNA 
does not require a specific master's degree, many nurse anesthetists 
have chosen to diversify their education by pursuing an advanced degree 
in other related fields. But CRNAs with master's degrees in education, 
administration, or management are not necessarily eligible for board 
certification pay since their graduate degrees are not in a clinical 
specialty. To deny a bonus to these individuals is unfair, and will 
certainly affect their morale as they work side-by-side with their 
less-experienced colleagues, who will collect a bonus for which they 
are not eligible. In addition, in the future this bonus will act as a 
financial disincentive for nurse anesthetists to diversify and broaden 
their horizons.
    AANA encourages the Defense Department and the respective services 
to reexamine the issue of awarding board certification pay only to 
CRNAs who have clinical master's degrees.
 dod/va resource sharing: va-dod nurse anesthesia school university of 
            texas houston health science center, houston, tx
    The establishment of a joint VA-Department of Defense program in 
nurse anesthesia education holds the promise of making significant 
improvements in the VA CRNA workforce. This will improve retention of 
VA registered nurses, while cost-effectively making use of existing 
U.S. government programs and the U.S. Army nurse anesthesia school. 
This VA nurse anesthesia graduate program begins this June at the 
Army's Fort Sam Houston Nurse Anesthesia program in San Antonio, Texas. 
This VA nurse anesthesia program creates three openings for VA 
registered nurses to apply to and earn a Master of Science in Nursing 
(MSN) in anesthesia granted through the University of Texas Houston 
Health Science Center. Three students are enrolled for the program 
start date June 2004.
    The 30-month program is broken down into two phases. Phase I, 12 
months, is the didactic portion of the anesthesia training at the U.S. 
AMEDD Center and School (U.S. Army School for Nurse Anesthesia). Phase 
II, 18 months, is clinical practice education, in which VA facilities 
and their affiliates would serve as clinical practice sites. The agency 
will use VA hospitals in Augusta, Georgia, and Dayton, Ohio. Similar to 
military CRNAs who repay their educational investment through a service 
obligation to the U.S. Armed Forces, graduating VA CRNAs would serve a 
three-year obligation to the VA health system. Through this kind of 
Department of Defense-DVA resource sharing, the VA will have an 
additional source of qualified CRNAs to meet anesthesia care staffing 
requirements.
    We are pleased to note that both the U.S. Army Surgeon General and 
Dr. Michael J. Kussman, MD MS FACP (Department of Veterans' Affairs 
Chief Consultant, Acute Care) approved funding to start this VA nurse 
anesthesia school. With modest levels of additional funding, this joint 
VA-Defense Department nurse anesthesia education initiative can grow 
and thrive, and serve as a model for meeting other VA workforce needs, 
particularly in nursing.
    DOD and VA resource sharing programs effectively maximize 
government resources while improving access to healthcare for Veterans.
                 update: inclusion of aas under tricare
    The U.S. Department of Defense has proposed authorizing 
anesthesiologist assistants (AAs) as providers of anesthesia care under 
the TRICARE health plan for military personnel and dependents, in a 
proposed rule published in the Federal Register April 3, 2003. (68 FR 
16247, 4/3/2003). The regulation is now being reviewed at the Office of 
Management of Budget (OMB) as of February 9, 2004. There still has been 
no congressional review about adding these new providers, and no 
assessment of their safety record or cost-effectiveness.
    The AANA has several objections to this proposal. First, there is 
insufficient evidence of the safety and cost-effectiveness of AAs to 
authorize these providers into the TRICARE program. DOD has not 
sufficiently demonstrated what benefit TRICARE may gain by recognizing 
AAs as an authorized provider. As we understand this matter, AAs (in 
the very limited number of states that license their practice) may 
administer anesthesia only under the close and immediate medical 
direction of anesthesiologists. The TRICARE proposed rule does not 
define this type of medical direction of AAs. In addition, 
correspondence from TRICARE says an AA would be an ``extra pair of 
hands'' for an anesthesiologist, suggesting one-to-one constant 
supervision in the operating room. By contrast, both experience and 
anesthesiologists themselves say ``direct supervision'' implies a 
scheme in which AAs are supervised by someone some distance away, not 
necessarily in the operating room.
    Even so, the TRICARE proposal demands two providers, an 
anesthesiologist and an AA, to provide military personnel and 
dependents the same care that either an anesthesiologist or nurse 
anesthetist could provide alone. The agency's proposal to introduce AAs 
into TRICARE is further undermined by AAs' lack of diffusion within the 
healthcare system. Since AAs' introduction 30 years ago, only seven 
states have thought it prudent to provide AAs separate licensure or 
certification and only two schools exist to train them. Last, the 
proposal has drawn the opposition of 37 retired military and Veterans 
organizations and the 5.5 million members of The Military Coalition, 
and several members of the House and Senate.
    The proposed rule to introduce AAs under TRICARE is not in response 
to a shortage of anesthesia providers. Further Congressional review is 
required on the safety and cost-effectiveness of AAs before they are 
recognized under TRICARE.
                               conclusion
    In conclusion, the AANA believes that the recruitment and retention 
of CRNAs in the Services is of critical concern. The efforts detailed 
above will assist the Services in maintaining the military's ability to 
meet its wartime and medical mobilization through the funding of an 
increase in ISP. Also, we believe that the inclusion of improperly 
supervised Anesthesiologists Assistants (AAs) in the TRICARE system 
would impair the quality of healthcare for our military personnel and 
dependents, and should not be approved. Last, we commend and thank this 
committee for their continued support for CRNAs in the military.

    Senator Stevens. I have two questions. One is, how often is 
the special pay bonus to be paid in your judgment if it is 
raised to $50,000?
    Mr. McKibban. I believe it is a yearly, sir.
    Senator Stevens. A yearly?
    Mr. McKibban. A yearly ISP, yes.
    Senator Stevens. Is there reenlistment yearly? I do not 
understand. Normally that is a reenlistment bonus. Do you sign 
up for just 1 year?
    Mr. McKibban. No. I believe this is a yearly special pay 
for their specialty to ensure that they continually will serve 
in the military, sir.
    Senator Stevens. Is that master's degree requirement a 
matter of law or a matter of regulation?
    Mr. McKibban. I believe it is a matter of regulation. It is 
law. I am sorry, sir.
    Senator Stevens. I am compelled to say what Senator Inouye 
said to the previous witness. I am afraid you have asked us to 
do two things not within the jurisdiction of this committee. We 
do not handle the legislation. Changes in the law should be 
addressed to the Armed Services Committee. I hope you will 
present those requests to them.
    Senator Inouye.
    Senator Inouye. Yes. What is the current shortage of nurse 
anesthetists in the armed forces?
    Mr. McKibban. Number-wise? The Army and the Air Force--I do 
not have the exact numbers. Last week we were just notified 
that now the Navy is predicting a shortage in the Navy side of 
it too, sir.
    Senator Inouye. So there is a shortage but you are not 
aware of the number.
    Mr. McKibban. I do not have the exact number, no, sir.
    Senator Inouye. Thank you, sir.
    Senator Stevens. Thank you very much, Mr. McKibban. 
Appreciate it.
    Mr. McKibban. Thank you.
    Senator Stevens. Our next witness is Ms. Joyce Raezer, 
President of the National Military Family Association. Good 
morning, ma'am.
STATEMENT OF JOYCE WESSEL RAEZER, DIRECTOR, GOVERNMENT 
            RELATIONS, THE NATIONAL MILITARY FAMILY 
            ASSOCIATION
    Ms. Raezer. Thank you, Mr. Chairman. I am not the 
President. I am representing the President today. Our President 
is Candace Wheeler. I am the Director of Government Relations.
    The National Military Family Association (NMFA) thanks you 
and Senator Inouye for the opportunity to speak about the 
quality of life of military families and the service members.
    With other members of the Military Coalition, NMFA is 
grateful for your leadership last year in securing increased 
funding for family support programs such as the family advocacy 
program and for pay and allowances to help offset the 
extraordinary demands of military service. Military families 
were most grateful to Congress for extending last year's 
increases to imminent danger pay and family separation 
allowance through December 2004. We hope Congress will make 
these increases permanent, and even if not made permanent, that 
funding will be provided to keep the family separation 
allowance at or near the current level for all eligible service 
members. Family separation allowance is not combat pay. 
Additional expenses families incur when the service member is 
assigned away from home are not based on a service member's 
assignment location. To the family, gone is gone.
    Longer and more frequent deployments are indications that 
our force is stretched thin. Military families are also 
stretched too thin.
    Our message to you today, however, is simple. Funding 
directed toward family readiness works. Funding you have helped 
to provide supports additional National Guard family assistance 
centers, more child care, increased staffing and programming 
directed to families of deployed service members, and return 
and reunion programs. New DOD programs such as Military One 
Source will make even more counseling and other assistance 
available, especially to isolated families.
    Funding directed toward family support is making a 
difference but it is still sporadic. Consistent levels of 
targeted funding are needed, along with consistent levels of 
command focus on family support, professional backup for the 
volunteers carrying the largest load of family support, and 
additional help for isolated Guard and Reserve families and 
families with special needs. Preventive mental health resources 
must be more accessible for families and service members over 
the long term.
    A significant element of family readiness is quality 
education for military children despite the challenges posed by 
ever-moving students and situations where the military parent 
is deployed or in harm's way. Now more than ever, we ask that 
you ensure both DOD and civilian schools educating military 
children have the resources to meet the counseling, staffing, 
and program challenges arising from new, ongoing, and changed 
missions, especially when deployments are extended. Families in 
Europe, for example, where some service members' Iraq tours 
were recently extended are concerned that funds will not be 
available for summer school this year. They need to know that 
the DOD schools can provide programs their children need.
    We applaud the increased partnerships between military 
commanders, DOD officials, and school officials to promote 
quality education for military children. The successful joint 
venture education initiative in Hawaii and the new military 
student website are just two examples of how folks are working 
together to provide more information to parents, commanders, 
and educators about issues affecting military children and to 
further partnerships to support children.
    Because Impact Aid is not fully funded, NMFA recommends 
increasing the DOD supplement to Impact Aid to $50 million to 
help civilian districts better meet the additional demands 
placed on them and the children they are charged to educate.
    NMFA also asks that you ensure the defense health system 
has adequate funding to make the challenges it faces. NMFA is 
concerned that the cost of performing additional duties under 
the new TRICARE contracts will be one strain too many, 
especially for the direct care system that is already dealing 
with a multitude of stressors such as maintaining readiness, 
mobilizing Guard and Reserve members, and implementing new 
benefits. Some military treatment facilities are cutting back 
on hours or services at exactly the time when they are supposed 
to be pulling in more care under the new TRICARE contracts. How 
can the new contracts function to the benefit of beneficiaries 
if they are designed to do one thing and that one thing is 
blocked?
    The future of successful initiatives such as family-
centered care is in jeopardy if the direct care system must 
avert central funding to other demands. Please ensure not only 
the defense health system is funded to fulfill its 
responsibilities, but also that oversight is sufficient to 
prevent harm to beneficiaries during a transition process to 
new contracts that are supposed to help them.
    Mr. Chairman, the concern you and Senator Inouye have 
expressed today sends an important message to service members 
and their families. Congress understands the link between 
military readiness and the quality of life of the military 
community. Strong families ensure a strong force. Thank you for 
your work in keeping our families and force strong.
    [The statement follows:]
               Prepared Statement of Joyce Wessel Raezer
    The National Military Family Association (NMFA) is the only 
national organization whose sole focus is the military family and whose 
goal is to influence the development and implementation of policies 
which will improve the lives of those family members. Its mission is to 
serve the families of the Seven Uniformed Services through education, 
information and advocacy.
    Founded in 1969 as the Military Wives Association, NMFA is a non-
profit 501(c)(3) primarily volunteer organization. NMFA today 
represents the interests of family members and the active duty, reserve 
components and retired personnel of the seven uniformed services: Army, 
Navy, Air Force, Marine Corps, Coast Guard, Public Health Service and 
the National Oceanic and Atmospheric Administration.
    NMFA Representatives in military communities worldwide provide a 
direct link between military families and NMFA staff in the nation's 
capital. Representatives are the ``eyes and ears'' of NMFA, bringing 
shared local concerns to national attention.
    NMFA receives no federal grants and has no federal contracts.
    NMFA's web site is located at http://www.nmfa.org.
    Mr. Chairman and Distinguished Members of this Subcommittee, the 
National Military Family Association (NMFA) would like to thank you for 
the opportunity to present testimony on quality of life issues 
affecting servicemembers and their families. NMFA is also grateful for 
your leadership in the 1st Session of the 108th Congress in securing 
increased funding for essential quality of life programs, such as 
National Guard and Reserve family support and the Family Advocacy 
Program, as well as pay and allowances, such as the increased Family 
Separation Allowance, that help to offset the extraordinary demands of 
military service. NMFA thanks Congress for providing funds for 
servicemember's R&R travel, additional child care, and schools that 
educate military children.
    As a founding member of The Military Coalition, NMFA subscribes to 
the recommendations contained in the Coalition's testimony presented 
for this hearing. In this statement, NMFA will expand on a few issues: 
Pay and allowances; health care; family support, including the unique 
needs of Guard and Reserve families; and education for military 
children.
Pay and Allowances
    Servicemembers and their families appreciate the dramatic 
improvements in military compensation achieved over the past several 
years. The combination of across-the-board raises at the level of the 
Employment Cost Index (ECI) plus 0.5 percent and targeted raises for 
certain ranks have improved their financial well-being. The five-year 
plan, ending in fiscal year 2005, to increase Basic Allowance for 
Housing (BAH) has been especially beneficial for military families 
living in high cost of living areas.
Family Separation Allowance
    Military members and their families were most grateful to Congress 
last year for including increases in Family Separation Allowance and 
Imminent Danger Pay in the fiscal year 2003 Supplemental Appropriations 
bill. They were relieved when these increases were authorized and 
funded to continue through December 2004, yet alarmed that last fall's 
debate over both the amount of Family Separation Allowance and who 
should receive it is surfacing again. NMFA understands DOD is looking 
at the wide range of pays and allowances in order to determine their 
proper mix and use. We believe, however, that the amount of Family 
Separation Allowance must remain the same for all eligible 
servicemembers, no matter where they are deployed. Family Separation 
Allowance is not combat pay--it is paid in recognition of the 
additional costs a family endures when a servicemember is deployed. It 
helps pay for the additional long distance phone calls the deployed 
servicemember and family make; it pays for the car or home repairs the 
servicemember performs when at home; it pays for the tutoring a child 
needs when the family chemistry or algebra expert is deployed. These 
costs are not incurred just by the families of servicemembers in a 
combat zone; whether the servicemember is in Iraq, Afghanistan, on a 
ship in the Pacific, or on an unaccompanied tour in Korea, to the 
family, ``gone is gone!''
    NMFA must also note that, while families of deployed servicemembers 
face similar costs of separation no matter where the servicemember is 
deployed, other pay and benefits change dramatically. Servicemembers 
deployed to certain combat zones not only receive Imminent Danger Pay 
and other combat-related pays, but also are entitled to certain tax 
advantages. Servicemembers in other locations, such as Korea or on 
board ships outside combat zones, do not receive the same tax 
advantage. Thus, their families have similar expenses to meet with less 
income. To these families, last year's increase in Family Separation 
Allowance was an especially welcome relief to tight family budgets.
    NMFA asks this Subcommittee to ensure that funding is continued to 
sustain the increased level of Family Separation Allowance for all 
eligible servicemembers. NMFA also asks Congress to consider indexing 
the Family Separation Allowance to inflation so that we do not have to 
wait for another war for this allowance to be increased again.
Health Care
    This year, NMFA is focused on health care transition issues and the 
costs to the defense health system imposed by these issues: the 
transition to the new TRICARE contracts, Guard and Reserve family 
members' transition to the TRICARE benefit when the servicemember is 
called to active duty, and the transition that occurs during the return 
and reunion process as servicemembers and their families adjust to the 
end of a deployment.
Transition to New TRICARE Contracts
    NMFA's concerns during the transition to the new TRICARE 
contracts--the first contract handoff occurs on June 1--revolve around 
the ability of the Defense Health System to ensure beneficiaries can 
access care in a timely manner and the ability of the system to 
maintain continuity of care. NMFA is concerned that the direct care 
system may not be able to fulfill its new responsibilities under the 
new contracts while working so hard to meet readiness requirements 
related to deployments and force health protection, care for wounded 
and injured servicemembers, and care for the active duty families, 
retirees, and survivors enrolled in TRICARE Prime to primary care 
managers in their facilities. Under the new contracts, military 
treatment facilities (MTFs) will be responsible for appointing, which 
is often done by the TRICARE managed care support contractors under the 
current contracts. MTFs must also fill the void created by the 
departure of key medical personnel currently provided by the TRICARE 
contractors under resource sharing arrangements. These arrangements end 
on the day health care delivery begins under the new TRICARE contracts, 
as the responsibility for them shifts from the TRICARE contractor to 
the MTFs. NMFA is pleased that DOD has offered MTFs the opportunity of 
a bridge process to work with outgoing and incoming contractors to keep 
resource sharing providers in place until establishing their own 
arrangements. Unfortunately, NMFA has heard most MTFs are not taking 
advantage of this bridge option and are looking at other contracting 
options that will not preserve the continuity of care and access 
currently enjoyed by patients. The relationships resource sharing 
personnel have developed with patients in places such as Madigan Army 
Medical Center, where the pediatric clinic is staffed entirely by 
resource sharing, should not be severed abruptly at a time when this 
continuity of care is needed most.
    NMFA is concerned that the costs of performing additional duties 
under the new TRICARE contracts will be one strain too many for a 
direct care system dealing with a multitude of stressors. NMFA is 
hearing that several MTFs are cutting back on pharmacy or clinic hours, 
eliminating contract staff, or capping TRICARE Prime enrollment even as 
they are forced to commit more personnel to support deployments, ensure 
newly-mobilized Guard and Reserve members are medically-ready to 
deploy, and care for wounded servicemembers returning from Iraq and 
Afghanistan. Cutbacks in the direct care system can result in one of 
two scenarios. An MTF may appeal to the ``patriotism'' of active duty 
families, survivors, retirees and their families by telling them that 
appointments are currently not available and asking them to wait. Or, 
if it chooses to ensure that TRICARE Prime access standards are met, it 
may be forced to send beneficiaries into the civilian purchased care 
networks for their care, probably at a greater cost to the government.
    When each of the current twelve regions started delivery of 
services under TRICARE in the mid to late 1990s, significant problems 
for beneficiaries developed. Over the ensuing years, most of the 
problems have been identified and corrected. The acceptance of and 
satisfaction with TRICARE Prime, the HMO piece of TRICARE, has steadily 
increased among beneficiaries. The transition to the new contracts must 
not once again put TRICARE at the top of concerns at beneficiary 
forums. Just as servicemembers are stretched thin with repeated 
deployments and time away from home, families are under increased 
stress. Problems accessing health care or difficulty in obtaining 
accurate information on how to do so should not be an additional part 
of this equation. The promise of TRICARE was that in times of high 
military operations tempo the purchased care system could pick up the 
slack when MTFs were stretched thin because of military optempo. This 
promise can only be kept if the defense health program is fully funded 
to meet its medical readiness mission and to provide the employer-
sponsored health care benefit. Further, it must incorporate enough 
flexibility to permit funding to be moved between the two segments as 
needed to ensure beneficiary access to quality care and to provide that 
quality care in the most cost-effective setting possible.
Guard and Reserve Health Care
    NMFA is grateful to Congress for its initial efforts to enhance the 
continuity of care for National Guard and Reserve members and their 
families. Unfortunately, as discussed in the statement submitted by The 
Military Coalition, the temporary health care provisions enacted in the 
fiscal year 2004 NDAA have not yet been implemented. Information and 
support are improving for Guard and Reserve families who must 
transition into TRICARE; however, NMFA believes that going into TRICARE 
may not be the best option for all of these families. Guard and Reserve 
servicemembers who have been mobilized should have the same option as 
their peers who work for the Department of Defense: DOD should pay 
their civilian health care premiums. The ability to stay with their 
civilian health care plan is especially important when a Guard or 
Reserve family member has a special need, a chronic condition, or is in 
the midst of treatment. While continuity of care for some families will 
be enhanced by the option to allow Guard and Reserve members to buy 
into TRICARE when not on active duty--if ever implemented--it can be 
provided for others only if they are allowed to remain with their 
civilian health insurance. Preserving the continuity of their health 
care is essential for families dealing with the stress of deployment.
Post Deployment Health for Servicemembers and Families
    The Services recognize the importance of educating servicemembers 
and family members about how to effect a successful homecoming and 
reunion and have taken steps to improve the return and reunion process. 
Information gathered in the now-mandatory post-deployment health 
assessments may also help identify servicemembers who may need more 
specialized assistance in making the transition home. Successful return 
and reunion programs will require attention over the long term. Many 
mental health experts state that some post-deployment problems may not 
surface for several months after the servicemembers return. NMFA is 
especially concerned about the services that will be available to the 
families of returning Guard and Reserve members and servicemembers who 
leave the military following the end of their enlistment. Although they 
may be eligible for transitional health care benefits and the 
servicemember may seek care through the Veterans' Administration, what 
happens when the military health benefits run out and deployment-
related stresses still affect the family? As part of its return and 
reunion plan, the military One Source contracts will help returning 
servicemembers and families access local community resources and to 
receive up to six free face-to-face mental health visits with a 
professional outside the chain of command. NMFA is pleased that DOD has 
committed to funding the counseling provided under the One Source 
contract and is implementing this counseling for servicemembers and 
families of all Services.
    Post-deployment transitions could be especially problematic for 
servicemembers who have been injured and their families. Wounded 
servicemembers have wounded families and, just as it will take some 
time for servicemembers physical wounds to heal, it will take time for 
the emotional wounds to heal. These servicemembers have received 
excellent care through military hospitals. In many cases, their 
families have also received superior support services through the 
hospitals' family assistance personnel. The medical handoff of the 
servicemember to the VA is steadily improving and the VA and DOD are 
working well together to improve the servicemembers' continuity of 
care. Ensuring the handoff to the VA or community-based support 
services needed by the wounded families is just as important.
    The new round of TRICARE contracts must provide standardized ways 
to access health care across all regions and emphasize providing 
continuity of care to beneficiaries during the transition from old to 
new contracts. The Defense Health System must be funded sufficiently so 
that the direct care system of military treatment facilities and the 
purchased care segment of civilian providers can work in tandem to meet 
the responsibilities given under the new contracts, meet readiness 
needs, and ensure access for all TRICARE beneficiaries. Families of 
Guard and Reserve members should have flexible options for their health 
care coverage that address both access to care and continuity of care. 
In addition, accurate and timely information on options for obtaining 
mental health services and other return and reunion support must be 
provided to families as well as to servicemembers.
Family Support
    Since our testimony before this Subcommittee last year, NMFA is 
pleased to note the Services continue to refine the programs and 
initiatives to provide support for military families in the period 
leading up to deployments, during deployment, and the return and 
reunion period. Our message to you today is simple: funding directed 
toward family support works! We have visited installations that 
benefited from family support funding provided through the wartime 
appropriations. This money enabled the National Guard Bureau to open 
additional Family Assistance Centers in areas with large numbers of 
mobilized Guard and Reserve members. It enabled the Services to provide 
additional child care for active duty families through their military 
child development centers and Family Child Care providers and to work 
on developing arrangements with child care providers in other locations 
to serve Guard and Reserve families. It enabled military family centers 
to hire additional staff and to increase programming and outreach to 
families of deployed servicemembers. It improved the ability of 
families to communicate with deployed servicemembers and enhanced 
Service efforts to ease servicemembers' return and reunion with their 
families.
    Funding directed toward family support is making a difference, but 
still sporadically. Consistent levels of targeted funding are needed, 
along with consistent levels of command focus on the importance of 
family support programs. NMFA remains concerned that installations must 
continue to divert resources from the basic level of family programs to 
address the surges of mobilization and return. Resources must be 
available for commanders and others charged with ensuring family 
readiness to help alleviate the strains on families facing more 
frequent and longer deployments. As the mobilization and de-
mobilization of Guard and Reserve members continues, support for their 
families remains critical.
    Projected force numbers for the second rotation of troops under 
Operation Iraqi Freedom call for 40 percent to be Guard and Reserve 
members. This number does not include servicemembers called up for duty 
in Operation Enduring Freedom in Afghanistan and those who continue to 
serve in Bosnia. National Guard and Reserve families often find 
themselves a great distance from traditional military installation-
based support facilities. They may also be far from the Guard armory or 
reserve center where their servicemember trains. How then does the 
family learn about all their active duty benefits or receive answers 
about how to follow the rules? Continued targeted funding for Family 
Assistance Centers and other support programs is essential to assist 
these families in their transition from the civilian to military life.
What's Needed for Family Support?
    Family readiness volunteers and installation family support 
personnel in both active duty and reserve component communities have 
been stretched thin over the past 2\1/2\ years as they have had to 
juggle pre-deployment, ongoing deployment, and return and reunion 
support, often simultaneously. Unfortunately, this juggling act will 
likely continue for some time. Volunteers, whose fatigue is evident, 
are frustrated with being called on too often during longer than 
anticipated and repeated deployments. We now hear from volunteers and 
family members whose servicemembers are serving in a second long 
deployment to a combat zone since the war on terrorism began. Family 
member volunteers support the servicemembers' choice to serve; however, 
they are worn out and concerned they do not have the training or the 
backup from the family support professionals to handle the problems 
facing some families in their units. Military community volunteers are 
the front line troops in the mission to ensure family readiness. They 
deserve training, information, and assistance from their commands, 
supportive unit rear detachment personnel, professional backup to deal 
with family issues beyond their expertise and comfort level, and 
opportunities for respite before becoming overwhelmed. NMFA is pleased 
that the Army is establishing paid Family Readiness Group positions at 
many installations dealing with deployments to provide additional 
support to families and volunteers--more of these positions are needed.
    NMFA knows that the length of a deployment in times of war is 
subject to change, but also understands the frustrations of family 
members who eagerly anticipated the return of their servicemembers on a 
certain date only to be informed at the last minute that the deployment 
will be extended. Other than the danger inherent in combat situations, 
the unpredictability of the length and frequency of deployments is 
perhaps the single most important factor frustrating families today. 
Because of the unpredictable nature of the military mission, family 
members need more help in acquiring the tools to cope with the 
unpredictability. A recent town meeting in Europe was held for family 
members of soldiers who were among the 20,000 troops recently extended 
for ninety more days. The commander of U.S. Army Europe heard first-
hand of the disruptions caused by this extension to families who only a 
few weeks before had been sitting in reintegration briefings and 
planning how to spend the time during the servicemembers' promised 
block leave. Now, these families face changes in move dates and fears 
they will not be settled at new assignments before school starts. 
Activities for children--including summer school--are now needed more 
than ever. School principals who thought parents would be home for 
graduation must arrange for video teleconferences to Iraq so that 
parents can still participate in the event. Families who purchased 
plane tickets for block leave trips back to the states must now seek 
refunds. Rear detachment personnel, family readiness volunteers and 
family center staff who were also looking forward to down time must now 
work harder to ensure that support is available for families in their 
charge.
Joint Family Support: An Idea Whose Time Has Come
    NMFA applauds the increase in joint coordination to improve family 
readiness that has occurred over the past few years. As the military 
becomes more ``joint,'' it makes sense to use a joint approach to 
family support, providing consistent information and using scarce 
personnel and other resources to the best advantage. A start in 
improved joint family readiness support has been DOD's establishment of 
a common web portal with links to military Service, private 
organization, and other useful government sites 
(www.deploymentconnections.org). All active and reserve component 
personnel and their families can now access the ``One Source'' 24-hour 
information and referral service. One Source provides information and 
assistance, not just for post-deployment concerns, but also in such 
areas as parenting and child care, educational services, financial 
information and counseling, civilian legal advice, elder care, crisis 
support, and relocation information. The service is available via 
telephone, e-mail, or the web and is designed to augment existing 
Service support activities and to link customers to key resources, web 
pages and call centers. It is also available to family center staff, 
many of whom tell NMFA that they regard it as a useful tool to expand 
the assistance they can provide families. One Source is operated for 
the military Services by a civilian company that provides similar 
Employee Assistance Programs for private industry. Early statistics on 
use indicate that servicemembers and families are accessing One Source 
primarily for everyday issues and basic information about military 
life. Military families who use One Source, including spouses who 
testified before the House Military Construction Appropriations 
Subcommittee in February, are pleased with the support and information 
provided.
    While NMFA believes One Source is an important tool for family 
support, it is not a substitute for the installation-based family 
support professionals or the Family Assistance Centers serving Guard 
and Reserve families. NMFA is concerned that in a tight budget 
situation, family support staffing might be cut under the assumption 
that the support could be provided remotely through One Source. The One 
Source information and referral service must be properly coordinated 
with other support services, to enable family support professionals to 
manage the many tasks that come from high optempo. The responsibility 
for training rear detachment personnel and volunteers and in providing 
the backup for complicated cases beyond the knowledge or comfort level 
of the volunteers should flow to the installation family center or 
Guard and Reserve family readiness staff. Family program staff must 
also facilitate communication and collaboration between the rear 
detachment, volunteers, and agencies such as chaplains, schools, and 
medical personnel.
    NMFA applauds the various initiatives designed to meet the needs of 
servicemembers and families wherever they live and whenever they need 
them and requests adequate funding to ensure continuation both of the 
``bedrock'' support programs and implementation of new initiatives. 
Higher stress levels caused by open-ended deployments require a higher 
level of community support. Family readiness responsibilities must be 
clearly delineated so that the burden does not fall disproportionately 
on volunteers.
Education for Military Children
    A significant element of family readiness is an educational system 
that provides a quality education to military children, recognizing the 
needs of these ever-moving students and responding to situations where 
the military parent is deployed and/or in an armed conflict. Children 
are affected by the absence of a parent and experience even higher 
levels of stress when their military parent is in a war zone shown 
constantly on television. The military member deployed to that 
dangerous place cannot afford to be distracted by the worry that his or 
her child is not receiving a quality education. Addressing the needs of 
these children, their classmates, and their parents is imperative to 
lowering the overall family stress level and to achieving an 
appropriate level of family readiness. But it does not come without 
cost to the local school system.
    NMFA is pleased to report that most schools charged with educating 
military children have stepped up to the challenge. They are the 
constant in a changing world and the place of security for military 
children and their families. The goal, according to one school 
official, ``is to keep things normal for the kids.'' The schools' role 
is to ``train teachers in what to look for and deal with what they 
find.'' NMFA received many positive stories from parents and schools 
about how the schools have helped children deal with their fears, keep 
in touch with deployed parents, and keep focused on learning. We have 
also heard stories of schools helping each other, of schools 
experienced in educating military children and dealing with deployment-
related issues providing support for school systems with the children 
of activated Guard and Reserve members. In the process, many schools 
have increased the understanding of their teachers and other staff, as 
well as their entire communities, about issues facing military 
families.
    The Department of Defense is supporting this effort in several 
significant ways. Late last year, DOD launched a new education website 
(www.militarystudent.org) to provide information on a variety of 
education topics to parents, students, educational personnel, and 
military commanders. Its information is especially valuable for schools 
and families dealing with the issues of deployment for the first time. 
NMFA is also pleased to report that other Services are following the 
Army's lead and hiring full-time School Liaison Officers at certain 
installations. The Army not only has School Liaison Officers at all 
locations, but has also expanded to provide these information services 
to the reserve components, recruiters and other remotely-assigned 
personnel and their families.
    NMFA applauds DOD initiatives to work with states to ease 
transition issues for military children and to ensure that military 
leaders and school officials are working together to provide high 
quality education for all their community's children. Hawaii's 
education officials are working closely with the Pacific Command 
through the Joint Venture Education Forum (JVEF). The JVEF has helped 
officials target Impact Aid and DOD supplement funding where most 
needed, marshaled military support to improve school facilities and 
sponsor school programs, conducted training sessions about the military 
for school personnel, and established model peer mentoring programs 
where students can help incoming military children acclimate to their 
new school. We believe such coordination between the military and the 
state and local entities charged with educating military children will 
bring an increased awareness to civilian neighborhoods about the value 
the military brings to their communities. To the military Services, 
this collaboration will bring a better awareness of the burden being 
shouldered by local taxpayers to educate military children. To military 
children and their parents, this collaboration shows that quality 
education is a shared priority between the Department of Defense and 
their local schools.
    NMFA is appreciative of the support shown by Congress for the 
schools educating military children. It has consistently supported the 
needs of the schools operated by the DOD Education Activity (DODEA), 
both in terms of basic funding and military construction. Congress has 
also resisted efforts by a series of administrations to cut the Impact 
Aid funding so vital to the civilian school districts that educate the 
majority of military children. NMFA is also appreciative of the 
approximately $30 million Congress adds in most years to the Defense 
budget to supplement Impact Aid for school districts whose enrollments 
are more than 20 percent military children and for the additional 
funding to support civilian school districts who are charged with 
educating severely disabled military children. NMFA does not believe, 
however, that this amount is sufficient to help school districts meet 
the demands placed on them by their responsibilities to serve large 
numbers of military children. Additional counseling and improvements to 
security are just two of needs faced by many of these school districts. 
NMFA requests this Subcommittee to increase the DOD supplement to 
Impact Aid to $50 million so that the recipient school districts have 
more resources at their disposal to educate the children of those who 
serve.
DODEA
    Department of Defense schools are located in overseas locations 
(DODDS) and on a small number of military installations in the United 
States (DDESS). The commitment to the education of military children in 
DOD schools between Congress, DOD, military commanders, DODEA 
leadership and staff, and especially military parents has resulted in 
high test scores, nationally-recognized minority student achievement, 
parent involvement programs and partnership activities with the 
military community. This partnership has been especially important as 
the overseas communities supported by DODDS and many of the 
installations with DDESS schools have experienced high deployment 
rates. DOD schools have responded to the operations tempo with 
increased support for families and children in their communities.
    While DOD schools have been immune from some of the constraints 
besetting civilian schools affected by state and local budget 
pressures, military families served by DOD schools have expressed 
concerns in recent years about DOD rescissions that cause cuts in 
maintenance, staff development, technology purchases and personnel 
support and also forced the elimination of some instructional days in 
some districts. NMFA is hearing concerns that DODDS will not be able to 
fund summer school this summer. Given the high deployment levels and 
deployment extensions affecting some communities in Europe, we know 
that children will need this opportunity for learning and involvement 
with their peers more than ever. We ask that Congress work with DOD to 
ensure DOD schools have the resources they need to handle their 
additional tasks.
    NMFA also asks this Subcommittee to understand the importance 
military parents attach to schools that educate their children well. 
DOD is currently preparing a Congressionally-requested report to 
determine whether it could turn some DDESS districts over to 
neighboring civilian education agencies. While NMFA does not object to 
the concept of a report to determine whether school systems are 
providing a quality education, using tax dollars well, or are in need 
of additional maintenance or other support funding, we are concerned 
about the timing of the study and the reaction it has caused in 
communities already dealing with the stress of the war and deployments. 
Families in these communities wonder why something that works so well 
now seems to be threatened. NMFA attended an October 2003 community-
input forum sponsored by the Director of DODEA. We were impressed not 
just with the strong support commanders and other community leaders 
gave to these schools, but also with the efforts they had made to reach 
out to local civilian schools to improve education for all military 
children.
    NMFA applauds the DOD vision that the Department focus on quality 
education for all military children. We have stated for years that DOD 
needs to do more to support civilian school districts educating most of 
the 85 percent of military children who do not attend DOD schools. We 
believe, however, that shifting children from highly successful, 
highly-resourced DOD schools to neighboring districts may cause more 
harm than good to both military children and their civilian peers. 
Adding to the stress in military communities also harms the education 
of military children. NMFA does not know what DOD's final 
recommendations will be. We encourage Members of Congress to study 
those recommendations closely before making any decision that could 
damage the educational success the DDESS schools have achieved.
    Schools serving military children, whether DOD or civilian schools, 
need the resources available to meet military parents' expectation that 
their children receive the highest quality education possible. Because 
Impact Aid from the Department of Education is not fully funded, NMFA 
recommends increasing the DOD supplement to Impact Aid to $50 million 
to help districts better meet the additional demands caused by large 
numbers of military children, deployment-related issues, and the 
effects of military programs and policies such as family housing 
privatization. Initiatives to assist parents and to promote better 
communication between installations and schools should be expanded 
across all Services. Military children must not be placed at a 
disadvantage as State and Federal governments devise accountability 
measures.
Strong Families Ensure a Strong Force
    Mr. Chairman, NMFA is grateful to this Subcommittee for ensuring 
funding is available for the vital quality of life components needed by 
today's force. As you consider the quality of life needs of 
servicemembers and their families this year, NMFA asks that you 
remember that the events of the past 2\1/2\ years have left this family 
force drained, yet still committed to their mission. Servicemembers 
look to their leaders to provide them with the tools to do the job, to 
enhance predictability, to ensure that their families are cared for, 
their spouses' career aspirations can be met, and their children are 
receiving a quality education. They look for signs from you that help 
is on the way, that their pay reflects the tasks they have been asked 
to do, and that their hard-earned benefits will continue to be 
available for themselves, their families, and their survivors, both now 
and into retirement.

    Senator Stevens. Well, we travel a lot and we find the 
results of your work, and we thank your family association very 
much for what you are doing in really bringing to the families 
knowledge of what we are trying to do and what we have been 
able to achieve. So we will examine your statement in greater 
detail and we thank you very much for the statement.
    Senator Inouye.
    Senator Inouye. Well, I agree with the chairman that a 
strong family system equals a strong military.
    Ms. Raezer. Thank you, Mr. Chairman, and thank you, Senator 
Inouye.
    Senator Stevens. Our next witness is retired Captain 
Marshall Hanson of the United States Navy Reserve, Chairman of 
the Association for America's Defense.
    Oh, pardon me. I am reading the wrong one. We will go to 
Melanie K. Smith, Director of the Lymphoma Research Foundation. 
You are next. Sorry about that.
STATEMENT OF MELANIE K. SMITH, DIRECTOR, PUBLIC POLICY 
            AND ADVOCACY, LYMPHOMA RESEARCH FOUNDATION
    Ms. Smith. Thank you. Mr. Chairman and Senator Inouye, it 
is my pleasure to appear before you today to request that you 
expand the congressionally directed medical research program to 
include research on the blood cancers. I am Melanie Smith, 
Director of Public Policy and Advocacy for the Lymphoma 
Research Foundation (LRF), a voluntary health agency that funds 
lymphoma research and provides education and support services 
to individuals with lymphoma and their families and friends. On 
behalf of LRF, thank you for the opportunity to testify today.
    This subcommittee is to be commended for its leadership in 
funding special research programs at the Department of Defense 
with a particular emphasis on cancer research. We realize that 
at the time that these programs were initiated, they were a 
departure from the national defense programs generally funded 
by the subcommittee. Over time, they have become model research 
programs that complement the research efforts of the National 
Institutes of Health (NIH) and that are hailed by patient 
advocates because they allow meaningful consumer input in the 
planning of the research portfolio and their view of research 
proposals.
    We understand that the subcommittee is carefully evaluating 
the congressionally directed medical research program (CDMRP) 
and has asked the Institute of Medicine to consider options for 
expanding the funding of these research ventures potentially 
through public-private partnerships. In light of this 
evaluation and the difficult Federal budget situation, it may, 
on first consideration, seem illogical for LRF to propose an 
expansion of CDMRP. However, we think that an investment in 
blood cancer research will complement and strengthen the 
existing blood cancer program at CDMRP and that the benefits of 
a blood cancer research program will far exceed the financial 
commitment to it.
    We make this bold statement based on the history of cancer 
research and treatment. We believe that directing funds to 
blood cancer research will yield benefits not only for blood 
cancer patients but also for patients that have been diagnosed 
with solid tumors. Advances in the treatment of the blood 
cancers have generally been of direct benefit to those with 
solid tumors.
    For example, many chemotherapy agents that are now used in 
the treatment of a wide range of solid tumors were originally 
used in the treatment of blood cancers. The strategy of 
combining chemotherapy with radiation therapy began in the 
treatment of Hodgkin's disease and is now widely used in the 
treatment of many solid tumors. Many recently developed 
therapeutic interventions like monoclonal antibodies that 
target and disable antigens on the cell surface are thought to 
be responsible for cell proliferation began in the blood 
cancers but are now thought to hold promise for breast, 
prostate, ovarian, and other forms of cancer.
    Each year approximately 110,000 Americans are diagnosed 
with one of the blood cancers. More than 60,000 will die in 
2004 and 700,000 Americans are living with these cancers. Taken 
as a whole, the blood-related cancers are the fifth most common 
cancer behind lung, breast, prostate, and colorectal cancer.
    The causes of the blood cancers remain unknown. With regard 
to Hodgkin's lymphoma and non-Hodgkin's lymphoma, immune system 
impairment and exposure to environmental carcinogens, 
pesticides, herbicides, viruses and bacteria may play a role. 
The linkage between exposure to one particular herbicide, Agent 
Orange, and the blood cancers has been established by the 
Committee to Review the Health Effects in Vietnam Veterans of 
Exposure to Herbicides, a special committee of the Institute of 
Medicine (IOM). This panel was authorized by the Agent Orange 
Act of 1991 and has issued four reports on the health effects 
of Agent Orange. The committee has concluded that there is 
sufficient evidence of an association between exposure to 
herbicides and chronic lymphocytic leukemia (CLL), non-
Hodgkin's lymphoma and Hodgkin's lymphoma, and there is limited 
or suggestive evidence of an association between herbicide 
exposure and multiple myeloma.
    The IOM panel does not have the responsibility to make 
recommendations about Veterans Administration benefits, but the 
VA has, in fact, responded to these reports by guaranteeing the 
full range of VA benefits to Vietnam veterans who have the 
diseases that have been linked to herbicide exposure, including 
CLL, Hodgkin's lymphoma, and non-Hodgkin's lymphoma.
    In fiscal years 2002, 2003, and 2004, the subcommittee 
funded a research program at the Department of Defense that 
supports research on one particular kind of leukemia called 
chronic myelogenous leukemia, or CML. This form of leukemia has 
been much in the news because of the development of Gleevec, a 
drug that has been hailed as a possible cure for the disease. 
We applaud the subcommittee for its commitment to a program of 
CML research. We would recommend that this program, which has 
received total funding of slightly less than $15 million over 
the last 3 years, be continued and that a parallel initiative 
be launched that would fund all other types of blood cancer 
research or that the CML program be expanded to fund research 
on all forms of blood cancer, perhaps with a special set-aside 
for CML.
    We believe that an investment of $16 million in a new blood 
cancer research program would have the potential to enhance our 
understanding of the blood cancers, viral and environmental 
links to these diseases and contribute to the development of 
new treatments.
    The subcommittee can strengthen the overall CDMRP cancer 
research efforts and contribute to development of new 
treatments for people with a blood cancer and those with solid 
tumors. We believe an investment in blood cancer research would 
be a wise one.
    We greatly appreciate the opportunity to present this 
proposal to you today. Thank you.
    Senator Stevens. Thank you very much.
    Questions, Senator?
    Senator Inouye. No.
    Senator Stevens. Thank you very much.
    Ms. Smith. Thank you.
    [The statement follows:]
                 Prepared Statement of Melanie K. Smith
    Mr. Chairman and Members of the Subcommittee, it is my pleasure to 
appear before you today to request that you expand the Congressionally 
Directed Medical Research Program to include research on the blood 
cancers. I am Melanie Smith, Director of Public Policy and Advocacy of 
the Lymphoma Research Foundation (LRF), a voluntary health agency that 
funds lymphoma research and provides education and support services to 
individuals with lymphoma and their families and friends.
    This Subcommittee is to be commended for its leadership in funding 
several special research programs at the Department of Defense (DOD), 
with a particular emphasis on cancer research. We realize that, at the 
time these programs were initiated, they were a departure from the 
national defense programs generally funded by the Subcommittee. Over 
time, they have become model research programs that complement the 
research efforts of the National Institutes of Health and that are 
hailed by patient advocates because they allow meaningful consumer 
input in the planning of the research portfolio and the review of 
research proposals.
    We understand that the Subcommittee is carefully evaluating the 
CDMRP and has asked the Institute of Medicine (IOM) to consider options 
for expanding the funding of these research ventures, potentially 
through public-private partnerships. In light of this evaluation and 
the difficult federal budget situation, it may on first consideration 
seem illogical for LRF to propose an expansion of CDMRP. However, we 
think that an investment in blood cancer research will complement and 
strengthen the existing blood cancer programs at CDMRP and that the 
benefits of a blood cancer research program will far exceed the 
financial commitment to it.
    We make this bold statement based on the history of cancer research 
and treatment. We believe that directing funds to blood cancer research 
will yield benefits not only for blood cancer patients but also for 
patients that have been diagnosed with solid tumors. Advances in the 
treatment of the blood cancer have generally been of direct benefit to 
those with solid tumors. For example, many chemotherapy agents that are 
now used in the treatment of a wide range of solid tumors were 
originally used in the treatment of blood cancers. The strategy of 
combining chemotherapy with radiation therapy began in the treatment of 
Hodgkin's disease and is now wisely used in the treatment of many solid 
tumors. Many recently developed therapeutic interventions, like 
monoclonal antibodies that target and disable antigens on the cell 
surface that are thought to be responsible for cell proliferation, 
began in the blood cancers but are now thought to hold promise for 
breast, prostate, ovarian, and other forms of cancer. Research on the 
blood cancers has also contributed to knowledge about staging cancer, 
as the concept of cancer staging to accurately define disease severity 
and target appropriate therapy began in lymphoma and is now used in all 
cancers.
    We believe that there are additional facts that justify a DOD 
investment in blood cancer research, including the potential links 
between military service and development of certain blood cancers. For 
example, exposure to Agent Orange has been associated with blood 
cancers. Possible exposures to other toxins might also be linked to 
development of blood cancers, and an enhanced blood cancer research 
program will help us understand these links.
    In the remainder of my statement, I will briefly provide additional 
information about the blood cancers, research on the possible causes of 
these cancers, and the benefits of expanding the current leukemia 
research program to include all blood cancers.
The Blood Cancers
    Each year, approximately 110,000 Americans are diagnosed with one 
of the blood cancers. More than 60,000 will die from these cancers in 
2004, and 700,000 Americans are living with these cancers. Taken as a 
whole, the blood-related cancers are the 5th most common cancer, behind 
lung, breast, prostate, and colorectal cancer.
    There have recently been some significant advances in the treatment 
of the blood cancers. In 2001, the targeted therapy called Gleevec was 
approved for treatment of chronic myelogenous leukemia, and this drug 
is also approved for use in gastrointestinal stromal tumor (GIST). Two 
new radioimmunotherapies have been approved for patients with 
refractory NHL, and a new proteasome inhibitor for treating multiple 
myeloma was approved in 2003. These treatments represent progress in 
the fight against the blood cancers, but there is much work still to be 
done.
    Although there have recently been declines in the number of new 
cases and deaths associated with many forms of cancer, the trend is 
different for non-Hodgkin's lymphoma and multiple myeloma. The 
incidence of non-Hodgkin's lymphoma has nearly doubled since the 
1970's, and the mortality rate from non-Hodgkin's lymphoma is 
increasing at a faster rate than other cancers. One can see that, 
despite scientific progress, there is much to be done to improve blood 
cancer treatments. We are pleased by any step forward, but our goal is 
still a cure of the blood cancers. We acknowledge that this is a 
scientifically difficult goal, but it must remain our objective. A DOD 
program could accelerate the achievement of this goal and may also 
benefit survivors with other forms of cancer.
The Link Between Blood Cancers and Military Service
    The causes of the blood cancers remain unknown. With regard to 
Hodgkin's lymphoma and non-Hodgkin's lymphoma, immune system impairment 
and exposure to environmental carcinogens, pesticides, herbicides, 
viruses, and bacteria may play a role. The linkage between exposure to 
one particular herbicide--Agent Orange--and the blood cancers has been 
established by the Committee to Review the Health Effects in Vietnam 
Veterans of Exposure to Herbicides, a special committee of the IOM. 
This panel was authorized by the Agent Orange Act of 1991 and has 
issued four reports on the health effects of Agent Orange. The 
committee has concluded that ``there is sufficient evidence of an 
association between exposure to herbicides'' and chronic lymphocytic 
leukemia (CLL), non-Hodgkin's lymphoma, and Hodgkin's lymphoma, and 
there is limited or suggestive evidence of an association between 
herbicide exposure and multiple myeloma.
    The IOM panel does not have responsibility to make recommendations 
about Veterans Administration (VA) benefits, but the VA has in fact 
responded to these reports by guaranteeing the full range of VA 
benefits to Vietnam veterans who have the diseases that have been 
linked to herbicide exposure, including CLL, Hodgkin's lymphoma, and 
non-Hodgkin's lymphoma. These benefits include access to VA health 
care. There are now, unfortunately, a number of Vietnam veterans who 
are receiving VA health care for treatment of CLL, non-Hodgkin's 
lymphoma, and Hodgkin's lymphoma, and DOD-sponsored research on these 
diseases has the potential to improve the survival and the quality of 
life for these veterans.
Potential Risks of Blood Cancers in the Future
    We all acknowledge that we live in a very complicated age, where 
those in the military are at risk of exposure to chemical and 
biological agents. The evidence suggests that immune system impairment 
and exposure to environmental carcinogens, pesticides, herbicides, 
viruses, and bacteria may play a role in the development of Hodgkin's 
lymphoma and non-Hodgkin's lymphoma. It is therefore possible that, if 
our troops were exposed to chemical or biological weapons, they might 
be placed at increased risk of development of non-Hodgkin's lymphoma, 
Hodgkin's lymphoma, or one of the other blood cancers.
    We strongly recommend that we invest now in research to understand 
the potential links between pesticides, herbicides, viruses, bacteria, 
and the blood cancers. The enhanced investment now may contribute to a 
deeper understanding of these possible linkages and to the development 
of strategies to protect those who suffer such exposures. A greater 
commitment to the research and development of new blood cancer 
therapies is also critically important if we anticipate that there may 
be more individuals, including those in the military, who suffer from 
those cancers as a result of service-connected exposure.
The Current DOD Chronic Myelogenous Leukemia Program
    In fiscal year 2002, fiscal year 2003, and fiscal year 2004, the 
Subcommittee funded a research program at DOD that supports research on 
one particular kind of leukemia, called chronic myelogenous leukemia, 
or CML. This form of leukemia has been much in the news because of the 
development of Gleevec, a drug that has been hailed as a possible cure 
for the disease. We applaud the Subcommittee for its commitment to a 
program of CML research. We would recommend that this program, which 
has received total funding of slightly less than $15 million over the 
last three years, be continued and that a parallel initiative be 
launched that would fund all other types of blood cancer research, or 
that the CML program be expanded to fund research on all forms of blood 
cancer, perhaps with a special set-aside for CML.
    We believe that an investment of $16 million in a new Blood Cancer 
Research Program would have the potential to enhance our understanding 
of the blood cancers and their links to chemical, viral, and bacterial 
exposures and to contribute to the development of new treatments. There 
are several promising areas of therapeutic research on blood cancers, 
including research about ways to use the body's immune system to fight 
the blood cancers, research on the development of less toxic and more 
targeted therapies than traditional chemotherapy agents, and research 
that will allow physicians to diagnose the specific type and subtype of 
blood cancers.
    The Subcommittee can, through a modest enhancement of the existing 
CDMRP, strengthen the overall CDMRP cancer research effort and 
contribute to development of new treatments for people with a blood 
cancer and those with solid tumors. In an age of severe fiscal 
constraints, the Subcommittee is understandably reluctant to increase 
its commitment to the CDMRP. However, an investment in blood cancer 
research would be a wise one.
    We appreciate the opportunity to present this proposal to you and 
would be pleased to answer your questions.

    Senator Stevens. Our next witness is Captain Marshall 
Hanson.
STATEMENT OF CAPTAIN MARSHALL HANSON, UNITED STATES 
            NAVAL RESERVE (RET.), CHAIRMAN, 
            ASSOCIATIONS FOR AMERICA'S DEFENSE (A4AD)
    Mr. Hanson. Good morning, Mr. Chairman, Senator Inouye. The 
Associations for America's Defense are very grateful to testify 
today.
    A4AD looks at national defense, equipment, force structure, 
funding and policy issues, not normally addressed by the 
military support community. We would like to thank this 
committee for the on-going stewardship on issues of defense. At 
a time of war, its pro-defense and non-partisan leadership sets 
the example.
    Support for our deployed troops in Iraq and Afghanistan are 
of primary importance and warrant top priority. A4AD would like 
to highlight some areas of emphasis.
    As a Nation we need to be supplying our troops with the 
initial issue equipment needed in training and later in combat. 
A well-equipped soldier or marine is better prepared. Our 
associations are pleased with improvements in personnel 
protection over the past year. We credit both Congress and DOD 
leadership with increased armor protection provided soldiers in 
combat. Yet, troops preparing for Iraq are being given empty 
vests in which to train. Every soldier, Guardsmen or marine 
should receive an armored vest with initial issue, allowing 
them to go through basic and advanced combat training in full 
battle attire.
    Good protection goes beyond steel and Kevlar. U.S. ground 
forces are under attack from improvised explosive devices (IED) 
on a routine basis. Countermeasure technology is available and 
should be funded to provide protection from attacks by jamming 
the electronic signals that detonate IED's.
    From 1984-2001, 90 percent of worldwide combat aircraft 
losses were attributable to shoulder fired missiles. Aircraft 
have proven vulnerable in Iraq. Funding should be made 
available for the next generation of electronic aircraft 
survival equipment to reduce the risk to personnel and 
equipment.
    The Pentagon is recommending the repeal of separate budget 
requests for procuring Reserve equipment. A combined equipment 
appropriation for each service will not guarantee needed 
equipment for the National Guard and Reserve components. We ask 
this committee to continue to provide appropriations against 
unfunded National Guard and Reserve equipment requirements. 
Included in our written testimony is a list of unfunded 
equipment for the Reserve components and the National Guard.
    Equipment is only as good as the people who use it. A4AD 
believes the administration and Congress must make it a high 
priority to maintain, if not increase, end strengths of already 
overworked military forces.
    The associations have additional concerns on how the Guard 
and Reserve are being utilized by the Pentagon and see a move 
away from the traditional mission of the Guard and Reserves to 
an operational part-time fighting force. A congressionally 
mandated comprehensive review of current Guard and Reserve 
roles and missions, and the proposed realignment of both the 
Army and Navy is needed, before these forces are hollowed out.
    We would like to thank you for your ongoing support of the 
Nation, the armed services, and the fine young men and women 
who defend our country. I stand by for questions, and feel free 
in the future to contact us if you have any additional 
concerns.
    Senator Stevens. Well, we do thank you for your emphasis 
and we are trying to really reach the same goals you have 
outlined. I am not sure we have the money to do it all, but we 
thank you very much for your suggestions.
    Senator.
    Senator Inouye. I agree with you, sir, and I think we have 
reached that 4 percent minimum when you add the supplemental in 
there. But we will do our best.
    Mr. Hanson. Thank you.
    Senator Stevens. Thank you very much.
    [The statement follows:]
                 Prepared Statement of Marshall Hanson
                              introduction
    Mister Chairman and distinguished members of the Committee, The 
Associations for America's Defense (A4AD) are very grateful for the 
invitation to testify before you about our views and suggestions 
concerning current and future issues facing the defense appropriations.
    Founded in 2002, the Association for America's Defense is a 
recently formed adhoc group of eleven Military and Veteran Associations 
that have concerns about National Security issues that are not normally 
addressed by The Military Coalition, and the National Military Veterans 
Alliance. The participants are members from each. Among the issues that 
are addressed are equipment, end strength, force structure, and defense 
policy. Collectively, we represent about 2.5 million members.
    Association of Old Crows, Enlisted Association National Guard of 
the United States, Marine Corps Reserve Association, Military Order of 
World Wars, National Association for Uniformed Services, Naval Enlisted 
Reserve Association, Naval Reserve Association, Navy League of the 
United States, Reserve Officers Association, The Retired Enlisted 
Association, and Veterans of Foreign Wars.
    Collectively, the preceding organizations have over two and a half 
million members who are serving our nation, or who have done so in the 
past. The number of supporters expands to beyond five million when you 
include family members and friends of the military.
    A4AD, also, cooperatively works with other associations, who 
provide input while not including their association name to the 
membership roster.
                current and future issues facing defense
    The Associations for America's Defense would like to thank this 
Committee for the on-going stewardship that it has demonstrated on 
issues of Defense. At a time of war, its pro-defense and non-partisan 
leadership sets the example.
    In keeping with this, A4AD would like to submit what its membership 
feel are the top equipment related issues for the Armed Forces.
Initial Issue Combat and Personnel Protection
    Initial Issue.--Unfunded requirements remain. It includes the 
following items: Small Arms, Protective Inserts (SAPI), Outer Tactical 
Vests (OTV), Individual Load Bearing equipment (ILBE), All Purpose 
Environmental Clothing System (APECS), Lightweight Helmet (LWH), 
Modular General Purpose Tent System, Modular Command Post System, 
Lightweight Maintenance Enclosures, and Ultra Light Camouflage Net 
System. These help in training, and later in combat.
    General Property and Support equipment.--Sun, wind and dust 
goggles, mosquito netting, field showers, field tarps and multi-faith 
chaplain's kits. Upgrade from the M16A2 service rifle to the M4 Carbine 
should continue as it is a lighter and better version of the M-16. 
Lightweight, Air-Mobile, Rapid Deployable, Hard-Wall Shelter (HELAMS) 
are a lightweight, self-deployable, hard-wall mobile shelter. Lessons 
learned from Operation Iraqi Freedom show that tents did not perform 
well in the hostile environment of the desert.
    Personnel Protection.--Gen. Michael Hagee, the Marine Corps 
commandant, and Gen. Peter Schoomaker, the Army chief of staff, said 
that they are working together to provide the best possible protection 
for their personnel who will be taking over the dangerous security and 
stability duties in Iraq.
    General Schoomaker is supplying the Interceptor body armor to about 
three-fourths of the U.S. troops heading to Iraq, and plans to have the 
interceptor body armor now over there in sufficient numbers for 
everybody else. All of the protective gear will be kept in the combat 
zone to supply all active Army, National Guard and Army Reserve 
personnel in Iraq and Kuwait. The Marine Corps' requirements are 
included in these numbers.
    General Hagee said that the 25,000 Marines who went into Iraq will 
have about 3,000 hardened trucks and Humvees, including those provided 
by the Army. General Shoomaker has also shared that there are three 
assembly sites in Iraq and Kuwait, which is retrofitting Humvees and 
trucks with armor plating.
    Position Statement.--The A4AD associations are pleased with 
improvements in personnel protection over the past year. We credit both 
the Congressional and DOD leadership with increased quantities in body 
armor, armoring kits and hardened vehicles.
    A4AD would like to highlight a continued need for personnel 
protection. Procurement needs to be expanded to include troops that are 
stateside. Troops training for Iraq were given empty vests in which to 
train, without armored plates. Every soldier, guardsmen or marine 
should receive an armored vest with initial issue, permitting them to 
go through basic and advanced combat training in full battle attire. 
Hardened vehicles should be included in training because of different 
driving characteristics.
    It has been noted that all 8,400 armor kits should have been done 
by April 30th. On March 11, commanders on the ground in Iraq asked the 
Pentagon for another 856 add-on armor Humvee kits; 236 truck kits, 
including FMTVs; and 800 gun-truck armor kits. But Pentagon leaders 
have not addressed the request; because of funding concerns.
    Position Statement.--There will be no funding or requisitions for 
these additional armor kits after April 30th. Supplemental funding is 
needed for these additional requirements.
Counter-measures to Improvised Explosive Devices
    Currently in Iraq, U.S. ground forces and our coalition allies are 
coming under attack from Improvised Explosive Devices (IED's) on a 
routine basis. These devices are cobbled together from unexploded 
ordinance or from explosives left behind after the collapse of the 
former regime. Many are activated while ground troops pass a particular 
point using radio signals generated from electronics as simple as a 
garage door opener or as sophisticated as a cellular telephone. 
Countermeasure technology is now available for installation on 
unarmored personnel carriers like Humvees to provide protection from 
attacks by jamming the electronic signals that detonate IED's.
    A limited quantity of this technology has been deployed, but this 
is not enough. All future procurement should require the installation 
of similar jamming technology to provide protection to ground forces 
now, and in future deployments. Additional research and development 
should be initiated immediately to enhance and expand the personal 
security benefits of this type of technology against similar future 
threats.
    Position Statement.--Immediate emphasis is needed for the 
procurement of sufficient quantities of countermeasures to protect 
every unarmored personnel carrier now deployed in the battle space.
Aircraft Survivability Equipment
    Much media attention has been paid to the problem of air 
survivability for helicopters in Iraq and Afghanistan. In the past, 
Congress has examined the anti-missile defense systems that need to be 
retrofitted into many of our deployed helicopters.
    Position Statement.--With the cancellation of the Comanche 
helicopter program by the Army, it has been reported that funding for 
this program would be re-programmed toward reviewing, upgrading and 
installing countermeasure protections on Army helicopters. Congress 
should quickly approve this request.
    From 1984-2001, ninety percent of worldwide combat aircraft losses 
were attributable to Shoulder Fired Missiles. Also called MANPAD (Man 
Portable Air Defense Systems), these are most often heat-seeking 
missiles, employing sensors that home in on the airplane's infrared 
signature, likely the engine. Their ability to accurately target 
aircraft from as far as 3 miles and as high as 20,000 feet makes them 
very difficult to protect against.
    Fixed wing aircraft are also flying in theatre: C-5s, C-9s, C-17s, 
C-40As and C-130s. Most military aircraft, including transports, are 
equipped with sensors that can detect incoming missiles and can drop 
flares to deflect the heat-seeking missiles or chaff to spoof those 
that are radar-guided.
    Approximately 50 percent of the Air Mobility Command fleet has 
anti-missile defensive systems. But 100 percent of AMC's C-17s (105 
aircraft), and 90 percent of the C-130s (approximately 500) are so 
equipped. The C-130, C-17 and C-5 fleets have flare-based 
countermeasures systems. Used in combat drops, the C-17's cockpit floor 
is sheathed with Kevlar to protect the pilots against ground fire. Only 
a handful of C-17s are being equipped with a new laser countermeasure 
system, called LAIRCM. Many C-130s have electronic warning receivers, 
using sensors in the nose and tail and chaff. The tanker fleets of KC-
135s and KC-10s have no defensive systems.
    Because of the high power settings all transport jet aircraft are 
vulnerable to MANPADS when in approach or after take-off climb phase of 
flight.
    In January, an Air Force C-5 transport plane carrying 63 troops was 
struck by a surface-to-air missile as it left Baghdad Airport but 
managed to land safely. In December an Air Force C-17 cargo and troop 
transport plane was hit by a surface-to-air missile after takeoff from 
Baghdad with a crew of three and 13 passengers. Several unsuccessful 
attacks were made on C-103 aircraft in 2003.
    Chaff and flares typically are employed to deflect heat-seeking 
missiles. In Baghdad, flares are often fired in a precautionary mode 
when landing. Confidence in these basic missile defense systems is not 
absolute. Pilots are flying evasively to reduce further risk. ``High 
and fast'' is one tactic reported to minimize aircraft exposure to the 
``bad guys''.
    New technologies and tactics utilized by non-traditional combatants 
have stretched the effectiveness of existing countermeasure systems for 
fixed and rotary wing aircraft in the battle space. Recent events in 
Iraq have demonstrated the vulnerability of our aircraft to attack from 
ground fire, rocket propelled grenades, and MANPADS, or shoulder-fired 
missiles.
    Advancements in technology allow upgrade missile defense systems. 
Newer ``aircraft survivability equipment,'' or ASE, can be described as 
integrated countermeasure dispensing systems that include detection 
equipment, threat adaptive computer, and deployable decoys. Another 
system includes a new laser countermeasure system; called LAIRCM where 
the computer guided intense light interferes with the missile guidance.
    These systems are designed to provide the capability of automatic 
or pilot commanded response, and works alone or in coordination with 
other countermeasures defensive systems to defeat Air Interceptor (AI), 
Anti-Aircraft Artillery (AAA), and Surface-to-Air Missiles (SAMs).
    The Army Guard is flying unarmed and unarmored twin engine 
aircraft, called the C-23 Sherpa and C-12 Hurons with passengers and 
cargo from Kuwait into Iraq. It is essentially a commercial airplane in 
a combat theater. The Sherpa crews are counting on installing defensive 
chafe and flare devices similar to those used on C-130s and designed to 
decoy a missile away from the target.
    Position Statement.--Congress should immediately fund the 
installation and/or upgrade of countermeasure systems in all fixed and 
rotary wing aircraft in the battle space to provide the greatest degree 
of protection for the U.S. warfighter.
    Anti-explosive foams.--Military aircraft can be as vulnerable as 
civilian airplanes to threats other than missiles. A tracer bullet into 
a fuel tank can have disastrous effects. One solution is to retrofit 
the aircraft fuel tanks with a foam lining that is anti-explosive. The 
density of the foam captures most projectiles, and fumes or fuel are 
protected from heat and spark. This is a low cost upgrade.
    Other protective measures.--IR suppression, ECM, fuel tank fire 
suppression, night vision lighting (NVL), DECM/CIRCM, aircraft, and 
aircrew personnel armor and self-defense, and paratroop door armor.
    Position Statement.--Appropriated monies should include simpler 
self-protective measures as well as more sophisticated. Aircraft 
survival is a full range package.
Maintaining the National Guard and Equipment List
    In the recent authorization bill submission to Congress, the 
Department of Defense is requesting that National Guard and Reserve 
equipment accounts be merged with that of the parent service.
    A single equipment appropriation for each service would not 
guarantee that the National Guard and Reserve Components would get any 
new equipment. The National Guard and Reserve Equipment Account (NGREA) 
is vital to ensuring that the Guard and Reserve has some funding to 
procure essential equipment that has not been funded by the services. 
Dollars intended for Guard and Reserve Equipment might be redirected to 
Active Duty non-funded requirements.
    This action would essentially end Congressional support of Guard 
and Reserve equipment accounts and severely reduce its ability to 
ensure that National Guard and the Reserve Components receive adequate 
funding to perform their missions and maintain readiness. Neither the 
National Guard nor Reserve would have the funds to pay for equipment 
that has not been programmed by the parent services. This will lead to 
decreased readiness.
    This move is reminiscent of the attempt by DOD, last year, to 
consolidate all pay and O&M accounts into one appropriation per 
service. Any action by the Pentagon to circumvent Congressional 
oversight should be resisted.
    Position Statement.--We ask this committee to continue to provide 
appropriations against unfunded National Guard and Reserve Equipment 
Requirements. To appropriate funds to Guard and Reserve equipment would 
help emphasize to the Active Duty that it is exploring dead-ends by 
suggesting the transfer of Reserve equipment away from the Reservists.
Unfunded Equipment Requirements
    This last year, this working group provided input for equipment for 
both Active duty, and the Reserve and Guard. With the Armed Forces 
engaged in the Global War on Terrorism, it is not the time for debate 
on equipment needs for the regular forces.
    Position Statement.--Unfunded AD requirements have been submitted 
to Congress and should be supported at best levels.
    $6.0 billion for the Army, $2.5 billion for the Navy, $2.4 billion 
for the Air Force, and $1.3 billion for the Marine Corps.
    Reserve Component requirements are provided for the major four of 
the uniformed services. The services are not listed in priority order.
            Top Guard and Reserve Equipment Requirements:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                                 Amount
------------------------------------------------------------------------
Air Force Reserve:
    C-40's Medivac [replaces aging C-9A] (4).................      261.3
    Large aircraft I/R Counter Measures......................       42.9
    B-52 Litening II Targeting Pod...........................        7.8
    A-10 Litening Targeting Pod..............................       37.7
    C-130 APN-241 Radars.....................................       38.9
------------------------------------------------------------------------

    Litening ER is a self-contained, multisensor laser target 
designating and navigation system that enables pilots to detect and 
identify ground targets for highly accurate delivery of both 
conventional and precision-guided weapons.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Air Guard:
    C-17's (per aircraft)...............................             184
    C-40C Special Mission Aircraft (1)..................              65
    Fire Vehicle Replacements (per year)................              15
    Patient Decontamination Assemblages.................             3.4
    Regional Equipment Operators Training Site..........              12
Army Reserve:
    Light Medium Tactical Vehicles [LMTV] (600).........              92
    Medium Tactical Vehicles [MTV] (800)................             146
    Movement Tracking System [MTS] (2005)...............              25
    Multi-band Super Hi Frequency [SHF] Terminal (38)...             114
    High Frequency [HF] Radio (1,255)...................              53
    All Terrain Lifting Army System [ATLAS] (100).......              10
Army Guard:
    High Mobility Multi-Purpose Wheeled Vehicle (HMMWV).  ..............
    Single Channel Ground Air Radio System (SINCGARS)...  ..............
    Heavy Expanded-Mobility Tactical Truck (HEMTT)......  ..............
    Family of Medium Tactical Vehicles (FMTV)...........  ..............
    Military Tactical Generator Sets....................  ..............
Reserve Marine Corps:
    F/A-18 ECP--583 Upgrade (combined AD/RC)............              63
    CH-53E HNVS ``B'' Kits (Forward Looking Infrared)               46.2
     (combined AD/RC)...................................
    Initial Issue equipment.............................              10
    General Property and Support Equipment..............               3
    Depot Level Maintenance Program.....................             6.4
Naval Reserve:
    Littoral Surveillance System, LSS coastal defense                 19
     (1)................................................
    Naval Coast Warfare Boats (28)......................              45
    P-3C AIP Kits (2)...................................              29
    F/A-18 ECP-560 Upgrades (8).........................              24
    C-40 A Inter-theater Transport (2)..................             130
    C-130 Propeller Upgrade Modification Program [PUMP]   ..............
     and ground tools...................................
------------------------------------------------------------------------

Reserve Commission/Comprehensive Review of the Guard and Reserve
    A number of the services are reviewing and suggesting major changes 
to their Reserve Component. A4AD is concerned that ongoing manpower 
reviews are being budget driven where the bottom line dollar will 
undercut effective mission accomplishment. The Active Duty services are 
anxious to ``transform'' their Reserve without Congressional oversight.
    Position Statement.--If our Active Duty leadership makes 
unfortunate choices, there is a potential of unnecessary Defense costs 
for Congress to remedy. A Congressional mandated comprehensive review 
of the current Guard and Reserve issues, roles and missions, along with 
realignment and integration plan of both the Army and Navy is very much 
needed. We believe that the best way to address these issues is through 
a Congressionally mandated Commission on Guard and Reserve 
Transformation Issues for the 21st Century.
Maintaining or Increasing End Strength
    Issues.--The United States is at War. While Secretary of Defense 
Rumsfeld has publicly opposed increases, and claims there are no plans 
for reduction, within DOD there is subtle pressures are to be found 
encouraging personnel cuts.
    A4AD has continuing concerns about the mismatch between reducing 
active duty and reserve force strengths and the increasing mission 
requirements. While retention remains at record highs, and military 
members seem ready and willing to make personal sacrifices on behalf of 
their country in the War on Terrorism, this luxury of manpower will not 
last. If the current Active Duty end strength was adequate, the demand 
for Reserve and Guard call-up would not be so urgent.
    A4AD believes the Administration and Congress must make it a high 
priority to maintain if not increase end strengths of already 
overworked military forces, even though DOD seems to want to work these 
forces even harder.
    Position Statement.--End strengths need to be closely examined by 
both the House and Senate as a first step in addressing this situation. 
We also solicit your input and support for maintaining or increasing 
end strength in future debates.
The 4 percent solution
    Issue.--Despite increases in the Defense budget, demands will be 
outstripping the availability of dollars. As money begins to be 
reprogrammed into Research and Development, the active duty programs 
will be stressed by perceived shortfalls. Resulting covetous possession 
will distort long term planning as planners seek to preserve favorite 
programs, surrendering the vulnerable and obsolete as a means to 
maintain the ``strong''. Such acquisitiveness will stifle innovation, 
and eradicate retention.
    The Armed Forces are an instrument of National Security and 
Defense, and are in affect an insurance policy to this Country; as 
demonstrated by events since 9/11/2001. Americans should be willing to 
invest as much into defense as we do into the personal insurance 
policies.
    Position Statement.--A4AD urges the President of the United States 
and members of Congress to continue to increase defense spending to a 
minimum of 4 percent of Gross Domestic Product.
                               conclusion
    A core of military and veteran associations is looking beyond 
personnel issues to the broader issues of National Defense. As a group, 
we will continue to meet in the future, and hope to provide your 
committee with our inputs.
    Thank you for your ongoing support of the Nation, the Armed 
Services, and the fine young men and women who defend our country. 
Please contact us with any questions.

    Senator Stevens. Our next witness is David Evans from 
Illinois Neurofibromatosis. Thank you.
STATEMENT OF DAVID EVANS ON BEHALF OF ILLINOIS 
            NEUROFIBROMATOSIS, INC.
    Mr. Evans. Thank you, Mr. Chairman and Senator Inouye, for 
this opportunity to appear before you today to present this 
testimony to the subcommittee on the importance of continued 
funding for neurofibromatosis, NF, a terrible genetic disorder 
associated with military purposes and closely linked to common 
diseases widespread among the American population.
    I am David Evans representing Illinois Neurofibromatosis, 
Inc., which is a participant in our national coalition of NF 
advocacy groups. I have lived with NF my entire life. Although 
I have not suffered any of NF's more severe symptoms, I have 
experienced rude comments and harassment my entire life. On 
July 4, 1996, I was threatened with arrest if I would not leave 
a water park in Crestwood, Illinois. After other patrons 
complained to the owner, he informed me that I looked terrible 
and should wear a shirt or leave. I explained NF to him and 
assumed the matter was settled. Later, however, he brought in 
the police and I was forced to leave. As a result of this 
experience, I have become active in Illinois NF, Inc. and have 
been on the board of directors since 1997.
    NF is a genetic disorder involving uncontrolled growth of 
tumors along the nervous system which can result in terrible 
disfigurement, deformity, deafness, blindness, brain tumors, 
cancer, and death. NF can also cause abnormalities such as 
unsightly benign tumors across the entire body and bone 
deformities. In addition, one-half of the children with NF 
suffer from learning disabilities. It is the most common 
neurological disorder caused by a single gene. While not all NF 
patients suffered from the most severe symptoms, all NF 
patients and their families live with the uncertainty of not 
knowing whether they will be seriously affected one day because 
NF is a highly variable and progressive disorder.
    Approximately 100,000 Americans have NF. It appears 
approximately in 1 every 3,500 births and strikes worldwide 
without regard to gender race or ethnicity. It is estimated 
that 50 percent of the new cases result from spontaneous 
mutation in an individual's genes and 50 percent are inherited. 
There are two types of NF: NF1, which is more common; and NF2, 
which primarily involves acoustic neuromas and other tumors, 
causing deafness and balance problems. NF research will benefit 
over 150 million Americans in this generation alone because NF 
has been directly implicated in many of the most common 
diseases affecting the general population.
    NF research is directly linked to military purposes because 
NF is closely linked to cancer, brain tumors, learning 
disabilities, heart disease, brain tissue degeneration, nervous 
system degeneration, deafness, and balance. Because NF 
manifests in the nervous system, this subcommittee in past 
report language has stated that the Army supported research on 
NF includes important investigations into genetic mechanisms 
governing peripheral nerve regeneration after injury from such 
things as missile wounds and chemical toxins. For the same 
reason, this subcommittee also stated NF may be relevant to 
understanding Gulf War Syndrome and to gaining a better 
understanding of wound healing. Today NF research includes 
important investigations into genetic mechanisms which involve 
not just the nervous system but also other cancers.
    Recognizing NF's importance to both the military and the 
general population, Congress has given the Army's NF research 
program strong bipartisan support. The Army program funds 
innovative, groundbreaking research which would not otherwise 
have been pursued and has produced major advances in NF 
research. The program has brought new researchers into the 
field of NF, as can be seen by the nearly 60 percent increase 
in applications in the past year alone. Unfortunately, despite 
this increase, the number of awards has remained relatively 
constant over the past couple of years, resulting in many 
highly qualified applications going unfunded.
    Because of the enormous advances that have been made as a 
result of the Army's NF research, research in NF has truly 
become one of the great success stories in the current 
revolution of molecular genetics, leading one major researcher 
to conclude that more is known about NF genetically than any 
other disease. Accordingly, many medical researchers believe NF 
should serve as a model to study all diseases.
    Mr. Chairman, the Army's highly successful NF research 
program has shown tangible results and direct military 
application with broad implications for the general public. Now 
in that critical area of clinical translation research, 
scientists closely involved with the Army program have stated 
that the number of high quality scientific applications justify 
a much larger program. Therefore, increased funding is now 
needed to take advantage of promising avenues of investigation 
to continue building on the success of this program and to fund 
translational research, thereby continuing the enormous return 
on the taxpayers' investment.
    I am here to respectfully request an appropriation of $25 
million in the fiscal year 2005 Department of Defense 
appropriations bill for the Army neurofibromatosis research 
program. This is a $5 million increase over the fiscal year 
2004 funding level of $20 million.
    Thank you for your support of this program and I appreciate 
this opportunity to testify to the subcommittee.
    Senator Stevens. Would you please provide for the record 
the monies received for NF from any other Government source 
such as NIH? We would appreciate it.
    Mr. Evans. From NIH?
    Senator Stevens. Will you also provide for the record--I 
want it for the record, not now, thank you.
    Mr. Evans. Okay, we will provide that to you.
    Senator Stevens.--how many members of the armed services 
have NF.
    Mr. Evans. Although we know there are members of the armed 
services, we do not have a number.
    Senator Stevens. Senator Inouye.
    Senator Inouye. No questions.
    Senator Stevens. Thank you very much.
    Mr. Evans. Thank you.
    [The information follows:]
                   Prepared Statement of David Evans
    Thank you, Mr. Chairman, for the opportunity to appear before you 
today to present testimony to the Subcommittee on the importance of 
continued funding for Neurofibromatosis (NF), a terrible genetic 
disorder directly associated with military purposes and closely linked 
too many common diseases widespread among the American population.
    I am David Evans, representing Illinois Neurofibromatosis, Inc., 
which is a participant in a national coalition of NF advocacy groups. I 
have lived with NF my entire life. Although I have not suffered any of 
NF's severe symptoms, I have experienced the social problems caused by 
being afflicted with NF. I have endured rude comments and harassment my 
entire life. On July 4, 1996 I was threatened with arrest if I would 
not leave a water park in Crestwood, Illinois. After other patrons 
complained to the owner; he informed me that I looked ``terrible'' and 
should wear a shirt or leave. I explained NF to him and assumed the 
matter was settled. Later however, he brought in the police and I was 
forced to leave. As a result of this experience I became active in 
Illinois NF, Inc. and have been on the board of directors since 1997.
    Mr. Chairman, I am requesting increased support, in the amount of 
$25 million, to continue the Army's highly successful NF Research 
Program (NFRP). The program's great success can be seen in the 
commencement of clinical trials only ten years since the discovery of 
the NF1 gene. Now, with NF in the expensive but critical era of 
clinical and translational research, scientists closely involved with 
the Army program have stated that the number of high-quality scientific 
applications justify a much larger program.
What is Neurofibromatosis (NF)?
    NF is a genetic disorder involving the uncontrolled growth of 
tumors along the nervous system which can result in terrible 
disfigurement, deformity, deafness, blindness, brain tumors, cancer, 
and/or death. NF can also cause other abnormalities such as unsightly 
benign tumors across the entire body and bone deformities. In addition, 
approximately one-half of children with NF suffer from learning 
disabilities. It is the most common neurological disorder caused by a 
single gene. While not all NF patients suffer from the most severe 
symptoms, all NF patients and their families live with the uncertainty 
of not knowing whether they will be seriously affected one day because 
NF is a highly variable and progressive disease.
    Approximately 100,000 Americans have NF. It appears in 
approximately one in every 3,500 births and strikes worldwide, without 
regard to gender, race or ethnicity. It is estimated that 50 percent of 
new cases result from a spontaneous mutation in an individual's genes 
and 50 percent are inherited. There are two types of NF: NF1, which is 
more common, and NF2, which primarily involves acoustic neuromas and 
other tumors, causing deafness and balance problems. NF research will 
benefit over 150 million Americans in this generation alone because NF 
has been directly implicated in many of the most common diseases 
affecting the general population.
NF's Connection to the Military
    NF research is directly linked to military purposes because NF is 
closely linked to cancer, brain tumors, learning disabilities, heart 
disease, brain tissue degeneration, nervous system degeneration, 
deafness, and balance. Because NF manifests itself in the nervous 
system, this Subcommittee, in past Report language, has stated that 
Army-supported research on NF includes important investigations into 
genetic mechanisms governing peripheral nerve regeneration after injury 
from such things as missile wounds and chemical toxins. For the same 
reason, this subcommittee also stated that NF may be relevant to 
understanding Gulf War Syndrome and to gaining a better understanding 
of wound healing. Today, NF research now includes important 
investigations into genetic mechanisms which involve not just the 
nervous system but also other cancers.
The Army's Contribution to NF Research
    Recognizing NF's importance to both the military and to the general 
population, Congress has given the Army's NF Research Program strong 
bipartisan support. After the initial three-year grants were 
successfully completed, Congress appropriated continued funding for the 
Army NF Research Program on an annual basis. From fiscal year 1996 
through fiscal year 2004, this funding has amounted to $130.3 million, 
in addition to the original $8 million appropriation in fiscal year 
1992. Between fiscal year 1996 and fiscal year 2003, 361 proposals were 
received, of which 119 awards have been granted to researchers across 
the country. The Army program funds innovative, groundbreaking research 
which would not otherwise have been pursued, and has produced major 
advances in NF research, such as the development of advanced animal 
models, preclinical therapeutic experimentation and clinical trials. 
The program has brought new researchers into the field of NF, as can be 
seen by the nearly 60 percent increase in applications in the past year 
alone. Unfortunately, despite this increase, the number of awards has 
remained relatively constant over the past couple of years resulting in 
many highly qualified applications going unfunded.
    In order to ensure maximum efficiency, the Army collaborates 
closely with other federal agencies that are involved in NF research, 
such as NIH and the VA. Senior program staff from the National Cancer 
Institute (NCI) and the National Institute of Neurological Disorders 
and Stroke (NINDS), for example, have sat on the Army's NF Research 
Program's Integration Panel which sets the long-term vision and funding 
strategies for the program. This assures the highest scientific 
standard for research funding while ensuring that the Army program does 
not overlap with other research activities.
    Because of the enormous advances that have been made as a result of 
the Army's NF Research Program, research in NF has truly become one of 
the great success stories in the current revolution in molecular 
genetics, leading one major researcher to conclude that more is known 
about NF genetically than any other disease. Accordingly, many medical 
researchers believe that NF should serve as a model to study all 
diseases.
Future Directions
    The NF research community is now ready to embark on projects that 
translate the scientific discoveries from the lab to the clinic. This 
translational research holds incredible promise for NF patients, as 
well as for patients who suffer from many of the diseases linked to NF. 
This research is costly and will require an increased commitment on the 
federal level. Specifically, increased investment in the following 
areas would continue to advance NF research and are included in the 
Army's NF research goals:
  --Clinical trials
  --Development of drug and genetic therapies
  --Further development and maintenance of advanced animal models
  --Expansion of biochemical research on the functions of the NF gene 
        and discovery of new targets for drug therapy
  --Natural History Studies and identification of modifier genes--such 
        studies are already underway, and they will provide a baseline 
        for testing potential therapies and differentiating among 
        different phenotypes of NF
  --Development of NF Centers, tissue banks, and patient registries.
Fiscal Year 2005 Request
    Mr. Chairman, the Army's highly successful NF Research Program has 
shown tangible results and direct military application with broad 
implications for the general population as well. The program is now 
poised to fund translational and clinical research, which is the most 
promising yet the most expensive direction that NF research has taken. 
The program has succeeded in its mission to bring new researchers and 
new approaches to research into the field. Therefore, increased funding 
is now needed to take advantage of promising avenues of investigation, 
to continue to build on the successes of this program, and to fund this 
translational research thereby continuing the enormous return on the 
taxpayers' investment.
    I am here today to respectfully request an appropriation of $25 
million in your fiscal year 2005 Department of Defense Appropriations 
bill for the Army Neurofibromatosis Research Program. This is a $5 
million increase over the fiscal year 2004 level of $20 million.
    Mr. Chairman, in addition to providing a clear military benefit, 
the DOD's Neurofibromatosis Research Program also provides hope for the 
100,000 Americans like me who suffer from NF, as well as the tens of 
millions of Americans who suffer from NF's related diseases such as 
cancer, learning disabilities, heart disease, and brain tumors. Leading 
researchers now believe that we are on the threshold of a treatment and 
a cure for this terrible disease. With this Subcommittee's continued 
support, we will prevail.
    Thank you for your support of this program and I appreciate the 
opportunity to present this testimony to the Subcommittee.
                                 ______
                                 
                                                      May 17, 2004.
Senator Ted Stevens,
Chairman, Senate Appropriations Subcommittee on Defense, 119 Dirksen 
        Senate Office Building, Washington, DC 20510.
    Dear Chairman Stevens: Thank you for the opportunity to testify 
before the Senate Appropriations Subcommittee on Defense regarding the 
Army's Neurofibromatosis Research Program (NFRP). Neurofibromatosis 
(NF) is a terrible genetic disorder directly associated with military 
purposes and closely linked to many common diseases affecting 
approximately 150 million Americans.
    As I discussed in my testimony, Neurofibromatosis (NF) research is 
directly linked to military purposes because it is closely linked to 
cancer, brain tumors, learning disabilities, memory loss, brain tissue 
degeneration and regeneration, nervous system degeneration and 
regeneration, deafness, balance and healing after wounding. Indeed, the 
House Defense Appropriations Subcommittee in a prior year underscored 
the importance of NF research to the military by stating in Report 
Language that Army-supported research on NF includes important 
investigations into genetic mechanisms governing peripheral nerve 
regeneration after injury from such things as missile wounds and 
chemical toxins, and is important to gaining a better understanding of 
wound healing.
    As a result of the huge success of the highly acclaimed NFRP, 
researchers are now engaged in translational research which will 
directly benefit the military, NF patients and close to 150 million 
Americans in the general population who suffer from NF's many related 
disorders.
    Most importantly, the Army's NFRP does not fund the same kind or 
level of research as NIH. Rather the Army's NF medical research program 
funds much more aggressive, higher risk and innovative research from 
which the real breakthroughs in science come, including funding NF's 
first clinical trials, therapeutic experimentation, development of 
advanced mouse models, natural history studies as well as encouraging 
the development of consortia and bringing researchers from other fields 
into NF research. To ensure coordination and avoid duplication or 
overlap, the director of NF research at NINDS sits on the Army's 
Integration Panel for NF as have other NIH officials in the past.
    The NFRP has been widely acclaimed by the NF research community, 
and just in the past year, it received nearly 60 percent more 
applications than the year before. Thanks to the NFRP, we are now at 
the threshold of treatments and a cure for this devastating illness and 
its related disorders. There is no question that the Army NF Program 
has accelerated the rate of progress by many years and has resulted in 
research advances that otherwise might never have occurred. Because of 
the enormous advances that have been made as a result of the Army's NF 
Research Program, research in NF has truly become one of the great 
success stories in the current revolution in molecular genetics, 
leading one major researcher to conclude that more is known about NF 
genetically than any other disease. Accordingly, many medical 
researchers believe that NF should serve as a model to study all 
diseases.
    Neurofibromatosis (NF) is really two genetically distinct 
disorders. Both disorders affect males and females equally and people 
of all races and ethnic groups. Half of the people with NF do not have 
a family history of the disorder. Neurofibromatosis type 1 (NF-1), 
which is the most common, affects 1 in 4,000 births. Neurofibromatosis 
type 2 (NF-2) affects 1 in 40,000.
    In order to ensure maximum efficiency, the Army coordinates and 
collaborates closely with other federal agencies that are involved in 
NF research, such as the National Institutes of Health (NIH) and the 
Department of Veterans Affairs (VA). In fiscal year 2004 approximately 
$19.4 million went to complimentary NF Research at the various 
institutes at NIH, including NCI ($5.6 million), NINDS ($6.3 million), 
NICHD ($0.8 million), NEI ($0.3 million), NIDCD ($2.0 million), NHGRI 
($3.8 million), NCRR ($0.4 million), and NHLBI. This funding however, 
typically funds more traditional, less innovative and more basic 
orientated research than the Army Program.
    Recognizing the importance of the NFRP to military and civilian 
populations, as well as its strong track record in advancing NF 
research on a limited budget, Congress has consistently funded the NFRP 
over the past decade, rising to a level of $20 million in fiscal year 
2004. The program enjoys bipartisan support, including strong support 
in the House of Representatives and the Senate.
    The Army's Congressionally Mandated NF Research Program (NFRP) has 
furnished the figures of 124 cases of NF reported in 2003 and 731 
seeking treatment among all Services active duty military and their 
dependents during the last 10 years. However, the number of cases of 
known NF in the military is really not the issue but rather, the 
enormous implications advances in NF research have for direct military 
purposes such as healing after wounding, brain tissue regeneration, 
memory loss, nerve tissue regeneration, balance problems, hearing loss, 
blindness, as well as its direct connection to cancer, brain tumors, 
heart disease and cognitive disorders which affect the general 
population as well.
    Because of the characteristics of NF and the wide range of 
manifestations and varying degrees of severity, NF is difficult to 
diagnose. In addition, the symptoms are progressive over the 
individual's lifetime and many applicants to military service are 
unaware that they have NF until later in adulthood. Therefore NF is 
frequently missed in admitting physicals and is often not diagnosed 
until military service is completed. Fourteen year Army veteran Ted 
Yates, who is featured in the attached Stripe article, is a prime 
example of one who had his military career cut short because of NF.
    Mr. Chairman, I respectfully invite your attention to all the 
invaluable information provided by the Army regarding the NFRP on its 
website: http://cdmrp.army.mil.
    Thank you for your attention, and I hope this answers any questions 
you may have. If you or your staff wishes to talk further, you can 
speak with me at (847) 290-5025, or with my Washington representatives 
Ed Long and Katie Weyforth at (202)544-1880.
            Sincerely,
                                                    David H. Evans.
                                 ______
                                 

                     [From Stripe, August 28, 1992]

                  Veteran Copes With Genetic Disorder
   disease takes two distinct forms; undetectable until tumors begin
              (By Barry Reichenbaugh, Stripe staff writer)
    For Ted Yates, it's been a source of lasting pain.
    First he bore the emotional pain of watching his mother endure 
years of a disease people knew very little about. Then his adult life 
brought physical pain as he discovered he also had the same disease. It 
came to be known as neurofibromatosis.
    Through it all he has persisted.
    Yates recently spent a week at Walter Reed Army Medical Center for 
some routine testing and to record some comments for an educational 
video about the condition affecting his body.
    As an Army major with a masters degree in civil engineering, his 
career was cut short by a loss of hearing resulting from 
neurofibromatosis 2.
    Neurofibromatosis is a genetic condition that causes tumors to form 
on nerves anywhere in the body. The condition occurs in two distinct 
forms. NF-1 causes coffee-colored spots on the skin and both internal 
and external tumors which may disfigure a person's appearance: NF-2 
frequently causes brain and spinal tumors which can lead to loss of 
hearing, sight and balance.
    The disorders are sometimes inherited and sometimes the result of 
spontaneous mutation, according to existing information on 
neurofibromatosis. There is no test for either form of NF, no way to 
prevent the disease, and no cure. The disease is lesser-known than 
Muscular Distrophy, Tay-Sachs and Huntington's Disease, but it affects 
more people.
    ``The thing's so traumatic,'' Yates says. ``People have facial 
paralysis, they can't hear, their eyes don't operate properly, like me 
they're clumsy. They go into the bedroom and sit. And it's hidden.''
    Yates and two brothers inherited the disorder from their mother, 
who died in her sixties while undergoing an operation for the removal 
of tumors.
    He says doctors had no idea he had NF-2 when he had his first tumor 
removed in 1965 at age 25. He wasn't severely affected by the disorder 
and continued his Army career for another decade. Operations for tumors 
affecting his acoustic nerves in the late 1970s led to complete 
deafness and his medical retirement from the Army after 14 years of 
service.
    His last operation was in 1984. Since then, because tumors can 
recur at any time, Yates has periodic Magnetic Resonance Imaging scans 
done around his head and spine to detect new growths.
    The tumors that people who have NF commonly develop can cause 
constant pain. The external tumors can severely disfigure the skin and 
cause mental anguish on top of the physical pain.
    ``One thing I learned early on is that people in our society put 
too much emphasis on appearance,'' says Yates. ``And once they see your 
face . . . they pity you. They want to kind of get away from you. 
Nobody has wanted to talk about NF . . . now we do.''
    Awareness is getting better, says Mary Ann Wilson of 
Neurofibromatosis, Inc., but her organization and others continue their 
efforts to educate medical professionals and the public. NF, Inc., is a 
national not-for-profit organization in Mitchellville, Md. ``Through 
educating the public we also promote tolerance toward people who have 
NF, especially the ones who look different and who have the multiple 
tumors,'' says Wilson.
    She says NF, Inc., is producing an educational videotape about the 
disorder, its symptoms and its affect on people and their families. 
Starting this fall the video will be shown at medical facilities and 
schools to physicians, social workers, genetic counselors and the 
public. Wilson's group is actively involved in attracting funding and 
support for continued research in hope of finding a cure for the 
disorders.
    The National Institute of Health is working to find the origin of 
NF-2. Researchers there have traced the NF-2 genetic trail through 
several generations of Yates' family.
    ``Mr. Yates' family is a very large family, and that makes it 
useful for these kinds of studies,'' says Dr. Dilys Parry, a clinical 
genetics researcher with the National Institute of Health in Bethesda, 
Md. ``To try to map a gene you need to have affected and unaffected 
individuals in two and preferably three or more generations. His family 
alone provided us enough information to map the gene.
    ``We know the chromosome the gene is on,'' says Parry. ``We have 
some DNA markers that we know are near the gene, but we don't have the 
gene yet.''
    Parry says once researchers have the gene they can figure out what 
the normal gene is doing and what went wrong to cause NF-2. With that 
knowledge, she says, they may be able to develop therapeutic methods to 
prevent tumors from growing.
    One tragic aspect of both NF-1 and NF-2 is that since there's no 
test to uncover the disorders before tumors first appear, people with 
NF can pass the disorder on to their children before they know they 
have it themselves.
    ``The one thing that ties all of us together,'' says Wilson, 
``whether NF-1 or NF-2, is the unpredictability of the condition. You 
don't know if your children have it until it manifests itself.''
    ``Once you know you have NF you can probably go two ways--you can 
either accept it or reject it,'' says Yates. ``And if you accept, it 
you really don't need anybody's help to cope. If you reject it you 
do.''
    Yates is one of those people who accepts the disorder but doesn't 
let it keep him housebound. In addition to spending his time in his 
woodworking shop and tending his vegetable garden and fruit trees, 
Yates has touched the lives of scores of young people in his home of 
Enterprise, Ala., through his involvement in youth soccer. Two of his 
YMCA teams have earned state championships.
    ``I really enjoy seeing kids develop,'' answers Yates when asked 
what he likes about coaching soccer. ``You take 15 individuals and you 
can mold them into a team. You can see them get better--team-wise and 
individually.
    ``What they're learning is a little about life--they're learning 
that they can't do everything by themselves--it takes somebody else 
involved to really get a job done.''
    That's also how Yates sees his life with NF-2.
    ``You really have to fight depression all the time,'' he says. 
``It's hanging right there on your shoulder all the time. I stay busy. 
I push myself. If I get up and I don't feel good and I think I'm not 
going to do anything today--I'll say `no, you're going to do 
something,' and then I'll start doing something.''
    He says he gets encouragement from his wife, Laraine, his family 
and friends, including friends made here at Walter Reed during numerous 
visits over the years.
    The Neurosurgery Clinic staff at WRAMC sees several patients with 
neurofibromatosis, says Capt. James Ecklund, M.D., chief resident in 
neurosurgery. Yates, he says, has ``a fairly complex case'' of NF-2 in 
that he has ``a lot of tumors.'' But despite his condition, says 
Ecklund, Yates copes very well with his problems.
    ``He's a wonderful guy,'' says Ecklund. ``He's doing well in spite 
of his deafness. He's an excellent reader of lips.'' .
    Yates says he appreciates the treatment he gets every time he comes 
to Walter Reed.
    ``I've been coming here since 1983,'' says Yates, ``and no matter 
who's here, they've all been good to me. I can't say enough about the 
staff here. The people who've been here a while know me and they treat 
me real good. It's just like homecoming when I come up here. They're 
all glad to see me and want to know how I'm doing.''
                                 ______
                                 
       Neurofibromatosis: Inherited, Caused by Genetic Mutations
              (By Barry Reichenbaugh, Stripe staff writer)
    There are two genetically distinct forms of neurofibromatosis: NF-1 
and NF-2.
    Both forms are genetic disorders of the nervous system that can 
cause tumors to form on the nerves anywhere in the body, at any time, 
according to educational literature prepared by Neurofibromatosis, 
Inc., of Mitchellville, Md.
    Neither form of the disease can be passed on by contact. 
Neurofibromatosis is either inherited, or it develops by some 
unexplained genetic mutation. All races and both sexes are equally 
affected.
    NF-1 (formerly called Recklinghausen's Disease) occurs in about one 
in 4,000 births and is characterized by:
  --Multiple cafe-au-lait colored spots on the skin;
  --Tumors of varying sizes on or under the skin;
  --Freckling in the underarm or groin area.
    Some people with NF-1 have mild symptoms and live relatively normal 
lives. Others have many nerve fiberous lumps on the face and body. 
Changes in hormone levels during puberty or pregnancy can increase the 
problem. Kids with NF-1 sometimes have learning disabilities and speech 
problems, seizures and can be hyperactive.
    NF-2, or bilateral acoustic neurofibromatosis, occurs in about one 
in 50,000 births and is characterized by:
  --Tumors affecting the hearing nerves, often resulting in hearing 
        loss and balance problems;
  --Tumors of the brain or spinal cord and skin;
  --Unusual cataracts of the eye occurring at an early age.
    Signs of NF-2 usually appear after puberty. People with NF-2 may 
lose their hearing or sight, experience headaches, dizziness and 
balance problems.
    An affected person has a 50 percent chance of passing the disorder 
on to each offspring. Neurofibromatosis 1 and 2 may be associated with 
bone deformation, hearing loss, vision impairment, and seizures.
    People who do not have neurofibromatosis cannot pass the disease on 
to their children.
    For more information on neurofibromatosis, contact Mary Ann Wilson 
at (301) 577-8984, TDD (301) 461-5213, or write to NF, Inc., Mid-
Atlantic chapter, 3401 Woodridge Court, Mitchellville, MD 20721-2817.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Stevens. Our next witness is Benjamin Butler, 
Legislative Director for the National Association of Uniformed 
Services. Good morning, sir.
STATEMENT OF BENJAMIN H. BUTLER, LEGISLATIVE DIRECTOR, 
            NATIONAL ASSOCIATION FOR UNIFORMED SERVICES
    Mr. Butler. Mr. Chairman, Senator Inouye, the National 
Association for Uniformed Services is very grateful for the 
invitation to testify before you about our views and 
suggestions concerning defense funding issues. I would like to 
highlight part of my written testimony pertaining to military 
health care.
    We would like to thank the subcommittee and the full 
Appropriations Committee for its leadership in the past, 
resulting in TRICARE improvements for all military medical 
beneficiaries. However, we must again urge that the Senate 
provide full funding of the defense health program.
    A recent action in the Washington, DC, area illustrates the 
impact that funding can have on health care. According to a 
document from a medical treatment facility (MTF) commander in 
the Washington, DC, area, ``Our Nation is at war. As a result, 
this is an exceptional tight fiscal year for which no 
supplemental funding is anticipated.''
    Consequently, within the local military health care 
network, enrollment in TRICARE Prime for new enrollees is 
restricted to active duty and active duty family members only. 
New retirees and family members under age 65 may enroll only 
with a civilian primary care manager.
    In addition, certain special services within the network 
are limited and beneficiaries may not have access to urology, 
physical therapy, and optometry, and for certain the Fort 
Belvoir ear, nose, and throat clinic because of its closure.
    We are concerned that what is happening locally within the 
Washington, DC, area will be duplicated across the country and 
within all MTF and TRICARE networks.
    And these actions go beyond just patient access. For 
example, it affects the entire military medical department. 
Doctors need to have access to patients with medical conditions 
to practice and develop their skills. Without patient access 
and skill development of doctors and teams required for 
delivery of high quality general and specialized procedures, 
there is a tremendous adverse effect on military medical 
readiness. Especially affected are fields like cardio surgery, 
urology, general surgery, ophthalmology, and internal medicine.
    Our concerns are that urologists, general surgeons, and 
other doctors will be reduced to treating routine situations on 
an active duty only population within the United States, and if 
this happens, how can DOD interest military doctors in 
remaining on active duty?
    Most retirees and their family members under the age of 65 
joined TRICARE Prime to continue care in the military system. 
Forcing them out of the military care denies them the care they 
want and the military doctors the full range of patients they 
need for their training and skills.
    Many in military medicine have been concerned for years 
about the eroding patient base. Closing TRICARE Prime to 
retirees and their family members on base accelerates the 
erosion of the referral base to military medical centers where 
most of the specialized training takes place.
    Funding shortfalls that cause MTF commanders to cut off 
retirees from direct military medical care and that force them 
to seek care in the civilian sector has the potential of 
harming the military medical departments.
    Mr. Chairman, the overall goal of the National Association 
of Uniformed Services (NAUS) is a strong national defense. We 
believe that comprehensive, lifelong medical care for all 
uniformed services beneficiaries, regardless of age, status, or 
location, furthers this goal. As evidenced by the recent 
changes in the military health care system locally, none of 
these goals can be achieved without adequate funding and 
without the people to work on, the skills that are so important 
to our military doctors could diminish.
    Thank you, Mr. Chairman.
    [The statement follows:]
                Prepared Statement of Benjamin H. Butler
                              introduction
    Mister Chairman and distinguished members of the Committee, The 
National Association for Uniformed Services (NAUS) is very grateful for 
the invitation to testify before you about our views and suggestions 
concerning the following defense funding issues:
              survivor benefits program (sbp) improvements
Age 62 Survivor Benefits Program Offset
    The National Association for Uniformed Services primary survivor 
goal is the elimination of the age 62 Survivor Benefit Program annuity 
offset. This would increase the annuity from 35 percent to the original 
55 percent. Not only were many of the earliest enrollees not provided 
the full explanation of the benefits and the Social Security Offset, 
but the Federal Government provides a substantially higher annuity with 
no offset for federal Civil Service survivors annuities.
    Position: We urge the committee to provide funding for the annuity 
increase as described in S. 1916, and end the often-devastating effects 
of the offset.
30 Year Paid-Up Status
    A secondary goal is the acceleration of the paid-up provisions by 
changing the effective date from October 1, 2008 to October 1, 2004, 
one year beyond the 30th anniversary of the program. Enrollees who have 
reached the age of 70 and have paid their SBP premiums for more than 30 
years (360 payments) are already being penalized.
    Position: We ask that you provide funding to allow those early 
enrollees to be allowed this relief as described in S. 2177.
Survivor Benefits Program/Dependency and Indemnity Compensation Offset
    Currently, if the retired military sponsor, who enrolled in the 
Survivor Benefits Program, dies of a service-connected disability, the 
surviving spouse is eligible for both the SBP annuity and Dependency 
and Indemnity Compensation (DIC) from the Department of Veterans 
Affairs. However, the SBP annuity is offset by the full amount of the 
DIC annuity. Each program's purpose is different, SBP's goal is to 
provide for the loss of the sponsors earned retired pay, and DIC's goal 
is to provide the surviving spouse compensation for the loss of their 
spouse due to injuries caused by his/her service to the country.
    Position: The National Association for Uniformed Services strongly 
urges funding for S. 585.
                  military exchanges and commissaries
    Issue One.--Why would the Department of Defense want to reduce the 
commissary benefit at its greatest time of need? The answer is money. 
DOD wants to reduce the subsidy for the commissary system that provides 
food and other essentials to troops and families around the world, 
which will end up in the military community losing the benefit. 
Examples of this include a recent proposal studied by DOD to implement 
a policy of variable pricing at military commissaries that would 
actually reduce the savings to the military customer. While the 
variable pricing study requested by DOD does not seem to offer a 
favorable recommendation, we are concerned that additional bad ideas 
like this will be generated in the future that will ultimately hurt the 
benefit.
    NAUS understands the importance of saving scarce taxpayer's 
dollars. Every taxpayer dollar collected must be used wisely to keep 
down the amount of taxes the government collects; this is only common 
sense. Therefore, every government agency, department or system must be 
as efficient as possible. For example, the leaders of the commissary 
system have been and are continuing to make internal changes to improve 
efficiencies and reduce overhead operating costs. DOD should be setting 
goals, not mandating changes.
    Position: The National Association for Unformed Services strongly 
urges you to continue to provide the funding for the Commissary Subsidy 
to sustain the current services. Commissaries are a key component of 
the military pay and compensation package. Any action that reduces the 
benefit means a diminished quality of life and more out of pocket 
costs.
    Issue Two.--The Department of Defense is planning the consolidation 
of the Armed Services three-exchange services into one single entity, 
though still retaining the ``look and feel'' of each store and 
maintaining the service culture to which the patrons are accustomed. 
The goal again, is to save money by elimination of redundant overheads, 
delivery systems, and the power of economy of scaling purchasing.
    Position: NAUS does not endorse a consolidation, especially if 
consolidation is for consolidation's sake. Streamlining, improving 
internal operations and implementation of cost saving measures must not 
reduce the value of the benefit. NAUS supports funding for system 
studies, but not an accelerated consolidation.
    current and future issues facing uniformed services health care
    The National Association for Uniformed Services would like to thank 
the Sub-Committee and the Full Appropriations Committee for its 
leadership in the past for providing the landmark legislation extending 
the Pharmacy benefit and TRICARE system to Medicare eligible military 
retirees, their families and survivors, making the lifetime benefit 
permanent, establishing the DOD Medicare Eligible Retiree Health Care 
Fund, reducing the catastrophic cap and making other TRICARE 
improvements. However, we must again urge that the Senate provides full 
funding of the Defense Health Program.
    A recent action in the Washington, DC area illustrates the impact 
that funding can have on the health care benefit. According to a 
document from a MTF commander in the Washington, DC area, which may 
duplicate similar notices issues by other MTF commanders around the 
country, ``Our nation is at War. As a result, this is an exceptional 
tight fiscal year for which no supplemental funding is anticipated.''
    Consequently, within the Fort Belvoir Health Care Network, which is 
a part of the Walter Reed Army Medical Center network, enrollment in 
TRICARE Prime for new enrollees is restricted to Active Duty (AD) and 
Active Duty Family Members (ADFM) only. New retirees and family 
members, under age 65, may enroll only with a civilian primary care 
manager. Furthermore, enrollment in TRICARE Plus (for retirees/family 
members over 65) is no longer available to new enrollees, or the Prime 
enrollees aging into Medicare.
    In addition, certain special services within the network are 
limited and beneficiaries may not have access to Urology, Physical 
Therapy, and Optometry; and, for certain the Fort Belvoir Ear Nose and 
Throat clinic because of its closure.
    We are concerned that what is happening locally within the 
Washington, DC area will be duplicated across the country and within 
all MTF and TRICARE Networks.
    And, these actions go beyond just patient access. For example it 
affects the entire military medical department. For example, doctors 
need to have access to patients with medical conditions to practice and 
develop their skills. Without patient access and skill development of 
doctors and teams required for delivery of high quality general and 
specialized procedures--there is a tremendous adverse affect on 
military medical readiness. Especially affected are fields like 
cardiothoracic surgery, urology, general surgery, ophthalmology and 
internal medicine. Does the military have no further need for doctors 
treating Ear, Nose and Throat problems?
    Other concerns are:
  --How will the remnants of the military medical departments be able 
        to take care of troops involved in the various theaters of 
        operations that are or will be involved in fighting the War on 
        Terror?
  --Will urologist/general surgeons be reduced to treating routine 
        situations on an active duty only population within the United 
        States?
  --If so, how can DOD interest them in remaining on active duty? Most 
        retirees and their family members under the age of 65 join 
        TRICARE-Prime to continue care in the military system. Forcing 
        them out of military care denies them the care they want and 
        doctors the full range of patients they need for their training 
        and skills.
  --What about the retired Medical Corps officers that were lured to 
        return as civilian doctors to staff MTFs?
    Many in military medicine have been concerned for years about the 
eroding patient base. Closing TRICARE-Prime to retirees and their 
family members at the base level accelerates the erosion of the 
referral base to military medical centers where most of the specialized 
training takes place.
    Funding shortfalls that are more than likely a reaction to a mid-
term budget review and other DOD imposed restrictions that causes MTF 
commanders to cut off retirees from direct military medical care and 
that forces them to seek care in the civilian sector has the potential 
of harming the military medical departments.
    We are also concerned about staffing MTFs with ``temporary'' hire 
physicians. After witnessing an ever changing medical program that has 
no job security, what kind of physician can be found to work in such an 
environment? Would they be the ones at the end of their careers that 
are anxious to leave at the first sign of trouble or a better job? 
Additional questions also arise concerning the time, money, and effort 
was used to secure contract physicians in the first place.
    Not all retirees are old. Many are retiring at the 20-year point 
between the ages of 37-42. Others, many who are now patients at our 
military medical centers are being treated for wounds received in Iraq 
and other places, and will be placed on the retired list while they are 
in their very early 20's or 30s. What reaction can we expect from these 
wounded troops after being told that if they stay in the military or 
are medically retired will be persona non grata in the direct care 
system at age 65?
    Mr. Chairman, the overall goal of the National Association for 
Uniformed Services is a strong National Defense. We believe that 
comprehensive, lifelong medical and dental care for all Uniformed 
Service beneficiaries regardless of age, status or location furthers 
this goal. As evidenced by the recent changes in the military health 
care system locally none of these goals can be achieved without 
adequate funding, and without the people to work on, the skills that 
are so important to our military doctors could diminish.
FEHBP
    The National Association for Uniformed Services has been a long 
time proponent of legislation that would provide military personnel the 
option of participating in the Federal Employees Health Benefit 
Program. Though confident that the TRICARE program and the TRICARE for 
Life program will be successful, because they are an outstanding value 
for most beneficiaries, in a few cases, the TRICARE/TRICARE for Life 
options may not be the best choice, or may not be available for the 
eligible beneficiary. For that reason, we believe the FEHBP option 
should be enacted. Providing the FEHBP, as an option would help 
stabilize the TRICARE program, provide a market based benchmark for 
cost comparison and be available to those for whom TRICARE/TRICARE for 
Life is not an adequate solution.
    Position: NAUS strongly urges the committee to provide additional 
funding to support a full FEHBP program for military personnel as an 
option.
Include Physician and Nurse Specialty Pay in Retirement Computations
    Results of a recent Active Duty Survey show that pay and benefits 
are the most important factors impacting retention. Improving specialty 
pay/bonuses and including specialty pay/bonuses in retired pay 
calculations would aid retention. Therefore, prompt action to retain 
these and other highly skilled medical professionals is needed.
    Position: The National Association for Uniformed Services requests 
funding to allow the military physicians and nurses to use their 
specialty pay in their retirement computations. The military services 
continue to lose top quality medical professionals (doctors and nurses) 
at mid-career. A major reason is the difference between compensation 
levels for military physicians and nurses and those in the private 
sector.
Permanent ID Card for Dependents Age 65 and Over
    One of the issues stressed by NAUS is the need for permanent ID 
cards for dependents age 65 and over. With the start of TRICARE for 
Life, expiration of TFL-eligible spouses' and survivors' military 
identification cards, and the threatened denial of health care claims, 
causes some of our older members and their caregivers' significant 
administrative and financial distress.
    Formerly, many of them who lived miles from a military installation 
or who lived in nursing homes and assisted living facilities just did 
not bother to renew their ID card at the four-year expiration date. 
Before the enactment of TFL, they had little to lose by doing so. But 
now, ID card expiration cuts off their new and all-important health 
care coverage.
    A four-year expiration date is reasonable for younger family 
members and survivors who have a higher incidence of divorce and 
remarriage, but it imposes significant hardship and injustice to the 
more elderly dependents and survivors.
    NAUS is concerned that many elderly spouses and survivors with 
limited mobility find it difficult or impossible to renew their 
military identification cards. A number of seniors are incapacitated 
living in residential facilities, some cannot drive, and many more do 
not live within a reasonable distance of a military facility. Often the 
threat of loss of coverage is forcing elderly spouses and survivors to 
try to drive long distances to get their cards renewed. Renewal by mail 
can be confusing and very difficult for beneficiaries or their 
caregivers. The bottom line is that those who cannot handle the 
daunting administrative requirements to renew their ID card every four 
years potentially face a significant penalty.
    Position: NAUS urges that the Subcommittee direct the Secretary of 
Defense to authorize issuance of permanent military identification 
cards to uniformed services family members and survivors who are age 65 
and older, with appropriate guidelines for notification and surrender 
of the ID card in those cases where eligibility is ended by divorce or 
remarriage.
                               conclusion
    Mr. Chairman and distinguished members of the Sub-Committee, we 
want to thank you for your leadership and for holding these hearings 
this year. You have made it clear that the military continues to be a 
high priority and you have our continuing support.

    Senator Stevens. Well, I certainly wish we had the funding. 
We might be able to meet some of these requests today. But I do 
think you have got a point.
    Do you know the cost of using the Federal Employees Health 
Benefits Program (FEHBP) in lieu of the TRICARE option?
    Mr. Butler. We have that information available. I will 
provide it for the record, Mr. Chairman.
    Senator Stevens. I would like to see that.
    Also, have you requested the military ID cards before? I 
think that is a very valid idea. They should have them anyway 
to have access to military facilities if they want to seek 
medical care at such a facility when they are traveling. Have 
you asked for that before?
    Mr. Butler. Asked for military identification (ID) cards?
    Senator Stevens. Yes, for uniformed service family members 
and survivors who are 65 and older. Have you asked for that 
before?
    Mr. Butler. Yes, we have. We have presented that in 
testimony before with the over 65 that have a hard time getting 
their ID cards renewed. We believe when they turn 65, that it 
should be indefinite at that time.
    Senator Stevens. We would support that. I am not sure we 
can do it or whether it should go to the Armed Services 
Committee, but it is a good suggestion.
    Senator.
    Senator Inouye. No questions.
    Senator Stevens. Thank you very much. Enjoyed your 
testimony.
    Our next witness is Harry Armen, President-elect, American 
Society of Mechanical Engineers.
STATEMENT OF HARRY ARMEN, PRESIDENT-ELECT, AMERICAN 
            SOCIETY OF MECHANICAL ENGINEERS
    Mr. Armen. Good morning. My name is Harry Armen. I am 
President of the American Society of Mechanical Engineers, a 
120,000 member engineering society founded in 1880. I have 39 
years of experience in the defense aerospace industry.
    We appreciate the opportunity to appear before your 
subcommittee to present our views on the importance of science, 
engineering, and technology programs sponsored by the DOD, 
programs that are critically important to fundamental 
scientific advances and to the next generation of highly 
skilled scientists and engineers. I want to specifically thank 
this subcommittee and you, Mr. Chairman, and you, Senator 
Inouye, for the ongoing support that you have shown for the DOD 
science and technology programs.
    The stated goal of the administration and Congress is to 
maintain defense S&T funding at 3 percent of the defense 
budget. This would require $12.1 billion for fiscal year 2005. 
We urge you to support this level of funding to enhance both 
the security and the economic vitality of the Nation.
    While we appreciate your continued support for the overall 
program, we remain very concerned about the growing level of 
investments in near-term applied R&D at the expense of long-
term investments in basic research. We urge you to reverse the 
declining percentage of funding that supports basic research 
within the S&T portfolio.
    In the early 1980's basic research was 20 percent of that 
portfolio. That level has declined to less than 12 percent. We 
strongly urge this subcommittee to support basic research that 
will lead to the next generation of advances in defense 
technology and ultimately to fielded systems. Here is why.
    Reductions in the basic research budget will have adverse 
consequences on the development of the science and engineering 
workforce. DOD basic research and graduate education programs 
are tightly linked. The failure to invest now to sustain these 
programs will reduce the number and quality of students who 
become engineers and scientists in the future. I cannot impress 
upon you enough that this is an urgent situation, one that 
keeps me and should keep the members of the subcommittee awake 
at night. We are simply not attracting the best and brightest 
of our young students to enter the field of defense R&D.
    Furthermore, unlike in the past, engineering students from 
abroad are not planning to remain in the United States after 
graduation, but are instead planning to return to their home 
countries to explore opportunities there. While the commercial 
industry is able to utilize talent from abroad, the defense 
industry cannot.
    A recent RAND study concluded that two-thirds of all 
Federal R&D funding that went to institutes of higher learning 
in 2002 was provided by the Department of Health and Human 
Services. Most of that went to life sciences. In sharp 
contrast, the DOD provided 7 percent. Our students followed the 
dollars.
    We have an opportunity now to reverse the situation by 
attracting the best and the brightest young minds to consider a 
career in defense R&D. I urge the members of the subcommittee 
to continue your support to strengthen DOD science, 
engineering, and technology programs. It will require your 
continued commitment and attention to defense R&D to ensure 
that our best engineering and scientific minds are once again 
willing to apply their talents to meeting the future defense 
needs of this Nation.
    I thank you for the opportunity to offer our views.
    [The statement follows:]
                   Prepared Statement of Harry Armen
    The ASME DOD Task Force of the Inter-Council Committee on Federal 
Research and Development (ICCFRD) is pleased to provide this testimony 
on the Research, Development, Test and Evaluation (RDT&E) and the 
Science, Engineering and Technology (SET) programs within the fiscal 
year 2005 budget request for the Department of Defense. We appreciate 
the opportunity to provide input on these areas that are critical to 
the national security and economic vitality of the United States.
Introduction
    ASME is a nonprofit, worldwide engineering Society serving a 
membership of 120,000. It conducts one of the world's largest technical 
publishing operations, holds more than 30 technical conferences and 200 
professional development courses each year, and sets many industrial 
and manufacturing standards. The work of the Society is performed by 
its member-elected Board of Governors through five Councils, 44 Boards, 
and hundreds of Committees operating in 13 regions throughout the 
world.
    ASME's DOD Task Force (herein referred to as ``the task force'') is 
comprised of university and industry members who contribute their 
engineering and policy expertise to review the DOD budget and 
legislative requests. The Task Force believes it is uniquely qualified 
to evaluate budget and policy issues in the area of DOD's science, 
engineering and technology development programs. This analysis is 
provided as a public service and we are proud to contribute to a better 
public policy-making process.
DOD Research, Development, Test and Evaluation Accounts
    The Administration requested $68.9 billion for the Research, 
Development, Test and Evaluation (RDT&E) portion of the fiscal year 
2005 DOD budget. These resources are used mostly for developing, 
demonstrating, and testing weapon systems, such as fighter aircraft and 
warships. This amount represents growth from last year's appropriated 
amount of about 6 percent, and is historically the highest funding 
level for overall engineering activities, even when adjusted for 
inflation. Therefore, even with new requirements generated from the 
transformational military, missile defense, and the war on terrorism, 
this funding level appears to be sufficient to develop, demonstrate, 
and bring military systems to the production phase that will be 
required in the near future. Hence, the Task Force supports the overall 
funding request for RDT&E.
DOD Science, Engineering and Technology Accounts
    A relatively small fraction of the total RDT&E budget is allocated 
for the core Science, Engineering and Technology (SET) programs. 
Specifically, the Administration's proposed SET request is $10.55 
billion, 15 percent of the RDT&E total, and 15 percent lower than the 
fiscal year 2004 appropriated level of $12.5 billion. The Task Force is 
very concerned with the proposed significant reductions in the SET 
accounts, particularly in the areas of basic research and in programs 
that fund advanced science, mathematics, and engineering education.
    There are three (3) components to the SET budget: basic research 
(6.1), applied research (6.2), and advanced technology development 
(6.3). The Administration's request in all three of these areas is less 
than present funding levels.
    The request for basic research (6.1) is $1.3 billion, 5 percent 
lower than the fiscal year 2004 appropriated amount of $1.4 billion. 
Basic research is less than 12 percent of the SET budget, and less than 
2 percent of the RTD&E total, and yet the programs supported by this 
account are critically important to fundamental scientific advances and 
to the next generation of highly skilled scientists and engineers. 
Almost all of the current high-technology weapon systems, from laser-
guided, precision weapons, to the global positioning satellite (GPS) 
system, have their origin in fundamental discoveries generated by these 
defense-oriented, basic research programs. Proper investments in basic 
research are needed now, so that the fundamental scientific results 
will be available to create innovative solutions to future defense 
needs of this country. Over the last 40 years, more than half of all 
mechanical and electrical engineering graduate students have been 
funded under these DOD basic research programs. Many of the technical 
leaders in corporations and government laboratories which are 
developing current weapon systems, such as the F-22 and the Joint 
Strike Fighter, were educated by fellowships and/or research programs 
funded by DOD basic research programs. Failure to invest sufficient 
resources in basic, defense-oriented research could reduce innovation 
and weaken the future S&E workforce.
    The request for applied research (6.2) is $3.9 billion, 14 percent 
below the fiscal year 2004 funding level of $4.4 billion. The programs 
supported by this account are generally intended to take basic 
scientific knowledge, perhaps phenomena discovered under the basic 
research programs, and apply them to important defense needs. These 
programs may involve laboratory proof-of-concept and are generally 
conducted at universities and government laboratories. Some devices 
created in these defense technology programs have duel use, such as 
GPS, and the commercial market far exceeds the defense market. Many 
small companies that fuel job growth in many states obtained their 
start in defense programs, but later broaden their market. However, 
without initial support many of these companies would not exist. 
Failure to properly invest in applied research would prevent many ideas 
for devices from being tested in the laboratory, and would stunt the 
creation and growth of small entrepreneurial companies.
    The request for advanced technology development (6.3) is $5.3 
billion, 17 percent lower than the present funding level of $6.3 
billion. These resources support programs that develop technology to 
the point that they are ready to be used in weapon systems. Generally 
without real system-level demonstrations, which are funded by these 
accounts, companies are reluctant to incorporate new devices into 
system development programs.
    The Congress in general, and this subcommittee specifically, has 
acted in recent years to increase funding in the DOD SET accounts, and 
we thank you for your support. The oft-stated goal of both the 
Administration and Congress is to maintain defense SET funding at 3 
percent of the overall defense budget. This would require $12.1 billion 
for the SET accounts for fiscal year 2005, which is an increase of 
approximately $1.6 billion above the Administration's request. We 
recommend you support this level of funding to maintain stable funding 
in the SET portion of the DOD budget. This level of funding will 
enhance the long-term security and economic vitality of our country.
    We further recommend that the Administration and Congress undertake 
a five-year program to reverse the declining percentage of funding 
within the SET portfolio that supports basic research. This is 
precisely the type of work that yielded discoveries used today in 
weapons systems, platforms and protective gear successfully fielded to 
save lives. In the early 1980s, basic research accounted for nearly 20 
percent of SET funding. This level has declined to less than 12 percent 
of the SET budget and less than 2 percent of the overall RDT&E budget. 
We encourage the Committee to reverse this downward trend in 
investments in the basic ideas that are going to lead to tomorrow's 
advances in defense technology.
Science and Engineering (S&E) Workforce
    The DOD supports 37 percent of all federal research in the computer 
sciences and 44 percent of all engineering research, as well as 
significant shares of research in mathematics and oceanography. DOD's 
impact is even greater in several engineering sub-disciplines such as 
electrical engineering and mechanical engineering. DOD funds research 
in these disciplines for their contributions to national defense, but 
this research is also a key source for major innovations in the 
civilian economy. Through their research, engineers and scientists are 
helping to prepare the U.S. military to be ready for the new threats it 
faces in the 21st century, including nuclear, chemical, biological, and 
other asymmetric threats such as terrorism and cyber attacks.
    A December 2003 National Science Board report titled ``The Science 
and Engineering Workforce: Realizing America's Potential'' stated, ``. 
. . demographics data indicate that participation of U.S. students in 
science and engineering will decline if historical trends continue in 
S&E degree attainment by our college-age population. At the same time, 
retirements of scientists and engineers currently in the workforce will 
accelerate over the coming years.''
    Reductions in the SET budgets have potential adverse consequences 
on the development of the S&E workforce. DOD basic research and 
graduate education programs are tightly linked by design. The failure 
to invest now to sustain these programs will reduce the number and 
quality of engineers and scientists in the future. Many of the highly 
trained and competent people that emerge from these research programs 
contribute directly to the design and development of defense systems. 
Still others, who receive advanced technical educations as a result of 
these programs, but who do not work directly in the defense industry, 
make contributions to national security by enhancing America's economy.
    There is also a growing and alarming trend in many industries to 
outsource engineering and other highly-skilled service activities to 
foreign workers. In the past outsourcing was largely driven by cost 
considerations and was limited to low-cost, low-skilled workers. 
However, there is an emerging trend to outsource highly skilled 
engineering workforce products such as software and systems design and 
integration. It is not clear that a U.S. based defense contractor, 
relying heavily on engineers and scientists in other countries, 
represents a domestic capability. Domestic content legislation for 
defense procurement makes little or no sense if the engineers that 
design the systems ultimately reside outside the United States.
    The Task Force believes that protectionist measures will not be 
able to serve the long-term policy objective of having the capability 
to design, develop, and manufacture defense systems within the United 
States. In order to assure this capability, sufficient manpower, 
particularly those with the critical skills needed for creating 
advanced defense systems, needs to be available in sufficient numbers 
in the United States. Therefore, prudent investments in programs that 
create a robust, domestic supply of engineers and scientist with 
masters and doctoral level educations is in the national interest.
    As the Administration and Congress respond to and prepare for 
terrorism, increasing funding for DOD's SET Programs is vital. These 
programs protect the stability of the Nation's defense base, strive to 
maintain technological superiority in our future weapons systems, and 
educate new generations of scientists, engineers, mathematicians, and 
skilled technicians who maintain our position as the world's 
technological leader.
Conclusion
    In Summary, the Task Force supports the overall RDT&E request of 
$68.9 billion, but urges the subcommittee to increase the science, 
engineering and technology (SET) component accounts by $1.6 billion to 
$12.1 billion. The proposed 15 percent reduction in science, 
engineering and technology funding would stifle innovation needed for 
future defense systems and have a detrimental impact on the production 
of scientists and engineers, with advanced technical degrees, required 
to develop military systems in the years to come. In addition, we 
recommend that the Administration and Congress undertake a five-year 
program to reverse the declining percentage of funding within the SET 
portfolio that supports basic research.

    Senator Stevens. Well, thank you very much. Your 
organization did visit us, and we had some conversations about 
mechanical engineering dropping behind in terms of investment 
for R&D.
    Are you into nanotechnology at all in terms of your 
applications in the military field?
    Mr. Armen. We are starting to, yes, sir. Yes, we are with 
new material systems and new coatings. Yes.
    Senator Stevens. Senator Inouye.
    Senator Inouye. No questions.
    Senator Stevens. You have a point and I think we should 
look closely at that because it is true that the foreign 
students we are assisting in their education are not staying 
with us, but they are not basically in your field either. So I 
think we should do our best to attract more people into this 
type of research for the military.
    Mr. Armen. Thank you very much, Mr. Chairman.
    Senator Stevens. Thank you.
    Our next witness is Seth Allan Benge of the National 
Military Veterans Alliance. Good morning, sir.
STATEMENT OF SETH ALLAN BENGE, LEGISLATIVE DIRECTOR, 
            RESERVE ENLISTED ASSOCIATION ON BEHALF OF 
            THE NATIONAL MILITARY VETERANS ALLIANCE
    Mr. Benge. Good morning, Mr. Chairman. Mr. Chairman, 
Senator Inouye, as Legislative Director for the Reserve 
Enlisted Association, it is an honor for me to testify on 
behalf of the National Military and Veterans Alliance. The 
alliance is an umbrella group made up of 29 military retiree 
veterans and survivor associations with almost 5 million 
members.
    Our concerns are many, but our time is brief, so I will 
discuss a few issues that deal directly with our Nation's 
Reserve forces. There are some subjects that we believe will 
need to be addressed and will require funding from this 
committee.
    During testimony before this committee, the Reserve chiefs 
have recognized the Montgomery GI Bill for selected Reserves as 
an important recruiting and retention tool, but the GI bill for 
reservists has not kept pace with the ever-rising costs of 
education. In 1985, when this education assistance was first 
legislated, it was 47 percent of the active duty benefit. Today 
that percentage is down to only 27 percent. Eventually this 
lagging will have a dampening effect on its usefulness. It is 
important that we begin to correct this problem by starting to 
incrementally raise the monthly rates. The alliance requests 
appropriations funding to raise the monthly payment of the 
title 10 Montgomery GI Bill and lock that rate at 50 percent of 
the chapter 30 benefit.
    Another effective tool to keep quality men and women in our 
Reserve forces are bonuses. Here also the Reserve program has 
fallen behind. The law creates a limit on the amount that can 
be paid out to members of the Reserves. Currently this cap is 
set at $5,000 per reservist. This amount, in some cases, simply 
is not enough. These bonuses are used to keep men and women in 
mission-critical military occupational specialties that are 
experiencing falling numbers or are difficult to fill. The 
operational tempo, financial stress, and civilian competition 
for these jobs makes bonuses a necessary program for the 
Department of Defense to fill essential programs.
    Another point for consideration is that Guard and Reserve 
members are not eligible for Reserve bonuses while mobilized, 
but neither are they eligible for active duty bonuses. This 
catch-22 means that reservists are denied the opportunity to 
receive bonuses tax-free like their active duty brother. This 
would help offset losses in pay. The alliance would like to see 
the Reserve chiefs receive the funds and the authority to award 
bonuses above the $5,000 limit and we support extending the 
bonus authority to Reserve component members who have 14 to 20 
years in service.
    The National Military Veterans Alliance thanks you for 
having this hearing and listening to our concerns. Our written 
testimony deals with many additional areas. We hope that you 
will consider these points when finalizing your appropriation 
bills this year. Again, thank you, Mr. Chairman. Thank you for 
your attention.
    [The statement follows:]
                 Prepared Statement of Seth Allan Benge
                              introduction
    Mister Chairman and distinguished members of the Committee, the 
National Military and Veterans Alliance (NMVA) is very grateful for the 
invitation to testify before you about our views and suggestions 
concerning defense-funding issues.
    The Alliance was founded in 1996 as an umbrella organization to be 
utilized by the various military and veteran associations as a means to 
work together towards their common goals. The Alliance's organizations 
are: American Logistics Association; American Military Retirees 
Association; American Military Society; American Retirees Association; 
American WWII Orphans Network; AMVETS; Association of Old Crows; 
Catholic War Veterans; Class Act Group; Gold Star Wives of America; 
Korean War Veterans Foundation; Legion of Valor (Washington Capital 
Region); Military Order of the Purple Heart; Military Order of the 
World Wars; National Assn for Uniformed Services; National Gulf War 
Resource Center; Naval Enlisted Reserve Association; Naval Reserve 
Association; Paralyzed Veterans of America; Reserve Enlisted 
Association; Reserve Officers Association; Society of Military Widows; 
The Retired Enlisted Association; TREA Senior Citizen League; Tragedy 
Assistance Program for Survivors; Uniformed Services Disabled Retirees; 
Veterans of Foreign Wars; Vietnam Veterans of America; and Women in 
Search of Equity.
    The preceding organizations have almost five million members who 
are serving our nation, or who have done so in the past and their 
families.
    The overall goal of the National Military and Veteran's Alliance is 
a strong National Defense. In light of this overall objective, we would 
request that the committee examine the following proposals.
    The National Military and Veterans Alliance must once again thank 
this Committee for the great strides that have been made over the last 
few years to improve the benefits of the Reserve components and their 
families. The improvements in health care, pay system, family support, 
mobilization and demobilization problems have been historic. It has 
been a very successful few years. But there are still many serious 
problems to be addressed:
                          mgib-sr enhancements
    The current Montgomery G.I. Bill dates back to President Franklin 
Roosevelt signing the ``Servicemen's Readjustment Act of 1944''. The 
G.I. Bill seeks to fulfill six purposes for the reserve forces: (1) to 
provide educational assistance program to assist in the readjustment of 
members of the Armed Forces to civilian life; (2) to extend the 
benefits of a higher education to qualifying men and women who might 
not otherwise be able to afford such an education; (3) to provide for 
vocational readjustment and to restore lost educational opportunities 
to those service men and women; (4) to promote and assist the All-
Volunteer Force program and the Total Force Concept of the Armed Forces 
and to aid in the recruitment and retention of highly qualified 
personnel for both the active and reserve components of the Armed 
Forces; (5) to give special emphasis to providing educational 
assistance benefits to aid in the retention of personnel in the Armed 
Forces; and (6) to enhance our Nation's competitiveness through the 
development of a more highly educated and productive work force.
    Approximately 7.8 percent of the enlisted Reservists have a 
Bachelors degree or higher. This makes the Montgomery G.I. Bill for 
Selective Reserves (MGIB-SR) an important recruiting and retention 
tool. With massive troop rotations the Reserve forces can expect to 
have retention shortfalls, unless the government provides incentives 
such as those that would counter the negative effects of having placed 
a college education in abeyance. Education is not only a quality of 
life issue or a recruiting/retention issue it is also a readiness 
issue. Education a Reservist receives while either in a university or a 
trade school enhances their careers and usefulness to the military. The 
ever-growing complexity of weapons systems and support equipment 
requires a force with far higher education and aptitude than in 
previous years.
    The problem with the current MGIB-SR is that the Selected Reserve 
MGIB has failed to maintain a creditable rate of benefits with those 
authorized in Title 38, Chapter 30. Other than cost-of-living 
increases, only two improvements in benefits have been legislated since 
1985. In that year MGIB rates were established at 47 percent of active 
duty benefits. This past October 1, the rate fell to 27 percent of the 
Chapter 30 benefits. While the allowance has inched up by only 7 
percent since its inception, the cost of education has climbed 
significantly.
    Position: The NMVA requests appropriations funding to raise the 
MGIB-SR and lock the rate at 50 percent of the active duty benefit.
                                bonuses
    Guard and Reserve component members may be eligible for one of 
three bonuses, Prior Enlistment Bonus, Reenlistment Bonus and Reserve 
Affiliation Bonuses for Prior Service Personnel. These bonuses are used 
to keep men and woman in mission critical military occupational 
specialties (MOS) that are experiencing falling numbers or are 
difficult to fill. During their testimony before this committee the 
reserve chiefs addressed the positive impact that bonuses have upon 
retention. This point cannot be understated. The operation tempo, 
financial stress and civilian competition for these jobs makes bonuses 
a necessary tool for the Department of Defense to fill essential 
positions. Though the current bonus program is useful there are three 
changes that we have identified that need to be made to increase its 
effectiveness.
    The primary requirement for eligibility and payment of a bonus upon 
reenlistment is that the member must have completed less than 14 years 
of total military service and not be paid more than one six-year bonus 
or two three-year bonuses under this section. This 14-year total 
military service restriction and the limitation on the number of 
bonuses paid, effectively limits the opportunities for career 
reservists to obtain bonuses past 20 years of service and may be a 
disincentive for continuing service in the Reserve component beyond 20 
years. Increasing the eligibility for reenlistment bonuses to 20 years 
of total military service and increasing the number of bonuses that can 
be paid under this section could expand the available force pool, as 
mid-level enlisted reserve members could take advantage of the new 
bonus criteria. Using a 20 year service cutoff instead of a 14 year 
period would encourage selected experienced mid-level subject matter 
experts to reenlist to established high year of tenure or mandatory 
separation dates; should members accept this incentive and reenlist, it 
could boost each service's retention effort in critical skill areas. As 
each Service uses members of the selected reserve in different 
capacities, each Service Secretary may use this new authority as 
required as a force management tool.
    The law also creates a limit on the amount that can be paid out to 
reservists. Currently this cap is at $5,000 per reservists. This amount 
in some cases simply isn't enough. Active duty personnel can receive 
multiple bonuses in amounts upwards of $20,000. The inequity between 
these two amounts is increased even further when taken into 
consideration that Guard and Reserve members are not eligible for 
reserve bonuses while mobilized, but neither are they eligible for 
active duty bonuses. This ``catch 22'' means that two members of the 
Armed Forces, one active one reserve, could be working side-by-side in 
Iraq in a mission critical area. The active duty personnel can reenlist 
and receive a tax-free bonus while the reservist would receive no bonus 
at all. This is a glaring wrong that needs to be corrected.
    Position: The Alliance would like to see the Reserve Chiefs receive 
the funds and the authority to go above the $5,000 limit, an increase 
in eligibility from 14 to 20 years and the ability for reservists to 
receive bonuses while on active duty orders.
                     tricare for reserve components
    A 2002 General Accounting Office (GAO) report indicated that 
possibly 20 percent of the Guard and Reserves do not have adequate 
health insurance. This means up to 150,000 enlisted Reservists and 
their families could be without health insurance. This has a 
potentially devastating effect on the lives of our Reservists. Lack of 
continuity of care during mobilization creates a disincentive for 
reenlistment. In addition, all military members are expected to 
maintain the same health and physical fitness as Active Duty yet they 
are required to fund their own medical coverage. Beyond the quality of 
life issues lays another grave concern. That is the readiness of our 
Reserve Components. With such a large portion of the reserves without 
healthcare and physicals that are only required once every five years 
the number of Guard and Reserve that are unfit for deployment at any 
given time is uncertain. At this moment the government is paying and 
training servicemen and women that when called into action could not 
go.
    The fiscal year 2004 National Defense Authorization Act authorized 
a one-year program to extend premium-based TRICARE coverage to Selected 
Reserve members (and certain members of the Individual Ready Reserve 
(IRR) subject to presidential recall) that are not eligible for 
employer-sponsored health coverage. When it finally takes effect, the 
temporary TRICARE program will provide health care to many of our Guard 
and Reserves. The Department of Defense has announced that this program 
will begin but has not set a start date. When it is finally implemented 
DOD has only $400 billion to draw on to pay for the start-up and to 
then cover eligible reservists and their families.
    Position: The Alliance urges the Congress to provide the money to 
make this current temporary program permanent and to extend it to allow 
all Selected Reserve members and certain IRR members access to premium-
based TRICARE coverage when they are not on Active Duty. In addition, 
these members should have the option of having the government pay some 
share of any employer-provided health coverage during periods of recall 
to active service.
                             bah vs. bah ii
    Under the current pay system there are two Basic Allowances for 
Housing (BAH) rates, one for active duty and one for reservists that 
are mobilized for 139 days or less. When reservists reach the 140-day 
line they start to receive full BAH, reservists that are called for 
training and other assignments that last less than this artificial 
barrier lose money. The assumptions that were made when this system was 
placed into effect in 1983 are no longer valid. Reservists often travel 
away from home for assignments. Since some of these are short 
assignments it is not practical for reservists to uproot their 
families, consequently at times reservists are keeping two residences.
    In the Department of Defense Report to Congress ``Reserve Personnel 
Compensation Program Review'' the department stated that to completely 
eliminate the 140-day threshold, it would cost $162 million annually. 
This report acknowledges that as a matter of equity the 140-day 
threshold should be eliminated. The department's suggestion to reduce 
the threshold for payment of BAH, rather than BAH II, to no more than 
30 days is a cost saving option, but it does not address the fact that 
any time based standard for receiving the allowance is artificial in 
nature and saves money at a cost to the individual servicemen and 
woman.
    Position: The NMVA requests that the funds and language be included 
that would eliminate this artificial and unreasonable difference in the 
BAH that reservists are paid.
            reduce retirement age eligibility for reservists
    Over the last two decades, more has been asked of Guardsmen and 
Reservists than ever before. The nature of the contract has changed; 
Reserve Component members would like to see recognition of the added 
burden they carry. Providing an option that reduces the retired with 
pay age from 60 to 55 years carries importance in retention, 
recruitment, and personnel readiness. Some are hesitant to endorse this 
because they envision money would be taken out of other entitlements, 
benefits, and Guard and Reserve Equipment budgets. The National 
Military and Veteran's Alliance recommends that Reserve retirement with 
pay be allowed prior to age 60, but be treated like Social Security 
retirement offset, at lower payments when taken at an earlier age. If a 
Reservist elects to take retired pay at age 55, it would be taken at an 
actuarially reduced rate, keeping the net costs at zero.
    Most of the cost projected by DOD is for TRICARE healthcare, which 
begins when retirement pay commences. Again following the Social 
Security example, Medicare is not linked to Social Security payments.
    Position: The National Military and Veterans Alliance suggests that 
TRICARE for Reservists be decoupled from pay, and eligibility remain at 
age 60 years with Social Security as a model, Reservists understand the 
nature of offsetting payments. The only remaining expense in this 
proposal would be the administrative startup costs and adjustments to 
retirement accrual contributed to the DOD retirement accounts.
                               conclusion
    Mr. Chairman and distinguished members of the Subcommittee the 
Alliance again wishes to emphasize that we are grateful for and 
delighted with the large steps forward that the Congress has affected 
the last few years. We are also very appreciative of recent changes 
that impact our ``citizen soldiers'' in the Guard and Reserve. But 
there is still work to be done to improve health care programs for all 
qualified beneficiaries, and benefits and mission funding for our 
Guardsmen and Reservists. We understand that all of these issues don't 
fall under the direct purview of your subcommittee. However, we are 
aware of the continuing concern all of the subcommittee's members have 
shown for the health and welfare of our service personnel and their 
families. Therefore, we hope that this subcommittee can further advance 
these suggestions in this committee or in other positions that the 
members hold. We are very grateful for the opportunity to speak on 
these issues of crucial concern to our members. Thank you.

    Senator Stevens. Thank you very much.
    Senator Inouye.
    Senator Inouye. How would you justify making TRICARE 
permanent for reservists?
    Mr. Benge. Sir, earlier it was pointed out that it would be 
the same as for active duty, and that would be true, but for 
reservists, the physical standards are also the same for active 
duty. So I would justify it not only as a retention tool, as a 
benefit, but also as a readiness issue to ensure that our 
reservists are physically ready to be mobilized.
    Senator Inouye. Thank you.
    Senator Stevens. To follow on that, how long would you do 
that? You can stay in the Reserve until you are 60, can you 
not?
    Mr. Benge. Yes, sir. I would have to look at the numbers to 
see what would be affordable. Ideally you would want it 
indefinitely. Right now gray area retirees are not eligible for 
TRICARE. They are not eligible until 65.
    Senator Stevens. We can attest to the fact that as you get 
older, you need more medical care.
    Mr. Benge. Yes, sir.
    Senator Stevens. But as you get older, you are not going to 
be called up. So I think we would like to understand this. How 
long do you think this should go on? Just think about it and 
give us a statement, will you?
    Mr. Benge. Yes, sir.
    Senator Stevens. Thank you very much.
    Our next witness is Martin B. Foil, a member of the Board 
of Directors of the National Brain Injury Research, Treatment, 
& Training Foundation. Good morning, sir.
STATEMENT OF MARTIN B. FOIL, JR., MEMBER, BOARD OF 
            DIRECTORS, NATIONAL BRAIN INJURY RESEARCH, 
            TREATMENT, & TRAINING FOUNDATION (NBIRTT)
    Mr. Foil. Good morning. Mr. Chairman, Senator Inouye, it is 
good to be back. It is always a pleasure to come and testify on 
behalf of the defense and veterans head injury program (DVHIP) 
which provides state-of-the-art medical care and rehab to 
active duty military personnel.
    As of March 31, DVHIP has treated over 350 troops injured 
in the global war on terrorism. Traumatic brain injury (TBI) is 
a leading combat concern in modern warfare. Previously 
accounting for up to 25 percent of combat casualties, today we 
think the incidence rate is between 40 and 70 percent.
    It is higher for several reasons in hostilities. One, the 
use of more effective body armor and improved trauma care has 
saved more lives. The higher incidence of blast injuries, 
increasing numbers of gunshot wounds to the face, and the 
medical personnel are more aware of the significance of TBI and 
are more likely to identify it.
    Chairman Stevens, as you so eloquently stated on the Senate 
floor last Wednesday, our combat medics regularly perform 
miracles by providing lifesaving care during the critical 
golden hour. The combat medics are performing miracles, but so 
are the doctors and rehab specialist in the DVHIP.
    As the front-page article in the Washington Post reported 
last week, what most soldiers sustaining brain injury tell 
their doctors is they want to go back to their unit. Sergeant 
Colin Rich was shot in the head in Afghanistan in December 
2002. He is one, who with the care of DVHIP, was able to do 
just that. Within 1 year, he returned to active duty, including 
a stint in Iraq. He spoke at the Brain Injury Awareness Day on 
Capitol Hill last October, along with Warrant Officer John Sims 
who sustained a closed head injury during the battle of 
Baghdad. His Blackhawk helicopter was shot down, but while he 
managed to get his men out before the crash, he went down with 
the helicopter. In the days after Sims' injury, he was not 
expected to live, and yet today he is getting his life back 
little by little, having worked today with the Judge Advocate 
General (JAG) Corps as part of the cognitive rehab program at 
the Virginia NeuroCare (VANC), a core component of DVHIP.
    While these are heroic stories, as you know, not everyone 
can return to life as before. DVHIP staff are aware of the 
danger of premature return to duty and how critical it is to 
identify brain injuries when many other injuries like 
amputations are so much more obvious.
    That is why DVHIP this year is asking for $7 million to 
continue treating and screening injured soldiers strategically 
placing specialized clinicians in medical treatment facilities 
throughout the Nation in order to provide the continuity of 
care from battlefield to rehab back to active duty. This 
funding is needed to continue training combat medics and 
surgeons, general medical officers, and reservists in the best 
practices of traumatic brain injury care. So I respectfully 
request your support of the $7 million in the DOD 
appropriations bill under health affairs for operation and 
maintenance for fiscal year 2005.
    Thank you, Mr. Chairman and Mr. Inouye. I would be happy to 
answer any questions.
    [The statement follows:]
               Prepared Statement of Martin B. Foil, Jr.
    My name is Martin B. Foil, Jr. and I am the father of Philip Foil, 
a young man with a severe brain injury. I serve as a volunteer on the 
Board of Directors of the National Brain Injury Research, Treatment and 
Training Foundation (NBIRTT) \1\ and Virginia NeuroCare in 
Charlottesville, Virginia (VANC).\2\ Professionally, I am the Chief 
Executive Officer and Chairman of Tuscarora Yarns in Mt. Pleasant, 
North Carolina.\3\
---------------------------------------------------------------------------
    \1\ NBIRTT is a non-profit national foundation dedicated to the 
support of clinical research, treatment and training.
    \2\ VANC provides brain injury rehabilitation to military retirees, 
veterans and civilians through an innovative and cost effective day 
treatment program.
    \3\ I receive no compensation from this program. Rather, I have 
raised and contributed millions of dollars to support brain injury 
research, treatment, training and services.
---------------------------------------------------------------------------
    On behalf of the thousands of military personnel that receive brain 
injury treatment and services annually, I respectfully request that $7 
million be added to the Department of Defense (DOD) Health Affairs 
budget for fiscal year 2005 under Operation and Maintenance for the 
Defense and Veterans Head Injury Program (DVHIP).
Traumatic brain injury is a leading combat concern in modern warfare. 
        Previously accounting for up to 25 percent of combat 
        casualties, today the incidence of TBI may be as high as 40-70 
        percent of casualties.
    The incidence of traumatic brain injury (TBI) is believed to be 
greater now than in previous hostilities for a number of reasons: (1) 
The use of effective body armor has saved more lives; (2) medical 
personnel are more aware of the significance of mild closed TBIs and 
concussions and are therefore more likely to identify them; and (3) the 
incidence of blast injuries in Iraq and Afghanistan is high.
    As a result, the current incidence of TBI sustained in theater is 
expected to be higher than in previous conflicts. Major General Kevin 
C. Kiley, Commanding General of the Walter Reed Army Medical Center 
(WRAMC) and the North Atlantic Regional Medical Command said at the 
October 2003 Congressional Brain Injury Task Force Awareness Fair on 
Capitol Hill that as many as 40-70 percent of casualties have the 
possibility of including TBI.\4\ The incidence of TBI was recently 
discussed at a two day conference held by the DVHIP along with the 
Joint Readiness Clinical Advisory Board on March 23-24, 2004, and 
evidence was presented that 61 percent of at-risk soldiers seen at 
WRAMC were assessed to have TBIs. While this does not reflect the 
entire population of wounded in action, the high percentage suggests 
that brain injury acquired in theater is an increasing problem that 
needs to be addressed.
---------------------------------------------------------------------------
    \4\ Schlesinger, Robert, ``Brain Injuries Take Toll on U.S. 
Soldiers,'' The Boston Globe, October 16, 2003.
---------------------------------------------------------------------------
The Defense and Veterans Head Injury Program (DVHIP)
    Established in 1992, the DVHIP is a component of the military 
health care system that integrates clinical care and clinical follow-
up, with applied research, treatment and training. The program was 
created after the first Gulf War to address the need for an overall 
systemic program for providing brain injury specific care and 
rehabilitation within DOD and DVA. The DVHIP seeks to ensure that all 
military personnel and veterans with brain injury receive brain injury-
specific evaluation, treatment and follow-up. Clinical care and 
research is currently undertaken at seven DOD and DVA sites and one 
civilian treatment site.\5\ In addition to providing treatment, 
rehabilitation and case management at each of the 8 primary DVHIP 
centers, the DVHIP includes a regional network of additional secondary 
veterans' hospitals capable of providing TBI rehabilitation, and linked 
to the primary lead centers for training, referrals and consultation. 
This is coordinated by a dedicated central DVA TBI coordinator and 
includes an active TBI case manager training program.
---------------------------------------------------------------------------
    \5\ Walter Reed Army Medical Center, Washington, DC; James A. Haley 
Veterans Hospital, Tampa, FL; Naval Medical Center San Diego, San 
Diego, CA; Minneapolis Veterans Affairs Medical Center, Minneapolis, 
MN; Veterans Affairs Palo Alto Health Care System, Palo Alto, CA; 
Virginia Neurocare, Inc., Charlottesville, VA; Hunter McGuire Veterans 
Affairs Medical Center, Richmond, VA; Wilford Hall Medical Center, 
Lackland Air Force Base, TX.
---------------------------------------------------------------------------
As of March 31, 2004 \6\ more than 350 combat casualties from the 
        Global War on Terrorism have been served by DVHIP.
---------------------------------------------------------------------------
    \6\ The attached article on the complexity of treating brain-
injured soldiers in Iraq, which appeared on the front page of The 
Washington Post on Tuesday, April 27, 2004 notes that ``in April, 900 
soldiers and Marines have been wounded in Iraq.'' The official number 
of troops treated by DVHIP has only been calculated as of March 31, 
2004.
---------------------------------------------------------------------------
    Congressional support over the years has helped create the existing 
DVHIP infrastructure that has been critical in evaluating and caring 
for active duty personnel who are being injured in Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF). Thorough 
evaluation, referral for appropriate clinical supports, prompt 
discharge to home or military unit, and focus on returning service 
members to active duty have been the primary goals of the clinical care 
provided to these war fighters. Additional service members have been 
identified who were cared for and promptly discharged back to their 
units. DVHIP is working with the appropriate military institutions to 
ensure that these individuals will be actively followed to ensure they 
receive specialized clinical care and follow-up as needed.
    WRAMC and Bethesda Naval Hospital (for Marines) have been the main 
destinations of injured personnel sent from Iraq and Afghanistan via 
Landstuhl Regional Medical Center in Germany. According to data from 
the Office of the Surgeon General, approximately 70 percent of those 
wounded in action are sent to the general surgery or orthopedic surgery 
services at the receiving medical center because of the most severe 
injuries of the individual. Because the most common cause of wounded in 
action is currently blast injury, DVHIP is working with the Command at 
WRAMC to screen all of the incoming wounded who have been injured in 
blast, falls or motor vehicle accident. An estimated 61 percent of 
those screened at WRAMC were identified as having sustained a traumatic 
brain injury.
Examples of Military Personnel Injured, Treated and Returning to Work
    The following are examples of injured active duty military 
personnel who recently received care provided by the DVHIP:
    First Sgt. Colin Robert Rich, A Company, 1st Battalion 504th 
Parachute Infantry Regiment, was shot in the head on December 28, 2002 
while serving in Afghanistan. Rich received initial acute care at a 
hospital in Germany within 15 hours of being shot and arrived at WRAMC 
on January 4, 2002 where he was cared for by DVHIP staff before being 
discharged home on January 16, 2002. Rich continues to receive follow 
up care from DVHIP and spoke before Members of Congress at the October, 
2003 Congressional Brain Injury Task Force Awareness Fair. Rich 
returned to limited active duty in December of 2003.
    Warrant Officer John Sims, U.S. Air pilot and member of the 
Maryland Guard was piloting a Black Hawk helicopter in Iraq when his 
helicopter went down, and he suffered brain injuries. His wife was 
initially told he probably would not survive. After being admitted to 
WRAMC, he was cared for at the Richmond VA hospital before being 
transferred to Virginia Neurocare, DVHIP's civilian community reentry 
treatment site. Although he has made remarkable recovery, his ability 
to pilot a plane again is in doubt. Simms also spoke before Members of 
Congress at the October 2003 Congressional Brain Injury Task Force 
Awareness Fair.
    PFC Alan Lewis was driving a Humvee in Baghdad on July 16, 2003 in 
Iraq when an explosive device tore off his legs. Lewis was identified 
as a potential TBI patient through DVHIP screening and was found to 
have sustained a mild TBI. DVHIP clinical staff helped him cope with 
memory problems and other neurobehavioral difficulties from his head 
injury throughout the rehabilitation process. He has been an articulate 
spokesperson for the dedication and resolve of our fighting force and 
the potential for recovery after a serious injury.
    These are just a few examples of what DVHIP does for hundreds of 
military personnel each year; from being ready to care for injured 
troops in the acute care setting to neuro-rehabilitation involving the 
entire patient to full community integration.
Improving Medical Care, Training and Diagnostics
    Along with the Joint Readiness Clinical Advisory Board (JRCAB) at 
Fort Detrick, DVHIP co-sponsored a first-of-its-kind conference 
entitled ``Neurotrauma in Theater: Lessons Learned from Iraq and 
Afghanistan.'' The conference brought together neurosurgeons, 
neurologists, physician assistants, medic, nurses and general medical 
officers who served in Iraq and Afghanistan. Expert opinion from every 
branch of the armed forces was shared and debated. In addition to 
helping address immediate needs and guide future research for the 
safety of the Active Duty, the conference informed a specialty 
neurotrauma panel with recommendations going to the Office of the 
Surgeon General.
    A recurring theme throughout the neurotrauma conference was the 
need for training for management of closed head injury. Education of 
corpsmen and other military medical providers on concussion care 
continues to be one of the primary objectives at the DVHIP at Camp 
Pendleton. Standardized educational programs are being developed this 
year by the DVHIP educational core in order to reach a greater number 
of medical providers. DVHIP plans to make these educational materials 
available on its website to enhance this outreach and provide 
information to providers in austere locations where travel for on-site 
training would not be possible.
    In anticipation of large numbers of troops returning home in July, 
the DVHIP screening process has been developed into a manual in order 
to assist physicians at military sites without a DVHIP component. A 
DVHIP Web-based patient assessment was also developed for physicians at 
distant sites who would like to incorporate this in their clinical 
practice.
    Another way that DVHIP is assisting military and VA providers in 
treating individuals with TBI is by disseminating thousands of copies 
of ``Heads Up: Brain Injury in Your Practice Tool Kit,'' a new 
physician tool kit to improve clinical diagnosis and management of mild 
TBI. The kit was developed by the Centers for Disease Control and 
Prevention in collaboration with DVHIP. This past year DVHIP also 
teamed up with the Veterans Health Administration to produce an 
independent TBI study program as part of the Veterans Health 
Initiative. This program offers any military or VA physician Continuing 
Medical Education credits for its completion. An online version ensures 
that clinicians serving in theater can receive up-to-date training in 
TBI care.
Additional DVHIP Accomplishments and Ongoing Research Initiatives
    Provided successful rehabilitation and return to work and community 
re-entry for active duty military personnel and veterans.
    Established an archive of military neurotrauma cases and statistics 
from military physicians who were deployed to Afghanistan, Kuwait, and 
Iraq. These data are still being reviewed and complied into a single 
archive that will be available for military use.
    Developed The War on Terrorism Brain Injury Registry to identify 
individuals with brain injury and examine clinically relevant issues in 
the management of brain injury sustained in theatre. These records will 
provide the basis for future efforts to follow these individuals to 
understand better the longer term implications of these injuries.
    Submitted a proposal to determine if an enhanced program of 
telephonic nursing will improve the outcome of Active Duty with mild 
brain injury. Establishing effectiveness of telephonic nursing will be 
critical to treating individuals who are at distance from other care 
providers, thus serving soldiers and saving taxpayer money.
    Ongoing studies are being conducted with Army paratroopers and 
cadets and U.S. Marines at Fort Bragg, West Point, and Camp Pendleton. 
These studies are investigating brief evaluation instruments for use on 
the battlefield to determine which injured service members require 
immediate treatment and which can return to duty. The goal of these 
studies is to preserve our nation's fighting strength while conserving 
medical resources for those injured and requiring treatment.
    Completed enrolling patients in a research protocol on functional 
rehabilitation versus cognitive rehabilitation for severe brain injury.
    A randomized controlled study of sertraline for post concussive 
syndrome is being carried out in all DVHIP military and VA sites. This 
study targets the symptoms of irritability, depression and anxiety 
which many soldiers report after TBI.
    Published a study on the recovery pattern from concussion from the 
West Point boxing study in Neurosurgery (Bleiberg, et al, May, 2004), 
an epidemiologic study on TBI in Fort Bragg paratroopers (Ivins et al, 
Journal of Trauma, October 2003), and an invited editorial on the 
effects of concussion (Warden, Neurology, May 11, 2004).
    Developed a free standing website www.dvbic.org to provide 
information for clinical providers, patients and family members.
    Added TBI specific questions to WRAMC's Post-Deployment 
Questionnaire which is administered to all soldiers who were recently 
deployed and sent to WRAMC.
Additional funding is needed in fiscal year 2005 to address the 
        following needs:
    Continue to provide clinical care of active duty personnel and 
veterans:
  --Expand clinical capacity to meet the need to care for an increasing 
        number of injured military personnel and veterans.
  --Increase use of DVHIP resources by medical assets at other military 
        and veteran sites with large troop/vet concentrations, e.g., by 
        web-based initiatives, medical staff presentations by DVHIP 
        personnel, etc.
  --Implement TBI outpatient clinics at DVHIP lead centers. As the 
        needs of the returning veterans after blast injury are expected 
        to be largely outpatient, the DVHIP will be prepared to meet 
        those needs.
  --Ensure all necessary care has been received by military personnel 
        and veterans who have sustained brain injuries by using the 
        DVHIP Registry to identify individuals in need of additional 
        treatment and support.
    Continue military and veteran specific education and training:
  --Develop an algorithm for return to duty management to be used by 
        first responders in the military. These management guidelines 
        will be based on new data analysis from existing concussion 
        studies at West Point, Fort Bragg, and Camp Pendleton.
  --Report to the U.S. Army the findings from the War on Terrorism 
        Brain Injury Registry regarding incidence of closed head injury 
        and the impact of early wound closure in penetrating brain 
        injury.
  --Disseminate evidence-based guidelines on pharmacological management 
        of neurobehavioral consequences of brain injury.
  --Expand the content and services of the DVHIP website. Future 
        website applications will include enhanced educational 
        materials and the capability to make referrals and gain access 
        to care.
    Military and Veteran Relevant Clinical Research:
  --Determine the incidence of brain injury from the most commonly 
        occurring blast injuries.
  --Initiate a VA multi-center trial to provide the first evidence on 
        the effectiveness of cognitive rehabilitation and stimulant 
        medication early in recovery from severe brain injury.
  --Conduct the study of enhanced protection from parachute injury by 
        field-testing approved novel helmet configurations at Fort 
        Bragg.
  --Implement the feasibility study of biomarkers in mild brain injury 
        and injury recovery in collaboration with Ron Hayes, Ph.D. at 
        the Evelyn F. and William L. McKnight Brain Institute at the 
        University of Florida.
  --Extend outcomes research through the evaluation of long-term work 
        and duty status in DVHIP rehabilitation trial participants.
DVHIP Support for Families after Brain Injury
    Every military commander and soldier knows the importance of taking 
care of their families so that they may focus on performing their 
critical duties. This is especially important in times of conflict, as 
demonstrated during Operation Iraqi Freedom. When soldiers sustain 
brain injuries in conflict, taking care of families is even more 
important. This is because the impact of brain injury on the family is 
particularly traumatic, in that not only life and death are at stake, 
but there are also significant disruptions to family systems for months 
or years thereafter as the rehabilitation and recovery process ensues. 
DVHIP family support groups provide a great deal of assistance, 
education, and information to families. For example, the family support 
program at the Tampa VA also holds bi-annual reunions in which former 
patients and families come from around the country.
Conclusion
    There is no greater time than today to support injured personnel 
sustaining brain injuries. There is nothing more patriotic than caring 
for the men and women who serve our country and protect our interests. 
Our men and women in uniform are sustaining brain injuries and need 
brain injury specific care and state of the art treatment and 
rehabilitation. The incidence of TBI is higher in theater than it has 
ever been in history, and the numbers of injured personnel present a 
challenge to the military medical system. DVHIP continues to be an 
important part of the military health care system and needs additional 
funding to continue its work.
    Please support $7 million for the DVHIP in the fiscal year 2005 
Defense Appropriations bill in the DOD Health Affairs budget under 
Operation and Maintenance to continue this important program.

               [From the Washington Post, April 27, 2004]

                       The Lasting Wounds of War
    roadside bombs have devastated troops and doctors who treat them
                             (By Karl Vick)
    BAGHDAD--The soldiers were lifted into the helicopters under a 
moonless sky, their bandaged heads grossly swollen by trauma, their 
forms silhouetted by the glow from the row of medical monitors laid out 
across their bodies, from ankle to neck.
    An orange screen atop the feet registered blood pressure and heart 
rate. The blue screen at the knees announced the level of postoperative 
pressure on the brain. On the stomach, a small gray readout recorded 
the level of medicine pumping into the body. And the slender plastic 
box atop the chest signaled that a respirator still breathed for the 
lungs under it. At the door to the busiest hospital in Iraq, a wiry 
doctor bent over the worst-looking case, an Army gunner with coarse 
stitches holding his scalp together and a bolt protruding from the top 
of his head. Lt. Col. Jeff Poffenbarger checked a number on the blue 
screen, announced it dangerously high and quickly pushed a clear liquid 
through a syringe into the gunner's bloodstream. The number fell like a 
rock.
    ``We're just preparing for something a brain-injured person should 
not do two days out, which is travel to Germany,'' the neurologist 
said. He smiled grimly and started toward the UH-60 Black Hawk thwump-
thwumping out on the helipad, waiting to spirit out of Iraq one more of 
the hundreds of Americans wounded here this month.
    While attention remains riveted on the rising count of Americans 
killed in action--more than 100 so far in April--doctors at the main 
combat support hospital in Iraq are reeling from a stream of young 
soldiers with wounds so devastating that they probably would have been 
fatal in any previous war.
    More and more in Iraq, combat surgeons say, the wounds involve 
severe damage to the head and eyes--injuries that leave soldiers brain 
damaged or blind, or both, and the doctors who see them first 
struggling against despair.
    For months the gravest wounds have been caused by roadside bombs--
improvised explosives that negate the protection of Kevlar helmets by 
blowing shrapnel and dirt upward into the face. In addition, firefights 
with guerrillas have surged recently, causing a sharp rise in gunshot 
wounds to the only vital area not protected by body armor.
    The neurosurgeons at the 31st Combat Support Hospital measure the 
damage in the number of skulls they remove to get to the injured brain 
inside, a procedure known as a craniotomy. ``We've done more in eight 
weeks than the previous neurosurgery team did in eight months,'' 
Poffenbarger said. ``So there's been a change in the intensity level of 
the war.''
    Numbers tell part of the story. So far in April, more than 900 
soldiers and Marines have been wounded in Iraq, more than twice the 
number wounded in October, the previous high. With the tally still 
climbing, this month's injuries account for about a quarter of the 
3,864 U.S. servicemen and women listed as wounded in action since the 
March 2003 invasion.
    About half the wounded troops have suffered injuries light enough 
that they were able to return to duty after treatment, according to the 
Pentagon.
    The others arrive on stretchers at the hospitals operated by the 
31st CSH. ``These injuries,'' said Lt. Col. Stephen M. Smith, executive 
officer of the Baghdad facility, ``are horrific.''
    By design, the Baghdad hospital sees the worst. Unlike its sister 
hospital on a sprawling air base located in Balad, north of the 
capital, the staff of 300 in Baghdad includes the only ophthalmology 
and neurology surgical teams in Iraq, so if a victim has damage to the 
head, the medevac sets out for the facility here, located in the 
heavily fortified coalition headquarters known as the Green Zone.
    Once there, doctors scramble. A patient might remain in the combat 
hospital for only six hours. The goal is lightning-swift, expert 
treatment, followed as quickly as possible by transfer to the military 
hospital in Landstuhl, Germany.
    While waiting for what one senior officer wearily calls ``the 
flippin' helicopters,'' the Baghdad medical staff studies photos of 
wounds they used to see once or twice in a military campaign but now 
treat every day. And they struggle with the implications of a system 
that can move a wounded soldier from a booby-trapped roadside to an 
operating room in less than an hour.
    ``We're saving more people than should be saved, probably,'' Lt. 
Col. Robert Carroll said. ``We're saving severely injured people. Legs. 
Eyes. Part of the brain.''
    Carroll, an eye surgeon from Waynesville, Mo., sat at his desk 
during a rare slow night last Wednesday and called up a digital photo 
on his laptop computer. The image was of a brain opened for surgery 
earlier that day, the skull neatly lifted away, most of the organ 
healthy and pink. But a thumb-sized section behind the ear was gray. 
``See all that dark stuff? That's dead brain,'' he said. ``That ain't 
gonna regenerate. And that's not uncommon. That's really not uncommon. 
We do craniotomies on average, lately, of one a day.''
    ``We can save you,'' the surgeon said. ``You might not be what you 
were.''
    Accurate statistics are not yet available on recovery from this new 
round of battlefield brain injuries, an obstacle that frustrates combat 
surgeons. But judging by medical literature and surgeons' experience 
with their own patients, ``three or four months from now 50 to 60 
percent will be functional and doing things,'' said Maj. Richard 
Gullick. ``Functional,'' he said, means ``up and around, but with 
pretty significant disabilities,'' including paralysis.
    The remaining 40 percent to 50 percent of patients include those 
whom the surgeons send to Europe, and on to the United States, with no 
prospect of regaining consciousness. The practice, subject to review 
after gathering feedback from families, assumes that loved ones will 
find value in holding the soldier's hand before confronting the 
decision to remove life support.
    ``I'm actually glad I'm here and not at home, tending to all the 
social issues with all these broken soldiers,'' Carroll said.
    But the toll on the combat medical staff is itself acute, and 
unrelenting.
    In a comprehensive Army survey of troop morale across Iraq, taken 
in September, the unit with the lowest spirits was the one that ran the 
combat hospitals until the 31st arrived in late January. The three 
months since then have been substantially more intense. ``We've all 
reached our saturation for drama trauma,'' said Maj. Greg Kidwell, head 
nurse in the emergency room.
    On April 4, the hospital received 36 wounded in four hours. A U.S. 
patrol in Baghdad's Sadr City slum was ambushed at dusk, and the battle 
for the Shiite Muslim neighborhood lasted most of the night. The event 
qualified as a ``mass casualty,'' defined as more casualties than can 
be accommodated by the 10 trauma beds in the emergency room.
    ``I'd never really seen a `mass cal' before April 4,'' said Lt. 
Col. John Xenos, an orthopedic surgeon from Fairfax. ``And it just kept 
coming and coming. I think that week we had three or four mass cals.''
    The ambush heralded a wave of attacks by a Shiite militia across 
southern Iraq. The next morning, another front erupted when Marines 
cordoned off Fallujah, a restive, largely Sunni city west of Baghdad. 
The engagements there led to record casualties.
    ``Intellectually, you tell yourself you're prepared,'' said 
Gullick, from San Antonio. ``You do the reading. You study the slides. 
But being here . . .'' His voice trailed off. ``It's just the sheer 
volume.''
    In part, the surge in casualties reflects more frequent firefights 
after a year in which roadside bombings made up the bulk of attacks on 
U.S. forces. At the same time, insurgents began planting improvised 
explosive devices (IEDs) in what one officer called ``ridiculous 
numbers.''
    The improvised bombs are extraordinarily destructive. Typically 
fashioned from artillery shells, they may be packed with such debris as 
broken glass, nails, sometimes even gravel. They're detonated by remote 
control as a Humvee or truck passes by, and they explode upward. To 
protect against the blasts, the U.S. military has wrapped many of its 
vehicles in armor. When Xenos, the orthopedist, treats limbs shredded 
by an IED blast, it is usually ``an elbow stuck out of a window, or an 
arm.''
    Troops wear armor as well, providing protection that Gullick called 
``orders of magnitude from what we've had before. But it just shifts 
the injury pattern from a lot of abdominal injuries to extremity and 
head and face wounds.''
    The Army gunner whom Poffenbarger was preparing for the flight to 
Germany had his skull pierced by four 155 mm shells, rigged to detonate 
one after another in what soldiers call a ``daisy chain.'' The shrapnel 
took a fortunate route through his brain, however, and ``when all is 
said and done, he should be independent. . . . He'll have speech, 
cognition, vision.''
    On a nearby stretcher, Staff Sgt. Rene Fernandez struggled to see 
from eyes bruised nearly shut. ``We were clearing the area and an IED 
went off,'' he said, describing an incident outside the western city of 
Ramadi where his unit was patrolling on foot.
    The Houston native counted himself lucky, escaping with a 
concussion and the temporary damage to his open, friendly face. Waiting 
for his own hop to the hospital plane headed north, he said what most 
soldiers tell surgeons: What he most wanted was to return to his unit.

    Senator Stevens. Tell us a little bit about this foundation 
of yours, will you please, Mr. Foil? I noticed you are located 
in Charlottesville.
    Mr. Foil. Yes. Are you talking about Virginia NeuroCare or 
the NBIRTT?
    Senator Stevens. NBIRTT.
    Mr. Foil. It is a program that Dr. Zitney and I and several 
other interested people set up a number of years ago really to 
work with people in brain injury around the country, focused 
primarily on two issues. One is a better quality of life and a 
search for a cure. So we look at both ends of the spectrum: one 
over here taking care of the person who has had traumatic brain 
injury and helping them to a quality of life that we all aspire 
to; and over here, in research looking for a way to cure the 
problem.
    Senator Stevens. Where are you located?
    Mr. Foil. I live in Concord, North Carolina, sir.
    Senator Stevens. Where is this foundation located?
    Mr. Foil. Well, to be honest with you, where we hang up our 
hat.
    Senator Stevens. Where you are.
    Mr. Foil. Yes, sir.
    Senator Stevens. What about this VANC which you tell us is 
in Charlottesville. What is your relationship to that?
    Mr. Foil. That is Virginia NeuroCare. That is a facility 
run primarily for people with brain injury in Charlottesville 
and that is run by Dr. Zitney. I have nothing to do with that.
    Senator Stevens. Do you do anything with military people?
    Mr. Foil. Oh, absolutely. These people we referred to here 
in the book, both of those were at Virginia NeuroCare. The one 
who was shot in the head has been returned to active duty. He 
is now in North Carolina. And the helicopter pilot is still 
there working with the JAG Corps to rehabilitate himself fully 
to go back to active duty.
    I do not know how many we have got there, but there is a 
number. He has got about 10 or 15 patients from the military. 
We have a lot more opportunities to take people than we have 
got the ability to handle them.
    Senator Stevens. Well, that is what Senator Inouye and I 
worry about. The demand is up.
    Mr. Foil. The demand is very high and the facilities are 
very low. I myself, Senator, am building a facility in North 
Carolina where we hope to take soldiers as soon as it is 
completed, and we hope to have it open by the summer of next 
year.
    Senator Stevens. Is there a national group behind you?
    Mr. Foil. We are trying to take it national, but we do not 
have the money to do it yet. It is all not-for-profit. We do 
not ask the Government for money. This is just on our own. I 
put $5 million of my own money in this.
    Senator Stevens. Well, thank you very much. We are very 
concerned about the area you are in.
    Mr. Foil. You have every right to be concerned.
    Senator Stevens. The two of us would like to meet with some 
of your people soon to see what we might do to help you expand 
the availability of this care throughout our country.
    Mr. Foil. We appreciate that. We would like to do that. We 
have been asked to put a place in Fayetteville. We have been 
asked to put a place in Norfolk, Virginia. I think there are 
opportunities all over this country to do that and we are 
successful, Senator.
    Senator Stevens. Well, there is no question about it. Forty 
to seventy percent casualties you indicate.
    Mr. Foil. Yes, sir, and I think it is closer to 70 percent 
than it is to 40 percent.
    Senator Stevens. But that is a national thing, and with due 
respect, people from Alaska cannot quite make it down your way.
    Mr. Foil. We would be happy to put one in Alaska, Senator.
    Senator Stevens. We want to see what we can do to get----
    Mr. Foil. We would love to have one in Hawaii as well.
    Senator Stevens. So why do you not come meet with Senator 
Inouye and me and let us see what we can do to help you.
    Mr. Foil. Yes, sir. I will be glad to set that up and we 
will be back in touch with you. Thank you for your attention.
    Senator Stevens. Thank you very much. I appreciate your 
presence.
    Senator Inouye.
    Senator Inouye. No questions.
    Senator Stevens. The next witness is James Bramson, 
Executive Director of the American Dental Association. Good 
morning, Doctor.
STATEMENT OF JAMES B. BRAMSON, D.D.S., EXECUTIVE 
            DIRECTOR, AMERICAN DENTAL ASSOCIATION
    Dr. Bramson. Good morning, Mr. Chairman and Senator Inouye. 
I am Dr. Jim Bramson, the Executive Director of the American 
Dental Association (ADA). Thank you for the opportunity to 
testify today about dental programs that directly relate to the 
dental readiness of our servicemen and women.
    During World War II, more than 20 percent of the 2 million 
selectees did not meet dental requirements. In fact, this was 
the number one reason for rejection. Dental disease today 
continues to have an impact on military personnel. A 2002 DOD 
report stated that 34 percent of military personnel on active 
duty required dental care prior to deployment. Army Chief of 
Staff General Peter Schoomaker testifying last year stated that 
there were ``real problems in dental readiness,'' and he 
discussed the rotation of troops and the activation of Army 
Guard and Reserve personnel. Having enough dentists to treat 
active duty personnel is vital to keeping soldiers healthy and 
ready.
    An abscessed tooth clearly is one of mankind's most painful 
experiences, but for military personnel in a combat zone or on 
a fighter plane or in a submarine, an oral infection can only 
compromise their ability to complete their missions.
    Since the late 1990's, the dental corps has had trouble 
recruiting and retaining dental officers. One reason is the 
large pay differential between uniform and civilian dentists. A 
second reason is graduation student loan debt, which now 
averages nearly $110,000 per student. From exit interviews with 
dentists, we know they would say they would stay in the 
military if offered loan repayment. One Air Force captain said, 
if you evaluate my salary, subtract my sizeable student loan 
payments, I end up taking home the equivalent of what a staff 
sergeant of 8 years makes. And the result is that the military 
is operating at about 12 percent below dental manpower levels.
    To address this situation, the ADA recommends an additional 
$6 million per year for 3 years to allow 66 targeted health 
professions scholarship program (HPSP) dental scholarships per 
year per service. This funding would be to attract new recruits 
and it could also be used for loan repayment.
    Military dental research has had a well-established history 
with both the Army and the Navy. Their mission is to reduce the 
incidence and impact of dental disease on deployed troops. This 
research is unique and because of the global war on terrorism, 
it is on the cutting edge.
    The Army focuses on improving materials to protect the 
troops not only from oral disease but also from injury or 
hostile fire. Almost one-half of the injuries reported in Iraq 
and Afghanistan are head, neck, and eye trauma. Army dental 
researchers are developing a lighter, thinner bullet-proof face 
shield to replace the current head gear that is hot and heavy.
    In Bosnia, the Army found that over 15 percent of the 
deployed troops had dental emergencies and that 75 percent of 
those emergencies were plaque-related oral disease such as gum 
infections. The Army researchers are working on an easy and 
cost effective way to help with an anti-plaque chewing gum 
which could be included in every meal, ready-to-eat (MRE) or 
mess kit.
    Navy dental research is focused on the immediate delivery 
of dental care in the field. Those researchers have continued 
to make progress on the development of a rapid, noninvasive 
salivary diagnostic instrument for the detection of diseases 
and biological agents.
    I have here with me today a hand-held prototype of this 
device. So for those of you in the room who suffered through 
the painful anthrax swab tests 3 years ago, you waited up to 2 
weeks to get your results. This device which analyzes the 
antibodies in saliva will make those experiences obsolete. You 
put saliva in this little receptacle here, add the reagent, and 
wait about 90 seconds for the results.
    Now, these are just a few of the examples of the dental 
research projects being conducted at the Great Lakes facility. 
All of these have a direct relationship to combat medicine. All 
are targeted to improve the oral health of deployed personnel, 
and they can lead to enormous cost savings.
    The ADA strongly recommends that these research activities 
be funded at $6 million.
    Thank you again for the opportunity to testify today. Our 
written statement has additional details, and I would be glad 
to answer any questions.
    Senator Stevens. Well, thank you very much. We have noted 
those comments. Most of your requests really affect the 
Military Construction Subcommittee, not this subcommittee. We 
will call those to their attention. I do not know if you plan 
to appear before them or not.
    But we clearly share your feeling that these efforts to 
reconstruct the damage done to faces, to jaws, et cetera--there 
must be really improvement in the facilities. So we will have 
to talk to your association after talking to the Military 
Construction Subcommittee.
    Dr. Bramson. We will be happy to talk to you, Senator.
    Senator Stevens. We will do that. We promise we will get 
back to you.
    Senator Inouye.
    Senator Inouye. I will join the chairman on that.
    Senator Stevens. Thank you very much. Appreciate it.
    [The statement follows:]
             Prepared Statement of James B. Bramson, D.D.S.
    Good morning, Mr. Chairman and members of the subcommittee. I am 
Dr. James Bramson, Executive Director of the American Dental 
Association (ADA), which represents over 149,000 dentists nationwide. 
As of September 30, 2003, there were 3,126 dentists in the military 
services. Thank you for the opportunity to testify to discuss 
appropriations for Department of Defense dental and oral-health related 
programs. My primary purpose today is to bring to your attention 
programs that directly relate to the dental readiness of our men and 
women in uniform and the efforts being made to achieve and maintain 
their dental health.
    The Public Health Service's first study of the military draft in 
World War II determined that more than 20 percent of the two million 
selectees did not meet Selective Service dental requirements. At the 
time of Pearl Harbor, ``dental defects'' led all physical reasons for 
rejection of recruits. Dental disease today continues to have an impact 
on military deployment in the Global War On Terrorism. General Peter J. 
Schoomaker, Army Chief of Staff, testified before the Senate Armed 
Services Committee on November 19, 2003 and stated ``. . . quite 
frankly we [have] real problems in dental readiness . . .--'' as he 
discussed the rotation of troops and the activation of Army Guard and 
Reserve personnel. The DOD's 2002 Survey of Health Related Behaviors 
Among Military Personnel reported that 34 percent of military personnel 
on active duty required dental care prior to deployment. What isn't 
said in the report is whether the dental care was completed prior to 
deployment and whether the treatment was of a temporary nature.
    An abscessed tooth may be one on mankind's most painful 
experiences. While most Americans have been fortunate enough to have 
never experienced a toothache, those who have know that there is little 
else that one can think about when it happens. Imagine that toothache 
in a combat zone, or while flying a fighter, or in a submarine. The ADA 
is concerned that too many soldiers, sailors, airmen and marines are 
being deployed at risk for these problems--not only because of the 
unnecessary pain they may have to endure but also the impact of that 
pain on their ability to complete their mission.
                      funding for dental readiness
    Since the late 1990s, the dental corps have had difficulty in 
recruiting and retaining dental officers. One reason is the pay 
differential between uniform and civilian dentists. The Center for 
Naval Analysis Health Professions Retention-Accession Study I stated 
that: ``. . . the uniformed-civilian pay gap in 2000 dollars was 
substantial, averaging $69,000 per year for general dentists and 
$113,000 per year for specialists . . .'' A second reason is student 
loan debt. Many junior officers carry more than $100,000 (the national 
average is $116,000) in loans. Without loan repayment, dentists have a 
hard time making monthly payments on an 03's pay. The result is that 
all the dental corps are operating below their authorized manpower 
levels. The Department of Defense reported that all three services are 
below strength by almost 12 percent (September 2003). This figure masks 
the fact that over the past few years unfilled dental officer 
authorizations are often transferred to other medical officer corps.
    This comes at a time when dental care needed by the troops has not 
substantially decreased. In fact, with the activation of Guard and 
Reserve personnel, the demand has increased. As a result of these 
demands there has been a substantial increase in payments, in the 
millions of dollars, to private practice dentists paid through the 
Military Medical Support Office at Great Lakes Naval Training Center 
(primarily for active duty personnel) and the Federal Strategic Health 
Alliance Program known as Feds-HEAL (for activated Guard and 
Reservists). In fiscal year 2000, the military purchased $13 million of 
dental care for active duty personnel. That account is projected to 
reach $49 million in fiscal year 2004. While some of this additional 
expense is a result of the activation of Guard and Reserve personnel, a 
significant portion of these expenses is a direct result of the 
reduction of dental officers required to maintain the dental readiness 
of the active duty members. The ADA is aware that the issue of 
recruiting and retention special pays and bonuses has been studied 
within the Department of Defense, but currently nothing is being 
developed in response to these previous reports.
    The ADA believes it is time to address dental officer 
authorizations before the damage to the military dental corps reaches a 
crisis level. We, therefore, recommend additional targeted funding for 
Health Professions Scholarship Program (HPSP) dental scholarships to 
attract new dentist recruits. This additional funding could also be 
used for loan repayment to retain current military dentist as allowed 
by law.
                        military dental research
    The Army first began formal dental research with the establishment 
of the Army Dental School in 1922, which was a precursor to the 
establishment of the U.S. Army Institute of Dental Research in 1962. 
The Navy Dental Research Facility at Great Lakes was established in 
1947, which subsequently became the Naval Dental Research Institute in 
1967 (now known as the Naval Institute for Dental and Biomedical 
Research). In 1997, both activities were co-located at Great Lakes as a 
result of the Base Realignment and Closure activities of 1991. These 
research programs share common federal funding and a common goal to 
reduce the incidence and impact of dental diseases on deployed troops. 
This is unique research that is not duplicated by the National 
Institutes of Health or in the civilian community.
    The Army focuses on improving materials to protect the troops, not 
only from the effects of oral disease but also from injury or hostile 
fire. Almost half of the injuries reported in Iraq and Afghanistan are 
head, neck and eye trauma. Army researchers are developing a lighter, 
thinner anti-ballistic face shield to replace the current headgear that 
weighs almost 8 pounds and is hot to wear. This is analogous to the 
development of the lighter and more effective body armor currently 
being used by our ground troops in Afghanistan and Iraq.
    Plaque-related oral disease, including trench mouth, account for as 
much as 75 percent of the daily dental sick call rate in deployed 
troops. Even soldiers who ship out in good oral health can become 
vulnerable to these severe gum diseases if stationed in combat areas 
where access to good oral hygiene is difficult. An easy and cost 
effective way to address these conditions is the development of an 
anti-plaque chewing gum, which could be included in every meals ready 
to eat (MRE) or mess kit.
    For troops stationed in desert combat zones, dehydration is a 
serious problem. Often the soldier is not aware that there is a problem 
until he or she is debilitated, obviously not a good thing in a hostile 
environment. The Army researchers have been working on developing a 
sensor to monitor hydration rates that could be bonded to a soldier's 
tooth. Health care personnel at a remote site could monitor the sensor 
and alert the deployed forces to administer fluids before the situation 
becomes critical.
    Navy research focuses more on the immediate delivery of dental 
care. For instance, keeping the war fighter in the field is a high 
priority. Navy researchers are developing dental materials that are 
more compact and portable, that can be used by non-dental personnel to 
manage a wide variety of urgent dental problems. Last year in Iraq, a 
Marine line commander in the field had to have a temporary filling 
replaced 3 or 4 times. This required a trip to a field dental clinic 
and the services of a dentist, taking this commander away from his 
troops. A new dental material being developed by the Navy will allow a 
corpsman to replace these temporary fillings on the spot and without 
the need for the commander to spend time away from his troops and the 
mission. A lesson learned from this situation is that the currently 
available dental materials are not strong enough for the field 
environment, especially the desert climate. More research is needed to 
perfect this far-forward field dental dressing, but once perfected, it 
can be used by other agencies like NASA or the Indian Health Service, 
which also operate in remote areas.
    Naval researchers have continued to make progress on the 
development of rapid, hand-held, non-invasive salivary tests for the 
detection of military relevant diseases, such as tuberculosis and 
dengue fever, as well as for biological warfare agents. A prototype 
model of such a hand-held unit developed by the Navy researchers at 
Great Lakes is being tested. This unit will be able to test for 
numerous chemical and biological agents and provide troops in the field 
a positive or negative determination within a matter of minutes. The 
implications for Homeland Security are quite obvious.
    Last, but not least, the Iraqi war environment has identified an 
additional research area: the effects of sand on dental equipment. The 
unique composition of the sand in Iraq has caused dental equipment to 
break down and fail in the field. Because the sand in Iraq is stickier 
and more like talcum powder than grittier American sand, the Iraqi sand 
tends to cling to instruments and equipment. Navy researchers are 
analyzing the effects of the Iraqi sand on the portable dental 
equipment with the goal of developing new mobile delivery systems that 
can be used in the desert environment. This research has obvious 
implications for medical equipment or any equipment that is easily 
fouled by the desert sands.
    These are just a few of the dental research projects being 
conducted at the Great Lakes facility. All have a direct relationship 
to combat medicine, are targeted to improve the oral health of deployed 
personnel and can lead to enormous cost savings for forces in the 
field. Furthermore, while the Army and the Navy do not duplicate the 
research done by the National Institute of Dental and Craniofacial 
Research, many of their findings will have implications within the 
civilian community or other Federal Agencies. The ADA strongly 
recommends that the funding for the Army and Navy dental research 
activities at Great Lakes be funded at $6 million to expedite this 
research for the deployed forces.
              other military dental appropriations issues
    There are two other matters that the ADA would like to bring to the 
Committee's attention and are related to issues discussed during the 
Committee's April 28th hearing with the Surgeon Generals. First, we are 
concerned about the dental care for our returning troops through the 
Veteran's Administration. Following Desert Storm deactivated Reserve 
and Guard personnel were authorized a dental benefit upon separation. 
Fortunately, both the length of the Gulf War and the need for 
activating Reserves and Guard were limited. Approximately $17 million 
was spent to provide this dental care. Once again, the Veteran's 
Administration is anticipating that a significant number of returning 
Reservists and Guard personnel will require and be authorized dental 
care upon their release from active duty in the Global War on 
Terrorism. And since the Reserve and Guard activations are projected to 
remain significant for the foreseeable future, then the demand for 
dental care following deactivation will also continue. While the exact 
amount of money required for this care is not yet known, the ADA 
believes that it will easily exceed the $17 million required following 
Desert Storm and for a sustained basis.
    The second issue relates to a military construction project for the 
dental clinic at Lackland Air Force Base. Some of the soldiers who have 
suffered head and neck injuries in Iraq are being treated at Lackland 
for facial reconstruction. Oral surgeons there are using the highly 
sophisticated computer programs to make 3-D images to recreate 
shattered jaws.
    The proposed construction will consolidate all dental activities on 
Lackland AFB and Kelly AFB to the Dunn Dental Clinic. There are 
currently two separate dental treatment activities at Lackland: MacKown 
Dental Clinic and Dunn Dental Clinic. The MacKown Clinic is 44 years 
old and has long outlived its usefulness. It predates the current Joint 
Commission on Accreditation of Healthcare Organizations (JACHO), 
Occupational Safety and Health Administration (OSHA) and infection 
control standards. The MacKown Clinic also houses three of the Air 
Force's dental specialty training programs that have outgrown that 
facility significantly over the last twenty years. The clinic at Kelly 
Air Force Base will be closed as a result of highway construction. The 
patients currently seen at Kelly will now be seen at the Dunn Clinic 
and there is insufficient capacity to absorb these patients.
    The planned addition to the existing Dunn Dental Clinic building 
will provide an additional 90 dental treatment rooms on two floors that 
meet current ambulatory surgery codes. The proposed facility will also 
provide space for a dental laboratory to meet regional dental workload 
demands, support the dental resident training, and dental research 
currently part of the MacKown facility. The new addition will also 
provide necessary classroom space and suitable audio-visual, 
teleconference, and distance learning capabilities. The ADA requests 
that the Committee appropriate $1.5 million for the design phase of 
this construction project.
    The ADA thanks the Committee for allowing us to present these 
issues related to the dental and oral health of our great American 
service men and women.

    Senator Stevens. Our next witness is Captain Robert Hurd, 
Congressional Liaison for the United States Naval Sea Cadet 
Corps. Good morning.
STATEMENTS OF:
        CAPTAIN ROBERT C. HURD, UNITED STATES NAVY (RET.), 
            CONGRESSIONAL LIAISON, UNITED STATES NAVAL SEA CADET CORPS
        PETTY OFFICER 1ST CLASS KYLE DALY, UNITED STATES NAVAL SEA 
            CADET CORPS

    Mr. Hurd. Good morning, Mr. Chairman, Senator Inouye. I 
would like to thank the committee for the tremendous support of 
our program and our 10,000 cadets, one of whom, Petty Officer 
1st Class Daly will make our statement this morning.
    Senator Stevens. Fine. Nice to have you here, sir.
    Mr. Daly. Mr. Chairman, Senator Inouye, good morning. I am 
United States Naval Sea Cadet Corps Petty Officer 1st Class 
Kyle Daly, leading petty officer of the Hospital Corpsman, 
Master Chief, U.S. Navy (HMCM) William Marsh Battalion as well 
as a sophomore at a Catholic high school in Hyattsville, 
Maryland. It is an honor and a privilege to speak to you today 
on behalf of the Naval Sea Cadet Corps.
    There are now over 10,000 young men and women, ages 11 to 
17, across the United States and its territories proudly 
wearing the same uniform I wear before you today. They are 
supported by over 2,500 adult volunteer Naval Sea Cadet Corps 
officers, instructors, and midshipmen.
    The United States Naval Sea Cadet Corps is a 
congressionally chartered youth development and education 
program supported by the Navy League and sponsored by the Navy 
and Coast Guard. The program's main goals are the development 
of young men and women, promoting interest and skill in the 
areas of seamanship and aviation, while instilling a strong 
sense of patriotism, integrity, self-reliance, honor, courage, 
and commitment, along with other qualities which I believe will 
mold strong moral character and self-discipline in a drug-and 
gang-free environment.
    After completing recruit training, sea cadets may choose 
from an almost infinitely wide variety of 2-week training 
courses in their following summers, including training aboard 
Navy and Coast Guard vessels. We drill one weekend per month 
and complete Navy correspondence courses for advancement, this 
being the basis for accelerated promotion if a cadet should 
choose to enlist in the Navy or Coast Guard.
    Four hundred eighty-two former sea cadets now attend the 
U.S. Naval Academy. Between 400 and 600 enlist in the armed 
services annually, pre-screened, highly motivated and well-
prepared. Prior sea cadet experience has been proven to be an 
excellent indicator of a potentially career success rate both 
in and out of the military. Whether or not a cadet chooses a 
service career, we all carry forth the values of citizenship, 
leadership, and moral courage that I believe will benefit 
ourselves and our country.
    The major difference between this and other federally 
chartered military youth programs is that the sea cadets are 
responsible for their own expenses, including uniforms, travel, 
insurance, and training costs, which can amount to $400 to $500 
a year. The corps, however, is particularly sensitive to its 
policy that no young man or woman is denied access to this 
program due to their socioeconomic status. Some units are 
financed in part by local sponsors.
    This support, while greatly appreciated, is not enough to 
sustain all cadets. All federally appointed funds over the past 
4 years have been used to help offset cadets' out-of-pocket 
training costs, as well as to conduct background checks for the 
adult volunteers. However, for a variety of reasons, including 
inflation, an all-time high cadet enrollment, base closures and 
reduced base access due to terrorist alerts, reduced the float 
training due to the situation in Iraq. The current amount of 
funding support can no longer sustain the program.
    The Sea Cadet Corps considers it a matter of urgency that 
we respectfully request your consideration and support through 
the authorization of appropriations in the full amount of $2 
million for the 2005 fiscal year.
    I regret that this time precludes our sharing the many 
stories that Captain Hurd has shared with members of your 
staffs this year, pointing out the many acts of courage, 
community service, and successful youth development of my 
fellow sea cadets, as well as those who are so gallantly 
serving our armed forces in Iraq, Afghanistan, and around the 
world. These stories and many more like them are unfortunately 
the youth stories that you do not always read about in the 
press.
    I thank you for this opportunity to speak today. I, as does 
the entire Sea Cadet Corps, appreciate your past and continued 
support of this fine program. It would be my pleasure to answer 
any questions you might have at this point.
    Senator Stevens. Well, thank you very much. Captain Hurd, 
you brought a fine representative of your organization.
    Mr. Hurd. Yes, sir.
    Senator Stevens. You remind me of the first time I 
testified before Congress. I read the third sentence and said, 
``period.''
    I had memorized it so well. You know, one of those things.
    But we do appreciate what you said. We appreciate who you 
represent and congratulate you for your ambition to be part of 
the Navy.
    Mr. Daly. Thank you very much, sir.
    Senator Stevens. Captain, thank you. We do not need 
anything more than what you produced. We will assist you in 
every way we can.
    Mr. Daly. Thank you very much, sir.
    Senator Stevens. Senator Inouye.
    Senator Inouye. No. Just congratulations.
    [The statement follows:]
              Prepared Statement of Captain Robert C. Hurd
Request
    Funded since fiscal year 2001, continued Congressional 
appropriation in the Navy Recruiting Budget (O&M Navy--Title II, Budget 
Activity 3) of the un-funded budget requirement is essential for 
continuation of the present level of Naval Sea Cadet training as well 
as to allow expansion into more communities. Unlike other federally 
chartered military youth groups, the Sea Cadets pay for almost all 
their own program costs, including uniforms, training costs, insurance 
and transportation to/from training. Funding to offset Cadet out-of-
pocket training costs at a level commensurate with that received by 
other federally chartered military related youth programs, is needed to 
increase access by America's youth regardless of economic or social 
background and to develop the fine citizens our country needs and 
deserves.
Background
    At the request of the Department of the Navy, the Navy League of 
the United States established the Naval Sea Cadet Corps in 1958 to 
``create a favorable image of the Navy on the part of American youth.'' 
On September 10, 1962, the U.S. Congress federally chartered the Naval 
Sea Cadet Corps under Public Law 87-655 as a non-profit civilian youth 
training organization for young people, ages 13 through 17. A National 
Board of Directors, whose Chairman serves as the National Vice 
President of the Navy League for Youth Programs, establishes NSCC 
policy and management guidance for operation and administration. A 
Vice-Chairman of the Board serves also as the Corps' National 
President. A full-time Executive Director and small staff in Arlington, 
VA administer NSCC's day-to-day operations. These professionals work 
with volunteer field representatives, unit commanding officers, and 
local sponsors. They also collaborate with Navy League councils and 
other civic, or patriotic organizations, and with local school systems.
NSCC Objectives
    Develop an interest and skill in seamanship and seagoing subjects.
    Develop an appreciation for our Navy's history, customs, 
traditions, and its significant role in national defense.
    Develop positive qualities of patriotism, courage, self-reliance, 
confidence, pride in our nation and other attributes, which contribute 
to development of strong moral character, good citizenship traits and a 
drug-free, gang-free lifestyle.
    Present the advantages and prestige of a military career.
    Under the Cadet Corps' umbrella is the Navy League Cadet Corps 
(NLCC); a youth program for children ages 11 through 13. While it is 
not part of the federal charter provided by Congress, the Navy League 
of the United States sponsors NLCC.
    NLCC was established ``. . . to give young people mental, moral, 
and physical training through the medium of naval and other 
instruction, with the objective of developing principles of patriotism 
and good citizenship, instilling in them a sense of duty, discipline, 
self-respect, self-confidence, and a respect for others.''
Benefits
    Naval Sea Cadets experience a unique opportunity for personal 
growth, development of self-esteem and self-confidence. Their 
participation in a variety of activities within a safe, alcohol-free, 
drug-free, and gang-free environment provides a positive alternative to 
other less favorable temptations. The Cadet Corps introduces young 
people to nautical skills, to maritime services and to a military life 
style. The program provides the young Cadet the opportunity to 
experience self-reliance early on, while introducing this Cadet to 
military life without any obligation to join a branch of the armed 
forces. The young Cadet realizes the commitment required and routinely 
excels within the Navy and Coast Guard environments.
    Naval Sea Cadets receive first-hand knowledge of what life in the 
Navy or Coast Guard is like. This realization ensures the likelihood of 
success in military service. For example, limited travel abroad and in 
Canada may be available, as well as the opportunity to board Navy and 
Coast Guard ships, craft and aircraft. These young people may also 
participate in shore activities ranging from training as a student at a 
Navy hospital to learning the fundamentals of aviation maintenance at a 
Naval Air Station.
    The opportunity to compete for college scholarships is particularly 
significant. Since 1975, 166 Cadets have received financial assistance 
in continuing their education in a chosen career field at college.
Activities
    Naval Sea Cadets pursue a variety of activities including 
practical, hands-on and classroom training, as well as field trips, 
orientation visits to military installations, and cruises on Navy and 
Coast Guard ships and small craft. They also participate in a variety 
of community and civic events.
    The majority of Sea Cadet training and activities occurs year round 
at a local training or ``drill'' site. Often, this may be a military 
installation or base, a reserve center, a local school, civic hall, or 
sponsor-provided building. During the summer, activities move from the 
local training site and involve recruit training (boot camp), 
``advanced'' training of choice, and a variety of other training 
opportunities (depending on the Cadet's previous experience and 
desires).
Senior Leadership
    Volunteer Naval Sea Cadet Corps Officers and Instructors furnish 
senior leadership for the program. They willingly contribute their time 
and efforts to serve America's youth. The Sea Cadet Corps programs 
succeed because of their dedicated, active participation and commitment 
to the principles upon which the Corps was founded. Cadet Corps 
officers are appointed from the civilian sector or from active, reserve 
or retired military status. All are required to take orientation, 
intermediate and advanced Officer Professional Development courses to 
increase their management and youth leadership skills. Appointment as 
an officer in the Sea Cadet Corps does not, in itself, confer any 
official military rank. However, a Navy style uniform, bearing USNSCC 
insignia, is authorized and worn. Cadet Corps officers receive no pay 
or allowances. Yet, they do deserve some benefits such as limited use 
of military facilities and space available air travel in conjunction 
with carrying out their training duty orders.
Drug-Free and Gang-Free Environment
    One of the most important benefits of the Sea Cadet Program is that 
it provides participating youth a peer structure and environment that 
places maximum emphasis on a drug and gang free environment. Supporting 
this effort is a close liaison with the U.S. Department of Justice Drug 
Enforcement Administration (DEA). The DEA offers the services of all 
DEA Demand Reduction Coordinators to provide individual unit training, 
as well as their being an integral part of our boot camp training 
programs.
Training
            Local Training
    Local training, held at the unit's drill site, includes a variety 
of activities supervised by qualified Sea Cadet Corps Officers and 
instructors, as well as Navy, Coast Guard, Marine and other service 
member instructors.
    Cadets receive classroom and hands on practical instruction in 
basic military requirements, military drill, water and small boat 
safety, core personal values, social amenities, drug/alcohol abuse, 
cultural relations, naval history, naval customs and traditions, and 
nautical skills. Training may be held onboard ships, small boats or 
aircraft, depending upon platform availability, as well as onboard 
military bases and stations. In their training, cadets also learn about 
and are exposed to a wide variety of civilian and military career 
opportunities through field trips and educational tours.
    Special presentations by military and civilian officials augment 
the local training, as does attendance at special briefings and events 
throughout the local area. Cadets are also encouraged, and scheduled, 
to participate in civic activities and events to include parades, 
social work, and community projects, all part of the ``whole person'' 
training concept.
    For all Naval Sea Cadets the training during the first several 
months is at their local training site, and focuses on general 
orientation to, and familiarization with, the entire Naval Sea Cadet 
program. It also prepares them for their first major away from home 
training event, the two weeks recruit training which all Sea Cadets 
must successfully complete.
    The Navy League Cadet Corps training program teaches younger cadets 
the virtues of personal neatness, loyalty, obedience, courtesy, 
dependability and a sense of responsibility for shipmates. In 
accordance with a Navy orientated syllabus, this education prepares 
them for the higher level of training they will receive as Naval Sea 
Cadets.
            Summer Training
    After enrolling, all sea cadets must first attend a two week 
recruit training taught at the Navy's Recruit Training Command, at 
other Naval Bases or stations, and at regional recruit training sites 
using other military host resources. Instructed by Navy or NSCC Recruit 
Division Commanders, cadets train to a condensed version of the basic 
course that Navy enlistees receive. The curriculum is provided by the 
Navy, and taught at all training sites. In 2003 there were 22 Recruit 
training classes at 19 locations, including 3 classes conducted over 
the winter holiday school break. These 20 plus nationwide regional 
sites are required to accommodate the increased demand for quotas and 
also to keep cadet and adult travel costs to a minimum. Over 2,600 
Naval Sea Cadets attended recruit training in 2003, supported by 
another 240 adult volunteers.
    Once Sea Cadets have successfully completed recruit training, they 
may choose from a wide variety of advanced training opportunities 
including basic/advanced airman, ceremonial guard, seamanship, sailing, 
amphibious operations, leadership, firefighting and emergency services, 
submarine orientation, seal and mine warfare operations, Navy diving, 
and training in occupational specialties including health care, legal, 
music, master-at-arms and police science, and construction.
    The Naval Sea Cadet Corps is proud of the quality and diversity of 
training opportunities offered to its' Cadet Corps. For 2003 
approximately 8,000 ``training opportunities'' were formally advertised 
for both cadets and adults. Another 900 ``opportunities'' presented 
themselves through the dedication, resourcefulness and initiative of 
the adult volunteer officers who independently arranged training for 
cadets onboard local bases and stations. This locally arranged training 
represents some of the best that the NSCC has to offer and includes the 
consistently outstanding training offered by the U.S. Coast Guard. The 
total cadet and adult opportunity for 2003 stood at about 9,000 quotas, 
including all recruit training. Approximately 8,000 NSCC members, with 
about 7,000 being cadets, stepped forward and requested orders to take 
advantage of these training opportunities. Cadets faced a myriad of 
challenging and rewarding training experiences designed to instill 
leadership and develop self-reliance. It also enabled them to become 
familiar with the full spectrum of Navy and Coast Guard career fields.
    This ever-increasing participation once again reflects the 
popularity of the NSCC and the positive results of federal funding for 
2001 through 2003. The NSCC continues to experience increased recruit 
and advanced training attendance of well over 2,000 cadets per year 
over those years in which federal funding was not available. The events 
of 9/11 and the resulting global war against terrorism did preclude 
berthing availability at many bases and stations; however, the NSCC 
continued to grow as other military hosts offered their resources in 
support of the NSCC. While recruit training acquaints cadets with Navy 
life and Navy style discipline, advanced training focuses on military 
and general career fields and opportunities, and also affords the 
cadets many entertaining, drug free, disciplined yet fun activities 
over the entire year. One result of this training is that approximately 
10 percent of the Midshipman Brigade at the U.S Naval Academy report 
having been prior Naval Sea Cadets, most citing summer training as a 
key factor in their decision to attend the USNA.
            Training highlights for 2003
    The 2003 training focus was on providing every cadet the 
opportunity to perform either recruit or advanced training during the 
year. To that end, emphasis was placed on maintaining all new training 
opportunities developed over the last several years since federal 
funding was approved for the NSCC. This proved to be a significant 
challenge with reduced available berthing at DOD bases as a result of 
recalled reservists and deployment of forces in the war on terrorism. 
Regardless, we were successful in most of our plans. Included among 
these were classes in sailing and legal (JAG) training, expanded SEAL 
orientation opportunity, SCUBA classes, more seamanship training 
onboard the NSCC training vessels on the Great Lakes, and additional 
honor guard training opportunities. Other highlights included:
  --Expanded recruit training opportunity by increasing recruit 
        training evolutions from 15 in 2002 to 22 in 2003.
  --Kept cadet training cost to $30 for 1 week and $60 for 2 weeks plus 
        transportation; only a $5 and $10 increase over 2002, all 
        during a period of escalating costs and increasing enrollment 
        while the grant was maintained at $1 million.
  --Expanded use of Army and State National Guard facilities to 
        accommodate demand for quotas for recruit training.
  --Maintained expanded recruit training and advanced training 
        opportunity higher than any prior year.
  --Improved adult professional development and education through much 
        needed updates of the NSCC Officer Professional Development 
        courses.
  --Added first class ever with Navy Explosive Ordnance Disposal/Mobile 
        Diving Salvage Units in Norfolk, Virginia.
  --Nearly doubled the number of MAA classes and doubled the number of 
        cadets taking this training.
  --Maintained expanded YP training on the Great Lakes.
  --Maintained placement of cadets onboard USCG Barque Eagle for two, 
        three week underway orientation cruises.
  --Maintained placement of cadets aboard USCG stations, cutters, and 
        tenders for what many consider among the best of the training 
        opportunities offered in the NSCC.
  --Continued the popular, merit based, International Exchange program 
        although reduced for Asian countries due to the SARS concern.
  --Graduated over 290 cadets from the NSCC Petty Officer Leadership 
        Academies, (POLA).
  --Maintained placement of Cadets onboard USN ships under local orders 
        as operating schedules and opportunity permitted.
  --As has been the case in all prior years, once again enjoyed 
        particularly outstanding support from members of the United 
        States Naval Reserve, whose help and leadership remains 
        essential for summer training.
            International Exchange Program (IEP)
    The NSCC continued in 2003, for the second year, its' redesigned 
and highly competitive, merit based, and very low cost to the cadet, 
International Exchange Program. Cadets were placed in Australia, United 
Kingdom, Sweden, Netherlands, and Bermuda to train with fellow cadets 
in these host nations. The NSCC and Canada did maintain their 
traditional exchanges in Nova Scotia and British Columbia, and the NSCC 
hosted visiting cadets in Norfolk and at Fort Lewis, WA for two weeks 
of U.S. Navy style training.
            Navy League Cadet Training
    In 2003, almost 1,350 Navy League Cadets and escorts attended Navy 
League Orientation Training at 17 sites nationwide. The diversity in 
location and ample quotas allowed for attendance by each and every 
League Cadet who wished to attend. Approximately 250 League cadets and 
their escorts attended advanced Navy League training where cadets learn 
about small boats and small boat safety using the U.S. Coast Guard's 
safe boating curriculum. Other advanced Navy League training sites 
emphasize leadership training. Both serve the program well in preparing 
League cadets for further training in the Naval Sea Cadet Corps, and 
particularly for their first ``boot camp.'' The continuing strong 
numbers of participants for both Orientation and Advanced training, 
support not just the popularity of the NSCC program but also the 
positive impact the federal training grant has had in helping cadets 
afford the training and helping them take advantage of the increased 
opportunities available to them.
            Training Grants
    Through local sponsor support and the federal grant, almost every 
Cadet who desired to attend summer training had the opportunity. This 
milestone is a direct result of the strong NLUS council and sponsor 
support for NSCC/NLCC cadets to participate in the Corps' summer 
training.
Scholarships
    The Naval Sea Cadet Corps Scholarship program was established to 
provide financial assistance to deserving Cadets who wished to further 
their education at the college level. Established in 1975, the 
scholarship program consists of a family of funds: the NSCC Scholarship 
Fund; the Navy League Stockholm Scholarship; the San Diego Gas & 
Electric Fund; grants from the Lewis A. Kingsley Foundation; and the 
NSCC ``named scholarship'' program, designed to recognize an 
individual, corporation, organization or foundation.
    Since the inception of the scholarship program, 176 scholarships 
have been awarded to 166 Cadets (includes some renewals) totaling over 
$192,900.
Service Accessions
    The Naval Sea Cadet Corps was formed at the request of the 
Department of the Navy as a means to ``enhance the Navy image in the 
minds of American youth.'' To accomplish this, ongoing training 
illustrates to Naval Sea Cadets the advantages and benefits of careers 
in the armed services, and in particular, the sea services.
    While there is no service obligation associated with the Naval Sea 
Cadet Corps program, many Sea Cadets choose to enlist or enroll in 
Officer training programs in all the Services.
    Annually, the NSCC conducts a survey to determine the approximate 
number of Cadets making this career decision. This survey is conducted 
during the annual inspections of the units. The reported Cadet 
accessions to the services are only those that are known to the unit at 
that time. There are many accessions that occur in the 2-3 year 
timeframe after Cadets leave their units, which go unreported. For 
example, for the year 2000, with about 80 percent of the units 
reporting, the survey indicates that 564 known Cadets entered the armed 
forces during the reporting year ending December 31, 2002. Of these, 30 
ex- Sea Cadets were reported to have received appointments to the U.S. 
Naval Academy. Further liaison with the USNA indicates that in fact, 
there are currently 482 Midshipmen with Sea Cadet backgrounds--almost 
10 percent of the entire Brigade. Navy accession recruiting costs have 
averaged over $11,000 per person, officer or enlisted, which applied to 
the number of Sea Cadet accessions represents a significant financial 
benefit to the Navy. Equally important is the expectation that once a 
more accurate measurement methodology can be found, is, that since Sea 
Cadets enter the Armed Forces as disciplined, well trained and 
motivated individuals, their retention, graduation and first term 
enlistment completion rates are perhaps the highest among any other 
entry group. USNA officials are currently studying graduation rates for 
past years for ex-Sea Cadets as a group as compared to the entire 
Brigade. Their preliminary opinion is that these percents will be among 
the highest. It is further expected that this factor will be an 
excellent indicator of the following, not only for the USNA, but for 
all officer and enlisted programs the Sea Cadets may enter:
  --Extremely high motivation of ex-Cadets to enter the Service.
  --Excellent background provided by the U.S. Naval Sea Cadet 
        experience in preparing and motivating Cadets to enter the 
        Service.
  --Prior U.S. Naval Sea Cadet Corps experience is an excellent pre-
        screening opportunity for young men and women to evaluate their 
        interest in pursuing a military career. This factor could 
        potentially save considerable taxpayer dollars expended on 
        individuals who apply for, then resign after entering the 
        Academy if they decide at some point they do not have the 
        interest or motivation.
  --U.S. Naval Sea Cadet experience prior to entering the Service is an 
        excellent indicator of a potentially high success rate.
    Data similar to the above has been requested from the United States 
Coast Guard Academy and the United States Merchant Marine Academy.
    Whether or not they choose a service career, all Sea Cadets carry 
forth learned values of good citizenship, leadership and moral courage 
that will benefit themselves and our country.
Program Finances
    Sea Cadets pay for all expenses, including travel to/from training, 
uniforms, insurance and training costs. Out-of-pocket costs can reach 
$500 each year. Assistance is made available so that no young person is 
denied access to the program, regardless of social or economic 
background.
    Federally funded at the $1,000,000 level in fiscal years 2001, 
2002, and 2003, and at $1,500,000 in fiscal year 2004 (of the 
$2,000,000 requested), these funds were used to offset individual 
Cadet's individual costs for summer training, conduct of background 
checks for adult volunteers and for reducing future enrollment costs 
for Cadets. In addition to the federal funds received, NSCC receives 
under $1,000,000 per year from other sources, which includes around 
$250,000 in enrollment fees from Cadets and adult volunteers 
themselves. For a variety of reasons, at a minimum, this current level 
of funding is necessary to sustain this program and the full $2,000,000 
would allow for program expansion:
  --All-time high in number of enrolled Sea Cadets (and growing) and 
        general inflation.
  --Some bases denying planned access to Sea Cadets for training due to 
        increased terrorism threat level alerts and the associated 
        tightening of security measures--requiring Cadets to utilize 
        alternative, and often more costly training alternatives.
  --Reduced availability of afloat training opportunities due to the 
        Navy's high level of operations related to the Iraq war.
  --Reduced training site opportunities due to base closures.
  --Non-availability of open bay berthing opportunities for Cadets due 
        to their elimination as a result of enlisted habitability 
        upgrades to individual/double berthing spaces.
  --Lack of available ``Space Available'' transportation for group 
        movements and lack of on-base transportation, as the Navy no 
        longer ``owns'' busses now controlled by the GSA.
    Because of these factors, Cadet out-of-pocket costs have 
skyrocketed to the point where the requested $2,000,000 alone would be 
barely sufficient to handle cost increases.
    It is therefore considered a matter of urgency that the full amount 
of the requested $2,000,000 be authorized and appropriated for fiscal 
year 2005.

    Senator Stevens. Our next witness is Heather French Henry, 
Miss America 2000, for the National Prostate Cancer Coalition.
    Being a prostate cancer survivor, I am pleased to see you, 
but I do not think you have any risk.
STATEMENT OF HEATHER FRENCH HENRY, MISS AMERICA 2000 ON 
            BEHALF OF THE NATIONAL PROSTATE CANCER 
            COALITION
    Ms. Henry. No, I do not. Thank goodness.
    Mr. Chairman and Senator Inouye, I would like to thank you 
for the opportunity to come and speak before you today. Of 
course, I am Heather French Henry, former Miss America 2000. 
But before I was Miss America, I was the daughter of a disabled 
Vietnam veteran, and for years, even before my Miss America 
career, had the privilege of working with veterans all across 
the country and especially those who had prostate cancer as a 
direct result from Agent Orange.
    Now, I never thought, after working with all those 
veterans, that I would have prostate cancer within my family. 
Fortunately, my father has not been diagnosed with prostate 
cancer as a veteran, but my husband, former Lieutenant Governor 
of Kentucky and an orthopedic surgeon, is a prostate cancer 
survivor.
    You can imagine. I was 8 months pregnant, about 1\1/2\ 
weeks away from delivering our second child, when he sat me 
down to tell me that he had been diagnosed with prostate 
cancer. The ``cancer'' word, the big ``C'' word we call it, in 
any family, when it is brought up, is scary let alone to an 8-
month pregnant woman.
    Now, fortunately, Stephen and I had some knowledge of 
prostate cancer just because he was a physician. However, it is 
ironic that as a physician, he was not aware of his extensive 
family history of prostate cancer because prostate cancer just 
is not widely discussed. It is not like breast cancer which has 
become even a table topic at dinner discussion, but prostate 
cancer, of course, is not widely discussed among men, let alone 
other family members within their family or their friends.
    Steve and I had a difficult task. How do you deal with your 
husband having prostate cancer who is a public figure? How do 
you deal with that in media? Because, of course, as you know, 
media speculation is not good on any front when it comes to a 
public career. Steve and I decided that we would be very open. 
Now, we were having to deal with this personally, as well as 
publicly while he was still in office. We decided to be very 
open with his prostate cancer, and the press conference that we 
held took us 2\1/2\ hours to explain to members of the media 
just what prostate cancer was and how it could be treated and 
the various forms of treatment and the alternatives that 
Stephen had. We wanted to destroy any myth whatsoever about 
speculation about his life, his career, any of his future, but 
it took us 2\1/2\ hours to do that.
    Now, why did it take us 2\1/2\ hours? Gentlemen, I do not 
need to tell you that awareness of any issue is much needed, 
but without the funding for research--with that funding comes 
along the awareness. What we are asking today is that you help 
those out there by increasing the funding to $100 million to 
the DOD prostate cancer research program.
    I am sitting before you today as a wife of a prostate 
cancer survivor, but also as a public servant who has had to 
deal with this publicly. We choose to do that just to provide 
hope for men out there and their families that we were going to 
be advocates. Stephen and I have started the Kentucky Prostate 
Cancer Coalition within Kentucky. The grassroots support just 
is not there for prostate cancer, and most of that has to do 
because of the lack of funding for prostate cancer research.
    Now, fortunately, Stephen came through his surgery that he 
had at Johns Hopkins University Hospital successfully, and I 
did not breathe a sigh of relief until his first prostate 
specific antigen (PSA) test which came out with excellent 
results. But even then, his doctor who did his surgery could 
not clearly identify the future of prostate cancer. A gentleman 
who does this surgery probably 1,700 times during 1 year says 
to me we cannot tell you what the future of prostate cancer is 
because there is not enough research and funding out there 
because this disease is constantly changing.
    That is my fear, is that we are not going to be able to 
provide hope for all of the men out there and their families 
about the future of prostate cancer, and the younger 
generations that, of course, it is hitting. My husband who was 
49 when he was diagnosed speculates to have had it when he was 
47. Other friends of ours are getting it at 39 and in their 
40's. So we are just asking for funding to be able to project 
into the future.
    As you know, prostate cancer is the most commonly diagnosed 
cancer within men, accounting for 230,000 cases, 30,000 deaths 
in 2004. Like Stephen, many of those will be diagnosed in their 
40's and 50's. But that is why Stephen and I are here today 
with the National Prostate Cancer Coalition (NPCC).
    To properly fight the war on prostate cancer for families 
like mine, your committee must restore $100 million to the 
Department of Defense prostate cancer research program 
administered by the congressionally directed medical research 
program. Of course, in 2001, it was $100 million, but it had 
been bumped down to $85 million. So we are really just asking 
to restore that final step needed, of course, to conduct human 
clinical trials research. That is so important because without 
that extra $15 million, how do we advance into the research and 
technology of this?
    My husband chose a radical surgery and it is one of several 
forms of treatment, which of course was successful. But with 
all current primary treatments for the disease, there are side 
effects, but without the $100 million, the program is unable to 
test new treatments and thus get new products to patients that 
may not impair the quality of their lives.
    Thanks to your leadership, the congressionally directed 
medical research program has become the gold standard for 
administering cancer research. The program cannot fight the war 
against prostate cancer on its own, and last year the committee 
requested that the Defense Department, in consultation with the 
Institute of Medicine, evaluate ways for the program to 
collaborate with the private sector, which of course is so 
needed. Both the NPCC and I and my husband agree. Through 
public and private partnerships prostate cancer research can 
work collectively and strategically to produce new 
preventatives, diagnostics, and treatments to improve the 
quality of their life for prostate cancer patients like my 
husband.
    Prior to your directive, NPCC began discussing methods of 
public-private partnerships when it convened, along with the 
DOD prostate cancer research program and the National Cancer 
Institute, the Prostate Cancer Research Funders Conference in 
2000.
    The Prostate Cancer Research Funders Conference brings 
together representatives of all Government agencies that fund 
prostate cancer research, along with their counterparts in the 
private sector, which I cannot even tell you how important that 
is. Other participants include the Veterans Health 
Administration, the Centers for Disease Control and Prevention, 
and the Food and Drug Administration, Canadian and British 
Government agencies, and private foundations and organizations 
and representatives from the industry. Members of the 
conference have come together to focus on shared objectives and 
address commonly recognized barriers within the research. 
Through this collaborative approach, we can create a unified 
front to finally beat prostate cancer once and for all.
    Again, on behalf of my entire family, NPCC, and all of 
those prostate cancer patients, I want to thank you for 
allowing me to be here today and for your leadership already. 
Most importantly in the future, I want to be able to tell my 
two little girls that a disease that their daddy had is no 
longer a killer of men. So we are not only asking you to 
provide this research money for men everywhere, but also for 
their wives, their sons, and of course, their daughters. So 
thank you for letting me be here today. I want to encourage you 
to restore that research funding for a much needed disease.
    Senator Stevens. Thank you very much.
    Questions, Senator?
    Senator Inouye. I think we should note that Senator Stevens 
is the father of the defense prostate cancer research program.
    Senator Stevens. Thank you very much.
    Ms. Henry. Thank you. Appreciate it.
    [The statement follows:]
               Prepared Statement of Heather French Henry
    Mr. Chairman and distinguished members of the committee, thank you 
for the opportunity to share my thoughts. My name is Heather French 
Henry, and I was crowned Miss America in 2000. I am here today on our 
behalf of my husband, my children and families all over America who 
have been touched by prostate cancer.
    I was pregnant with our second child when I found out that my 
husband, Stephen, then the Lieutenant Governor of Kentucky, had 
prostate cancer. In fact, I was two weeks away from my delivery date 
when he sat me down to tell me about his diagnosis. As a young married 
couple, the thought of prostate cancer or any form of cancer, was not 
even in our wildest imagination. After all, Stephen was the picture of 
health for a forty-nine year old man. He was active. He played 
basketball. He could even out run me on his worst day!
    Ironically, my husband is a physician. One might think that doctors 
should be on top of their health status! However, one peculiar night, I 
discovered Steve in pain, sitting on the steps holding his hand to his 
chest. Usually not one prone to dramatics, I was immediately concerned. 
Stephen went to the hospital and began a long stream of physicals over 
a period of two weeks. One physical after another showed my husband in 
good health until the day he received the results of a prostate-
specific antigen (PSA) test. Only because of a simple unrelated chest 
pain did my husband take the initiative to get tested and find out 
about his PSA level. Had he not gone to the doctor at all, his 
diagnosis may still be unknown. Prostate cancer is a silent killer, and 
men must be encouraged to be vigilant in detecting it.
    Following the results of his PSA test, we began to wonder if 
Stephen's family had a history of the disease. After a call to his 
mother, we found out that his father had prostate cancer later in his 
life. If a man has one close relative with prostate cancer, his risk of 
the disease doubles; with two relatives, the risk increases fivefold. 
Therefore, it should have been no surprise that Stephen's chances of 
developing the disease were significant--but it was.
    Once I found out about my husband's prostate cancer I couldn't help 
but think, as an eight-month pregnant woman of 28, ``my husband has 
CANCER!'' I felt terrified which was magnified a thousand times by my 
pregnant condition. The hardest part was that we had to be silent about 
his condition because of the media. If prostate cancer was something 
that was widely understood and recognized, such as breast cancer, I 
don't feel that we would have had to be so cautious. However, because 
of the great misunderstanding and lack of knowledge the media and the 
public have about the disease, we had to strategize about how to deal 
with this situation, not only personally but publicly.
    I certainly was in no condition to deal with all of this, but 
prostate cancer doesn't wait for the ``right'' time. It added so much 
stress to my already aching mind and body that I feared it might affect 
my delivery. Fortunately, it didn't, and we are once again a happy 
family.
    Two days before he had surgery, Stephen held a press conference for 
all of the Kentucky media. It was the longest press conference in which 
I had ever participated. It became evident there was a lack of 
knowledge that even the press had about the seriousness of prostate 
cancer. We spent almost two hours describing prostate cancer, how it 
affected us as a family and how it could be treated. So much had to be 
explained and we wanted everyone on the same page. The last thing we 
wanted was for the press to speculate about Steve's cancer, his job, or 
even his life. We held the press conference to create awareness, 
educate and add hope to those families out there that may be struggling 
with prostate cancer. The next day we left for Johns Hopkins Medical 
Center in Baltimore.
    Stephen decided after educating himself and seeking the advice of 
friends and colleagues that he would choose the most aggressive route 
of surgery. Getting mixed views about timelines for surgery and knowing 
time was no friend to any cancer, Stephen wanted to act quickly. Three 
weeks after our daughter was born Stephen underwent surgery. Coupled 
with the fact that I had just given birth and really needed to have the 
baby with me, this was an extremely hard time for our family.
    I am usually a very strong woman emotionally and spiritually but 
not the day of Stephen's surgery. When we arrived at the hospital I was 
immediately told I could not take my infant daughter into the surgical 
wing. So there I was stuck in the lobby of one of the largest hospitals 
in the country with a newborn baby, a husband with cancer, and I was 
mentally lost. All I could do was sit and cry silently in the lobby 
while people walked by adding nods of compassion. I had no idea how the 
surgery would go. Reinforcing the lack of public discussion on the 
disease, no one could give us a clear story about the most affective 
treatments. What if the surgery didn't work? What if the cancer had 
spread? What if I was going to lose the love of my life and be left 
alone with two children? What if my children had to grow up not knowing 
what a wonderful man their father was?
    No one knows when his or her time on earth is going to end, and I 
was not ready for Steve's name to be called. I eventually called a 
friend to fly up to Baltimore to pick up my daughter after Stephen's 
surgery was over. But my despair continued.
    Even though the doctor seemed hopeful, my heart felt bleak. All 
that kept ringing through my head was the doctor describing about how 
prostate cancer evolves and changes with time and that he could make no 
predictions because more research needed be done to become more 
familiar with the nature of prostate cancer. It was nothing short of a 
nightmare for me. Ironically, between the two of us, Stephen handled it 
much more gracefully than I did. Four days after a successful surgery, 
we returned to Kentucky.
    I will never forget my husband's reaction to me asking if he would 
like a wheel chair for the walk through the airport. His pride was 
clearly hurt. Surgery was one thing, but the aftermath post operation 
is quite another. Stephen was to keep his catheter in for a few weeks, 
and that made the flight home quite memorable. The look on his face 
when I asked to tie his shoes was a clear indication that he did not 
want people to know or feel sorry for him. This outraged me. It 
concerned me that the masses didn't know more about prostate cancer and 
that my husband, or any man, could not feel comfortable dealing with 
his condition. It was one thing to talk about having prostate cancer 
but quite another to show people up front a post-operative face. It was 
not an easy flight, nor were the next weeks at home trying to make my 
husband rest. Unfortunately, his demeanor at that time reflects the 
overall attitude of many men and society: a reluctance to openly 
address prostate cancer and the need to be screened.
    Life didn't really seem to show a ray of hope to me until his first 
post-operative PSA test. His results were excellent! I finally breathed 
a sigh of relief. Steve was fortunate. He had caught his prostate 
cancer early, but others we know have not been so lucky.
    Prostate cancer is the most commonly diagnosed cancer in men, 
accounting for 33 percent of all cancer cases in men. Like Stephen, 
approximately 230,000 men will learn they have prostate cancer in 2004. 
Many of those diagnosed will be in their 40s and 50s. Roughly 30,000 
will die from the disease. As we have seen, those with a family history 
of prostate cancer are more susceptible to the disease. Also, veterans 
and others exposed to defoliants and African American men remain at 
higher risk. Currently, there is no cure for advanced or metastasized 
prostate cancer.
    I feel that because my husband is a doctor he was able to make wise 
decisions about his cancer. However, not everyone who currently has or 
will be diagnosed with prostate cancer is a doctor or will even have 
access to a doctor.
    The reason I am here today sharing my personal story with you is to 
encourage you to make an appropriate investment in prostate cancer 
research to help find a cure. We hear slogans everyday about ``races 
for the cure'' but the eradication of prostate cancer will never see 
its day unless it is talked about and taken seriously with proper 
funding for research. That's why, my husband and I have partnered with 
the National Prostate Cancer Coalition (NPCC). We know that an 
investment in research leads to better prevention, detection and 
treatment--and that greater understanding and awareness of the disease 
leads to hope--hope that the millions of men who will be diagnosed with 
prostate cancer have the chance at a long healthy life with their 
families.
    Among men, prostate cancer is rarely discussed, and when it is, 
it's done ``behind closed doors.'' My own husband was not even fully 
aware of his family history. Prostate cancer is not something to be 
ashamed of; it is a disease that needs to be recognized. Just as breast 
cancer has become a common dinner table topic, so should prostate 
cancer.
    I have worked for many years with Vietnam veterans who have 
prostate cancer as a result of Agent Orange exposure but I never 
thought I would encounter it in my family. Having long been a champion 
of veterans' issues, including the work done through my own foundation, 
I have seen the burden this disease places on those who have protected 
our freedom. The Department of Veterans Affairs (VA) estimates that 
there are roughly 23.5 million male veterans living in the United 
States. That means approximately 3.9 million veterans will be diagnosed 
with prostate cancer. The Veterans Health Administration currently 
estimates that nearly 5,800 patients in its system are diagnosed with 
prostate cancer each year. This nation must do all it can to keep these 
men from harm's way, after they have done the same for all Americans. 
What I am asking from you today is to take care of the men who served 
in uniform, past present and future.
    The Department of Defense (DOD) estimates that the direct health 
care costs of prostate cancer on the military are expected to be over 
$42 million in fiscal year 2004. Nearly 85 percent of the current 
1,465,000 serving in America's military are men. That means that about 
200,000 servicemen will be diagnosed with prostate cancer--without 
additional consideration of service related environmental factors that 
may increase risk of the disease. The DOD refers to itself as America's 
largest company; it must protect its employees from a killer that will 
affect 14 percent of its workforce.
    Whether in battle or peacetime, the lives of men all over this 
country depend on your decisions. You have the unique opportunity to 
provide a brighter future for millions of men and families through 
prostate cancer research. With proper funding we can find a way to end 
the pain and suffering caused by prostate cancer.
    To properly fight the war on prostate cancer for families like 
mine, your committee must appropriate $100 million for the DOD 
Congressionally Directed Medical Research Program's (CDMRP) Prostate 
Cancer Research Program (PCRP). As stated in its fiscal year 1997 
business plan, PCRP needs at least $100 million to conduct human 
clinical trial research. My husband chose to have a radical 
prostatectomy, one of several forms of treatment available for prostate 
cancer. Yet, as with all current primary treatments for the disease, 
there are many side effects. Without $100 million, the program is 
unable to test new treatments and thus get new products to patients 
that may not impair the quality of their lives. Without such 
investment, the pipeline remains closed, meaning that valuable prostate 
cancer research remains stuck in laboratories instead of at work in 
clinics.
    Thanks to your leadership, CDMRP has become the gold standard for 
administering cancer research. Prostate cancer advocates and scientists 
throughout this nation have long applauded the program and its peer and 
consumer driven approach to research. PCRP is a unique program within 
the government's prostate cancer research portfolio because it makes 
use of public/private partnerships, awards competitive grants for new 
ideas, does not duplicate the work of other funders, integrates 
scientists and survivors and uses a unique perspective to solve 
problems. Its mission and its results are clear. Each year, the program 
issues an annual report detailing what it has done with taxpayer 
dollars to fight prostate cancer. PCRP's transparency allows people 
like us and others affected by prostate cancer to clearly see what our 
government is doing to fight the disease.
    The PCRP structure is based on a model developed by the National 
Academy of Sciences' Institute of Medicine. Its mission and its 
philosophy for awarding research grants reflect that of DOD's Defense 
Advanced Research Projects Agency (DARPA). The DARPA model, performance 
through competition and innovation, was praised in President Bush's 
fiscal year 2005 budget. This DARPA-esque approach to cancer research 
allows PCRP to identify novel research with large potential payoffs and 
to focus on innovative methods that do not receive funding elsewhere.
    One of the strongest aspects of the program is PCRP's Integration 
Panel. The panel is composed of those who know prostate cancer research 
and the issues facing it: scientists, researchers, and prostate cancer 
survivors, just like Stephen. This peer and consumer driven model 
allows the program to select grants based on merit and their 
translational benefit while incorporating the views of those who need 
research the most, prostate cancer patients. No other publicly funded 
cancer research entity effectively brings together all those with a 
stake in curing prostate cancer.
    This committee requested last year that DOD, in consultation with 
the Institute of Medicine, evaluate collaborations with the private 
sector (Senate Report 108-87). Both NPCC and I agree. Through public-
private partnerships, prostate cancer researchers can work collectively 
and strategically to produce new preventives, diagnostics and 
treatments to improve the quality of life for prostate cancer patients 
like Stephen. Prior to your directive, NPCC began discussing methods 
for public-private partnerships when it convened, along with the 
National Cancer Institute and DOD, the Prostate Cancer Research Funders 
Conference in 2000.
    The Prostate Cancer Research Funders Conference brings together 
representatives of all the government agencies that fund prostate 
cancer research along with their counterparts in the private sector. 
Participants include NIH/NCI, DOD, the Veterans Health Administration, 
the Centers for Disease Control and Prevention, the Food and Drug 
Administration, Canadian and British government agencies, private 
foundations/organizations and representatives from industry. Members of 
the Conference have come together to focus on shared objectives and 
address commonly recognized barriers in research.
    As a co-convener of the conference, PCRP plays an important role in 
shaping its priorities. Currently, federal agencies participate 
voluntarily, but they can opt in or out based on the tenure of 
executive leadership. For the conference to be successful, federal 
agencies engaged in prostate cancer research should, in our opinion, be 
required to participate, and we ask for your leadership to make that 
happen. Moreover, Congress must also offer sufficient incentives for 
the private sector to participate. Incentives that do not compromise 
the autonomy or integrity of PCRP's peer review structure. I firmly 
believe that a collaborative, multifaceted approach to prostate cancer 
research can bring about better results in a more timely fashion.
    Mr. Chairman, we have done remarkable work and are making progress. 
Public-private collaboration and new scientific discoveries are moving 
us toward a better understanding of how prostate cancer kills, but, for 
our work to be worthwhile, it must be translated into tangible goals 
and results for patients. The War on Cancer must be funded 
appropriately so researchers can get new drugs to the patients who need 
them. For this to happen PCRP needs $100 million to fund human clinical 
trials research.
    On behalf of my entire family, prostate cancer patients everywhere, 
and NPCC I thank you for your time. Thanks to your leadership, I will 
one day be able to tell my children that a disease their daddy has is 
no longer a killer of men.

    Senator Stevens. Our next witness is Daniel Puzon, Director 
of Legislation, Naval Reserve Association.
STATEMENT OF CAPTAIN IKE PUZON, UNITED STATES NAVAL 
            RESERVE (RET.), DIRECTOR OF LEGISLATION, 
            NAVAL RESERVE ASSOCIATION
    Mr. Puzon. Mr. Chairman, Senator Inouye, thank you for this 
opportunity. On behalf of my 22,000 members and 86,000 naval 
reservists, we thank you.
    We are obviously in a climate of increased utilization and 
sacrifice by our Guard and Reserve, as you have heard today. We 
are aware of those sacrifices. Our three main equity issues on 
personnel are, as others have said, selective Reserve 
Montgomery GI bill improvement, TRICARE for our selected 
reservists, and some type of parity or improvements on 
retirement. Our most pressing concern is equipment, end 
strength, and force structure.
    The fact that we have recalled 360,000 Guard and Reserve 
members is a true testament of their surge ability and their 
need in our service and also to their readiness and also to the 
requirement to have a healthy Reserve component in all our 
services. They have proved that they are cost effective and 
they add ``just in time'' might when our Nation calls.
    The performance and efforts of today's military is without 
question. We foresee that the reliance on the Guard and Reserve 
will continue this way for some time in execution of our 
national security strategy and evolving homeland security 
strategy. Reserve components again are providing for our Nation 
and they have proven they are affordable.
    The Guard and Reserve is oftentimes the first bill payer in 
any attempt to balance the budget. The recent use of F-18's and 
HCS-4 helicopters, coastal warfare, and multiple other Guard 
and Reserve units, but most notably in the Navy Reserve units 
have been targeted for decommissioning. Again, we embrace 
change in the Naval Reserve Association but we do not embrace 
the elimination. These people that have served are coming back 
from Operation Iraqi Freedom and finding out their unit is 
going to be decommissioned. We think that is a travesty for our 
Nation and for the naval reservists.
    As you know, the Navy is involved from the top down in 
relooking at what billets are needed and not needed. What is 
not being looked at is how those people that are being 
reassigned will be trained. It is going to be hard to be 
trained if you are in middle America and you need to go to 
Norfolk or San Diego. That has not been addressed and is not 
being addressed and is not being funded.
    When our Nation called on these service members in the 
Naval Reserve, they responded. Now, they are finding out these 
units they used to belong to are on the block to be cut. We 
think this needs to be looked at.
    As you know, reservists and Guardsmen are willing to make 
large sacrifices and sacrifices in employment unexpectedly. 
Reservists have shown this time and time again. They will 
volunteer when asked. They will do anything you ask them to do.
    The way the Reserve is used in successful military 
operations is essential to what America is doing. What we are 
asking is are these initiatives, the road we are going down, 
are they the right ones for our national military strategy and 
our homeland security strategy. Is it the right direction? Is 
it sound defense? We are learning lessons, and we hope that the 
Secretary of Defense and the service departments learn those 
lessons.
    Finally, we would like to urge Congress to continue to 
resource the National Guard and Reserve equipment accounts. 
That is the only way Guard and Reserve will keep maintaining 
front line equipment or any equipment in some cases.
    We also think you should address the idea of maintaining 
the force level for the Naval Reserve because if you do not, it 
will be gone. We are a slippery slope, down to 40,000 
reservists in the Naval Reserve. That is again another 
travesty.
    Finally, we encourage you to consider a commission for the 
Guard and Reserve for the 21st century. There are way too many 
issues out there that address this country that the Guard and 
Reserve can do and will do, and this is the only way to get to 
it is through a congressionally mandated commission.
    Thank you for your time.
    Senator Stevens. Well, thank you very much. You make some 
great points. We have labored long and hard to ensure that the 
total force was there, and it has been there. Guard and Reserve 
is part of the total force. You have a very interesting 
suggestion for a commission for the 21st century. 
Unfortunately, I think that is an Armed Services Committee 
problem, but we will work with them. I think it is a good 
suggestion. Thank you very much.
    Mr. Puzon. Yes, sir.
    Senator Stevens. Senator Inouye.
    Senator Inouye. Thank you.
    Senator Stevens. Thank you very much.
    [The statement follows:]
                 Prepared Statement of Daniel I. Puzon
    Chairman Stevens, Senator Inouye and distinguished members of the 
subcommittee, on behalf of our 22,000 members, and in advocacy for the 
86,000 active Naval Reservists we are grateful for the opportunity to 
submit testimony, and for your efforts in this hearing.
    Today, a climate of continued utilization and sacrifice for our 
Guardsmen and Reservists has encircled our nation. We are all more 
aware of sacrifices of our armed forces in Iraq including our Guardsmen 
and Reservists. Our Guard and Reserve personnel are serving 365 days a 
year and have suffered in these casualties. These are the times that 
bring the issue of parity between the active component personnel and 
reserve component personnel to the forefront and into question.
    The three main equity personnel issues important to the Naval 
Reserve Association members is: (1) Selective Reserve MGIB 
improvements, (2) TRICARE for Selected Reservists, and (3) some type of 
parity on early retirement.
    Our most important issue is end strength and force structure.
    We do not have to remind the Congress why you needed to provide for 
these Guard and Reserve forces, but it is noted that it is a good thing 
you did, or where would we be today--by calling on them to go and serve 
in every major conflict that we have experienced in recent memory. As 
of today--350,000 Guard and Reserve members recalled since September 
11, 2001, is a true testimony of their surge-ability and readiness, and 
of the requirement to have a healthy reserve component in all our 
services. These are the forces that add ``just in time'' combat might 
when our Nation calls. Judged by this metric of combat might, they are 
cost-effective and efficient resources.
    The performance and efforts of today's military is without question 
in the forefront of our national and international news. Without 
question our armed forces is at the height of military prominence and 
involvement in our national security strategy. We foresee that this 
reliance will remain this way, as long as we are in this protracted war 
on terrorism, and executing both the National Security Strategy and 
evolving Homeland Security Strategy. Truly our Reserve Components are 
providing for the defense of our nation and proven that they are 
affordable!
    Yet, while these affordable Guard and Reserve forces are fighting 
the war in Iraq and being used throughout the world in peace keeping 
missions, there are some who believe that they add little value; that 
resources authorized and appropriated by Congress could be used better 
somewhere else. The Guard and Reserve is often time the first payer in 
any attempt to balance the budget. In the Navy, dedicated Naval Reserve 
equipment that has been used in this recent war (F-18's, HH-60's, 
Coastal Warfare small boats) is being eliminated and Reserve units have 
been targeted for decommissioning. VFA-203 is scheduled for 
decommissioning in June 2004, however, their sister squadron (VFA-201) 
recently deployed, fought in OIF, and broke all active component 
wartime records. Because they are the Naval Reserve they are being 
decommissioned. The fact that the equipment and personnel would be 
needed in a larger conflict (Korea, China), or could be utilized in 
Homeland Security is of little matter. Some of this is being mislabel 
as transformational, and some of it is being engineered to occur as an 
outcome under BRAC. For these and other reasons Congress must remain 
engaged in maintaining our Reserve and Guard Components.
    We respectfully call on Congress to review and question current 
Transformation and rebalancing efforts because of the aforementioned 
and the following;
  --Guard and Reserve service members are responding without question, 
        or hesitation.
  --Guard and Reserve service members' families are responding without 
        question.
  --Guard and Reserve service members' employers are responding without 
        question.
  --Guard and Reserve hardware units that you have appropriated have 
        responded and are responding without question.
  --Guard and Reserve hardware units have performed at and above 
        standards and actually above any active component standard.
  --Naval Reserve members and their families as a whole, view 
        transformation and active reserve integration acceptable, but 
        understand that this means they will no longer have real units, 
        with Required Operating Capabilities, and Programmed Operating 
        Capabilities justifications. How Reservists will be trained is 
        a detail that hasn't been answered under current plans.
  --Successful transformation of a reserve component is rarely 
        completed, solely with DOD or service input. Outside assistance 
        is necessary to achieve the right mix and right balance.
  --Current situations and emerging threats, clearly shows that we need 
        a healthy Naval Reserve force with equipment and with units.
    Rarely has there been this massive effort of organizational--
equipment, personnel, cultural, and resource--transformation at the 
same time our country is engaged in a global war on terrorism, homeland 
security defense, and several protracted wars overseas.
    As you know, the Navy is occupied from the top down and ground up 
in transformation of the Navy and Fleet response--developing 
expeditionary forces, redoing training matrices, procuring new 
technologies that will transform Naval war fighting efforts, and now at 
the same time, implementing massive change of including the Naval 
Reserve service, in active training matrices.
    This is all being done, when our nation called upon the service 
members of the Naval Reserve--they responded, and now they are finding 
out their units are going to no longer exist--because we need 
supposedly more efficient, more effective, capabilities based surging 
forces. These Naval Reserve Forces cost 50 percent less than any active 
duty members or unit. They maintain their readiness--directed and 
reported by active components, at an overall higher sustained rate over 
time than their active counterpart. The Naval Reserve force knows it 
must change, and some instances understands better business practices 
much better than any active member. However, they are now--under the 
microscope of change, with more to loose than any active force member.
    Reservists are willing to sacrifice family and employment to serve 
their country, unexpectedly. Reservists have shown us time and time 
again that they'll volunteer when asked, despite the impact of their 
personal and professional life. This service beyond self is not 
appreciated by many on the Active side or in DOD. Yet, they are being 
used again and again.
    Rather than confront budget appropriators, the Active Components 
have been content to fill their force shortfalls with Reserve manpower, 
and this has been arguably good for the country, according to the 
Department of the Navy.
    If there is a raw nerve among Reservists, it is caused by how 
individuals are being utilized, and how often that individual is being 
called up. Pride and professionalism is a large factor in the profile 
of a Reservist as it is with any individual member of the Armed 
Services. They want to be used how they have been trained, and they 
want to be used and complement the Active Forces. Recall and proper use 
of reservists needs constant monitoring and attention. We agree that 
transformation of legacy personnel manpower program is overdue. But, 
Congressional involvement in force structure transformation is 
mandatory, along with outside independent involvement to ensure our 
country does have this affordable and cost efficient capability.
    In today's American way of war, the way a Reservist is used and 
recalled is vital to successful military operations, and essential to 
gaining the will of America. This has proven its worth over and over, 
and is relevant.
    The question we are asking is: ``Are the DOD legislative 
initiatives, rebalancing efforts of the Department of Navy--taking us 
in the right direction for a sound Military and a strong National 
Defense?'' We hope that DOD is learning lessons from the past to avoid 
repeating old mistakes in the future, and the Naval Reserve Association 
stands ready to assist in turning lessons learned into improved policy.
    Leaving nothing to chance however, we strongly urge Congress to 
legislate:
  --Resources for maintaining a strong Naval Reserve Force through the 
        NGREA per the attached priority list for the Naval Reserve 
        Force;
  --Appropriations language that maintains end strength and restores 
        unit structure for the Naval Reserve at fiscal year 2003-04 
        levels; and
  --Establish a Commission on the Transformation of Guard and Reserve 
        of the 21st Century. The transformation of our military is 
        dynamic and includes the extended utilization of the Guard and 
        Reserve Forces. We feel it is time for Congress to take a 
        thorough look at these issues with a commission in order to 
        address the many problems that we are experiencing with our 
        Guard and Reserve Forces. A Congressional commission is 
        warranted to review these issues properly.
    Mr. Chairman and distinguished members of the committee, thank you 
for this opportunity. Details of specific issues of concern by our 
Association follow; we hope you can help address them.
                          equipment ownership
    Issue: An internal study by the Navy has suggested that Naval 
Reserve equipment should be returned to the Navy. At first glance, the 
recommendation of transferring Reserve Component hardware back to the 
Active component appears not to be a personnel issue. However, nothing 
could be more of a personnel readiness issue and is ill advised. 
Besides being attempted several times before, this issue needs to be 
addressed if the current National Security Strategy is to succeed.
    Position: The overwhelming majority of Reserve and Guard members 
join the RC to have hands-on experience on equipment. The training and 
personnel readiness of Guard and Reserve members depends on constant 
hands-on equipment exposure. History shows, this can only be 
accomplished through Reserve and Guard equipment, since the training 
cycles of Active Components are rarely if ever--synchronized with the 
training or exercise times of Guard and Reserve units. Additionally, 
historical records show that Guard and Reserve units with hardware 
maintain equipment at or higher than average material and often better 
training readiness. Current and future war fighting requirements will 
need these highly qualified units when the Combatant Commanders require 
fully ready units.
    Reserve and Guard units have proven their readiness. The personnel 
readiness, retention, and training of Reserve and Guard members will 
depend on them having Reserve equipment that they can utilize, 
maintain, train on, and deploy with when called upon. Depending on 
hardware from the Active Component, has never been successful for many 
functional reasons. The NRA recommends strengthening the Reserve and 
Guard equipment in order to maintain--highly qualified trained Reserve 
and Guard personnel.
    Our suggested priority for fiscal year 2005 NGREA:

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
 Pri              Equipment                Cost       No.                           Remarks
----------------------------------------------------------------------------------------------------------------
   1 Littoral Surveillance System           $19          1  Procure additional LSS.
      (LSS)
   2 Naval Coastal Warfare Boats             45         28  Procure 28 boats.
   3 P-3C AIP Kits                           29          2  Achieve commonality.
   4 F/A-18 Mod, ECP 560                     24          8  Upgrade F/A-18A PGM capability.
   5 MH-60S Aircraft                         84          4  Replacement for HH-60H Aircraft.
   6 F-5 Radar Upgrade                        7          6  Upgrade to APG-66 radar.
   7 C-40A Transport Aircraft             1,140          2  Replace aging C-9 with C-40A.
   8 F/A-18 Advanced Targeting FLIR         168         12  FLIR's for all Reserve F/A-18 Aircraft.
   9 P-3C BMUP Kits                         467          4  Achieve commonality.
  10 FLIR kits (AAS-51Q) for SH-60B          56          4  Procure 4 FLIR (AAS-51-Q) for SH-60B
----------------------------------------------------------------------------------------------------------------

                               personnel
Selective Reserve MGIB improvements
    Issue: Currently SelRes MGIB benefits are at 19 percent of active 
duty entitlements.
    Position: This shows clearly the priority of SelRes service 
members. This benefit should be higher and closer to the 48 percent 
mandated benefit. We must consider upgrading this benefit for those 
members that are responding to our nations call.
Temporary Recall of Reserve Officers (Three Years or Less)
    Issue: To properly match the Reserve officer's exclusion from the 
active duty list as provided for by 10 U.S.C. 641(1)(D) with a 
corresponding exclusion from the authorized grade strengths for active 
duty list officers in 10 U.S.C. 523. Without this amendment, the active 
component would have to compensate within their control grades for 
temporary recalled Reserve officers who are considered, selected and 
promoted by RASL promotion selection boards. This compensation causes 
instability in promotion planning and a reduction in ``career'' ADL 
officer eligibility and promotion for each year a Reserve officer 
remains on ``temporary'' active duty. Therefore, Naval Reservists are 
temporarily recalled to active duty and placed on the ADL for 
promotional purposes. End result--failure of selection due to removal 
from RASL peer group.
    Position: Strongly support grade strength relief for the small 
percentage of Reserve officers who would possibly be promoted while 
serving on temporary active duty. Granting relief is a Win-Win 
situation. By removing the instability in promotion planning for the 
active component, Reserve officers can be issued recall orders 
specifying 10 USC 641(1)(D) allowing them to remain on the RASL for 
promotion purposes.
Healthcare
    Issue: Healthcare readiness is the number one problem in mobilizing 
Reservists. The governments own studies shows that between 20-25 
percent of Guardsmen and Reservists are uninsured.
    Position: We applaud the efforts of the TRICARE Management 
Activity. TMA has a strong sense of which the customer is. They 
emphasize communications, and are proactive at working with the 
military associations. Congress took decisive action in establishing 
the temporary Healthcare program for Guard and Reserve Forces during 
the fiscal year 2004 NDAA. NRA would like to see a continued effort at 
implementing the established TRICARE Health plan for uninsured drilling 
Reservists, and establishing this program as a permanent program.
Early Reserve Retirement
    Issue: A one sided debate is being held through the press on 
whether changes should be allowed to Guard and Reserve to lower the 
retirement payment age. The Defense Department study on this issue was 
non conclusive.
    Position: Over the last two decades and recently more has been 
asked of Guardsmen and Reservists than ever before. The nature of the 
contract has changed; Reserve Component members need to see recognition 
of the added burden they carry. Providing an option that reduces the 
retired with pay age to age 55 carries importance in retention, 
recruitment, and personnel readiness.
    The Naval Reserve Association suggests a cost neutral approach to 
this issue that would not be that ``expensive.''
    The Naval Reserve Association recommends for discussion/debate that 
Reserve Retirement with pay prior to age 60 be treated like taking 
Social Security retirement early--if you elected to take it at say age 
55, you take it at an actuarially reduced rate.
    Most of the cost projected by DOD is for TRICARE healthcare, which 
begins when retirement pay commences. Again, if one takes Social 
Security before reaching age 65 they are not eligible for Medicare. NRA 
suggests that TRICARE for Reservists be decoupled from pay, and 
eligibility remains at age 60 years.
    At a minimum, the committee should consider the various initiatives 
and the cost neutral approach during the debate.
                            force structure
Roles and Missions
    Issue: Pentagon study has highlighted that the Guard and Reserve 
structure, today, is an inherited Cold War relic. As a result, the 
Guard and the Reserve organization has become the focus of 
``transformation.'' While it won't be denied that there could be a need 
for change, transformation for transformation sake could be 
disadvantageous. Visionaries need to learn lessons from the past, 
assimilate the technology of the future, and by blending each, 
implement changes that improve war fighting.
    Position: Navy has yet to deliver a Vision of use of and equipping 
of the Naval Reserve Force. A Commission on the Transformation of the 
Guard and Reserve for the 21st Century is warranted.
The Reserve Component as a Worker Pool
    Issue: The view of the Reserve Component that has been suggested 
within the Pentagon is to consider the Reserve as of a labor pool, 
where Reservist could be brought onto Active Duty at the needs of a 
Service and returned, when the requirement is no longer needed. It has 
also been suggested that an Active Duty member should be able to rotate 
off active duty for a period, spending that tenure as a Reservist, 
returning to active duty when family, or education matters are 
corrected.
    Position: The Guard and Reserve should not be viewed as a 
temporary-hiring agency. Too often the Active Component views the 
recall of a Reservist as a means to fill a gap in existing active duty 
manning. Voluntary recall to meet these requirements is one thing, 
involuntary recall is another.
    The two top reasons why a Reservist quits the Guard or Reserve is 
pressure from family, or employer. The number one complaint from 
employers is not the activation, but the unpredictability of when a 
Reservist is recalled, and when they will be returned.
100 Percent Mission Ownership
    Issue: Department of Defense is looking at changing the reserve and 
active component mix. ``There's no question but that there are a number 
of things that the United States is asking its forces to do,'' Rumsfeld 
said. ``And when one looks at what those things are, we find that some 
of the things that are necessary, in the course of executing those 
orders, are things that are found only in the Reserves.''
    Position: America is best defended through a partnership between 
the government, the military and the people. The Naval Reserve 
Association supports the continued recognition of the Abrams Doctrine, 
which holds that with a volunteer force, we should never go to war 
without the involvement of the Guard and Reserve, because they bring 
the national will of the people to the fight. While a review of mission 
tasking is encouraged, the Active Component should not be tasked with 
every mission, and for those it shares, no more heavily than their 
Reserve counterparts. Historically, a number of the high percentage 
missions gravitated to the Reserve components because the Active Forces 
treated them as collateral duties. The Reserve has an expertise in some 
mission areas that are unequaled because Reservists can dedicate the 
time to developing skills and mission capability, and sharing civilian 
equivalencies, where such specialization could be a career buster on 
Active Duty.
Augmentees
    Issue: As a means to transform, a number of the services are 
embracing the concept that command and unit structure within the 
Reserve Component is unnecessary. Reservists could be mustered as 
individual mobilization augmentees and be called up because often they 
are recalled by skills and not units.
    Position: An augmentee structure within the Naval Reserve was 
attempted in the 1950's/1960's, and again in the 1980's. In one word: 
Failure! Reservists of that period could not pass the readiness test. 
The image of the Selected Reservists, sitting in a Reserve Center 
reading a newspaper originates from the augmentee era. Some semblance 
of structure is needed on a military hierarchy. Early on, Naval 
Reservists created their own defense universities to fill the training 
void caused by mission vacuum.
Business Initiative
    Issue: Many within the Pentagon feel that business models are the 
panacea to perceived problems with in military structure.
    Position: Reservists have the unique perspective of holding two 
careers; many with one foot in business and one foot in the military. 
The Naval Reserve Association suggests caution rather than rush into 
business solutions. Attempted many times in the past, business models 
have failed in the military even with commands that proactively 
support.
    Among the problems faced are:
  --Implementing models that are incompletely understood by director or 
        recipient.
  --Feedback failure: ``Don't tell me why not; just go do it!''
  --The solution is often more expensive than the problem.
  --Overburdened middle management attempting to implement.
  --Cultural differences.
  --While textbook solutions, these models frequently fail in business, 
        too.
Closure of Naval Reserve Activities
    Issue: Discussion has emerged, suggesting that a large number of 
Naval Reserve Centers and Naval Air Reserve Activities be closed, and 
that Naval Reservists could commute to Fleet Concentration Areas to 
directly support gaining commands and mobilization sites.
    Position: The Naval Reserve Association is opposed to this plan for 
the following reasons.
    A. The Naval Reserve is the one Reserve component that has Reserve 
Activities in every state. To close many of these would be cutting the 
single military tie to the civilian community.
    B. The demographics of the Naval Reserve is that most of the 
commissioned officers live on the coasts, while most of the enlisted 
live in the hinterland, middle America. The Naval Reservists who are 
paid the least would have to travel the farthest.
    C. The active duty concept of a Naval Reserve is a junior force, a 
structure based upon enlisted (E1-E3s) and officers (O1-O2's) billets 
that can't be filled because the individuals haven't left the fleet 
yet. When the Coast Guard ``transformed'' its Reserve force, it was a 
forced a restructuring that RIFFed many senior officer and enlisted 
leadership from the USCGR ranks, and caused a number of years of 
administrative problems.
    D. If training at fleet concentration centers was correctly 
implemented, the Navy should bear the expense and burden of 
transportation and housing while on site. Additionally, at locations 
such as Naval Station Norfolk, the overlap of Active Duty and Reserve 
training has shown an increased burden on Bachelor Quarters and messing 
facilities. Frequently, Reservists must be billeted out on the economy. 
With these extra costs, training would prove more expensive.
    E. Such a plan would devastate the Naval Reserves; retention would 
plummet, training and readiness would suffer.
                                summary
    NGREA and Commission on Guard and Reserve Forces for the 21st 
Century are the most important issues. Congress must maintain parity 
for equipment, because the active component will not. If our country is 
going to use the Guard and Reserve in the manner we are currently 
doing, Congress must provide the resources, the active component is 
not. Finally, a congressionally mandated Commission to study these 
vital National Security issues is needed to provide guidance to the 
balancing and transformation that is occurring.
    The Four ``P's'' can identify the issues that are important to 
Reservists: Pay, Promotion, Points, and Pride.
    Pay needs to be competitive. As Reservists have dual careers, they 
have other sources of income. If pay is too low, or expenses too high, 
a Reservist knows that time may be better invested elsewhere.
    Promotions need to be fairly regular, and attainable. Promotions 
have to be through an established system and be predictable.
    Points reflect a Reservist's ambitions to earn Retirement. They are 
as creditable a reinforcement as pay; and must be easily tracked.
    Pride is a combination of professionalism, parity and awards: doing 
the job well with requisite equipment, and being recognized for ones 
efforts. While people may not remember exactly what you did, or what 
you said, they will always remember how you made them feel.
    If change is too rapid anxiety is generated amid the ranks. As the 
Reserve Component is the true volunteer force, Reservists are apt to 
vote with their feet. Reservists are a durable affordable resource only 
if they are treated right. Navy plans do not provide for these key 
points and do not treat the reservist correctly. Current conditions 
about the world highlights the ongoing need for the Reserve Component 
as key players in meeting National Security Strategy; we can't afford 
to squander that resource.

    Senator Stevens. Next is Dr. Jerome Odom, Provost of the 
University of South Carolina.
STATEMENT OF DR. JEROME ODOM, PROVOST, UNIVERSITY OF 
            SOUTH CAROLINA ON BEHALF OF THE COALITION 
            OF EPSCoR STATES
    Dr. Odom. Thank you, Mr. Chairman, Senator Inouye. I 
appreciate the opportunity to submit the testimony regarding 
the Defense Department's basic scientific research program and 
the Defense Experimental Program to Stimulate Competitive 
Research, which is better known as DEPSCoR.
    I am the Executive Vice President for Academic Affairs and 
Provost at the University of South Carolina, and I want to 
speak today in support of both the Defense Department's science 
and engineering research program and an important component of 
that research, the DEPSCoR program. This statement is submitted 
on behalf of the Coalition of EPSCoR States and the 21 States 
and Puerto Rico that participate in EPSCoR. EPSCoR stands for 
Experimental Program to Stimulate Competitive Research, and Mr. 
Chairman, Alaska is an EPSCoR State, and Senator Inouye, Hawaii 
is an EPSCoR State as well.
    The coalition wishes to be associated with the statement of 
the Coalition for National Security Research in support of 
additional funding for defense research and development. The 
coalition strongly urges the administration and Congress to 
provide a robust and stable fiscal year 2005 investment for 
science and technology programs in the Department of Defense. 
This subcommittee has long demonstrated its strong support for 
the Department's science and technology research which have 
produced the innovations and technological breakthroughs that 
have contributed to ensuring that our fighting men and women 
have the best available systems and weapons to support them in 
executing their national defense missions. The bench science 
that this subcommittee has wisely supported in our Nation's 
universities has produced significant benefits for the people 
in the field and on the front lines.
    The Coalition of EPSCoR States strongly supports the 
Department's budget request for basic research. The DEPSCoR 
program is a small but significant part of this larger program. 
The coalition recommends that Congress appropriate $25 million 
to the Defense Department's budget for the DEPSCoR program.
    EPSCoR itself is a research and development program that 
was initiated by the National Science Foundation and is now 
supported by most Federal agencies that fund research. Through 
a merit review process, EPSCoR is improving our Nation's 
science and technology capability by funding research 
activities of talented researchers at universities and 
nonprofit organizations in States that historically have not 
received significant Federal research and development funding. 
EPSCoR is a catalyst for change and is widely viewed as a model 
Federal-State partnership.
    The DEPSCoR program helps build national infrastructure for 
research and education by funding research activities in 
science and engineering fields important to national defense. 
The DEPSCoR program also contributes to the States' goals of 
developing and enhancing their research capabilities while 
simultaneously supporting the research goals of the Department 
of Defense. Research proposals are only funded if they provide 
the Defense Department with research in areas important to 
national defense. The DEPSCoR States have established an 
impressive record of research that has directly contributed to 
our Nation's security interests.
    I would like very much to be able to give you some 
examples. They are in the written testimony and all of the 
DEPSCoR States have made major contributions to defense 
research.
    The DEPSCoR program improves the abilities of institutions 
of higher education to develop, plan, and execute science and 
engineering research that is competitive under DOD's peer 
review system and provides technological products that serve 
the needs of the Department of Defense. In order to ensure that 
the broadest number of States is providing unique and high-
value research to the Department, the DEPSCoR States propose to 
augment the current program within the parameters of the 
Department's legislative authority.
    Currently awards are provided to mission-oriented 
individual investigators from universities and other 
institutions of higher education. The program, as it is 
currently implemented, has not taken into account the 
significant benefits that can be derived from individual 
investigators pooling their efforts to provide clusters of 
research that meet the ever-increasing challenges and needs of 
the Department and the services.
    I would just like to say to close we would request $10 
million for the investigator grants and $15 million for these 
clusters for a total of $25 million for DEPSCoR. I sincerely 
thank you for your consideration of that request.
    Senator Stevens. Well, we are very familiar with your 
program and we thank you very much for what you are doing.
    Dr. Odom. Thank you.
    Senator Stevens. Do you have any questions?
    Senator Inouye. No, Mr. Chairman.
    Senator Stevens. We are familiar with it in our own States. 
Thank you very much.
    Dr. Odom. Thank you very much.
    [The statement follows:]
                 Prepared Statement of Dr. Jerome Odom
    Mr. Chairman and members of the Subcommittee, I thank you for the 
opportunity to submit this testimony regarding the Defense Department's 
basic scientific research program and the Defense Experimental Program 
to Stimulate Competitive Research (DEPSCoR).
    My name is Jerome Odom. I am the Provost of the University of South 
Carolina. I am here today to speak in support of both the Defense 
Department's science and engineering research program and an important 
component of that research, the Defense Department's Experimental 
Program to Stimulate Competitive Research (EPSCoR). This statement is 
submitted on behalf the Coalition of EPSCoR States and the twenty-one 
states and Puerto Rico that participate in EPSCoR.\1\
---------------------------------------------------------------------------
    \1\ Alabama, Alaska, Arkansas, Delaware, Hawaii, Idaho, Kansas, 
Kentucky, Maine, Montana, Nebraska, Nevada, North Dakota, Oklahoma, 
South Carolina, South Dakota, Vermont, West Virginia, Wyoming, Puerto 
Rico, and Virgin Islands.
---------------------------------------------------------------------------
    The Coalition wishes to be associated with the statement of the 
Coalition for National Security Research in support of additional 
funding for Defense research and development. The Coalition strongly 
urges the Administration and Congress to provide a robust and stable 
fiscal year 2005 investment for the Science and Technology programs of 
the Department of Defense (DOD). This Subcommittee has long 
demonstrated its strong support for the Department's science and 
technology research, which have produced the innovations, and 
technological breakthroughs that have contributed to ensuring that our 
fighting men and women have the best available systems and weapons to 
support them in executing their national defense missions. The bench 
science the Subcommittee has wisely supported in our Nation's 
universities and laboratories has produced significant benefits for the 
people in the field and on the front lines. The Coalition of EPSCoR 
States strongly urges you to maintain a stable investment in the 
Department's science and technology (S&T) efforts.
    The Coalition of EPSCoR States strongly supports the Department's 
budget request for basic research. The Defense EPSCoR program is a 
small, but significant, part of this larger program. The Coalition 
recommends that Congress appropriate $25 million to the Defense 
Department's budget for the Defense Experimental Program to Stimulate 
Competitive Research (Program Element PE 61114D).
    EPSCoR is a research and development program that was initiated by 
the National Science Foundation. Through a merit review process, EPSCoR 
is improving our Nation's science and technology capability by funding 
research activities of talented researchers at universities and non-
profit organizations in states that historically have not received 
significant Federal research and development funding. EPSCoR helps 
researchers, institutions, and states improve the quality of their 
research capabilities in order to compete more effectively for non-
EPSCoR research funds. EPSCoR is a catalyst for change and is widely 
viewed as a ``model'' federal-state partnership. EPSCoR seeks to 
advance and support the goals of the program through investments in 
four major areas: research infrastructure improvement; research cluster 
development and investigator-initiated research; education, career 
development and workforce training; and outreach and technology 
transfer.
    The Defense Experimental Program to Stimulate Experimental Research 
(DEPSCoR) was initially authorized by Section 257 of the fiscal year 
1995 National Defense Authorization Act (Public Law 103-337). The 
Defense Department's EPSCoR program helps build national infrastructure 
for research and education by funding research activities in science 
and engineering fields important to national defense. DEPSCoR's 
objectives are to:
    Enhance the capabilities of institutions of higher education in 
eligible States to develop, plan, and execute science and engineering 
research that is competitive under the peer-review systems used for 
awarding Federal research assistance; and
    Increase the probability of long-term growth in the competitively 
awarded financial assistance that universities in eligible States 
receive from the Federal Government for science and engineering 
research.
    The Defense EPSCoR program contributes to the states' goals of 
developing and enhancing their research capabilities, while 
simultaneously supporting the research goals of the Department of 
Defense. DEPSCoR grants are based on recommendations from the EPSCoR 
state committees and the Department's own evaluation and ranking. 
Research proposals are only funded if they provide the Defense 
Department with research in areas important to national defense. The 
DEPSCoR states have established an impressive record to research that 
has directly contributed to our Nation's security interests. If you 
will allow me, I would like to highlight some of DEPSCoR's success.
    In my state of South Carolina, researchers from Clemson University 
have produced communications protocols to enhance the effectiveness of 
radio networks on the battlefield. Researchers are focused on the 
development of protocols for mitigating the limitations of radio 
devices of widely disparate capabilities that will be required in 
future tactical communication networks used by the Army. The new 
technique will yield a significant improvement in performance and allow 
for more robust radio system operation for the Army. The University of 
South Carolina has completed a study to help the Navy revolutionize 
data processing methods for battlefield operations through the use of 
sophisticated mathematical techniques. Funded by the Navy, the research 
project, carried out at the internationally recognized Industrial 
Mathematics Institute of the University of South Carolina, develops 
state of the art compression methods that can be used in a variety of 
military scenarios including: automated target recognition, mission 
planning, post battlefield assessment, intelligence and counter 
intelligence.
    University of Alabama researchers have conducted important work to 
reducing gearbox noise in Army helicopters. By reducing the noise 
levels, the crew will be more alert and able to communicate more 
effectively while in such a vehicle, thus improving safe operation of 
the rotorcraft. Additionally, reducing structural vibrations can 
decrease fatigue damage in the rotorcraft.
    Montana State University has received funding from the Air Force to 
conduct research into protecting pilots and sensors from attack from 
laser weaponry. This project is of particular interest for protecting 
pilots using Night Vision Goggles (NVG), for laser range finders and 
target designators.
    University of Nevada at Reno investigators are exploring novel 
military applications for non-lethal weaponry for use by the Air Force. 
This research could be used for ultimately developing ``stunning/
immobilizing'' weapons that do not rely on chemicals and that do not 
cause human injury. University of Nevada researchers are working on a 
project to mitigate the noise in the drive systems of ships and 
submarines. The mitigation of noise and the accompanying vibration will 
significantly improve stealth performance of naval vessels.
    North Dakota State University obtained funding to develop 
mechanisms that allow the Navy's unmanned airborne vehicles (UAVs) to 
carry out mission tasks with little external supervision and control. 
The development of this technology will lead to individual or teams of 
UAVs efficiently carrying out search, surveillance, reconnaissance, and 
delivery of weapons missions in the presence of enemy threat and 
without risk to the lives of military personnel. University of North 
Dakota researchers received Army funding to develop weather models for 
improving the availability of weather information worldwide. 
Improvements in satellite technology research will lead to a better 
forecasting tool that can be utilized by Army personnel to help 
maximize their advantage in a battlefield or homeland defense 
environment. North Dakota State obtained funding from the Navy to 
conduct a project to lengthen the life of ship structures. This 
research will lead to significant savings in military spending on 
marine fuel, maintenance and replacement of ships.
    University of Vermont researchers conducted a study to decompose 
chemical warfare agents such as mustard gas in a safe and 
environmentally sustainable system. This method is similar to one used 
in industry to remove toxic compounds from the smokestacks of coal-
burning plants. This process can decompose nearly 100 percent of half 
mustard from a gas sample. The chemical by-products of this process are 
environmentally friendly and non-toxic. Similar technologies can be 
used to decompose sarin, soman, and VX stimulants.
    The Defense Experimental Program to Stimulate Competitive Research 
(DEPSCoR) has been established within DOD to build national 
competitiveness for academic research and education by providing 
funding in science and engineering fields of vital importance to DOD's 
mission. The program improves the abilities of institutions of higher 
education to develop, plan and execute science and engineering research 
that is competitive under DOD's peer-review system and provides 
technological products that serves the needs of the Department of 
Defense and the Uniformed Services. In order to ensure that the 
broadest number of states is providing unique and high value research 
to the Department, the DEPSCoR states propose to augment the current 
program within the parameters of the Department's legislative 
authority.
    Currently, awards are provided to mission-oriented individual 
investigators from universities and other institutions of higher 
education. The individual investigators conduct extremely important 
research that has practical military applications. The program as it is 
currently implemented has not taken into account the significant 
benefits that can be derived from individual investigators pooling 
their efforts to provide ``clusters'' of research that meet the ever 
increasing challenges and needs of the Department and the Services. The 
current program could also benefit from an approach that maximizes the 
number of the 21 DEPSCoR states that receive funding for important 
defense-related projects thus ensuring that these states remain engaged 
in cutting edge research that enhances national defense.
    Working in close consultation with the appropriate officials at the 
Department of Defense, DEPSCoR states propose restructuring the program 
into two components. The first component would retain the current 
program whereby the 21 eligible states (and individual investigators) 
are invited, through their NSF EPSCoR Committee, to compete for 
research awards in areas identified by the Department and the Services. 
The second and new component would award funding to mission-oriented 
``centers''. These centers of defense excellence would be mission 
oriented interdisciplinary areas to build defense research capacity. 
Under this model, a single university or institution of higher learning 
would be awarded a DEPSCoR grant and would manage the various 
investigators charged with providing interdisciplinary defense 
research. In order to ensure the broadest possible participation of 
DEPSCoR states, only four individual awards and two center awards could 
be active for each state over a three-year period at any one time.
    To achieve important defense research objectives of both components 
of the program, the DEPSCoR states need the program to be funded at $25 
million for fiscal year 2005 with approximately $10 million obligated 
to the individual investigator awards and $15 million for the mission-
oriented centers initiative. This twin approach to funding important 
research will significantly enhance the Department's ability to tap 
into the best ideas that the DEPSCoR states have to offer in support of 
the Nation's security needs. We are currently in discussions with the 
managers at the Office of Defense Research regarding the proposed 
restructuring of the composition of DEPSCoR.
    The Defense Department's Experimental Program to Stimulate 
Competitive Research is a wise and worthwhile investment of scarce 
public resources. It will continue to contribute significantly to 
efforts to build scientific and engineering research efforts in support 
of national defense needs.
    Finally, the Coalition of EPSCoR States believes a $25 million 
Defense EPSCoR program with the modifications suggested will ensure 
that Federal dollars are being used in a cost-effective way and that 
the EPSCoR states are contributing to the Nation's Defense efforts. 
Thank you for your consideration of this request.

    Senator Stevens. Our last witness is Ms. Fran Visco, 
President of the National Breast Cancer Coalition. Good 
morning.
STATEMENT OF FRAN VISCO, J.D., PRESIDENT, NATIONAL 
            BREAST CANCER COALITION
    Ms. Visco. Good morning, Mr. Chairman. Good morning, 
Senator Inouye. I am a 17-year breast cancer survivor and I am 
privileged to lead the National Breast Cancer Coalition, a 
coalition of more than 600 member organizations from across the 
country and 70,000 individuals.
    We have submitted written testimony that gives you some of 
the successes of the Department of Defense breast cancer 
research program, so I am not going to go into that detail. I 
am here to thank you for your ongoing support of this program 
and to once again assure you that these dollars are being 
incredibly well spent. We are here to ask for level funding to 
continue the program.
    As you know, the overhead for this program is exceedingly 
low. It is incredibly flexible and able to respond to changes 
in science on an annual basis. It is a program that is 
transparent and accountable to the public. The information of 
what this program funds and how it works is freely available. 
The website for the program lists everything that the program 
has funded. Every other year, there is a meeting called the Era 
of Hope, which is one of the few times where the Government 
actually reports to the taxpayer exactly where every dollar 
goes.
    The collaboration among the scientific community, the 
consumer community, and the United States Army has set a model 
for further collaborations. General Martinez Lopez has told us 
that so much of what we come up with in the DOD breast cancer 
research program and the collaborations he has used as a model 
for other biomedical research programs and other programs at 
Fort Detrick. The collaborations that have sprung up between 
world renowned scientists and the United States Army are 
unprecedented as a result of this program.
    Most importantly, it truly has the trust and the faith and 
the support of the American public. This program is a model, a 
model that has been copied by other countries, by other 
biomedical research funding programs, by foundations, by so 
many others to support innovative breast cancer and other 
research.
    This program complements the existing traditional funding 
streams. This program rewards innovation. It looks at new ideas 
and concepts that ultimately become traditional research 
proposals that are funded by the National Cancer Institute and 
the National Institutes of Health. It identifies individuals 
with great vision and promise early in their career and gives 
them the funding to allow them to create new technologies and 
new approaches to eradicating breast cancer. There is no other 
program like the DOD breast cancer program.
    Again, we are so grateful for your continued support. Thank 
you very much.
    Senator Stevens. Thank you very much. We appreciate your 
coming to see us and for your visit to our offices.
    Senator Inouye.
    Senator Inouye. I would like to note, Mr. Chairman, that 
this is another congressional initiative program that you 
began.
    Ms. Visco. Yes.
    Senator Inouye. Thank you very much, sir.
    Ms. Visco. And we are very grateful to him for that. Thank 
you.
    [The statement follows:]
                 Prepared Statement of Fran Visco, J.D.
    Thank you, Mr. Chairman and members of the Appropriations 
Subcommittee on Defense, for your exceptional leadership in the effort 
to increase and improve breast cancer research. You and your Committee 
have shown great determination and leadership in searching for the 
answers by funding the Department of Defense (DOD) Peer-Reviewed Breast 
Cancer Research Program (BCRP) at a level that has brought us closer to 
eradicating this disease.
    I am Fran Visco, a breast cancer survivor, a wife and mother, a 
lawyer, and President of the National Breast Cancer Coalition (NBCC). 
On behalf of NBCC, and the more than 3 million women living with breast 
cancer, I would like to thank you for the opportunity to testify today.
    The DOD BCRP's 12 years of progress in the fight against breast 
cancer has been made possible by this Committee's investment in breast 
cancer research. To continue this unprecedented progress, we ask that 
you support a $150 million appropriation for fiscal year 2005. The 
program was reduced from $175 million to $150 million three years ago 
as part of an across-the-board cut in congressionally directed health 
programs. However, there continues to be excellent science that goes 
unfunded, which is why we believe that the BRCP should be appropriated 
level funding of $150 million for fiscal year 2005.
    As you know, the National Breast Cancer Coalition is a grassroots 
advocacy organization made up of more than 600 organizations and tens 
of thousands of individuals and has been working since 1991 toward the 
eradication of breast cancer through advocacy and action. NBCC supports 
increased funding for breast cancer research, increased access to 
quality health care for all women, and increased influence of breast 
cancer activists at every table where decisions regarding breast cancer 
are made.
           overview of the dod breast cancer research program
    In the past 12 years, the DOD Peer-Reviewed Breast Cancer Research 
Program has established itself as model medical research program, 
respected throughout the cancer and broader medical community for its 
innovative and accountable approach. The groundbreaking research 
performed through the program has the potential to benefit not just 
breast cancer, but all cancers, as well as other diseases. Biomedical 
research is being transformed by the BCRP's success.
    This program is both innovative and incredibly streamlined. It 
continues to be overseen by a group of distinguished scientists and 
activists, as recommended by the Institute of Medicine (IOM). Because 
there is no bureaucracy, the program is able to respond quickly to what 
is currently happening in the scientific community. It is able to fill 
gaps with little red tape. It is responsive, not just to the scientific 
community, but also to the public.
    Since its inception, this program has matured from an isolated 
research program to a broad-reaching influential voice forging new and 
innovative directions for breast cancer research and science. The 
flexibility of the program has allowed the Army to administer this 
groundbreaking research effort with unparalleled efficiency and 
effectiveness.
    In addition, an inherent part of this program has been the 
inclusion of consumer advocates at every level, which has created an 
unprecedented working relationship between advocates and scientists, 
and ultimately has led to new avenues of research in breast cancer. 
Since 1992, more than 600 breast cancer survivors have served on the 
BCRP review panels. Their vital role in the success of the BCRP has led 
to consumer inclusion in other biomedical research programs at DOD. 
This program now serves as an international model.
    It is important to note that the DOD Integration Panel that designs 
this program has a plan of how best to spend the funds appropriated. 
This plan is based on the state of the science--both what scientists 
know now and the gaps in our knowledge--as well as the needs of the 
public. This plan coincides with our philosophy that we do not want to 
restrict scientific freedom, creativity or innovation. While we 
carefully allocate these resources, we do not want to predetermine the 
specific research areas to be addressed.
                      unique funding opportunities
    Developments in the past few years have begun to offer breast 
cancer researchers fascinating insights into the biology of breast 
cancer and have brought into sharp focus the areas of research that 
hold promise and will build on the knowledge and investment we have 
made. The Innovative Developmental and Exploratory Awards (IDEA) grants 
of the DOD program have been critical in the effort to respond to new 
discoveries and to encourage and support innovative, risk-taking 
research. The IDEA grants have been instrumental in the development of 
promising breast cancer research. These grants have allowed scientists 
to explore beyond the realm of traditional research and have unleashed 
incredible new ideas and concepts. IDEA grants are uniquely designed to 
dramatically advance our knowledge in areas that offer the greatest 
potential.
    IDEA grants are precisely the type of grants that rarely receive 
funding through more traditional programs such as the National 
Institutes of Health, and academic research programs. Therefore, they 
complement, and do not duplicate, other federal funding programs. This 
is true of other DOD award mechanisms as well.
    For example, the Innovator awards are structured to invest in world 
renowned, outstanding individuals, rather than projects, from any field 
of study by providing funding and freedom to pursue highly creative, 
potentially breakthrough research that could ultimately accelerate the 
eradication of breast cancer. The Era of Hope Scholar is intended to 
support the formation of the next generation of leaders in breast 
cancer research, by identifying the best and brightest independent 
scientists early in their careers and give them the necessary resources 
to pursue a highly innovative vision towards ending breast cancer.
    Also, Historically Black Colleges and Minority Universities/
Minority Institutions Partnership Awards are intended to provide 
assistance at an institutional level. The major goal of this award is 
to support collaboration between multiple investigators at an applicant 
Minority Institution and a collaborating institution with an 
established program in breast cancer research, for the purpose of 
creating an environment that would foster breast cancer research, and 
in which Minority Institute faculty would receive training toward 
establishing successful breast cancer research careers.
    These are just a few examples of innovative approaches at the DOD 
BCRP that are filling gaps in breast cancer research. It is vital that 
these grants are able to continue to support the growing interest in 
breast cancer research--$150 million for peer-reviewed research will 
help sustain the program's momentum.
    The DOD BCRP also focuses on moving research from the bench to the 
bedside. A major feature of the awards offered by the BCRP is that they 
are designed to fill niches that are not offered by other agencies. The 
BCRP considers translational research to be the application of well-
founded laboratory or other pre-clinical insight into a clinical trial. 
To enhance this critical area of research, several research 
opportunities have been offered. Clinical Translational Research Awards 
have been awarded for investigator-initiated projects that involve a 
clinical trial within the lifetime of the award. The BCRP expanded its 
emphasis on translational research by offering five different types of 
awards that support work at the critical juncture between laboratory 
research and bedside applications.
    The Centers of Excellence mechanism bring together consortia of the 
world's most highly qualified individuals and institutions to address a 
major overarching question in breast cancer research that could make a 
major contribution towards the eradication of breast cancer. These 
Centers put to work the expertise of basic, epidemiology and clinical 
researchers; as well as consumer advocates to focus on a major question 
in breast cancer research. Many of these centers are working on 
questions that will translate into direct clinical applications.
                        scientific achievements
    The BCRP research portfolio is comprised of many different types of 
projects, including support for innovative ideas, infrastructure 
building to facilitate clinical trials, and training breast cancer 
researchers.
    One of the most promising outcomes of research funded by the BCRP 
was the development of Herceptin, a drug that prolongs the lives of 
women with a particularly aggressive type of advanced breast cancer. 
This drug could not have been developed without first researching and 
understanding the gene known as HER-2/neu, which is involved in the 
progression of some breast cancers. Researchers found that over-
expression of HER-2/neu in breast cancer cells results in very 
aggressive biologic behavior. Most importantly, the same researchers 
demonstrated that an antibody directed against HER-2/neu could slow the 
growth of the cancer cells that over-expressed the gene. This research, 
which led to the development of the drug Herceptin, was made possible 
in part by a DOD BCRP-funded infrastructure grant. Other researchers 
funded by the BCRP are currently working to identify similar kinds of 
genes that are involved in the initiation and progression of cancer. 
They hope to develop new drugs like Herceptin that can fight the growth 
of breast cancer cells.
    Several studies funded by the BCRP will examine the role of 
estrogen and estrogen signaling in breast cancer. For example, one 
study examined the effects of the two main pathways that produce 
estrogen. Estrogen is often processed by one of two pathways; one 
yields biologically active substances while the other does not. It has 
been suggested that women who process estrogen via the biologically 
active pathway may be at higher risk of developing breast cancer. It is 
anticipated that work from this funding effort will yield insights into 
the effects of estrogen processing on breast cancer risk in women with 
and without family histories of breast cancer.
    One DOD IDEA award success has supported the development of new 
technology that may be used to identify changes in DNA. This technology 
uses a dye to label DNA adducts, compounds that are important because 
they may play a role in initiating breast cancer. Early results from 
this technique are promising and may eventually result in a new marker/
method to screen breast cancer specimens.
    Investigators funded by the DOD have developed a novel imaging 
technique that combines two-dimensional and three-dimensional digital 
mammographic images for analysis of breast calcifications. Compared to 
conventional film screen mammography, this technique has greater 
resolution. Ultimately, this technique may help reduce the number of 
unnecessary breast biopsies.
    Despite the enormous successes and advancements in breast cancer 
research made through funding from the DOD BCRP, we still do not know 
what causes breast cancer, how to prevent it, or how to cure it. It is 
critical that innovative research through this unique program continues 
so that we can move forward toward eradicating this disease.
                        federal money well spent
    The DOD BCRP is as efficient as it is innovative. In fact, 90 
percent of funds go directly to research grants. The flexibility of the 
program allows the Army to administer it in such a way as to maximize 
its limited resources. The program is able to quickly respond to 
current scientific advances, and is able to fill gaps by focusing on 
research that is traditionally underfunded. It is responsive to the 
scientific community and to the public. This is evidenced by the 
inclusion of consumer advocates at both the peer and programmatic 
review levels. The consumer perspective helps the scientists understand 
how the research will affect the community, and allows for funding 
decisions based on the concerns and needs of patients and the medical 
community.
    Since 1992, the BCRP has been responsible for managing nearly $1.68 
billion in appropriations, from which 3,671 awards for fiscal year 
1992-2002 were distributed. Approximately 400 awards will be granted 
for fiscal year 2003. The areas of focus of the DOD BCRP span a broad 
spectrum and include basic, clinical, behavioral, environmental 
sciences, and alternative therapy studies, to name a few. The BCRP 
benefits women and their families by maximizing resources; the program 
offers awards that fill existing gaps in breast cancer research. 
Scientific achievements that are the direct result of the DOD BCRP are 
undoubtedly moving us closer to eradicating breast cancer.
    From the program's inception through fiscal year 2002, the BCRP has 
funded research at 3,459 institutions in all 50 states and the District 
of Columbia. I would like to submit a chart for the record that 
demonstrates how the funding has been distributed through fiscal year 
2002.
    The outcomes of the BCRP-funded research can be gauged, in part, by 
the number of publications, abstracts/presentations, and patents/
licensures reported by awardees. To date, there have been more than 
6,200 publications in scientific journals, more than 4,200 abstracts 
and 140 patents/licensure applications.
    The federal government can truly be proud of its investment in the 
DOD BCRP.
                   positive feedback on the dod bcrp
    The National Breast Cancer Coalition has been the driving force 
behind this program for many years. The success of the DOD Peer-
Reviewed Breast Cancer Research Program has been illustrated by two 
unique assessments of the program. The IOM, which originally 
recommended the structure for the program, independently re-examined 
the program in a report published in 1997. Their findings 
overwhelmingly encouraged the continuation of the program and offered 
guidance for program implementation improvements.
    The 1997 IOM review of the DOD Peer-Review Breast Cancer Research 
Program commended the program and stated that, ``the program fills a 
unique niche among public and private funding sources for cancer 
research. It is not duplicative of other programs and is a promising 
vehicle for forging new ideas and scientific breakthroughs in the 
nation's fight against breast cancer.'' The IOM report recommended 
continuing the program and established a solid direction for the next 
phase of the program. It is imperative that Congress recognizes the 
independent evaluations of the DOD Breast Cancer Research Program, as 
well as reiterates its own commitment to the program by appropriating 
the funding needed to ensure its success. The IOM report has laid the 
groundwork for effective and efficient implementation of the next phase 
of this vital research program. Now all it needs is the appropriate 
funding.
    The DOD Peer-Reviewed Breast Cancer Research Program not only 
provides a funding mechanism for high-risk, high-return research, but 
also reports the results of this research to the American people at a 
biennial public meeting called the Era of Hope. The 1997 meeting was 
the first time a federally funded program reported back to the public 
in detail not only on the funds used, but also on the research 
undertaken, the knowledge gained from that research and future 
directions to be pursued. The transparency of the BCRP allows 
scientists, consumers and the American public to see the exceptional 
progress made in breast cancer research.
    At the 2002 Era of Hope meeting, all BCRP award recipients from 
fiscal years 1998-2000 were invited to report their research findings, 
and many awardees from previous years were asked to present 
advancements in their research. Scientists reported important advances 
in the study of cancer development at the molecular and cellular level. 
Researchers presented the results of research that elucidates several 
genes and proteins responsible for the spread of breast cancer to other 
parts of the body, and, more importantly, reveals possible ways to stop 
this growth. The meeting, which marked the 10th anniversary of the 
program, also featured grant recipients who are working towards more 
effective and less toxic treatments for breast cancer that target the 
unique characteristics of cancer cells and have a limited effect on 
normal cells. The next meeting will be held in June 2005.
    The DOD Peer-Reviewed Breast Cancer Research Program has attracted 
scientists with new ideas and has continued to facilitate new thinking 
in breast cancer research and research in general. Research that has 
been funded through the DOD BCRP is available to the public. 
Individuals can go to the Department of Defense website and look at the 
abstracts for each proposal at http://cdmrp.army.mil/
bcrp/.
           commitment of the national breast cancer coalition
    The National Breast Cancer Coalition is strongly committed to the 
DOD program in every aspect, as we truly believe it is one of our best 
chances for finding cures and preventions for breast cancer. The 
Coalition and its members are dedicated to working with you to ensure 
the continuation of funding for this program at a level that allows 
this research to forge ahead.
    In May 1997, our members presented a petition with more than 2.6 
million signatures to congressional leaders on the steps of the 
Capitol. The petition called on the President and the U.S. Congress to 
spend $2.6 billion on breast cancer research between 1997 and the year 
2000. Funding for the DOD Peer-Reviewed Breast Cancer Research Program 
was an essential component of reaching the $2.6 billion goal that so 
many women and families worked for.
    Once again, NBCC is bringing its message to Congress. Just last 
week, many of the women and family members who supported the campaign 
to gather the 2.6 million signatures came to NBCCF's Annual Advocacy 
Training Conference here in Washington, D.C. More than 600 breast 
cancer activists from across the country joined us in continuing to 
mobilize our efforts to end breast cancer. The overwhelming interest 
in, and dedication to eradicate this disease continues to be evident as 
people not only are signing petitions, but are willing to come to 
Washington, D.C. from across the country to deliver their message about 
their commitment.
    Since the very beginning of this program in 1992, Congress has 
stood in support of this important investment in the fight against 
breast cancer. In the years since, Mr. Chairman, you and this entire 
Committee have been leaders in the effort to continue this innovative 
investment in breast cancer research.
    NBCC asks you, the Defense Appropriations Subcommittee, to 
recognize the importance of what you have initiated. You have set in 
motion an innovative and highly efficient approach to fighting the 
breast cancer epidemic. What you must do now is support this effort by 
continuing to fund research that will help us win this very real and 
devastating war against a cruel enemy.
    Thank you again for the opportunity to submit testimony and for 
giving hope to the 3 million women in the United States living with 
breast cancer.

                    ADDITIONAL SUBMITTED STATEMENTS

    [Clerk's Note.--Subsequent to the hearing, the subcommittee 
has received statements from Dennis Duggan of The American 
Legion, MSGT (Ret.) Morgan D. Brown, Manager, Legislative 
Affairs, Air Force Sergeants Association, and the American 
Museum of Natural History which will be inserted in the record 
at this point.]
               Prepared Statement of The American Legion
    Chairman Stevens and distinguished Members of the Subcommittee: The 
American Legion is grateful for the opportunity to present its views 
regarding defense appropriations for fiscal year 2005. The American 
Legion values your leadership in assessing and appropriating adequate 
funding for quality-of-life, readiness and modernization of the 
Nation's armed forces to include the active, Reserve and National Guard 
forces and their families, as well as quality of life for military 
retirees and their dependents. We realize that many of the personnel 
decisions come from your colleagues on the Armed Service Committee; 
however, your Subcommittee continues to play a significant role in the 
Nation's defense.
    Since September 2001, the United States has been involved in two 
wars--the war against terrorism in Operations Iraqi Freedom and 
Enduring Freedom. American fighting men and women are proving that they 
are the best-trained, best-equipped and best-led military in the world. 
As Secretary of Defense Donald Rumsfeld has noted, the war in Iraq is 
part of a long, dangerous global war on terrorism. The war on terrorism 
is being waged on two fronts: overseas against armed terrorists and the 
other here protecting and securing the Homeland. Indeed, most of what 
we, as Americans, hold dear are made possible by the peace and 
stability, which the armed forces provide.
    The American Legion continues to adhere to the principle that this 
Nation's armed forces must be well-manned and equipped, not just to 
pursue war, but to preserve and protect peace. The American Legion 
strongly believes that past military downsizing was budget-driven 
rather than threat focused. Once Army divisions, Navy warships, and Air 
Force fighter wings are eliminated or retired from the force structure, 
they cannot be rapidly reconstituted regardless of the threat or 
emergency circumstances. Although active duty recruiting has achieved 
its goals, the Army's stop-loss policies have obscured retention of the 
active and reserve components. Military morale undoubtedly has also 
been adversely affected by the extension of tours in Iraq.
    The Administration's budget request for fiscal year 2005 totals 
$2.4 trillion and authorizes $402 billion for defense or about 19 
percent of the budget. The fiscal year 2005 defense budget represents a 
seven percent increase in defense spending over the current funding 
level. It also represents 3.6 percent of the Gross Domestic Product, 
more than the 3.5 percent in the fiscal year 2004 budget. Active duty 
military manpower end strength is 1.388 million, only slightly changed 
from fiscal year 2003. Selected Reserve strength is 863,300 or reduced 
by about 25 percent from its strength levels during the Gulf War of 13 
years ago.
    Mr. Chairman, this budget must advance ongoing efforts to fight the 
global war on terrorism, sustain and improve military quality-of-life 
and continue to transform the military. A decade of overuse of the 
military and its under-funding will necessitate sustained investments. 
The American Legion believes that this budget must also address: 
increases in the military end strengths of the Services; accelerate 
ship production; provide increased funding for the concurrent receipt 
of military retirement pay and VA disability compensation for disabled 
military retirees; and improve survivors benefit plan (SBP) for the 
retired military survivors.
    If we are to win the war on terror and prepare for the wars of 
tomorrow, we must take care of the Department's greatest assets--the 
men and women in uniform. They are doing us proud in Iraq, Afghanistan 
and around the world.
    In order to attract and retain the necessary force over the long 
haul, the active duty force, Reserves and National Guard will continue 
to look for talent in an open market place and to compete with the 
private sector for the best young people this nation has to offer. If 
we are to attract them to military service in the active and reserve 
components, we need to count on their patriotism and willingness to 
sacrifice, to be sure, but we must also provide them the proper 
incentives. They love their country, but they also love their 
families--and many have children to support, raise, and educate. We 
have always asked the men and women in uniform to voluntarily risk 
their lives to defend us; we should not ask them to forgo adequate pay 
and allowances and subject their families to repeated unaccompanied 
deployments and sub-standard housing as well.
    With the eventual lifting of the stop-loss policy, there may be a 
personnel exodus of active duty and reserve components from the Army. 
Retention and recruiting budgets may need to be substantially increased 
if we are to keep, and recruit, quality service members.
    The President's 2005 defense budget requests $104.8 billion for 
military pay and allowances, including a 3.5 percent across-the-board 
pay raise. It also includes $4.2 billion to improve military housing, 
putting the Department on track to eliminate most substandard housing 
by 2007--several years sooner than previously planned. The fiscal year 
2004 budget lowered out-of-pocket housing costs for those living off-
base from 7.5 percent to 3.5 percent in 2004 so as to hopefully 
eliminate all out-of-pocket costs for the men and women in uniform by 
2005. The American Legion encourages the Subcommittee to continue the 
policy of no out-of-pocket housing costs in future years.
    Together, these investments in people are critical, because smart 
weapons are worthless to us unless they are in the hands of smart, 
well-trained soldiers, sailors, airmen, Marines and Coast Guard 
personnel.
    American Legion National Commanders have visited American troops in 
Europe, the Balkans and South Korea, as well as a number of 
installations throughout the United States, including Walter Reed Army 
Medical Center and Bethesda National Navy Center. During these visits, 
they were able to see first hand the urgent, immediate need to address 
real quality-of-life challenges faced by service members and their 
families. Commanders' have spoken with families on Womens' and Infants' 
Compensation (WIC), where quality-of-life issues for service members, 
coupled with combat tours and other heightened operational tempos, play 
a key role in recurring recruitment and retention efforts and should 
come as no surprise. The operational tempo and lengthy deployments, 
other than combat tours, must be reduced or curtailed. Military 
missions were on the rise before September 11, and deployment levels 
remain high and the only way, it appears, to reduce repetitive overseas 
tours and the overuse of the Reserves is to increase military end 
strengths for the services. Military pay must be on par with the 
competitive civilian sector. Activated Reservists must receive the same 
equipment, the same pay and timely health care as active duty 
personnel. If other benefits, like health care improvements, 
commissaries, adequate quarters, quality childcare, and Impact Aid for 
education or DOD education are reduced, they will only serve to further 
undermine efforts to recruit and retain the brightest and best this 
Nation has to offer.
    The budget deficit is about $374 billion, the largest in U.S. 
history, and it is heading higher perhaps to $500 billion. National 
defense spending must not be a casualty of deficit reductions.
    increasing end strengths and balancing the active/reserve force 
                               structure
    The personnel system and force structure currently in use by the 
United States Armed Forces was created 30 years ago, in the aftermath 
of the Vietnam War. By the mid-1980's, the All Volunteer Force (AVF) 
became the most professional, highly qualified military the United 
States had ever fielded. With 18 Army divisions and 2.1 million on 
active duty, we were geared for the Cold War and that preparedness 
carried over into the Persian Gulf War. Whenever Reservists were 
called-up for the Persian Gulf War or peacekeeping, in the Balkans or 
Sinai, they were never kept on duty for more than six months. In fact, 
many Reservists volunteered to go. This system began to breakdown after 
September 11, 2001 with an overstretched Army which only had ten 
divisions which included a mix of infantry, armor, cavalry, air 
assault, airborne, mechanized and composite capabilities. The 
Quadrennial Defense Review, released one month after the September 11 
attacks, did not alter the mix of active duty and Reserve units. Nor 
did the plans for the invasion of Iraq. The Defense Department admitted 
that rebalancing the way Reserve forces were used was to be a top 
priority. DOD also said that it had seen no evidence to support calls 
to increase the size of the active Army from its current level of 
480,000. The Reserves still account for 97 percent of the military's 
civil affairs units, 70 percent of its engineering units, 66 percent of 
its military police and 50 percent of its combat forces. Moreover, the 
size of the active duty Army has shrunk to 34 percent of the total U.S. 
military and is currently proportionally smaller than at any time in 
its history. This split in the active and Reserve forces have led to 
four major problems, which has been exacerbated by the inability of the 
United States to get troop contributions from other nations.
    First, the Army is severely overstretched and is actively engaged 
with hostile forces in two countries. It has nearly 370,000 soldiers 
deployed in 120 countries around the globe. Of its 33 combat brigades, 
24 (or 73 percent) are engaged overseas. This leaves the United States 
potentially vulnerable in places like the Korean Peninsula, and it 
means that many combat units are sent on back-to-back deployments or 
have had their overseas tours extended unexpectedly.
    Secondly, the failure to increase active forces and reorganize the 
military's personnel and force structures resulted in National Guard 
and Reserve units being mobilized without reasonable notice nor 
equipping. A Maryland National Guard MP battalion, for example, has 
been mobilized three times in the last two years.
    The third problem created by these mobilizations is that many of 
the Reservists have been called up without proper notice and kept on 
duty too long and happen to be police officers, firefighters and 
paramedics in their civilian lives. When these personnel are called for 
military service and kept active for long periods, besides jeopardizing 
their employment, it can reduce the ability of their communities to 
deal with terrorism.
    The fourth problem with the current system is that it has led to a 
decline in the overall readiness of the Army. In fiscal year 2003, the 
Army had to cancel 49 of its scheduled 182 training exercises. The 
first four divisions returning from Iraq in the first five months of 
this year will not be combat-ready again for at least six months since 
their equipment has worn down, troops have worn down and war-fighting 
skills have atrophied while they were doing police work. Through its 
stop-loss measures, the Army has prevented 24,000 active duty troops 
and some 16,000 reservists from leaving its ranks. The Army Reserve 
missed its reenlistment goals for fiscal year 2003.
    Former Assistant Secretary of Defense Lawrence Korb recommends 
three major steps to correct these imbalances: First, the balance of 
active and Reserves must take place even during a war. Forces needed 
for occupation duty, such as military police, civil affairs and 
engineers should be permanently transferred to active duty. Secondly, 
the size of the Army should be quickly increased by at least two more 
divisions or 40,000 spaces. Third, given the threat to the American 
homeland, DOD cannot allow homeland security personnel to join the 
National Guard and Reserves.
    The American Legion supports these recommendations, in particular, 
by permanently increasing the end strengths of the United States Army 
by two additional divisions or by at least 40,000 personnel. The Army 
simply does not have enough division-size units to adequately 
accommodate rotation of units in Iraq in a timely manner and without 
units becoming non-combat ready when they return home.
    Apparently, DOD has resisted making these changes because of the 
expenses they would incur. But given the size of the overall defense 
budget--$420 billion--the money could be found if Congress and DOD 
reordered its priorities.
    By 2007, the Army expects to have created a modern Army by moving 
to brigade-based organizations, rather than division-based. The Army's 
current 33 brigades will expand to as many as 48 brigade units of 
action, which will include five Stryker brigades. The National Guard 
would have the same common design as the Army. To accomplish these 
planned changes, the Army will temporarily add 30,000 spaces to help 
form the new organizations. However, The American Legion understands 
that about 7,000 service members of the 30,000 would be holdovers from 
the stop-loss policy. DOD also anticipates continuing to call Guardsmen 
and Reservists to active duty, which indicates a continuing unit and 
manpower shortage.
                            quality-of-life
    The major national security concern continues to be the enhancement 
of the quality-of-life issues for active duty service members, 
Reservists, National Guardsmen, military retirees, and their families. 
During the last congressional session, President Bush and Congress made 
marked improvements in an array of quality-of-life issues for military 
personnel and their military families. These efforts are visual 
enhancements that must be sustained for active duty personnel, 
Guardsmen and Reservists.
    In previous defense budgets, the President and Congress addressed 
improvements to the TRICARE system to meet the health care needs of 
military beneficiaries; enhanced Montgomery GI Bill educational 
benefits; and elimination of the disabled veterans' tax for severely 
disabled military retirees. For these actions, The American Legion 
applauds your strong leadership, dedication, and commitment. However, 
major issues still remain unresolved: the issue of concurrent receipt 
of full military retirement pay and VA disability compensation without 
the current dollar-for-dollar offset for all disabled retirees needs to 
be resolved, as well as the need to improve survivors' benefits by 
eliminating the 20 percent offset at age 62.
    The American Legion will continue to convey that simple, equitable 
justice is one reason to authorize and fund concurrent receipt. 
Military retirees are the only Federal employees who continue to have 
their retired pay offset with VA disability compensation. Also, 
proponents claim that the unique nature of military service, given 
their sacrifices and hardships, should merit these retirees receiving 
both military retired pay and VA disability compensation. For the past 
decade, many veterans' programs have been pared to the bone in the name 
of balancing the budget. Now, military retirees must pay premiums to 
TRICARE for full health care coverage for themselves and their 
immediate family members. The American Legion feels it is time that 
retirees receive compensation for these fiscal sacrifices. Likewise, 
military survivors have their survivors' benefits reduced from 55 
percent to 35 percent when they become social security eligible.
    Often, VA service-connected disability compensation is awarded for 
disabilities that cannot be equated with disabilities incurred in 
civilian life. Military service rendered in defense, and on behalf, of 
the Nation, deserves special consideration when determining policy 
toward such matters as benefits offsets. The American Legion believes 
it is a moral and ethical responsibility to award disability 
compensation to the needs of disabled veterans, given the sacrifices 
and hardships they incurred during honorable military service to the 
Nation. We are also aware that many of the disabled retirees receive 
retirement pay that is beneath established poverty levels and by 
definition in Title 38 are ``indigent'' veterans.
    Mr. Chairman, The American Legion and the armed forces owe you and 
this Subcommittee a debt of gratitude for your strong support of 
military quality-of-life issues. Nevertheless, your assistance is 
needed now more than ever. Positive congressional action is needed in 
this budget to overcome old and new threats to retaining the finest 
military in the world. Service members and their families continue to 
endure physical risks to their well-being and livelihood, substandard 
living conditions, and forfeiture of personal freedoms that most 
Americans would find unacceptable. Worldwide deployments have increased 
significantly and the Nation is at war: a smaller armed force has 
operated under a higher operational tempo with longer work hours, 
greater dangers, and increased family separations. The very fact that 
over 300,000 Guardsmen and Reservists have been mobilized since 
September 11, 2001 is first-hand evidence that the United States Army 
has needed at least two more active divisions for nearly a decade.
    Throughout the draw down years, military members have been called 
upon to set the example for the nation by accepting personal financial 
sacrifices. Their pay raises have been capped for years, and their 
health care system has been overhauled to cut costs, leaving military 
families with lessened access to proper health care. The American 
Legion congratulates the Congress for their quality-of-life 
enhancements contained in past National Defense Authorization Acts. The 
system however, is in dire need of continued improvement.
    Now is the time to look to the force recruiting and retention 
needs. Positive congressional action is needed to overcome past years 
of negative career messages and to address the following quality-of-
life features:
  --Closing the Military Pay Gap With the Private Sector.--The previous 
        Chairman of the Joint Chiefs of Staff stated that the area of 
        greatest need for additional defense spending is ``taking care 
        of our most important resource, the uniformed members of the 
        armed forces.'' To meet this need, he enjoined Members of 
        Congress to ``close the substantial gap between what we pay our 
        men and women in uniform and what their civilian counterparts 
        with similar skills, training and education are earning.'' But 
        11 years of pay caps in previous years took its toll and 
        military pay continues to lag behind the private sector at 
        about 5.4 percent. With U.S. troops battling terrorism in Iraq 
        and Afghanistan, The American Legion supports at least a 3.5 
        percent military pay raise. The American Legion believes the 
        gap should be erased within three years or less.
  --Basic Allowance for Housing (BAH).--For those who must live off 
        base, the payment of BAH is intended to help with their out-of-
        pocket housing expenses. Secretary of Defense Rumsfeld set a 
        goal of entirely eliminating average out-of-pocket housing 
        expenses. This committee has taken strong steps in recent times 
        to provide funding to move toward lowering such expenses by 
        2005. Please continue to work to keep the gap closed between 
        BAH and the members' average housing costs during future years.
  --Commissaries.--Several years ago, DOD had considered closing some 
        37 commissary stores worldwide and reducing operating hours in 
        order to resolve a $48 million shortfall in the Defense 
        Commissary Agency. Such an effort to reduce or dismantle the 
        integrity of the military commissary system would be seen as a 
        serious breach of faith with a benefit system that serves as a 
        mainstay for the active and reserve components, military 
        retirees, 100 percent service-connected disabled veterans, and 
        others. The American Legion urges the Congress to preserve full 
        federal subsidizing of the military commissary system and to 
        retain this vital non-pay compensation benefit. The American 
        Legion recommends the system not be privatized or consolidated; 
        and that DECA manpower levels not be further reduced. The 
        American Legion would oppose any attempts by DOD to impose 
        ``variable pricing'' in commissaries.
  --DOD Domestic Dependents Elementary and Secondary Schools (DDESS).--
        The American Legion is concerned about the possible transfer of 
        DDESS, which is the target of an ongoing study in DOD. The 
        American Legion urges the retention and full funding of the 
        DDESS as they have provided a source of high quality education 
        for children attending schools on military installations.
                           reserve components
    The advent of smaller active duty forces reinforces the need to 
retain combat-ready National Guard and Reserve forces that are 
completely integrated into the Total Force. The readiness of National 
Guard and Reserve combat units to deploy in the war on terrorism will 
also have a cost in terms of human lives unless Congress is completely 
willing to pay the price for their readiness. With only ten active Army 
divisions in its inventory, America needs to retain the eight National 
Guard divisions, in heightened readiness postures, as its life 
insurance policy.
    Reliance on National Guard and Reserve forces has risen 13-fold 
over the pre-Gulf War era. This trend continues even though both 
reserve and active forces have been cut back 30 percent and about 25 
percent, respectively, from their Cold War highs. In addition, since 
the terrorist attacks on the American homeland on September 11, 2001, 
more than 300,000 Guard and Reserve troops have been activated to 
support homeland defense and overseas operations in the war on terror. 
Soon, 40 percent of the forces in Iraq will consist of activated 
reservists.
    National Guard and Reserve service today involves a challenging 
balancing act between civilian employment, family responsibilities, and 
military service. Increasingly, National Guard and Reserve families 
encounter stressful situations involving healthcare, economic 
obligations, and employer uncertainty. Much was accomplished last year 
for the Guard and Reserves. Benefit issues of particular concern in 
this area include:
  --Review and upgrade the Reserve compensation and retirement system 
        without creating disproportional incentives that could 
        undermine active force retention; change the retirement age 
        from 60 to 55 for Guardsmen and Reservists;
  --Continue to restore the tax deductibility of non-reimbursable 
        expenses directly related to Guard and Reserve training;
  --Reduce the operations tempo; increase Army force levels; allocate 
        adequate recruiting and retention resources;
  --Streamline the Reserve duty status system without compromising the 
        value of the compensation package;
  --Improve Reserve Montgomery GI Bill (MGIB) benefits proportional to 
        the active duty program;
  --Allow Reservists activated for 12 months or longer to enroll in the 
        active duty MGIB;
  --Allow the Guard and Reserve to accrue for retirement purposes all 
        points earned annually;
  --Make TRICARE permanently available to all drilling Guardsmen and 
        Reservists and their families;
  --Give tax credits for employers who choose to make up the difference 
        between military pay and Reservists salary when they are 
        activated;
  --Growing concerns are that the Reserve Components, especially the 
        National Guard, are being overused in contingency and 
        peacekeeping operations, as these service members have regular 
        civilian jobs and families as well. The National Guard also has 
        state missions in their home states. The American Legion 
        understands that retention rates and, therefore, strength 
        levels are falling in those states, which have deployed or 
        scheduled to deploy Guardsmen overseas. Governors of these 
        states continue to express concern that state missions will not 
        be accomplished. The National Guard from 44 states has had a 
        presence in 35 foreign countries.
    The American Legion is also supportive of all proposed quality-of-
life initiatives that serve to improve living and working conditions of 
members of the Reserve components and their families.
                     other military retiree issues
    The American Legion believes strongly that quality-of-life issues 
for retired military members and families also are important to 
sustaining military readiness over the long term. If the Government 
allows retired members' quality-of-life to erode over time, or if the 
retirement promises that convinced them to serve are not kept, the 
retention rate in the current force will undoubtedly be affected. The 
old adage that ``you enlist a recruit, but you reenlist a family'' is 
truer today than ever as more career-oriented service members are 
married or have dependents.
    Accordingly, The American Legion believes Congress and the 
Administration must place high priority on ensuring that these long-
standing commitments are honored:
  --VA Compensation Offset to Military Retired Pay (Retired Pay 
        Restoration).--Under current law, a military retiree with 
        compensable, VA disabilities cannot receive full military 
        retirement pay and VA disability compensation. The military 
        retiree's retirement pay is offset (dollar-for-dollar) by the 
        amount of VA disability compensation awarded. The American 
        Legion supports restoration of retired pay (concurrent receipt) 
        for all disabled military retirees. We would like to thank the 
        Subcommittee for authorizing concurrent receipt for disabled 
        retirees rated 50 percent and higher and for including 
        Temporary Early Retirement Authority (TERA) retirees as well as 
        disabled retired Reservists who are receiving retired pay for 
        longevity. The American Legion is also grateful for the 
        Enhanced Combat-Related Special Compensation (CRSC), which was 
        enacted in the fiscal year 2003 National Defense Authorization 
        Act. Mr. Chairman, we have a long way to go in extending 
        concurrent receipt to those disabled retirees for longevity 
        rated 50 percent and less; and including TERA retirees in CRSC 
        eligibility; and by extending concurrent receipt to those 
        disabled retirees who were medically retired before reaching 20 
        years of service. The American Legion has visited Walter Reed 
        Army Medical Center on numerous occasions to talk with wounded 
        and injured young soldiers, many with amputated limbs suffered 
        as a result of combat action in Iraq and Afghanistan. They too 
        are prohibited from receiving both military retirement pay for 
        their physical disability and VA disability compensation. This 
        puts an additional financial strain on these severely disabled 
        soldiers and their families. The American Legion is extending 
        its Family Support Network to these soldiers and their families 
        when they are medically retired from the service. The purposes 
        of these two compensation elements are fundamentally different. 
        A veteran's disability compensation is paid to a veteran who is 
        disabled by injury or disease incurred or aggravated during 
        active duty military service. Monetary benefits are related to 
        the residual effects of the injury or disease or for the 
        physical or mental pain and suffering and subsequently reduced 
        employment and earnings potential. Action should be taken this 
        year to provide full compensation for those military retirees 
        who served both more than and fewer than 20 years in uniform 
        and incurred service-connected disabilities. Disabled military 
        retirees are the only retirees who pay for their own disability 
        compensation from their retirement pay; and they cannot receive 
        both military disability retirement pay and VA disability 
        compensation. It is time to completely cease this inequitable 
        practice. What better time to authorize and fund concurrent 
        receipt for all disabled retirees than during this period of 
        War.
  --Social Security Offset to the Survivors' Benefits Plan (SBP).--The 
        American Legion supports amending Public Law 99-145 to 
        eliminate the provision that calls for the automatic offset at 
        age 62 of the military SBP with Social Security benefits for 
        military survivors. Military retirees pay into both SBP and 
        Social Security, and their survivors pay income taxes on both. 
        The American Legion believes that military survivors should be 
        entitled to receipt of full Social Security benefits, which 
        they have earned in their own right. It is also strongly 
        recommended that any SBP premium increases be assessed on the 
        effective date of, or subsequent to, increases in cost of 
        living adjustments and certainly not before the increase in SBP 
        as has been done previously. In order to see some increases in 
        SBP benefits, The American Legion would support an improvement 
        of survivor benefits from 35 percent to 55 percent over a ten-
        year period. The American Legion also supports initiatives to 
        make the military survivors' benefits plan more attractive. 
        Currently, about 75 percent of officers and 55 percent of 
        enlisted personnel are enrolled in the plan.
  --Reducing the Retired Reservist age from 60 to 55.--The American 
        Legion believes that retirement pay should be paid sooner as 
        members of the Guard and Reserve are now being used to replace 
        active duty forces in Afghanistan and Iraq and are projected to 
        become 40 percent of total forces in those theaters. Similarly, 
        these retirees and their dependents should be eligible for 
        TRICARE health care and other military privileges when they 
        turn 55.
  --Military Retired Pay COLAs.--Service members, current and future, 
        need the leadership of this Subcommittee to ensure Congress 
        remains sensitive to long-standing contracts made with 
        generations of career military personnel. A major difficulty is 
        the tendency of some to portray all so-called ``entitlement'' 
        programs, including military retirement, as a gratuitous gift 
        from the taxpayer. In truth, military retired pay is earned 
        deferred compensation for accepting the unique demands and 
        sacrifices of decades of military service. The military 
        retirement system is among the most important military career 
        incentives. The American Legion urgently recommends that the 
        Subcommittee oppose any changes to the military retirement 
        system, whether prospective or retroactive that would undermine 
        readiness or violate contracts made with military retirees.
  --The SBP Veterans Dependency and Indemnity Compensation (DIC) Offset 
        for Survivors.--Under current law, the surviving spouse of a 
        retired military member who dies from a service connected 
        condition and the retiree was also enrolled in SBP, the 
        surviving spouse's SBP benefits are offset by the amount of DIC 
        (currently $948 per month). A pro-rated share of SBP premiums 
        is refunded to the widow upon the member's death in a lump sum, 
        but with no interest. The American Legion believes that SBP and 
        DIC payments, like military retirement pay and disability 
        compensation, are paid for different reasons. SBP is elected 
        and purchased by the retiree based on his/her military career 
        and is intended to provide a portion of retired pay to the 
        survivor. DIC payments represent special compensation to a 
        survivor whose sponsor's death was caused directly by his or 
        her uniformed service. In principle, this is a government 
        payment for indemnity or damages for causing the premature loss 
        of life of the member, to the extent a price can be set on 
        human life. These payments should be additive to any military 
        or federal civilian SBP annuity purchased by the retiree. There 
        are approximately 27,000 military widows/widowers affected by 
        the offset under current law. Congress should repeal this 
        unfair law that penalizes these military survivors.
                              conclusions
    Thirty years ago America opted for an all-volunteer force to 
provide for the national security. Inherent in that commitment was a 
willingness to invest the needed resources to bring into existence a 
competent, professional, and well-equipped military. The fiscal year 
2005 defense budget, while recognizing the War on Terrorism and 
Homeland Security, represents another good step in the right direction.
    What more needs to be done? The American Legion recommends, as a 
minimum, that the following steps be implemented:
  --Continued improvements in military pay, equitable increases in 
        Basic Allowances for Housing and Subsistence, military health 
        care, improved educational benefits under the Montgomery G.I. 
        Bill, improved access to quality child care, impact aid and 
        other quality-of-life issues. The concurrent receipt of 
        military retirement pay and VA disability compensation for all 
        disabled retirees needs to be authorized and funded. The 
        Survivors' Benefit Plan needs to be increased from 35 to 55 
        percent for Social Security-eligible military survivors.
  --Defense spending, as a percentage of Gross Domestic Product, needs 
        to be maintained at least 3.5 percent annually which this 
        budget does achieve.
  --The end strengths of the active armed forces need to be increased 
        to at least 1.6 million for the Services and the Army needs to 
        be increased by two more divisions.
  --The Quadrennial Defense Review strategy needs to call for enhanced 
        military capabilities to include force structures, increased 
        end strengths and improved readiness, which are more adequately 
        resourced.
  --Force modernization needs to be realistically funded and not 
        further delayed or America is likely to unnecessarily risk many 
        lives in the years ahead;
  --The National Guard and Reserves must be realistically manned, 
        structured, equipped and trained, fully deployable, and 
        maintained at high readiness levels in order to accomplish 
        their indispensable roles and missions. Their compensation, 
        health care, benefits and employment rights need to be 
        continually improved.
  --Although the fiscal year 2004 Supplemental Appropriations increased 
        funding to purchase body armor and armored HMMVV's, we are very 
        disappointed by numerous news accounts of individuals buying 
        their own body armor and recommend increased funding.
    Mr. Chairman, this concludes The American Legion statement.
                                 ______
                                 
       Prepared Statement of the Air Force Sergeants Association
    Mr. Chairman and distinguished committee members, on behalf of the 
135,000 members of the Air Force Sergeants Association, thank you for 
this opportunity to offer the views of our members on the military 
quality-of-life programs that affect those serving (and who have 
served) our nation. AFSA represents active duty, Guard, Reserve, 
retired, and veteran enlisted Air Force members and their families. 
Your continuing effort toward improving the quality of their lives has 
made a real difference, and our members are grateful. Listed below are 
several specific goals for which we hope this committee will 
appropriate funds for fiscal year 2005 on behalf of current and past 
enlisted members and their families. As always, we are prepared to 
present more details and to discuss these issues with your staffs. This 
presentation includes many items reflecting the communication we 
receive from our members, and it offers an insight into perceived 
inequities within the military compensation program.
                     military pay and compensation
    Enlisted military members receive lower pay and lower allowances 
for food and housing. To put it simply, enlisted members are paid the 
least in basic pay, and are expected to spend less for their food and 
to house their families. Of course, this simply means they will have to 
spend more ``out of pocket'' to protect their families. Obviously, 
enlisted members want no less than commissioned officers for their 
families to live in good neighborhoods and to attend good schools. So, 
enlisted members are forced to make this happen by spending more of 
their basic pay--because their allowances are inadequate. We urge this 
committee to support more equitable compensation/allowance levels for 
enlisted members, with emphasis on targeted increases for senior NCOs 
to more fairly compensate them for their responsibilities and the 
military jobs they do for their nation. Some specific areas that we 
hope the committee will examine:
  --Provide Hazardous Duty Incentive Pay (HDIP) for military 
        firefighters. DOD and all services have reached agreement on 
        this and are ready to support and fund it. The committee can 
        easily verify this through military legislative liaison 
        contacts and through service leadership. AFSA believes this pay 
        is long overdue for these military servicemembers who serve 
        under incredible risk--even during peacetime. If any military 
        occupational specialty should receive HDIP, military 
        firefighters should receive it. It would cost $9.4 million per 
        year to provide this funding for all services. It is strongly 
        endorsed by this association and by the associations in the 
        Military Coalition. We urge the committee to make this happen--
        this year.
  --Reform military pay to more equitably reflect enlisted 
        responsibilities in relation to the overall Air Force mission. 
        Further targeting is warranted.
  --Make the recent increases in Family Separation Allowance ($250), 
        and Imminent Danger Pay ($225) permanent. These levels are 
        reasonable and more reflective of the financial burdens of 
        those serving and those left at home.
  --Provide Assignment Incentive Pay to those stationed in Korea. 
        Military and government leaders often speak of the imminent 
        danger posed by the North Koreans and how the troops stationed 
        there are at the ``tip of the spear,'' forming the front lines 
        of our defenses. These brave men and women should receive some 
        type of special pay or tax advantage. Perhaps the answer is to 
        mandate an amount of the Assignment Incentive Pay signed into 
        law during the 107th Congress.
  --Establish a standard, minimum reenlistment bonus at the time of 
        reenlistment for all enlisted members regardless of component, 
        time-in-service, or AFSC. We often hear from our members that 
        it is demotivating that subordinates often receive bonuses, 
        while those who lead them do not. In fact, such bonuses are 
        generally not offered after the 15th year of service. While we 
        realize that such bonuses are nothing more than force 
        manipulation tools, it would be proper to provide some level of 
        bonus each time a military member commits to put his/her life 
        on the line for an additional extended period of military 
        service.
                          educational benefits
    While a number of issues must be addressed in relation to the 
Montgomery G.I. Bill, we realize they do not specifically fall under 
the jurisdiction of this committee. However, it is imperative that 
those (from that era) who did not enroll in the old Veterans 
Educational Assistance Plan get an opportunity to enroll in the 
Montgomery G.I. Bill. Many are now retiring after devoting a career of 
military service, yet they have no transitional education benefit. 
Additionally, military members give more than enough to this nation 
that they should not have to pay $1,200 into the Montgomery G.I. Bill 
in order to use it. Members ought to be able to transfer their G.I. 
Bill benefits to their family members--perhaps as a career incentive 
(e.g., after serving 12 or 14 years). The 10-year benefit limitation 
after separation needs to be repealed; it is unfair to enlisted members 
and serves no purpose other than to discourage use of this important 
benefit. We ask that you provide the funding necessary to enact these 
changes to the MGIB. In addition, we ask this committee to:
  --Eliminate any service Tuition Assistance caps. As military members 
        increase their education levels, they are able to progressively 
        increase their contribution to the mission. As has often been 
        said, every dollar this nation spends on education returns many 
        fold in the contribution the more-educated citizen (military 
        member) makes to society and the U.S. economy.
  --Ensure full funding of the Impact Aid Program. This committee is 
        forced to address the Impact Aid issue each year. It has had to 
        do so regardless of the Administration in power. In order to 
        protect the families (especially the children) of military 
        members, we ask you to continue your great work in providing 
        Impact Aid funding.
  --Enhance the Selected Reserve Montgomery G.I. Bill (SR-MGIB) 
        benefit. AFSA asks this committee to provide the funding 
        necessary to increase the value of the SR-MGIB to ensure it 
        measures up to 47 percent of the value of the active duty MGIB. 
        This was the congressional intent when the SR-MGIB began. At 
        the present time, the SR-MGIB is only worth 29 percent of the 
        MGIB. We ask you to support increasing the value of the SR-MGIB 
        and establishing an automatic indexing with the active duty 
        program. Additionally, we ask you to provide the necessary 
        funding which would allow Guardsmen and Reservists to use the 
        SR-MGIB beyond the current 14-year duration of the program. 
        They should be able to use the program during their time of 
        service and for a reasonable period after they have completed 
        their military obligation.
  --Provide military members and their families in-state tuition rates 
        at federally supported state universities. Military members are 
        moved to stations around the world at the pleasure of the 
        government. Yet, they are treated as visitors wherever they go. 
        Fairness would dictate that, for the purposes of the cost of 
        higher education, they be treated as residents so that they can 
        have in-state rates at federally supported colleges and 
        universities in the state where they are assigned. We would ask 
        this committee to exert the necessary influence to require 
        federally supported institutions to consider military members 
        assigned in their state as ``residents,'' for the purposes of 
        tuition levels.
                air national guard and air force reserve
    The role of the Guard and Reserve (G&R) has increased dramatically. 
Our military establishment simply could not execute the War on 
Terrorism nor this nation's worldwide military operations without the 
direct participation of G&R members. We learned much after 9/11 as 
mobilization took place and as G&R members were increasingly deployed. 
The following initiatives have been called for by AFSA members. Many of 
these are equity issues. AFSA believes that each of the items is the 
right thing to do.
  --Reduce the earliest G&R retirement age from 60 to 55. It is simply 
        wrong that these patriots are the only federal retirees that 
        have to wait until age 60 to fully enjoy retirement benefits. 
        While we realize that DOD considers this a budgetary burden, it 
        is the right thing to do. Additionally, it would allow for 
        greater movement from rank-to-rank since most G&R promotions 
        are by vacancy. While there are many bills on the table (many 
        inspired by budgetary considerations rather than doing the 
        right thing), we urge this committee to fully support S. 1035, 
        sponsored by Senator Jon Corzine. That bill would provide full 
        retirement benefits as early as age 55.
  --Provide full (not fractioned) payment of flying, hazardous duty, 
        and other special pays; i.e., eliminate ``1/30'' rules. These 
        ``fractioned'' allowances are wrong. They denigrate the service 
        and the risk faced by members of the Guard and Reserve. We ask 
        the committee to fund these important ``risk-based'' allowances 
        on the same basis for G&R members as they are paid for active 
        duty members.
  --Provide BAH ``Type 1'' to all G&R members TDY or activate, 
        including those activated or TDY for less than 139 days. Unlike 
        an active duty member, G&R members typically have civilian 
        employment and always return to their residence upon completion 
        of military duty. Their house payment does not go away. 
        Providing full BAH to deployed G&R members would allow them to 
        adequately protect their investment in their homes and the 
        financial wellbeing of their families, if applicable.
  --Provide G&R First Sergeants and Command Chief Master Sergeants with 
        full, special duty assignment pay on the same basis it is paid 
        to active duty members. Like active duty members, the 
        extraordinary duties and expenses of these two groups of 
        leaders does not take place only during duty hours. G&R First 
        Sergeants and Command Chiefs have duties throughout the month 
        (whether they are ``officially'' on duty or not). For that 
        reason, equity would call for this special pay to be paid on 
        the same basis as it is for active duty enlisted leaders.
                          retirement benefits
    AFSA applauds this committee for its support of the partial 
resolution to the Concurrent Receipt issue included in Section 641 of 
the fiscal year 2004 NDAA and the expansion of Combat-Related Special 
Compensation under Section 642. Despite the specter of a veto threat 
throughout the year and intense political wrangling, in the end the 
right thing was done. The principle has now been established in law. 
Congress has recognized that retirees who are disabled by their 
military service should be allowed to collect the full retirement pay 
they earned through long-term honorable service to the nation. They 
also ought to receive just compensation for maladies caused by military 
service--injuries that will have an impact on their employability and 
their quality of life during their remaining days on Earth. Now, AFSA 
urges that the effort shift toward restoring military retired pay for 
those with disabilities of 40 percent and lower. We ask the committee 
to help establish a timetable to address this important issue for those 
with VA disability ratings of 40 percent and lower.
                morale, welfare and recreation programs
    These programs form an essential part of military life. They build 
a sense of community, enhance morale, promote fitness, provide support 
to family members left behind when the military member is deployed, and 
financially support military families. It is extremely important that 
this committee support full funding of Child Development Centers. These 
facilities are not a luxury, they are absolutely necessary for the 
completion of this nation's military mission.
                     housing and shipment programs
    The process of shipping military personal property has historically 
been a nightmare for military service members. They have had to accept 
that their personal goods will be lost, stolen, or damaged. In fact, 
that is a normal part of nearly every military move. One reason that 
military household goods have been treated so shoddily is that carriers 
are selected based on ``low bid''--not high quality and/or customer 
satisfaction. Also, the claims process to recover the financial loss 
caused by loss or damage is so cumbersome that many people don't bother 
to file a claim. Those who do file a claim soon learn that they will be 
reimbursed only a fraction of the cost of the actual loss or damage. We 
recommend this committee appropriate funds to specifically address the 
following housing and shipment-related issues.
  --Provide a household goods weight allowance for military spouses to 
        accommodate professional books, papers, and/or equipment needed 
        to support employment of military spouses. Because the majority 
        of military spouses now work (especially in enlisted families), 
        it is appropriate that they be afforded a weight allowance to 
        accommodate their professional documents, books, and supplies. 
        This would be in keeping with DOD's recent focus on ``family 
        readiness.'' This allowance would also support such things as 
        supplies for family in-home day care, etc.
  --Authorize reimbursement for alternate POV storage. If advantageous 
        to the government, reimburse transportation expenses for 
        members to take their POVs to a location other than a 
        commercial storage facility when PCSing (e.g., to leave the 
        vehicle with a relative). Currently, when a member is sent 
        overseas to a location where the government will not ship a 
        POV, the government must pay to store the vehicle and reimburse 
        the member for mileage accumulated while taking the POV to a 
        commercial storage facility. Sometimes it would cost the 
        government less to reimburse a member for driving his/her 
        vehicle to store it at no cost at a relative's or friend's 
        home. On top of that, the government would not have to pay the 
        storage fees! Of course, those who got reimbursed for taking 
        their vehicle to other than a commercial storage facility would 
        waive the government storage benefit. In many cases this 
        approach would save the government money, as well as passing 
        the common sense test.
  --Provide all military members being reassigned to CONUS or OCONUS 
        locations the option of government-funded shipment or storage 
        of a second privately owned vehicle. Current demographics, 
        family employment realities, and average number of family 
        vehicles justify making this change. This would be seen as a 
        positive step forward, particularly for enlisted military 
        members. For them, a privately owned vehicle is a major 
        investment in their overall financial well-being. Leaving a 
        vehicle behind is usually not an option since few enlisted 
        members can afford to store one. As such, a PCS move can have a 
        significantly onerous financial impact on an enlisted family. 
        Especially if they are forced to sell their vehicle. 
        Additionally, because both spouses have to work to support the 
        family, we are forcing the family to purchase a second vehicle 
        at the PCS location--often at overseas locations where the 
        vehicles are significantly overpriced.
                           survivor benefits
    AFSA appreciates this committee's attention to the needs of those 
left behind when a current or past military member passes away. The 
spouses of military members also serve their nation, facing the rigors 
of that lifestyle, and always being aware that their military spouse 
has agreed to the ultimate sacrifice. It is important that we correct 
some inequities that military survivors face.
    Eliminate the age 62 Survivor Benefit Plan annuity reduction. We 
urge you to take action to eliminate the unfair Survivor Benefit Plan 
(SBP) ``Widows Tax.'' A widow's SBP annuity is reduced by 36 percent 
when she reaches age 62. Before age 62, she receives 55 percent of the 
deceased military retiree's base retirement pay; at age 62, it drops to 
35 percent of the base retirement pay. This is a financially 
devastating blow to many survivors, many of whom are on fixed incomes. 
On top of that it is just plain wrong!
    When Congress passed SBP in 1972, the intent was for the retiree to 
pay 60 percent of program costs, with a 40 percent government subsidy. 
However, due to miscalculations and annuitant changes, the government 
subsidy now is just 19 percent. The retiree is paying 81 percent of SBP 
costs! In 1989 when the subsidy had dropped to just 28 percent, 
Congress reduced premiums to readjust the government's fair share. With 
the government subsidy only 19 percent, a major readjustment is needed 
immediately. One can only imagine the requests that would come from DOD 
if the situation were reversed. One very fair way to rectify the 
situation would be to raise the modest survivor annuities. Many 
military members were misled to believe that the survivor's annuity 
would be 55 percent for life. Many are shocked when they find that the 
annuity will drop to 35 percent at age 62. Additionally, there is no 
such reduction in the federal civilian SBP which is much more highly 
subsidized. It is wrong that the most senior military survivors are not 
protected in a similar manner.
  --Accelerate the fully-paid-up status for SBP and RSFPP participants 
        who have reached age 70 and have paid into the program 30 
        years. When Congress passed the paid-up provision five years 
        ago, it set the effective date at 2008. While that change will 
        be welcomed by those who reach age 70 around that time, many 
        more will no so benefit. In fact, many current SBP enrollees 
        will have to have paid more than 35 years at the time that 
        their program is considered paid up. AFSA urges this committee 
        to support changing the paid-up effective date to the date of 
        enactment of the Fiscal Year 2005 National Defense 
        Authorization Act.
  --Allow Dependency and Indemnity Compensation (DIC) widows to remarry 
        after age 55 without losing their entitlement. Last year 
        Congress took a great step forward by allowing such widows to 
        remarry after age 57 without losing their benefit. We ask the 
        committee support making that ``age 55'' to make DIC consistent 
        with all other federal programs.
                              health care
    Military health care and readiness are inseparable, and military 
members and their families must know that no matter where they are 
stationed or where the families live, their health care needs will be 
taken care of.
  --Improve the dependant and retiree dental plans. We often hear that 
        the dependent dental insurance plan is a very, poor one. 
        Additionally, retirees complain that the retiree dental plan is 
        overpriced, provides inadequate coverage, and is not worth the 
        investment. This is important because military retirees were 
        led to believe they would have free/low cost, comprehensive, 
        lifetime military dental care. We urge this committee to 
        appropriate additional funding to improve the quality and 
        adequacy of these two essential dental plans.
  --Increase provider reimbursement rates to ensure quality providers 
        in the TRICARE system. Perhaps the greatest challenge this 
        committee faces toward keeping the military health care system 
        viable is retaining health care providers in the TRICARE 
        networks. This challenge goes hand-in-hand with that which is 
        faced by Medicare. If we do not allow doctors to charge a fair 
        price for services performed, they will not want to participate 
        in our program. If they do not participate, the program will 
        fail. We have had many members say that they know of doctors 
        that will not treat them because the doctor does not respect 
        nor accept TRICARE. Further questioning usually indicates that 
        the doctors do not welcome TRICARE patients because they have 
        to accept significantly less reimbursement for their services. 
        That begs the question--why should they? We urge this committee 
        to consider increasing the CHAMPUS Maximum Allowable Charge to 
        higher levels to ensure quality providers stay in the system.
  --Provide Guard and Reserve members and their families with a 
        comprehensive TRICARE benefit. This is critical to ensure the 
        deployability of the member, and it is important that his/her 
        family is protected when the military member is away from home 
        serving his/her nation. We owe these patriots a comprehensive 
        program.
    Mr. Chairman, thank you for this opportunity to present some of the 
challenges faced by enlisted military members. As you know, they ask 
little in return for serving their nation. The items they ask us to 
bring to you, such as those above, would provide equity in some cases 
and program improvement in others. On behalf of the members of the Air 
Force Sergeants Association, we ask you to include consideration of 
these items in your deliberations as you formulate your mark-up for the 
Defense portion of the fiscal year 2005 Appropriations Act. We would be 
happy to provide more information or to answer any questions you might 
have on these important matters.
                                 ______
                                 
      Prepared Statement of the American Museum of Natural History
About the American Museum of Natural History
    The American Museum of Natural History [AMNH] is one of the 
nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its 
mission to ``discover, interpret, and disseminate--through scientific 
research and education--knowledge about human cultures, the natural 
world, and the universe.'' With nearly four million annual visitors--
approximately half of them children--its audience is one of the largest 
and most diverse of any museum in the country. Museum scientists 
conduct groundbreaking research in fields ranging from all branches of 
zoology, comparative genomics, and bioinformatics to earth, space, and 
environmental sciences and biodiversity conservation. Their work forms 
the basis for all the Museum's activities that seek to explain complex 
issues and help people to understand the events and processes that 
created and continue to shape the earth, life and civilization on this 
planet, and the universe beyond.
    More than 200 Museum scientists, led by 46 curators, conduct 
cutting-edge research programs as well as fieldwork and training. 
Scientists in five divisions (Anthropology; Earth, Planetary, and Space 
Sciences; Invertebrate Zoology; Paleontology; and Vertebrate Zoology) 
are using leading technologies to sequence DNA and create new 
computational tools to retrace the evolutionary tree, document changes 
in the environment, make new discoveries in the fossil record, and 
describe human culture in all its variety. The Museum also conducts 
undergraduate, graduate, and postdoctoral training programs in 
conjunction with a host of distinguished universities.
    The Museum's collections of more than 32 million specimens and 
artifacts are a major resource for Museum scientists as well as for 
more than 250 national and international visiting scientists each year. 
Including endangered and extinct species as well as many of the only 
known ``type specimens,'' or examples of species by which all other 
finds are compared, the collections provide an irreplaceable record of 
life on earth and the critical baseline resources for 21st century 
research in life, earth, environmental, and other sciences. The Museum 
has also recently expanded its collections to include biological 
tissues and isolated DNA maintained in a super-cold tissue facility. 
Preserving genetic material and gene products from rare and endangered 
organisms that may become extinct before science fully exploits their 
potential, this frozen tissue collection is an invaluable research 
resource in many fields, including genetics, comparative genomics, and 
biodefense.
    The Museum interprets the work of its scientists, addresses current 
scientific and cultural issues, and promotes public understanding of 
science through its renowned permanent and temporary exhibits as well 
as its comprehensive education programs. These programs attract more 
than 400,000 students and teachers and more than 5,000 teachers for 
professional development opportunities. The Museum also takes its 
resources beyond its walls through the National Center for Science 
Literacy, Education, and Technology, launched in 1997 in partnership 
with NASA.
Advancing Department of Defense Science Goals
    The Department of Defense (DOD) safeguards the nation's security 
and is committed to the research, tools, and technology that will 
ensure the capabilities needed to counter 21st century security threats 
most effectively and efficiently. With its highest priority winning the 
global war on terrorism, DOD supports research development to prepare 
for and respond to the full range of terrorist threats, including 
bioterrorism. The American Museum, in turn, is home to preeminent 
programs in molecular biology, comparative genomics, and computation 
that closely tie to DOD's research goals for advancing the nation's 
security and defense capabilities, including biodefense and protection 
of troops in the field.
    Genomic science is critical to the nation's defense interests. 
Moreover, studying genomic data in a natural history context makes it 
possible to more fully understand the impacts of new discoveries in 
genomics and molecular biology. Genomes of the simplest organisms 
provide a window into the fundamental mechanics of life, and 
understanding their natural properties and their evolution (for 
example, the evolution of pathogenicity in bacteria) can help to solve 
challenges in biodefense and bring biology and biotechnology to bear in 
defense applications.
    The American Museum's distinguished molecular research programs are 
deeply engaged in genome research aligned with DOD's various research 
thrusts, and, as discussed below, its unique expertise in evolutionary 
analysis is particularly relevant in these areas. In the Museum's 
molecular laboratories, in operation now for eleven years, more than 40 
researchers in molecular systematics, conservation genetics, and 
developmental biology conduct genetic research on a variety of study 
organisms, utilizing state of the art sequencers and other advanced 
technologies. The labs also nourish the Museum's distinguished training 
programs that serve up to 80 undergraduates, doctoral, and postdoctoral 
trainees annually.
    Advanced computation is also critically important in understanding 
and responding to threats of bioterrorism. The Museum is a leader in 
developing vital computational tools, as parallel computing is an 
essential enabling technology for phylogenetic (evolutionary) analysis 
and intensive, efficient sampling of a wide array of study organisms. 
Museum scientists have constructed an in-house 900-CPU computing 
facility that is the fastest parallel computing cluster in an 
evolutionary biology laboratory and one of the fastest installed in a 
non-defense environment. Their pioneering efforts in cluster computing, 
algorithm development, and evolutionary theory have been widely 
recognized and commended for their broad applicability for biology as a 
whole. The bioinformatics tools Museum scientists are creating will not 
only help to generate evolutionary scenarios, but also will inform and 
make more efficient large genome sequencing efforts. Many of the 
parallel algorithms and implementations (especially cluster-based) will 
be applicable in other informatics contexts such as annotation and 
assembly, breakpoint analysis, and non-genomic areas of evolutionary 
biology and other disciplines.
Institute of Comparative Genomics
    Building on its strengths in molecular biology, genomics science, 
and computation, in 2001 the Museum launched the Institute for 
Comparative Genomics. The importance of the comparative approach cannot 
be overstated, as investigating genomics with a natural history 
perspective enlarges our understanding of the evolutionary 
relationships among organisms including threat agents and 
pathogenicity, and ultimately, of humans, medicine, and life itself. 
Equipped with DNA sequencers in its molecular labs, vast biological 
collections, researchers with expertise in the methods of comparative 
biology, the computing cluster, and the new frozen tissue collection, 
the Institute is positioned to be one of the world's premier research 
facilities for mapping the genome across a comprehensive spectrum of 
life forms.
    The Institute is establishing a distinguished research record in 
areas of core concern to DOD. Museum scientists are leading major new 
international research projects in assembling the ``tree of life,'' and 
have obtained a patent for an innovative approach to analyzing 
microarray data, which can be used to support more accurate diagnosis 
of pathogens or physiological states that would reduce or interfere 
with human performance. Current projects also include: tracing the 
evolution of pathogenicity and transfer of disease-causing genes over 
time and between species with NIH and DOE support; building a 
comprehensive database of all known finished and incomplete genomes of 
microbial species; developing computational and phylogenetic techniques 
to analyze chromosomal sequence data; developing effective methods of 
culturing difficult to culture species as well as new methods for 
obtaining embryos for antibody staining; and conducting whole genome 
analysis of disease causing microorganisms to understand the 
evolutionary changes that take place in a genome to make it more or 
less virulent. The methodologies, approaches, and algorithms developed 
in all these projects can be extended and applied fruitfully to a 
variety of questions involving pathogens that pose a threat to military 
and civilian populations, including pathogen identification and 
inactivation and host-pathogen interactions.
Federal Partnership
    So as to contribute the unique capacities of its Institute of 
Comparative Genomics, the Museum proposes a federal partnership with 
DOD to advance common goals in areas including the Biological Sciences 
program in DARPA's Defense Research Sciences, committed to protecting 
our military forces and the public from bio-warfare attacks; and the 
Army Research Office's Life Sciences emphasis in Molecular Genetics and 
Genomics (Research; Development, Test, and Evaluation, Army account; 
Medical Advanced Technology subaccount). The following are examples of 
programs we propose to undertake in key areas where the research and 
training work of Museum scientists supports DOD's fundamental missions:
  --Field identification of vectors of pathogenicity.--Involving DNA 
        barcoding of insect vectors and their pathogens, this project 
        promises a major innovation in field technology for identifying 
        and fighting insect borne diseases. The initiative will lead to 
        the development of a handheld device that rapidly and 
        accurately identifies insect vectors of infectious diseases. 
        Adaptable to any number of biological identification problems, 
        the specific focus is on insect vectors of malaria, West Nile, 
        and trypanosomiasis. The project entails developing: a 
        reference collection of insect vectors, a DNA barcoding method 
        to type vectors and their pathogens, and the field-based 
        barcoding tool (most likely using microarray technologies) for 
        identifying insect vectors and pathogens.
  --Utilizing bacterial genomics to understand the evolution of 
        pathogenesis.--This project uses the HACEK group of bacterial 
        pathogens as a model system to understand the role of 
        horizontal gene transfer (HGT) in the evolution of pathogenesis 
        and may provide important clues relevant to new efforts in 
        pathogen origin and deactivation.
  --Novel computational approaches to understanding pathogenicity.--
        Biology presents a number of problems of extreme computation 
        complexity known as NP-hard problems. One such problem is the 
        determination of evolutionary trees, the basis for the 
        understanding of the origination and loss of biological 
        features, including the origin and loss of pathogenicity. The 
        Museum proposes to apply a new approach that uses statistical 
        physics analogues, such as the quantum mechanical process of 
        particle decay, to model NP-hard problems in evolutionary tree 
        construction. Through this approach, we hope to aid in the 
        design of novel algorithmic approaches to long-standing 
        biological problems, generating new insight into processes such 
        as the evolution of pathogenicity.
    The Museum seeks $5 million for its Institute for Comparative 
Genomics to partner with DOD to advance these shared research goals for 
combating bioterrorism and to contribute its singular capacities to 
research critical to the nation's defense. The Museum intends to 
support the initiatives with funds from nonfederal as well as federal 
sources and proposes to use the requested $5 million to advance 
research and training programs in microbial genomics research and 
computation.

                          SUBCOMMITTEE RECESS

    Senator Stevens. Thank you very much. Appreciate your being 
here and the testimony of all the witnesses this morning.
    We are going to reconvene our subcommittee next Wednesday, 
May 12, when we will hear from the Secretary of Defense and the 
Chairman of the Joint Chiefs of Staff. The subcommittee is in 
recess until that time.
    [Whereupon, at 11:40 a.m., Wednesday, May 5, the 
subcommittee was recessed, to reconvene at 9 a.m., Wednesday, 
May 12.]

</pre></body></html>
